<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                        WEDNESDAY, MAY 16, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye and Stevens.

                       NONDEPARTMENTAL WITNESSES

STATEMENT OF SHAWN O'NEAIL, ASSOCIATE VICE PRESIDENT, 
            NATIONAL MULTIPLE SCLEROSIS SOCIETY

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. This is our last meeting of the 
subcommittee before we markup the fiscal year 2008 Department 
of Defense appropriations bill. This morning, we'll receive 
testimony, not from agency officials, but from the general 
public. Those who have petitioned us to be heard. As you know, 
we have many competing witnesses, many members and other 
committees, so by consent, all of your full statements will be 
made a part of the permanent record of the subcommittee, and I 
can assure you, they will be read or studied.
    And each witness or group will have 4 minutes to present an 
oral presentation, and we appreciate all of you who have taken 
time to be with us this morning. Your involvement helps ensure 
that our democracy functions as it should, and it was designed 
by our Founding Fathers, that it was of the people, for the 
people, and by the people. Unfortunately, this morning, there 
will be a series of votes, beginning at about 10:45, so at that 
time, I will have to call a recess, about an hour.
    But, I can assure you that I will be back, and I will hear 
every witness, even if it means depriving a little lunch, and 
for me, it might help.
    So, I would like to call upon the first witness, and the 
first witness today is Mr. Shawn O'Neail, the Associate Vice 
President of the National Multiple Sclerosis Society.
    Mr. O'Neail. Thank you, Chairman Inouye, for allowing me to 
provide testimony at this hearing. My name is Shawn O'Neail, I 
work with the National Multiple Sclerosis Society, and I am 
here today on behalf of more than 400,000 Americans and nearly 
26,000 veterans, who live with the devastating effects of 
multiple sclerosis, or MS. Together, we ask for your help to 
fund MS research through the congressionally directed medical 
research programs (CDMRP).
    Multiple sclerosis is a chronic, unpredictable, often 
disabling disease of the central nervous system. It interrupts 
the flow of information from the brain to the body, and stops 
people from moving. Every hour, someone new is diagnosed.
    MS is the most common neurological disease leading to 
disability in young adults. But, despite several decades of 
research, the cause remains unclear, and there is no cure.
    The symptoms of MS range from numbness and tingling, to 
blindness and paralysis. These problems can be permanent, or 
they can come and go. In either case, MS requires lifelong 
therapy, and unfortunately, the cost is often financially 
prohibitive. The Food and Drug Administration approved drugs 
for MS range from $16,000, to more than $25,000 annually.
    Testimony from U.S. veterans, along with evidence from 
recent studies, suggests that combat veterans could have an 
increased risk of developing multiple sclerosis. Dr. Mitch 
Wallin is a neurologist who is currently treating veterans with 
MS at the Department of Veterans Affairs (VA), MS Centers of 
Excellence in Baltimore, and is a professor at Georgetown 
University.
    Dr. Wallin recently published a formal professional 
hypothesis, stating that gulf war veterans were at an increased 
risk for developing MS, because of their exposure to 
neurotoxins. Dr. Wallin hopes to explore this hypothesis 
through research at the VA. Dr. Wallin also authored a letter 
to the chairman and ranking member of this subcommittee on 
March 12, urging you to support funding for MS research, 
through the CDMRP.
    Other evidence of note includes, the annals of neurology 
recently identified 5,345 cases of MS among U.S. veterans, that 
was deemed ``service connected'' and the congressionally 
mandated Research Advisory Committee on Gulf War Veterans 
Illness (RAC), found evidence that supports a probable link 
between exposures to neurotoxins and a development of 
neurological disorders. Further, RAC recommended more Federal 
funding to study the negative effects of neurotoxins on the 
immune system.
    Before I close, I want to share a story of one veteran. 
Paul Perrone is a 42-year-old father from New Hampshire, a 
retired U.S. Air Force sergeant, and veteran of the Persian 
Gulf war. Paul was diagnosed with MS in August 1998. Initially, 
Paul was diagnosed by the military with chronic fatigue 
syndrome--many people with MS are often misdiagnosed. However, 
after developing optic neuritis, a civilian doctor recommended 
an MRI, which led to his current MS diagnosis.
    It has been Paul's absolute conviction that an 
environmental agent triggered his MS, either through 
inoculations, or exposure to neurotoxins during his combat 
service. Paul is just one of the many veterans who are fighting 
on this personal battle. There is not time this morning to 
outline all of the stories we have learned over the past 
several months, but the cases of MS among U.S. veterans are 
certainly evident, and now emerging evidence supports this 
potential link. Now, we just need to provide the necessary 
resources.
    The DOD has a responsibility to identify and research all 
of the diseases that could be related to military service, 
including MS. On April 5, Senators Obama and Coleman sent the 
subcommittee a letter with 21 of your colleagues' signatures, 
urging you to support a $15 million appropriation for MS, 
through the CDMRP. The cause, progress, or severity of symptoms 
related to MS cannot yet be predicted or cured, but advances in 
research and treatment can help. With your commitment to more 
research, we can move closer to a world free of MS. Thank you 
for your consideration.
    Senator Inouye. Do you believe that with continued 
research, we may be able to find a cure for MS?
    Mr. O'Neail. We're very hopeful. There has been some 
progress in regards to the treatments, but they still remain 
very difficult to tolerate themselves, and as I mentioned, 
very, very expensive.
    Senator Inouye. Thank you very much, Mr. O'Neail.
    Mr. O'Neail. Thank you.
    [The statement follows:]

                  Prepared Statement of Shawn O'Neail

                              INTRODUCTION

    Thank you Chairman Inouye, Ranking Member Stevens and distinguished 
Members of the Committee, for allowing me to provide testimony at this 
hearing.
    My name is Shawn O'Neail and I work with the National Multiple 
Sclerosis Society. I am here today on behalf of the more than 400,000 
Americans and nearly 26,000 U.S. veterans who live with the devastating 
effects of multiple sclerosis or MS. Together, we ask for your help to 
fund MS research under the Congressionally Directed Medical Research 
Programs (CDMRP).

                     NO CURE FOR MULTIPLE SCLEROSIS

    Multiple sclerosis is a chronic, unpredictable, often-disabling 
disease of the central nervous system. It interrupts the flow of 
information from the brain to the body and stops people from moving. 
Every hour someone new is diagnosed. MS is the most common neurological 
disease leading to disability in young adults. But despite several 
decades of research, the cause remains unclear, and there is no cure.
    The symptoms of MS range from numbness and tingling to blindness 
and paralysis. MS causes loss of coordination and memory, extreme 
fatigue, emotional changes, and other physical symptoms. These problems 
can be permanent, or they can come and go.
    The National MS Society recommends treatment with one of the FDA-
approved ``disease-modifying'' drugs to lessen the frequency and 
severity of attacks, and to help slow the progression of disability. 
But unfortunately, the cost is often financially prohibitive. The FDA-
approved drugs for MS range from $16,000 to $25,000 a year, and the 
treatment will continue for life.

                  MULTIPLE SCLEROSIS AND U.S. VETERANS

    Testimony from individual veterans, along with evidence from recent 
studies, suggests that Gulf War veterans could have an increased risk 
of developing multiple sclerosis.
    Dr. Mitch Wallin is a neurologist who currently treats veterans 
with MS at the Department of Veterans Affairs' MS Center of Excellence 
in Baltimore and is a professor at Georgetown University. Dr. Wallin 
recently published a formal professional hypothesis stating that 
deployed Gulf War veterans are at an increased risk for developing MS 
because of exposure to neurotoxins.
    Dr. Wallin plans to explore this hypothesis through research at the 
VA. Based on existing research and his work with veterans living with 
MS, Dr. Wallin authored a letter to the Chairman and Ranking Member of 
this subcommittee urging you to support funding for MS research in the 
CDMRP. Some of the research includes:
  --The Annals of Neurology recently identified 5,345 cases of MS among 
        U.S. veterans that were deemed ``service-connected.''
  --The Congressionally-mandated Research Advisory Committee on Gulf 
        War Veterans' Illnesses (RAC) found evidence that supports a 
        probable link between exposures to neurotoxins and the 
        development of neurological disorders. Further, RAC recommended 
        more federal funding to study the negative effect of 
        neurotoxins on the immune system.
  --A recent epidemiological study found an unexpected, two-fold 
        increase in MS among Kuwaiti residents between 1993 and 2000. 
        This rapid increase in an area of the world with previously low 
        incidence rates for MS further suggests an environmental 
        trigger for MS. Possible triggers include exposure to air 
        particulates from oil well fires, vaccines, sarin, or 
        infectious agents.
    As news circulates of a potential link between MS and military 
service, more and more veterans have been coming forward with their 
stories and symptoms. They uncover a unique health concern among our 
veterans, and they represent the possibility that something in the 
environment could trigger this disease--which could unlock the mystery 
of MS.

                     SERGEANT PAUL PERRONE'S STORY

    Paul Perrone is a 42-year-old father from New Hampshire. A retired 
U.S. Air Force Sergeant and veteran of the Persian Gulf War, Paul was 
diagnosed with MS in August 1998.
    Initially, Paul was diagnosed by the military with chronic fatigue 
syndrome, asthma, and rhinitis. Many people with MS often are 
misdiagnosed at first. However, his symptoms worsened. He had extreme 
fatigue and vertigo. Although Paul loved his work with the Air Force, 
he no longer felt healthy enough to remain on active duty. Paul asked 
for an Air Force medical evaluation board and eventually was medically 
retired from the Air Force in 1994.
    Then, after developing optic neuritis in one eye, a civilian doctor 
recommended an MRI, which led to his current MS diagnosis. Paul is a 
passionate and extremely well-informed veteran on nearly every aspect 
of the military, gulf-war syndrome, veterans' benefits--and MS. It has 
been his absolute conviction that an environmental agent triggered his 
MS either through inoculations or exposure to neurotoxins during his 
combat service.
    Paul is just one of many veterans who are fighting this personal 
battle. Many more stories are untold, or many individuals might not 
want to come forward. But the cases of MS among U.S. veterans are 
certainly evident. And now emerging research supports this potential 
link.
    For the nearly 26,000 veterans, and for many more individuals with 
MS nationwide, more research is critical. Dr. Wallin and others might 
be on the heels of identifying an environmental trigger. Now we just 
need to pinpoint what and how.

                     THE NEED FOR MORE MS RESEARCH

    Given all the evidence, we strongly believe that the Department of 
Defense (DOD) has a responsibility to identify and research all 
diseases that could be related to military service, including MS. On 
April 5, Senators Obama and Coleman sent the subcommittee a letter with 
21 of your colleagues' signatures urging you to support this $15 
million appropriation for MS research under the Congressionally 
Directed Medical Research Programs (CDMRP).
    The cause, progress, or severity of symptoms in any one person 
living with MS cannot yet be predicted or cured. But advances in 
research and treatment can help. We appreciate your consideration. With 
your commitment to more research, we can move closer to a world free of 
MS. Thank you.

    Senator Inouye. May I now call upon Dr. Chuck Staben of the 
University of Kentucky.

STATEMENT OF DR. CHUCK STABEN, Ph.D., ASSOCIATE VICE 
            PRESIDENT FOR RESEARCH AND ACTING HEAD, 
            OFFICE OF THE VICE PRESIDENT FOR RESEARCH, 
            UNIVERSITY OF KENTUCKY ON BEHALF OF THE 
            COALITION OF EPSCoR/IDEA STATES
    Dr. Staben. Thank you, Senator, and any members of the 
subcommittee. My name is Chuck Staben, and I am the acting head 
of the Office of the Vice President for Research at the 
University of Kentucky.
    Today I am testifying on behalf of the Coalition of EPSCoR 
States, a nonprofit organization that promotes the importance 
of a strong science and technology infrastructure and works to 
improve the research competitiveness of States that have, 
historically, received the least amount of Federal research 
funding, including States that the subcommittee members 
represent.
    Thank you for the opportunity to testify today, regarding 
the DOD Science and Engineering Basic Research Program budget, 
and more specifically, a critical component of that budget, 
EPSCoR.
    Members of this subcommittee, thank you for your past 
support of the DEPSCoR Program, I express the support of the 
coalition for returning funding for this very successful 
research program to the $20 million of several years ago.
    Furthermore, on behalf of our 21 States and two 
territories, I ask the members of this subcommittee to reject 
the administration's proposed plan to terminate the DEPSCoR 
Research Program. DEPSCoR States represent 20 percent of the 
U.S. population, 25 percent of the research and doctoral 
universities, and 18 percent of the Nation's scientists and 
engineers.
    With the support of this subcommittee, DEPSCoR has provided 
critical, competitive support to research which satisfies peer 
review requirements to proposals that address priorities 
identified by the DOD through their broad agency announcements 
for the program.
    In Kentucky, which is a leading State in the aluminum 
industry, researchers on a recent project worked closely with 
the Navy on aluminum alloys and fabrication techniques, 
critical to shipbuilding. We fully anticipate that the methods 
they developed will be used by the Navy in its ship programs.
    Research in Kentucky, and other EPSCoR States can lead 
directly to deployed improvements, but without the impetus that 
DEPSCoR provides, we may not make the advances required, or 
contribute as fully as we are capable to supporting DOD.
    Last year, the administration's fiscal year 2007 budget 
proposed a budget for DEPSCoR for fiscal year 2008 of $9.8 
million, reflecting the administration's commitment to 
continuing the DEPSCoR Program. This year, the administration, 
instead, proposed to begin a 3-year sunset of the program, by 
reducing DEPSCoR from $9.4 million in fiscal year 2007, to $5.8 
million in fiscal year 2008.
    This decrease will not reduce spending, the administration 
proposes to move the funding from the DEPSCoR Program to the 
National Defense Education Program. No spending reduction, or 
cost saving is captured under the administration's planned 
DEPSCoR sunset, but the funds will further centralize to non-
DEPSCoR States.
    The administration stresses the need for research to 
support the warfighter, and challenges DEPSCoR's contribution 
to this effort. DEPSCoR grants support the warfighter, because 
they are competitively chosen to respond to the DOD's announced 
needs and priorities from the Air Force Office of Scientific 
Research, the Army Research Office, and the Office of Naval 
Research. This research has produced many deployable advances, 
even from a relatively small program. These advances include: 
design of more efficient helicopter rotors, securing critical 
software security, better wireless communication for 
warfighters, and many more advances.
    Mr. Chairman, I respectfully ask that you and the 
subcommittee fund DEPSCoR in fiscal year 2008 at the $20 
million level that sustained the program before the funding 
reductions. Prior to the decrease in funding, DEPSCoR produced 
many more research awards, benefiting DOD priorities. Between 
fiscal year 1998 and fiscal year 2001, 283 projects in 20 
States were funded. Since the program reductions, only 97 
projects have been funded in the past 4 years. This past year, 
only $7 million was granted to 13 academic institutions in only 
nine States.
    Funding reductions have already impacted DOD research in my 
home State of Kentucky. In the last 4 years, only three DEPSCoR 
projects have been funded, even as research in Kentucky 
tripled.
    Now, more than ever, we must invest in research programs 
that support national security, and improve our readiness and 
capability. Funding DEPSCoR in fiscal year 2008 at $20 million 
will return the program to the level necessary to achieve these 
objectives that were envisioned by the original authorizing 
legislation.
    Through the DEPSCoR Program, the DEPSCoR States continue to 
make significant research contributions, and this increased 
funding is required to sustain the program. Thank you very 
much.
    Senator Inouye. Well, Thank you very much, Dr. Staben.
    [The statement follows:]

                 Prepared Statement of Dr. Chuck Staben

    Mr. Chairman and Members of the Subcommittee, my name is Dr. Chuck 
Staben and I am the Associate Vice President for Research and Acting 
Head of the Office of the Vice President for Research at the University 
of Kentucky. I am testifying on behalf of the Coalition of EPSCoR 
States, which is a non-profit organization that promotes the importance 
of a strong science and technology research infrastructure, and works 
to improve the research competitiveness of states that have 
historically received the least amount of federal research funding.
    Thank you for the opportunity to testify today regarding the 
Department of Defense science and engineering basic research program 
budget, and more specifically a critical component of that budget, the 
Defense Experimental Program to Stimulate Competitive Research 
(DEPSCoR) \1\. I would like to sincerely thank the members of this 
Subcommittee for your past support of the DEPSCoR program, and secondly 
to express the support of the Coalition for returning funding for this 
very successful research program to the $20 million plus levels of 
several years ago. On behalf of our 21 states and 2 territories, I 
would ask the Members of this Subcommittee to reject the 
Administration's proposed plan to terminate the DEPSCoR research 
program and transfer funds to education activities.
---------------------------------------------------------------------------
    \1\ Alabama, Alaska, Arkansas, Delaware, Hawaii, Idaho, Kansas, 
Kentucky, Louisiana, Maine, Mississippi, Montana, Nebraska, Nevada, New 
Hampshire, New Mexico, North Dakota, Oklahoma, Puerto Rico, Rhode 
Island, South Carolina, South Dakota, Vermont, Virgin Islands, West 
Virginia, and Wyoming.
    States in bold letters are eligible for the DEPSCoR program. All of 
the states listed above are also eligible for the EPSCoR program.
---------------------------------------------------------------------------
    The Defense EPSCoR program was initially established in Public Law 
103-337 with two important policy objectives. First, DEPSCoR ensures a 
national research and engineering infrastructure by enhancing the 
capabilities of institutions of higher education in DEPSCoR states. 
Secondly, DEPSCoR develops, plans and executes competitive, peer-
reviewed research and engineering work that supports the needs of the 
Department of Defense. Our battlefields, our intelligence gathering and 
analysis capacity, our procurements and maintenance activities are 
increasingly driven by and dependent upon advances in research and 
technology development.
    As the members of this Subcommittee know, EPSCoR states have a vast 
reservoir of talent and capacity. They represent 20 percent of the U.S. 
population, 25 percent of the research and doctoral universities, and 
18 percent of the nation's scientists and engineers. The EPSCoR program 
is critical to ensuring that we maintain a national infrastructure of 
research and engineering by providing much needed funding to these 
leading universities and scientists.
    Perhaps most importantly, DEPSCoR represents federal research money 
well spent. With the support of this Subcommittee, DEPSCoR has provided 
critical research dollars competitively to institutions which satisfy 
peer-review requirements in proposals that address priorities 
identified by the Department of Defense, through Broad Agency 
Announcements (BAAs) for this program.
    In Kentucky, DEPSCoR has funded 15 research projects since 1993. In 
a recent project, researchers worked closely with the Navy on aluminum 
alloys and fabrication techniques critical to shipbuilding. We fully 
anticipate this research and testing methods will be used by the Navy 
in its ship programs. Additionally, we have also participated in non-
DEPSCoR funding, so we have expertise. DOD funded research developed an 
anti-sniper device now in the prototype stage under consideration by 
the Marine Corps. Research in Kentucky can lead directly to deployed 
improvements. However, without DEPSCoR, we cannot make the advances we 
want to make or contribute as fully as we are capable.
    I would now like to highlight a few DEPSCoR-funded success stories 
of research projects in other states that have, and are presently 
contributing to our National defense interests.
Alaska
    Sea-Ice Upper Ocean Interactions: Observations and Modeling.--The 
University of Alaska, Fairbanks researchers are investigating the spin-
up and spin-down of the upper ocean in response to storms. The 
observational system will measure surface-to-bottom and density 
structure, offering a unique opportunity to expand our understanding of 
how the ocean couples surface mesoscale variability and wave excitation 
to the underlying ocean on the intermediate depth continental shelves. 
This study, for the Navy, will improve real-time prediction systems for 
ship navigation and submarine surfacing in seasonally ice-covered 
regions, such as the Arctic and the Sea of Okhotsk in the Western 
Pacific and the Labrador Sea/Gulf of St. Lawrence in the northwestern 
Atlantic.
West Virginia
    Intelligent Agents for Reliable Operation of Electric Warship Power 
Systems.--The objective of this Navy research is to design distributed 
intelligent control agents for reliable operation of integrated 
electronic power systems of modern electric warships. In the event of 
scheduled load changes or unforeseen disturbances, the power system is 
expected to operate at a minimum level of performance in areas that 
could be mission critical and thus result in saving lives. This system 
will consist of at least three layers: (i) an electrical network, (ii) 
a computer, control, and communication network, and (iii) a human 
operator. To make this critical infrastructure operational and 
efficient, one will have to develop tools and methodologies that 
combine information technology, control and communication and power 
systems engineering. Thus, an interdisciplinary team of investigators, 
with expertise in power, control, computer science, and mathematics 
will work together on these methodologies. The success of this research 
will have an impact on reliable operation of electric power systems of 
an electric warship, as well as on the education of the next generation 
of power system engineers.
    Fieldable Rapid Bioagent Detection: Advanced Resonant Optical 
Waveguide and Biolayer Structures for Integrated Biosensing.--This 
research for the Navy will direct detection strategies suitable for 
handheld unit implementation and applicable to a broad spectrum of 
agents are central to effective protection and response scenarios for a 
range of threats from sophisticated biowarfare agents to simple 
biocontamination of potable and domestic water supplies. Integrated 
optical techniques based on evanescent wave interaction have received 
considerable attention and study as a means to effectively interrogate 
biolayer surface target binding in direct detection devices. This 
proposal defines a balanced, tightly coupled interdisciplinary research 
program for modeling, analysis, and synthesis efforts to establish an 
analytical and experimental understanding of the interdependence of 
bio-layer and coupled resonant optical waveguide design necessary to 
quantify intrinsic limits of detection, optimize realizable extrinsic 
performance, and extend the versatility of this important new class of 
devices.
Vermont
    Heterogeneous Catalysis of Chemical Warfare Agent Simulants Using 
Porous Inorganic Supports.--DEPSCoR-funded work in Vermont involves the 
development of catalysts that can decompose chemical warfare agents to 
non-toxic compounds. The University of Vermont has explored methods by 
which contaminated equipment could be treated in a non-destructive way 
so that the equipment could be returned to the battle area, which would 
minimize the downtime experienced due to a chemical attack. In 
particular, there are currently very few techniques available to treat 
the types of sensitive equipment (electronics, objects with complex 
geometries such as keyboards, etc.) on which the modern ``warfighter'' 
has come to rely, and the university is specifically studying materials 
and methods for this application. Finally, protection (prior to an 
attack) and decontamination (after an attack) are often based on 
related technologies, and the university is also exploring the 
development of materials that could be incorporated into fabrics and 
polymers to be used for troop protection. The university has 
established several connections with industrial partners to discuss 
commercial development of our materials.
    Dispersed Microslug Formation for Discrete Satellite Microthruster 
Propellant Delivery.--DEPSCoR is funding the development of a 
miniaturized propulsion system which will be integrated into next-
generation small satellites currently being developed by the Air Force 
and NASA. These satellites will have masses of under 20 kg and will 
operate in cluster formations (aka, ``formation flying'') and be 
capable of executing mission requirements not easily performed by a 
single satellite.
    The value of nanosats to the Department of Defense is derived from 
it ability to provide enhanced satellite capabilities for supporting 
ground-based troops, aircraft and naval vessels. This support will come 
primarily in the form of enhanced space-based reconnaissance and 
communications. Nanosats in particular offer the ability to quickly 
deploy large numbers of autonomous and effectively ``disposable'' 
satellites into space at low cost. Reconnaissance nanosats may be 
deployed to provide detailed coverage of a particular combat theater 
for short periods of time (6-12 months).
    In addition to these projects, DEPSCoR research in other states has 
included: design of helicopter rotors (Alaska); prediction of river 
currents for Navy operations (Oklahoma); effect of DOD personnel 
exposure to universal military fuel (Oklahoma); improving prediction of 
atmospheric conditions to reduce weather related accidents (Oklahoma); 
securing critical software systems (Vermont & Oklahoma); nerve agent 
detection (Oklahoma); enhancing stored energy density for weapons 
(Idaho); development of small engines that operate on universal 
military fuel (Idaho); improving wireless communication for warfighter 
systems (South Carolina); acquisition and interpretation of sensor data 
(South Carolina); effect of exposure of military personnel to extreme 
physical and climatic conditions (Montana); preventing laser damage or 
destruction to aircraft optical guidance systems (Montana); increasing 
durability of lightweight composite materials (Montana); increasing 
information carried by radar signals (Montana); developing Air Force 
supported small plastic air-vehicles (Montana); and ultrafast optical 
communications and data processing (Vermont).
    Mr. Chairman and Members of the Subcommittee, the Administration's 
budget proposes terminating the DEPSCoR program over the next three 
years and moving funds into education programs. The critical research 
conducted in DEPSCoR states, mentioned above, demonstrates why the 
Administration's proposal must be reconsidered by this Subcommittee.
    Last year, the Administration's fiscal year 2007 budget proposal 
showed an out-year funding level for DEPSCoR in fiscal year 2008 of 
$9.839 million, thus reflecting the Administration's commitment to 
continuing the DEPSCoR program. This year, the Administration instead 
proposes to begin a three year sunset of the program by reducing 
DEPSCoR funding from $9.478 million enacted in fiscal year 2007 to 
$5.878 million in fiscal year 2008, far less than the $9.8 million 
contemplated for fiscal year 2008 in last year's budget submission.
    This decrease in funding is due to the Administration proposing to 
move funding from the DEPSCoR program to the National Defense Education 
Programs (NDEP). The budget justification for NDEP reflects this new 
money and in fact reflects significant out-year growth in the NDEP 
program. Thus, no spending reduction or cost-saving is captured under 
the Administration's planned DEPSCoR sunset. And more importantly, the 
plan simply moves money that was originally destined for critically 
underfunded states to a national program, thus abandoning one of the 
central policy objectives of DEPSCoR, which is to maintain a national 
research infrastructure.
    The Administration stresses the need for research to support the 
``warfighter'' and challenges DEPSCoR's contribution to this effort. As 
noted in the research programs I listed earlier, DEPSCoR research 
clearly supports the warfighter and our national security needs by 
addressing weapon system improvement, chemical and biological agent 
detection, high-speed data and communication transmission, and physical 
condition studies critical to deployed military personnel. Furthermore, 
DEPSCoR grants necessarily support the warfighter because they are 
competitively chosen to reflect the Defense Department's announced 
needs and priorities. DEPSCoR supports specific research needs 
identified by the Air Force Office of Scientific Research (AFOSR), the 
Army Research Office (ARO) and the Office of Naval Research (ONR).
    Mr. Chairman, every state has important contributions to make to 
the nation's competitiveness and every state has scientists and 
engineers that can contribute significantly to supporting the research 
needs of the Department of Defense. DEPSCoR ensures that every state 
does just that.
    Mr. Chairman and Members of this Subcommittee, on behalf of my 
colleagues in the coalition of EPSCoR states, I respectfully ask that 
you fund DEPSCoR in fiscal year 2008 at the $20 million level that 
sustained the program before the funding reductions of recent years. 
Prior to the decrease in funding, DEPSCoR was funded at a $20+ million 
level and produced many more research awards benefiting DOD priorities 
than it is able to support today, including many of the examples cited 
above. Between fiscal year 1998 and fiscal year 2001, 283 projects in 
20 states were funded, 81 in fiscal year 2000 alone. However, since the 
program reductions, only 97 projects have been funded in the past four 
years. This past year, DOD awarded $7 million to 13 academic 
institutions in nine states to perform research in science and 
engineering, under the fiscal year 2007 DEPSCoR program. The 
constrained funding is severely limiting the ability of the EPSCoR 
states to contribute vital research that supports our national defense 
needs, and we have heard that DOD may start to restrict the number of 
proposals from each state for lack of funding.
    Funding reductions have impacted Department of Defense research, in 
my home state of Kentucky. In the last four years only three research 
awards have been funded (zero in the last two years) compared to 
sixteen awards between fiscal year 1998-fiscal year 2001.
    Mr. Chairman, these cutbacks have created a critical research 
shortfall. Now more than ever we must invest in research programs that 
will support our national security and will improve our readiness and 
defense capabilities in the future. Funding DEPSCoR in fiscal year 2008 
at $20 million will return the program to the level necessary to 
achieve the objectives envisioned by the original authorizing 
legislation--to build and sustain a national research and engineering 
infrastructure and to support critical Department of Defense 
priorities. Furthermore, the matching requirements actually bring more 
funds to bear from the states to these national programs than does 
regular funding.
    We are making significant research contributions but the budget 
cuts are wrecking the program.
    Thank you for your time and for the opportunity to testify before 
the Subcommittee.

    Senator Inouye. The vice chairman of the subcommittee 
wishes to----
    Senator Stevens. Well, I apologize, I had a meeting with 
the people from the War College, as a matter of fact. I don't 
want to make an opening statement.
    Thank you very much, sorry to miss your comments.
    Senator Inouye. Our next witness is Dr. John Leland, 
Director of the University of Dayton Research Institute and 
Chair of ASME's DOD Task Force, representing the American 
Society of Mechanical Engineers.

STATEMENT OF DR. JOHN LELAND, Ph.D., DIRECTOR, 
            UNIVERSITY OF DAYTON RESEARCH INSTITUTE AND 
            CHAIR, AMERICAN SOCIETY OF MECHANICAL 
            ENGINEER'S DEPARTMENT OF DEFENSE TASK FORCE
    Dr. Leland. Thank you, Chairman Inouye, Senator Stevens, 
good morning. Again, I am John Leland, Chair of the American 
Society of Mechanical Engineers (ASME) DOD Task Force, and 
Director of the University of Dayton Research Institute. I'm 
pleased to have this opportunity to provide comments to this 
subcommittee on the fiscal year 2008 Department of Defense 
budget request.
    The American Society of Mechanical Engineers is a 120,000 
member professional organization focused on technical, 
educational, and research issues. Our Nation's engineers play a 
critical role in national defense through research discoveries, 
and technology development for military systems. Therefore, my 
comments will focus on the DOD science and technology budget.
    The fiscal year 2008 request for defense, science and 
technology is $10.93 billion, which is $2.74 billion, or 20 
percent, less than the fiscal year 2007 appropriated amount.
    Under the requested DOD budget, science and technology 
funding would drop from 2.5 percent, to only 2 percent of the 
overall DOD budget, or total obligational authority. Clearly, 
this budget is inadequate to meet the needs of our Nation.
    At a minimum, $13.2 billion is required to meet the 3 
percent of total obligational authority guideline for science 
and technology. Six point one basic research funding supports 
science and engineering research and graduate technical 
education at universities in all 50 States.
    Technical leaders and corporations and Government 
laboratories developing current weapons systems were educated 
under basic research programs funded by the DOD. Failure to 
invest in sufficient resources in basic and applied research 
oriented toward education will reduce innovation and weaken the 
future scientific and engineering workforce of our country.
    Six point two applied research has also funded the 
education of many of our best defense industry engineers. As 
Director of the University of Dayton Research Institute, I 
understand full well the importance of these funds for 
developing our future scientists and engineers. More than 250 
students have the opportunity to work on defense research 
programs each year at the Research Institute, and many more 
enjoy opportunities through local defense-oriented companies.
    Failure to properly invest in applied research would stifle 
a key source of technological and intellectual development. 
Many proposed reductions to individual science and technology 
research programs are severe, and will certainly have negative 
impacts on future military capabilities.
    As an example, the Army's Materials Technology Program 2008 
request is only $18 million, compared to a 2007 appropriated 
amount of $60 million. Critical research will be halted if this 
70 percent reduction is enacted, because this program funds 
research to develop improved body armor and lightweight vehicle 
armor to protect troops against improvised explosive devices 
(IED).
    Fortunately, Congress has recognized that such budget cuts 
are not in the best interest of our country, and has 
appropriated additional resources to maintain effective science 
and technology programs.
    Investments in science and technology directly effect the 
future of our national security. We urge this subcommittee to 
support an appropriate amount of $13.1 billion, or 3 percent of 
total obligational authority, for science and technology 
programs.
    This request is consistent with recommendations contained 
in the 2001 Quadrennial Defense Review and made by the Defense 
Science Board, as well as by senior Defense Department 
officials, and commanders from the Air Force, Army, and Navy 
who have voiced support for future allocation of 3 percent as a 
worthy benchmark for science and technology funding.
    The American Society of Mechanical Engineers appreciates 
the difficult choices that Congress must make in this 
challenging budgetary environment. I strongly believe, however, 
that there are critical shortages in DOD science and technology 
budget requests, specifically in those areas as for basic and 
applied research, and technical education are critical to the 
defense of our Nation.
    I thank the subcommittee for its ongoing support of Defense 
science and technology.
    Senator Inouye. Thank you very much, Doctor. I can assure 
you that the subcommittee agrees with you. We are concerned 
with the diminishing national pool of engineers, and at a time 
when we need them, we should be encouraging them. So, your 
words are well taken, sir.
    Dr. Leland. Thank you very much.
    Senator Inouye. Thank you very much.
    [The statement follows:]

                Prepared Statement of Dr. John E. Leland

                              INTRODUCTION

    Good morning. My name is John Leland. I am the current Chair of the 
ASME DOD Task Force and Director of the University of Dayton Research 
Institute and I am pleased to have this opportunity to provide comments 
to this Subcommittee on the fiscal year 2008 budget request for the 
Department of Defense.
    ASME is a 120,000 member professional organization focused on 
technical, educational and research issues. Engineers play a critical 
role in research and technology development to address, and produce the 
military systems required for national defense. Therefore, my comments 
will focus on DOD's Research, Development, Test and Evaluation (RDT&E) 
and Science and Technology (S&T).

                 DOD REQUEST FOR SCIENCE AND TECHNOLOGY

    The fiscal year 2008 budget request for Defense Science and 
Technology (S&T) is $10.930 billion, which is $2.74 billion less than 
the fiscal year 2007 appropriated amount of $13.677 billion and 
represents a 20 percent reduction. The S&T portion of the overall DOD 
spending of $481 billion would drop from 2.5 percent to 2 percent from 
the previous budget requested by the administration. Clearly, this 
budget request is inadequate to meet the country's need for robust S&T 
funding.
    The fiscal year 2008 request, if implemented, would represent a 
significantly reduced investment in Defense S&T. I strongly urge this 
committee to consider additional resources to maintain stable funding 
in the S&T portion of the DOD budget. At a minimum, $13.2 billion, or 
about $2.1 billion above the President's request is required to meet 
the three percent of Total Obligational Authority (TOA) guideline 
recommended by a National Academies study and set in the 2001 
Quadrennial Defense Review and by Congress.
    Basic Research (6.1) accounts would decrease from $1.56 billion to 
$1.42 billion, a 8.7 percent decline. While basic research accounts 
comprise only a small percentage of overall RDT&E funds, the programs 
that these accounts support are crucial to fundamental, scientific 
advances and for maintaining a highly skilled science and engineering 
workforce.
    Basic research accounts are used mostly to support science and 
engineering research and graduate, technical education at universities 
in all 50 states. Almost all of the current high-technology weapon 
systems, from advanced body armor, vehicle protection system, to the 
global positioning satellite (GPS) system, have their origin in 
fundamental discoveries generated in these basic research programs. 
Proper investments in basic research are needed now, so that the 
fundamental scientific results will be available to create innovative 
solutions for future defense challenges. In addition, many of the 
technical leaders in corporations and government laboratories that are 
developing current weapon systems, ranging from the F-35 Joint Strike 
Fighter to the suite of systems employed to counter Improvised 
Explosive Devices (IED's), were educated under basic research programs 
funded by DOD. Failure to invest sufficient resources in basic, 
defense-oriented research will reduce innovation and weaken the future 
scientific and engineering workforce. The Task Force recommends that 
Basic Research (6.1) be funded at a minimum level of $1.7 billion.
    Applied Research (6.2) would be reduced from $5.32 billion to $4.36 
billion, an 18 percent reduction. The programs supported by these 
accounts apply basic scientific knowledge, often phenomena discovered 
under the basic research programs, to important defense needs. Applied 
research programs may involve laboratory proof-of-concept and are 
generally conducted at universities, government laboratories, or by 
small businesses. Many of the successful demonstrations led to the 
creation of small companies, that were aided by the Small Business 
Innovative Research (SBIR) programs. Some devices created in these 
defense technology programs have dual use, such as GPS, and the 
commercial market far exceeds the defense market. However, without 
initial support by Defense Applied Research funds, many of these 
companies would not exist. Like 6.1 Basic Research, 6.2 Applied 
Research has also funded the educations of many of our best defense 
industry engineers. Failure to properly invest in applied research 
would stifle a key source of technological and intellectual development 
as well as stunt the creation and growth of small entrepreneurial 
companies.
    The largest reduction would occur in Advanced Technology 
Development (6.3), which would experience a 22.3 percent decline, from 
$6.436 billion to $4.999 billion. These resources support programs 
where ready technology can be transitioned into weapon systems. Without 
the real system level demonstrations funded by these accounts, 
companies are reluctant to incorporate new technologies into weapon 
systems programs.
    Several of the proposed reductions to individual S&T program 
elements are dramatic and could have negative impacts on future 
military capabilities. An example is the reduction in the Army's 
Materials Technology program (PE0602105A). The fiscal year 2007 
appropriated amount was $60 million and the fiscal year 2008 request is 
for $18 million. Many worthwhile programs will not be funded if this 
two-thirds reduction is enacted. This line item funds research in a 
range of critical materials technologies, including improved body armor 
to protect troops against improvised explosive devices (IEDs) and in 
developing light weight armor for vehicle protection, such as is needed 
for the Future Combat System (FCS). With the problems faced in Iraq 
with IEDs and the need for lighter armor for the FCS it does not seem 
wise to cut materials research. Fortunately in the past few years the 
United States Congress has recognized that such cuts are not in the 
best interest of the country, and has appropriated additional resources 
to maintain healthy S&T programs in critical technologies.

                         DOD REQUEST FOR RDT&E

    The Administration requested $78.996 billion for the Research, 
Development, Test and Evaluation (RDT&E) portion of the fiscal year 
2008 DOD budget. These resources are used mostly for developing, 
demonstrating, and testing weapon systems, such as fighter aircraft, 
satellites, and warships. This amount represents growth from last 
year's appropriated amount of $78.231 billion of about 1 percent. 
Therefore, when adjusted for inflation, this represents a reduction of 
about 0.8 percent percent in real terms. Funds for Operational Test and 
Evaluation (OT&E) function remain low, where the proposed funding of 
$180 million is little more than half of the 2005 appropriated amount 
of $310 million. The OT&E organization was mandated by Congress, and is 
intended to insure that weapon systems are thoroughly tested so that 
they are effective and safe for our troops.

        DOD REQUEST FOR THE UNIVERSITY RESEARCH INITIATIVE (URI)

    The University Research Initiative (URI) supports graduate 
education in Mathematics, Science, and Engineering and would see a $35 
million decrease from $281 million to $246 million in fiscal year 2008, 
a 14.5 percent reduction. Sufficient funding for the URI is critical to 
educating the next generation of engineers and scientists for the 
defense industry. Since the URI programs were developed, the services 
have not given a high priority to these programs. A lag in program 
funds will have a serious long-term negative consequence on our ability 
to develop a highly skilled scientific and engineering workforce to 
build weapons systems for years to come. While DOD has enormous current 
commitments, these pressing needs should not be allowed to squeeze out 
the small but very important investments required to create the next 
generation of highly skilled technical workers for the American defense 
industry. Although URI is reduced in the fiscal year 2008 request, the 
National Defense Education program (NDEP) is expected to increase from 
$19 million this year to $44 million.

       REDUCED S&T FUNDING THREATENS AMERICA'S NATIONAL SECURITY

    Science and technology have played a historic role in creating an 
innovative economy and a highly skilled workforce. Study after study 
has linked over 50 percent of our economic growth over the past 50 
years to technological innovation. The ``Gathering Storm'' report 
places a ``special emphasis on information sciences and basic 
research'' conducted by the DOD because of large influence on 
technological innovation and workforce development. The DOD, for 
example, funds 40 percent of all engineering research performed at our 
universities. U.S. economic leadership depends on the S&T programs that 
support the nation's defense base, promote technological superiority in 
weapons systems, and educate new generations of scientists and 
engineers.
    Prudent investments also directly affect U.S. national security. 
There is a general belief among defense strategist that the United 
States must have the industrial base to develop and produce the 
military systems required for national defense. Many members of 
Congress also hold this view. A number of disconcerting trends, such as 
outsourcing of engineering activities and low participation of U.S. 
students in science and engineering, threaten to create a critical 
shortage of native, skilled, scientific and engineering workforce 
personnel needed to sustain our industrial base. Programs that boost 
the available number of highly educated workers who reside in the 
United States are important to stem our growing reliance on foreign 
nations, including potentially hostile ones, to fill the ranks of our 
defense industries and to ensure that we continue to produce the 
innovative, effective defense systems of the future.

                            RECOMMENDATIONS

    In conclusion, I thank the committee for its ongoing support of 
Defense S&T. The ASME DOD Task Force appreciates the difficult choices 
that Congress must make in this tight budgetary environment. I believe, 
however, that there are critical shortages in the DOD S&T areas, 
particularly in those that support basic research and technical 
education that are critical to U.S. military in the global war on 
terrorism and defense of our homeland.
    The Task Force recommends the following:
  --We urge this subcommittee to support an appropriation of $13.1 
        billion for S&T programs, which is 3 percent of the overall 
        fiscal year 2008 DOD budget. This request is consistent with 
        recommendations contained in the 2001 Quadrennial Defense 
        Review and made by the Defense Science Board (DSB), as well as 
        senior Defense Department officials and commanders from the Air 
        Force, Army, and Navy, who have voiced support for the future 
        allocation of 3 percent as a worthy benchmark for science and 
        technology programs.
  --We also recommend that the committee support the University 
        Research Initiative (URI) by restoring funds for the program to 
        the fiscal year 2006 level of $272 million for fiscal year 
        2008. A strong investment in advanced technical education will 
        allow the Nation's armed services to draw from a large pool of 
        highly-skilled, native-born workers for its science and 
        engineering endeavors.
    This statement represents the views of the ASME Department of 
Defense Task Force of ASME's Technical Communities and is not 
necessarily a position of ASME as a whole.

    Senator Inouye. Our next witness is Lieutenant General 
Dennis M. McCarthy, United States Marine Corps, retired, 
Executive Director of the Reserve Officers Association of the 
United States (ROA).
    General McCarthy.

STATEMENT OF LIEUTENANT GENERAL DENNIS M. McCARTHY, 
            UNITED STATES MARINE CORPS (RETIRED), 
            NATIONAL EXECUTIVE DIRECTOR, RESERVE 
            OFFICERS ASSOCIATION OF THE UNITED STATES
    General McCarthy. Senator Inouye, Senator Stevens, thank 
you very much for the opportunity to testify. I would just make 
four points this morning.
    We have long-advocated, and continue to advocate fully 
funding the training and equipment accounts of the Reserve 
components of all of the services. I think you--this 
subcommittee knows very well that this funding is essential, 
not just to the readiness, but to the recruiting and retention 
success that the Reserve components will have. The great young 
people that we've recruited, and the ones that we want to 
retain, will not sit around empty training centers, twiddling 
their thumbs because they don't have the right kind of 
equipment.
    Second, the Secretary of Defense has announced, and I think 
rightly so, a 1-year mobilization period for all components, 
but this really, mostly impacts the Army, which has previously 
used longer periods.
    To successfully deploy, these forces are going to have to 
be trained in advance of mobilization. This means they have to 
have the equipment in their home training centers, if they're 
going to be ready when they actually are mobilized and called 
to active duty. There will not be time for lengthy 
predeployment training on a 1-year cycle.
    Third, I believe that the subcommittee has seen, I believe 
history will support the idea that, if the Congress wants funds 
to go to the Reserve components to buy equipment that will stay 
with the Reserve components. The only successful way that we 
seem to have done that is through the National Guard, Reserve, 
and equipment account. That earmarks equipment, doesn't let it 
get lost, doesn't let it get subsumed into larger equipment 
accounts, keeps it identifiable with the Reserve components, 
and we urge the Congress to take steps to adequately fund the 
equipment accounts of the Reserve components through the 
National Guard and Reserve equipment appropriations (NGREA) 
process.
    Last, we have made a recommendation, a request of the 
subcommittee to consider funding for 1 year a--essentially, 
pilot project of a law center, that would enable use to 
continue what we've been doing--what ROA has been doing, out of 
its own budget, in providing guidance, education, counseling, 
referral services to service members who have employment-
related legal problems. Service members who come back and find 
difficulties with their employers, and have to make a claim 
under the USERRA Act, and we have been, we've been trying to 
provide counseling services. If we had some funding in this, I 
believe we could do a substantially better job.
    I think the subcommittee knows that employers around the 
country have done an absolutely marvelous job, and the numbers 
of these cases are relatively small. But, if we think about it, 
with 600,000 Reserves, and members of the National Guard 
mobilized, if even 1 or 2 percent of them have problems with 
their employers, that's a significant number of cases that need 
to be resolved. And, we think we can do some real good with the 
Law Center.
    So, that's my fourth point, I thank the subcommittee for 
the opportunity to appear, and we appreciate the support that 
the Congress has provided.
    Thank you, Senator.
    Senator Inouye. I can assure you, General, that the 
subcommittee is very much concerned about, first, the training 
and properly equipping our Reserve officers and men. In fact, 
in the supplemental appropriation, provisions made for that.
    And, as for your project, we will give it our most serious 
consideration.
    General McCarthy. Thank you, Senator.
    Senator Inouye. Thank you, sir.
    [The statement follows:]

      Prepared Statement of Lieutenant General Dennis M. McCarthy

    The Reserve Officers Association of the United States (ROA) is a 
professional association of commissioned and warrant officers of our 
nation's seven uniformed services, and their spouses. ROA was founded 
in 1922 during the drawdown years following the end of World War I. It 
was formed as a permanent institution dedicated to National Defense, 
with a goal to teach America about the dangers of unpreparedness. When 
chartered by Congress in 1950, the act established the objective of ROA 
to: ``. . . support and promote the development and execution of a 
military policy for the United States that will provide adequate 
National Security.'' The mission of ROA is to advocate strong Reserve 
Components and national security, and to support Reserve officers in 
their military and civilian lives.
    The Association's 70,000 members include Reserve and Guard 
Soldiers, Sailors, Marines, Airmen, and Coast Guardsmen who frequently 
serve on Active Duty to meet operational needs of the uniformed 
services and their families. ROA's membership also includes officers 
from the U.S. Public Health Service and the National Oceanic and 
Atmospheric Administration who often are first responders during 
national disasters and help prepare for homeland security. ROA is 
represented in each state with 55 departments plus departments in Latin 
America, the District of Columbia, Europe, the Far East, and Puerto 
Rico. Each department has several chapters throughout the state. ROA 
has more than 505 chapters worldwide.
    ROA is a member of The Military Coalition where it co-chairs the 
Tax and Social Security Committee. ROA is also a member of the National 
Military/Veterans Alliance. Overall, ROA works with 75 military, 
veterans and family support organizations.

               DISCLOSURE OF FEDERAL GRANTS OR CONTRACTS

    The Reserve Officers Association is a private, member-supported, 
congressionally chartered organization. Neither ROA nor its staff 
receive, or have received, grants, sub-grants, contracts, or 
subcontracts from the federal government for the past three fiscal 
years. All other activities and services of the Association are 
accomplished free of any direct federal funding.
    President: CAPT Michael P. Smith, USNR (Ret.) (410-693-7377) cell.
Staff Contacts:
    Executive Director: LtGen. Dennis M. McCarthy, USMC (Ret.) (202-
646-7701).
    Legislative Director, Health Care: CAPT Marshall Hanson, USNR 
(Ret.) (202-646-7713).
    Air Force Affairs, Veterans: LtCol Jim Starr, USAFR (Ret.) (202-
646-7719).
    Army, QDR/G-R Commission: LTC Robert ``Bob'' Feidler (Ret.) (202-
646-7717).
    USNR, USMCR, USCGR, Retirement: Mr. Will Brooks (202-646-7710).

                             ROA PRIORITIES

    The Reserve Officers Association CY 2007 Legislative Priorities 
are:
  --Assure that the Reserve and National Guard continue in a key 
        national defense role, both at home and abroad.
  --Reset the whole force to include fully funding equipment and 
        training for the National Guard and Reserves.
  --Providing adequate resources and authorities to support the current 
        recruiting and retention requirements of the Reserves and 
        National Guard.
  --Support citizen warriors, families and survivors.
Issues to help FUND, EQUIP, AND TRAIN
    Advocate for adequate funding to maintain National Defense during 
GWOT.
    Regenerate the Reserve Components (RC) with field compatible 
equipment.
    Fence RC dollars for appropriated Reserve equipment.
    Fully fund Military Pay Appropriation to guarantee a minimum of 48 
drills and two weeks training.
    Sustain authorization and appropriation to National Guard and 
Reserve Equipment Account (NGREA) to permit flexibility for Reserve 
Chiefs in support of mission and readiness needs.
    Optimize funding for additional training, preparation and 
operational support.
    Keep Active and Reserve personnel and Operation & Maintenance 
funding separate.
    Equip Reserve Component members with equivalent personnel 
protection as Active Duty.
Issues to assist RECRUITING AND RETENTION
    Support incentives for affiliation, reenlistment, retention and 
continuation in the RC.
    Fund referral recruiting programs for the National Guard and 
Reserve Services.
            Pay and Compensation:
    Differential pay for DOD federal employees.
    Professional pay for RC medical professionals.
    Eliminate the 1/30th rule for Aviation Career Incentive Pay, Career 
Enlisted Flyers Incentive Pay, Diving Special Duty Pay, and Hazardous 
Duty Incentive Pay.
            Education:
    Return MGIB-Selected Reserve to 47 percent of MGIB-Active.
            Health Care:
    Extend military coverage for restorative dental care for up to 180 
days following deployment.
            Spouse Support:
    Repeal the SBP-Dependency Indemnity Clause (DIC) offset for both AC 
and RC survivors.
        national guard & reserve equipment & personnel accounts
Key Issues Facing the Armed Forces Concerning Equipment
    Procure the best quality equipment for fighting troops.
    Ensure that the right quantity is funded to avoid shortfalls.
    Make sure that new/renewed equipment reaches the warriors allowing 
them to: Fight, Train, Respond.
Reserve Component Equipping Sources
    Funded Procurement.
    National Guard and Reserve Appropriations (NGREA).
    Supplemental.
    The above are preferred means to equip. Tracking of appropriated or 
supplemental funds are difficult for DOD to track. Dollars targeted to 
the Reserve Component don't always reach where intended. As NGREA is 
controlled by each Reserve Component (RC) Chief, NGREA funding does 
provide an audit trail.
  --Cascading of equipment from Active Component.
  --Cross-leveling.
    This type of equipment transfer provides some units with outmoded 
``hand me down'' equipment. These are discredited processes that have 
failed in the past. Transfer of equipment downgrades readiness for some 
units to improve the readiness of other units.
  --Depot maintenance and overhaul of equipment.
    Most equipment being overhauled is combat damaged, or has fallen 
outside maintenance standards. Such equipment must be stripped down and 
rebuilt completely. The process is slow; almost as long as to build 
from scratch. Equipment is backlogged for units needing equipment for 
readiness. Costs are about 75 percent of replacement costs.
Resetting the Force
    By resetting or reconstitution of the force, ROA means the process 
to restore people, aircraft and equipment to a high state of readiness 
following a period of higher-than-normal, or surge, operations.
    Operations Iraqi Freedom and Enduring Freedom are consuming the 
Active and Reserve Component force's equipment. Wear and tear is at a 
rate many times higher then planned. Battle damage expends additional 
resources.
    Many equipment items used in Southwest Asia are not receiving 
depot-level repair because equipment items are being retained in 
theater. The condition of equipment items in theater will likely 
continue to worsen and the equipment items will likely require more 
extensive repair or replacement when they eventually return to home 
stations.
    In addition to dollars already spent to maintain this well-worn 
equipment for ongoing operations, the Armed Forces will likely incur 
large expenditures in the future to repair or replace (reset) a 
significant amount of equipment when hostilities cease. The services 
are currently funding their reset programs in large part through the 
use of supplemental appropriations.
Personnel
    Training.--When Reserve Component personnel participate in an 
operation they are focused on the needs of the particular mission, 
which may not include everything required to maintain qualification 
status in their military occupation specialty (MOS, AFSC, NEC).
    There are many different aspects of training that are affected:
  --Skills that must be refreshed for specialty.
  --Training needed for upgrade but delayed.
  --Ancillary training missed.
  --Professional military education needed to stay competitive.
  --Professional continuing education requirements for single-managed 
        career fields and other certified or licensed specialties 
        required annually.
  --Graduate education in business related areas to address force 
        transformation and induce officer retention.
    Loss.--There are particular challenges that occur to the force when 
a loss occurs during a mobilization or operation and depending on the 
specialty this can be a particularly critical requirement that must be 
met.
  --Recruiting may require particular attention to enticing certain 
        specialties or skills to fill critical billets.
  --Minimum levels of training (84 days basic, plus specialty 
        training).
  --Retraining may be required due to force leveling as emphasis is 
        shifted within the service to meet emerging requirements.
End Strength
    ROA recommends a freeze on reductions to the Guard and Reserve 
manning levels. ROA urges this subcommittee to fund the following 
personnel levels.

------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
Army National Guard........................................      351,300
Army Reserve...............................................      205,000
Navy Reserve...............................................       71,300
Marine Corps Reserve.......................................       39,600
Air National Guard.........................................      107,000
Air Force Reserve..........................................       74,900
Coast Guard Reserve........................................       10,000
------------------------------------------------------------------------

    In a time of war and the highest OPTEMPO in recent history, it is 
wrong to make cuts to the end strength of the Reserve Components. The 
Commission on National Guard and Reserve will be examining Reserve 
Force Structure, and will make recommendations as to size in its report 
to the Congress in October 2007.
Readiness
    As the committee understands, readiness is a product of many 
factors, including the quality of officers and enlisted, full staffing, 
extensive training and exercises, well-maintained weapons and 
authorized equipment, efficient procedures, and the capacity to operate 
at a fast tempo. The pace of wartime operations has a major impact on 
service members.
    The Defense Department does not attempt to keep all active units at 
full wartime readiness. Units are rated at five different levels of 
readiness. Many are capable of meeting the bulk of wartime missions, 
where others can meet a major portion of the wartime tasking. The two 
lowest levels exist where units require resources and/or training to 
undertake wartime missions. The last group may require mission and 
resource changes and is not prepared to go to war.
    The risk being taken by DOD by not resetting the returning Active 
and Reserve units is that their readiness may be reduced because of 
missing equipment, and without authorized equipment their training 
levels will deteriorate. Loss of the ability to train also hurts 
retention efforts.

                       UNFUNDED ARMY REQUIREMENTS

    The Army National Guard and Army Reserve have made significant 
contributions to ongoing military operations, but equipment shortages 
and personnel challenges have increased and, if left unattended, may 
hamper the reserves' preparedness for future overseas and domestic 
missions.
    To provide deployable units, the Army National Guard and the Army 
Reserve have transferred large quantities of personnel and equipment to 
deploying units, an approach that has resulted in growing shortages in 
nondeployed units. Also, reserve units have left significant quantities 
of equipment overseas and DOD has not yet developed plans to replace 
it.
    The Department of Defense (DOD) faces the unprecedented challenge 
of sustaining large-scale, long-duration operations with an all-
volunteer military force. In addition, DOD's homeland defense missions 
have taken on higher priority, and National Guard forces have state 
responsibilities for homeland security activities as well as their 
traditional roles in responding to natural disasters.
    The Army National Guard reports that its average units have about 
40 percent of their required equipment, and the Army Reserve reports 
that its units have about half of the modern equipment they need to 
deploy.
    Readiness challenges have occurred because the Army reserve 
components' role has shifted from a strategic reserve force to an 
operational force that is being used on an ongoing basis. However, DOD 
has not fully reassessed its equipment, personnel, and training needs 
and developed a new model for the Reserves appropriate to the new 
operational environment.
    The Army is implementing an Army Force Generation (ARFORGEN) model 
through which reserve units' readiness will be increased as units move 
closer to eligibility for deployment. However, the Army has not fully 
determined the equipment, personnel, and training that units will 
require at each stage of the cycle or fully identified the resources to 
implement its plans. Funding of $1.6 billion for modularity through 
ARFORGEN is required.
    Dual Use Equipment.--The tragedy in Greensburg, Kansas only 
highlights a problem faced by National Guard and Army Reserve units. 
Some Governors state that their disaster relief, following an 
emergency, is likely hampered because much of the equipment usually 
positioned around their states is in Iraq. Reserve Component units are 
being sent overseas with their equipment, but when they come home, the 
gear often stays in the war zones.
    During a disaster, the capability to respond is measured by the 
availability of equipment.
    Under DOD equipping plans, numerous items that are in the allowance 
from the Table of Organization and Equipment (T/O&E) have dual-use; 
intended for both overseas and homeland security purposes. These 
shortages could also adversely affect reserve units' ability to perform 
homeland defense missions and provide support to civil authorities in 
the event of natural disasters or terrorist attacks.
    As of June of last year, Army National Guard units had left more 
than 64,000 pieces of equipment worth more than $1.2 billion overseas.
    The Army Reserve has 14,000 items in need of inspection, repair and 
overhaul, and needs $742 million to replace stay behind equipment. 
Depot maintenance faces a $372 million shortfall.
    Compatible Equipment.--Much of the Guard and Reserve do not have 
priority for the newest and most modern equipment. Much of the 
equipment is older and not compatible with the Active Army. While the 
substitute items may be adequate for training, this equipment must not 
be allowed in the theater of operation as they might not be compatible 
to other operating units, and may not sustain logistically.
    75 percent of the Army Reserve's light medium trucks are not 
Modular Force compatible or deployable.
    50 percent of the medium line haul tractors do not support single 
fleet policy and aren't integral to training and operational 
efficiency.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Army Reserve Unfunded Modernization Vehicle Requirements--
 $1.826 Billion:
    Light-medium trucks (LMTV) 2.5 Ton Truck.............          425
    Medium Tactical Vehicle (MTV) 5.0 Ton Truck..........          761
    Truck Cargo PLS 10x10 M1075..........................          106
    PLS Trailer..........................................           25
    High Mobility Multi-Purpose Wheeled Vehicle (HMMWV)..          304
    High Mobility Multi-Purpose Wheeled Vehicle, up-               133
     armored.............................................
    Truck Tractors Line Haul (M915A3)....................           71
Army National Guard Top Equipment Shortfalls:
    HMMWV................................................        1,610.6
    Family of Medium Tactical Vehicles...................        5,198.1
    High Terrain Vehicles--HEMTT/LHS/PLS.................        1,201.2
    M916A3 Light Equipment Transporter...................          191.8
    Tactical Trailers....................................          137.9
    M917A2 Dump Truck....................................           67.4
    CH-47F Chinook Helicopter............................        6,678.0
    Communications Systems (JNN, SINCGARS, HF)...........        1,997.2
    UAV Systems (Shadow, Raven)..........................          270.0
    Small Arms...........................................          248.8
------------------------------------------------------------------------

                     AIR FORCE EQUIPMENT PRIORITIES

    ROA continues to support military aircraft Multi-Year Procurement 
(MYP) for more C-17s and more C-130Js for USAF. The Air Force Reserve 
(AFR) mission is to be an integrated member of the Total Air Force to 
support mission requirements of the joint warfighter.

                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Air Force Reserve Unfunded Requirements:
    C-5A Galaxy:
        Airlift Defensive System (ADS)...................           17.3
        Large Aircraft Infrared Countermeasures (LAIRCM).           67.8
        Structural Repairs (2) aircraft..................           22.0
    C-130 Hercules:
        Large Aircraft Infrared Countermeasures (LAIRCM)            56.6
         C-130H..........................................
        Large Aircraft Infrared Countermeasures (LAIRCM)            22.2
         C-130J..........................................
        Secure Multi-Band Jam Resistant Radio AN/ARC-210.             .8
    C-17 Globemaster: Large Aircraft Infrared                       41.8
     Countermeasures (LAIRCM)............................
    F-16 Fighting Falcon: Secure Multi-Band Jam Resistant            6.0
     Radio AN/ARC-210....................................
    B-52H Stratofortress: Secure Multi-Band Jam Resistant            1.3
     Beyond Line of Sight Radio..........................
    Developing Airmen: Air National Guard/A.F. Reserve               1.4
     Test Center (AATC) support..........................
------------------------------------------------------------------------

    Air Force Reserve needs $10 million in unfunded depot purchased 
equipment maintenance. Funding to support restoration and modernization 
of facilities is $89 million per year.
Air National Guard Unfunded Equipment Requirements
    Priority 1 equipment requirements by the Air National Guard total 
$500 million. This includes medical, communications, logistics, 
transportation, explosive ordnance, civil support teams, maintenance, 
security, and aviation requirements. Some examples are:

                        [In millions of dollars]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Cell phone Restoral Small SATCOM for data and voice,                10.0
 first response..........................................
Expeditionary Medical System (EMEDS) purchases...........           24.2
SF Individual body armor (IBA) Helmets...................            1.7
Night Vision equipment (PVS-14), security................            5.0
HH-60 Panoramic Night Vision Systems.....................            1.3
HC/MC 130 Multi Function Color Display...................            2.7
EC-130J Commando Solo conversion.........................            1.0
C-130 Virtual Electronic Combat System (VECTS) trainer...            1.0
F-15 IC Central Computer (VCC+) upgrade..................            1.0
Advanced Targeting Pods..................................            5.2
Helmet Mounted Cueing System (HMCS)......................            1.0
Virtual Threat Recognition and Avoidance Trainer.........            1.0
Senior Scout MCT.........................................            1.0
C-40 C (Boeing 737)......................................           85.0
------------------------------------------------------------------------

                   NAVY RESERVE EQUIPMENT PRIORITIES

    The Active Reserve Integration (ARI) aligns Active Component and 
Reserve Component units to achieve unity of command. Naval Reservists 
are aligned and fully integrated into their AC supported commands. 
Little distinction is drawn between AC and RC equipment. Some unique 
missions remain that need support.
    C-40 A Combo cargo/passenger Airlift (4)--$330.0 million.
  --The Navy requires a Navy Unique Fleet Essential Airlift Replacement 
        Aircraft. This aircraft was designated as the C-40A and needs 
        to replace the aging C-9 fleet. The maximum range for the C-40A 
        is approximately 1,500 miles more than the C-9.
  --The C-40A will accommodate 121 passengers, or eight pallets of 
        cargo, or a combination configuration consisting of 3 pallets 
        and 70 passengers. The C-40A is able to carry 121 passengers or 
        40,000 pounds of cargo, compared with 90 passengers or 30,000 
        pounds for the C-9. In addition, the maximum range for the 
        Clipper is approximately 1,500 miles more than the C-9. The 
        Navy has a fleet 21 aging C-9; the Marine Corps has two C-9 
        aircraft. The Navy has ordered nine C-40A's, seven of which 
        were Congressional add-ons.
    Civil Engineering Support Equipment, Tactical Vehicles, 
Communications Equipment and other Table of Allowance items 
supporting--$38.0 million.
  --Naval Coastal Warfare (NCW) Units
  --Explosive Ordnance Disposal (EOD) Units
  --Naval Construction Forces (NCF)
  --Navy Equipment Logistics Support Groups (ELSG)
    C-130, C-9, and C-40A upgrades and spare equipment--$69.7 million.

               MARINE CORPS RESERVE EQUIPMENT PRIORITIES

    The Marine Corps Reserve faces two primary equipping challenges, 
supporting and sustaining its forward deployed forces in the Global War 
On Terrorism while simultaneous resetting and modernizing the Force to 
prepare for future challenges. Only by equally equipping and 
maintaining both the Active and Reserve forces an integrated Total 
Force will be seamless.
Priorities to support and sustain USMCR forces:
    Obtain latest generation of Individual Combat and Protective 
Equipment including: M4 rifles, Rifle Combat Optic (RCO) scopes, Helmet 
pad systems, Small Arms Protective Insert (SAPI) plates, and Night 
Vision Goggles.
    Simulation Training Devises.
    Adequate funding to Operation and Maintenance accounts to sustain 
training and Predeployment operations.
Priorities to reset and modernize USMCR forces:
    Procure principal end-items necessary to reestablish Training 
Allowance to conduct home training.
    Equip two new Light Armored Reconnaissance Companies.
    Procure satellite/long-haul communication equipment shortfalls.
    Update legacy aircraft.
    Deployed unit equipment readiness rates remain high (95 percent). 
Ground equipment mission readiness rates for non-deployed Marine Forces 
Reserve Units average 85 percent based on Training Allowance. Reduced 
readiness results from shortages in home station Training Allowance. 
There is approximately a 10 percent readiness shortfall across the 
Force for most equipment.
    Restoration and Modernization (R&M) funding continues to be a 
challenge for the USMCR, due to its $16.5 million backlog across the 
Future Years Defense Plan (FYDP) and an overall backlog of $52.6 
million. More than 50 percent of USMC Reserve Centers are over 40 years 
old and 35 percent over 50 years old.

           NATIONAL GUARD AND RESERVE EQUIPMENT APPROPRIATION

    Prior to 1997, the National Guard and Reserve Equipment 
Appropriation was a critical resource to ensure adequate funding for 
new equipment for the Reserve Components. The much-needed items not 
funded by the respective service budget were frequently purchased 
through this appropriation. In some cases it was used to bring unit 
equipment readiness to a needed state for mobilization.
    With the war, the Reserve and Guard are faced with mounting 
challenges on how to replace worn out equipment, equipment lost due to 
combat operations, legacy equipment that is becoming irrelevant or 
obsolete, and in general replacing that which is gone or aging through 
normal wear and tear. The Reserve Components would benefit greatly from 
a National Military Resource Strategy that includes a National Guard 
and Reserve Equipment Appropriation.
    To optimize the readiness of the Guard and Reserve it is also 
imperative to maintain separate Reserve funds from the Active duty.

                             ROA LAW CENTER

    The Reserve Officers Association's recommends the development of a 
Servicemembers Law Center, tasked to advise Active and Reserve 
servicemembers who have been subject to legal problems that occur 
during deployment.
    Justification.--Recruiting of prior service members into the 
Reserve Component is on the decline because service members leaving 
active duty fear ramification of ongoing deployments on new civilian 
careers. A legal center would help:
  --Recruit.--Encourage new members to join the Guard and Reserve by 
        providing a non-affiliation service to educate prior service 
        members about USERRA and SCRA protections.
  --Retain.--Work with Active and Reserve Component members to counsel 
        about Former Spouses Protection Act, USERRA and SCRA for the 
        recently deployed facing legal problems.
Law Center's Services
    Counseling.--Review cases, and advise individuals and their lawyers 
as to legitimacy of actions taken against deployed active and reserve 
component members.
    Referral.--Provide names of attorneys within a region that have 
successfully taken up USFSPA, USERRA and SCRA issues.
    Promote.--Publish articles encouraging law firms and lawyers to 
represent service members in USFSPA, USERRA and SCRA cases.
    Advise.--File Amicus Curiae, ``friend of the court'' briefs on 
servicemember protection cases.
    Educate.--Quarterly seminars to educate attorneys a better 
understanding of USFSPA, USERRA and SCRA.
    ROA could incorporate the legal center into the newly remodeled ROA 
Minuteman Memorial building. ROA would set-aside office spaces. ROA's 
Defense Education Fund would hire an initial staff of one lawyer, and 
one administrative law clerk to man the Servicemembers Law Center to 
counsel individuals and their legal representatives.
    Anticipated startup cost, first year: $750,000.

                       CIOR/CIOMR FUNDING REQUEST

    The Interallied Confederation of Reserve Officers (CIOR) was 
founded in 1948, and its affiliate organization, The Interallied 
Confederation of Medical Reserve Officers (CIOMR) was founded in 1947. 
The organization is a nonpolitical, independent confederation of 
national reserve associations of 16 signatory countries of the North 
Atlantic Treaty Organization (NATO), representing over 800,000 reserve 
officers.
    CIOR supports four programs to improve professional development and 
international understanding. Dues do not cover these programs and 
individual countries help fund the events. The Department of the Army 
as Executive Agent hasn't been funding these programs.
    Military Competition.--The CIOR Military Competition is a strenuous 
three day contest on warfighting skills among Reserve Officers teams 
from member countries. These contests emphasize military activities 
relevant to the multinational aspects of current and future Alliance 
operations.
    Language Academy.--The two official languages of NATO are English 
and French. As a non-government body, operating on a limited budget, 
the Academy offers intensive courses in English and French and affords 
national junior officer members the opportunity to become fluent in a 
second language.
    Partnership for Peace (PfP).--Established in 1994 with the focus of 
assisting NATO PfP nations develop reserve officer and enlisted 
organizations according to democratic principles. CIOR's PfP Committee 
supports the advancement of a balanced civil-military leadership. CIOR 
PfP Committee also assists participating countries in the Military 
Competition.
    Young Reserve Officers Workshops are arranged annually by the NATO 
International Staff (IS). Selected issues are assigned to joint 
seminars through the CIOR Defense and Security Issues (SECDEF) 
Commission, allowing junior grade officers to analyze Reserve concerns 
relevant to NATO in a combined environment.

                               CONCLUSION

    DOD is in the middle of executing a war and operations in Iraq are 
directly associated with this effort. The impact of the war is 
affecting the very nature of the Guard and Reserve, not just the 
execution of Roles and Missions. Without adequate funding, the Guard 
and Reserve may be viewed as a source to provide funds to the Active 
Component. It makes sense to fully fund the most cost efficient 
components of the Total Force, its Reserve Components.
    At a time of war, we are expending the smallest percentage of GDP 
in history on National Defense. Funding now reflects about 3.9 percent 
of GDP. ROA has a resolution urging that defense spending should be 5 
percent to cover both the war and Homeland Security. While these are 
big dollars, the President and Congress must understand that this type 
of investment is what it will take to equip, train and maintain an all-
volunteer force for adequate National Security.
    The Reserve Officers Association, again, would like to thank the 
subcommittee for the opportunity to present our testimony. We are 
looking forward to working with you, and supporting your efforts in any 
way that we can.

    Senator Inouye. Our next witness is Captain Marshall 
Hanson, of the United States Naval Reserve, Co-Director of the 
National Military and Veterans Alliance.

STATEMENT OF CAPTAIN MARSHALL HANSON, UNITED STATES 
            NAVY (RETIRED), CO-DIRECTOR, NATIONAL 
            MILITARY AND VETERANS ALLIANCE
    Captain Marshall. Mr. Chairman, Senator Stevens, the 
National Military and Veterans Alliance (NMVA) is very grateful 
for the invitation to testify to you about our views and 
suggestions concerning defense funding and issues.
    The NMVA is made up of 30 associations of serving members, 
veterans, families and survivors, that represent 3.5 million 
members. The alliance supports a strong national defense.
    While the NMVA recognizes that the subcommittee is working 
under budget restraints, the alliance urges the President and 
Congress to increase defense spending to 5 percent of the Gross 
Domestic Product during times of war to cover procurement, and 
prevent unnecessary personnel end-strength cuts.
    Further, the NMVA supports funding increases in support of 
the end-strength boost on the Active duty component to the Army 
and Marine Corps that has been recommended by defense 
authorizers. Current Army policy has changed a deployment from 
12 to 15 months, a larger force will help our young warriors 
have the ability to stay longer at home in between these 
deployments.
    Recruiting and retention is paramount in the global war on 
terrorism, and today's youth will be judging how our veterans 
of today's wars are treated. So, the NMVA supports bonuses and 
incentives to encourage people to join.
    One program that we would like the subcommittee to support, 
is a Guard recruiting program, where a Guardsman is paid $1,000 
referring a new member to a recruiter, and then paid another 
$1,000 if that individual goes to basic training. We think this 
is a very successful program, the Guard are very excited to be 
able to do their own recruiting, it's helped the Guard get the 
end numbers, and we'd like to see this program extended and 
funded to the rest of the Federal Reserve component.
    The last point that I want to touch upon, deals with the 
survivor benefit plan (SBP), and dependency and indemnity 
compensation (DIC) offset. Our widows of members who are killed 
in the line of service are still being penalized, and this 
offset is basically taking SBP funds away from them that their 
warrior purchases an annuity, because it's being displaced by 
the DIC payment.
    The alliance supports Senator Nelson's bill which would 
offset, and eliminate this injustice. But, if funding tends to 
be restricted, the alliance is also open to a phased-in 
implementation of a SBP/DIC offset that has been suggested in 
the House Armed Services Committee.
    The alliance thanks the subcommittee for our opportunity to 
testify before you. You continue to be leaders in the area of 
advocacy for Defense, and we applaud your nonpartisan approach 
that you take to these important issues.
    And, we stand by for any questions, or any way we can help 
the subcommittee.
    Senator Inouye. As you well know, Senator Stevens and I are 
the few remaining combat veterans of World War II, and as such, 
we appreciate your words. We'll do our very best.
    Captain Marshall. Thank you, sir.
    Senator Inouye. Thank you, sir.
    Senator Stevens. Senator, can I ask--how many members are 
part of your association?
    Captain Marshall. My association--I represent the National 
Military and Veterans Alliance, and we represent 3.5 million 
members who belong to the 30 associations that make up the 
alliance.
    Senator Stevens. And what's their age bracket?
    Captain Marshall. Excuse me, sir?
    Senator Stevens. What is their age bracket?
    Captain Marshall. The age bracket goes from, from 
everywhere from age 18, to new recruits, all the way up to 
retirees that are veterans of World War II.
    Senator Stevens. Thank you, thank you.
    Senator Inouye. Thank you very much.
    [The statement follows:]

             Prepared Statement of Captain Marshall Hanson

                NATIONAL MILITARY AND VETERANS ALLIANCE

    The Alliance was founded in 1996 as an umbrella organization to be 
utilized by the various military and veteran associations as a means to 
work together towards their common goals. The Alliance member 
organizations are: American Logistics Association; American Military 
Retirees Association; American Military Society; American Retirees 
Association; American World War II Orphans Network; AMVETS (American 
Veterans); Armed Forces Marketing Council; Catholic War Veterans; Gold 
Star Wives of America, Inc.; Japanese American Veterans Association; 
Korean War Veterans Foundation; Legion of Valor; Military Order of the 
Purple Heart; Military Order of the World Wars; Military Order of 
Foreign Wars; National Assoc. for Uniformed Services; National Gulf War 
Resource Center; Naval Enlisted Reserve Association; Naval Reserve 
Association; Paralyzed Veterans of America; Reserve Enlisted 
Association; Reserve Officers Association; Society of Military Widows; 
The Retired Enlisted Association; TREA Senior Citizens League; Tragedy 
Assist. Program for Survivors; Uniformed Services Disabled Retirees; 
Veterans of Foreign Wars; Vietnam Veterans of America; Women in Search 
of Equity.
    These organizations have over three and a half million members who 
are serving our nation or who have done so in the past, and their 
families.

                              INTRODUCTION

    Mister Chairman and distinguished members of the Committee, the 
National Military and Veterans Alliance (NMVA) is very grateful for the 
invitation to testify before you about our views and suggestions 
concerning defense funding issues. The overall goal of the National 
Military and Veterans Alliance is a strong National Defense. In light 
of this overall objective, we would request that the committee examine 
the following proposals.
    While the NMVA highlights the funding of benefits, we do this 
because it supports National Defense. A phrase often quoted ``The 
willingness with which our young people are likely to serve in any war, 
no matter how justified, shall be directly proportional as to how they 
perceive the Veterans of earlier wars were treated and appreciated by 
their country,'' has been frequently attributed to General George 
Washington. Yet today, many of the programs that have been viewed as 
being veteran or retiree are viable programs for the young veterans of 
this war. This phrase can now read ``The willingness with which our 
young people, today, are willing to serve in this war is how they 
perceive the veterans of this war are being treated.''
    This has been brought to the forefront by how quickly an issue such 
as the treatment of wounded warriors can be brought to the national 
attention.
    In a long war, recruiting and retention becomes paramount. The 
National Military and Veterans Alliance, through this testimony, hopes 
to address funding issues that apply to the veterans of various 
generations.

                        FUNDING NATIONAL DEFENSE

    NMVA is pleased to observe that this year; the Congress is 
discussing how much should be spent on National Defense. The Alliance 
urges the President and Congress to increase defense spending to 5 
percent of Gross Domestic Product during times of war to cover 
procurement and prevent unnecessary personnel end strength cuts. In 
addition, while the debate on Iraqi policy is important, the Alliance 
would like to stress that resulting legislation should be independent 
and not included as language in Defense Appropriation bill. Supporting 
the troops includes providing funding for their missions.

                          PAY AND COMPENSATION

    Our serving members are patriots willing to accept peril and 
sacrifice to defend the values of this country. All they ask for is 
fair recompense for their actions. At a time of war, compensation 
rarely offsets the risks.
    The NMVA requests funding so that the annual enlisted military pay 
raise equals or exceeds the Employment Cost Index (ECI).
    Further, we hope that this committee continues to support targeted 
pay raises for those mid-grade members who have increased 
responsibility in relation to the overall service mission. Pay raises 
need to be sufficient to close the civilian-military pay gap.
    NMVA would apply the same allowance standards to both Active and 
Reserve when it comes to Aviation Career Incentive Pay, Career Enlisted 
Flyers Incentive Pay, Diving Special Duty Pay, Hazardous Duty Incentive 
Pay and other special pays.
    The Service chiefs have admitted one of the biggest retention 
challenges is to recruit and retain medical professionals. NMVA urges 
the inclusion of bonus/cash payments (Incentive Specialty pay IPS) into 
the calculations of Retirement Pay for military health care providers. 
NMVA has received feedback that this would be incentive to many medical 
professionals to stay in longer.

                       FORCE POLICY AND STRUCTURE

End Strength
    The NMVA supports funding increases in support of the end strength 
boosts of the Active Duty Component of the Army and Marine Corps that 
have been recommended by Defense Authorizers. New recruits need to be 
found and trained now to start the process so that American taxpayer 
can get a return on this investment. Such growth is not instantaneously 
productive.
    The NMVA would like to also put a freeze on reductions to the Guard 
and Reserve manning levels. With the Commission on the Guard and 
Reserve now active, it makes sense to put a moratorium on reductions to 
End Strength until after they report back to Congress with 
recommendations. NMVA urges this subcommittee to at least fund to last 
year's levels.

         SURVIVOR BENEFIT PLAN (SBP) AND SURVIVOR IMPROVEMENTS

    The Alliance wishes to deeply thank this Subcommittee for your 
funding of improvements in the myriad of survivor programs.
    However, there are still two remaining issues to deal with to make 
SBP the program Congress always intended it to be: Ending the SBP/DIC 
offset and moving up the effective date for paid up SBP to October 1, 
2006.
    SBP/DIC Offset affects several groups. The first is the family of a 
retired member of the uniformed services. At this time the SBP annuity 
the servicemember has paid for is offset dollar for dollar for the DIC 
survivor benefits paid through the VA. This puts a disabled retiree in 
a very unfortunate position. If the servicemember is leaving the 
service disabled it is only wise to enroll in the Survivor Benefit Plan 
(perhaps being uninsurable in the private sector). If death is service 
connected then the survivor loses dollar for dollar the compensation 
received under DIC.
    SBP is a purchased annuity, available as an elected earned employee 
benefit. The program provides a guaranteed income payable to survivors 
of retired military upon the member's death. Dependency and Indemnity 
Compensation (DIC) is an indemnity program to compensate a family for 
the loss of a loved one due to a service connected death. They are 
different programs created to fulfill different purposes and needs.
    A second group affected by this dollar for dollar offset is made up 
of families whose service member died on active duty. Recently Congress 
created active duty SBP. These service members never had the chance to 
pay into the SBP program. But clearly Congress intended to give these 
families a benefit. With the present offset in place the vast majority 
of families receive NO benefit from this new program, because the vast 
numbers of our losses are young men or women in the lower paying ranks. 
SBP is completely offset by DIC payments.
    Other affected families are service members who have already served 
a substantial time in the military. Their surviving spouse is left in a 
worse financial position that a younger widow. The older widows will 
normally not be receiving benefits for her children from either Social 
Security or the VA and will normally have more substantial financial 
obligations (mortgages etc). This spouse is very dependent on the SBP 
and DIC payments and should be able to receive both.
    Thirty Year Paid-Up SBP.--In the fiscal year 1999 Defense 
Authorization Act Congress created a simple and fair paid up provision 
for the Survivor Benefit Plan. A member who had paid into the program 
for 30 years and reached the age of 70 could stop paying premiums and 
still have the full protection of the plan for his or her spouse. 
Except that the effective date of this provision is October 1, 2008. 
Many have been paying for as long as 34 years.
    The NMVA respectfully requests this Subcommittee fund the SBP/DIC 
offset and 30 year paid-up SBP if authorized.

    CURRENT AND FUTURE ISSUES FACING UNIFORMED SERVICES HEALTH CARE

    The National Military and Veterans Alliance must once again thank 
this Committee for the great strides that have been made over the last 
few years to improve the health care provided to the active duty 
members, their families, survivors and Medicare eligible retirees of 
all the Uniformed Services. The improvements have been historic. 
TRICARE for Life and the Senior Pharmacy Program have enormously 
improved the life and health of Medicare Eligible Military Retirees 
their families and survivors. It has been a very successful few years. 
Yet there are still many serious problems to be addressed:
Wounded Warrior Programs
    As the committee is aware, Congress has held a number of hearings 
about the controversy at Walter Reed Army Medical Center. The NMVA will 
not revisit the specifics. With the Independent Review Group and the 
Dole/Shalala Commission recommending the closure of Walter Reed, an 
emphasis needs to be placed on the urgency of upgrades at Bethesda, and 
the new military treatment hospital at Fort Belvoir.
    The Alliance does support funding for the wounded warriors, 
including monies for research and treatment on Traumatic Brain Injuries 
(TBI), Post Traumatic Stress Disorder, the blinded, and our amputees. 
The nation owes these heroes an everlasting gratitude and recompense 
that extends beyond their time in the military. These casualties only 
bring a heightened need for a DOD/VA electronic health record accord to 
permit a seamless transition from being in the military to being a 
civilian.
Full Funding for the Defense Health Program
    The Alliance applauds the Subcommittee's role in providing adequate 
funding for the Defense Health Program (DHP) in the past several budget 
cycles. As the cost of health care has risen throughout the country, 
you have provided adequate increases to the DHP to keep pace.
    Full funding for the defense health program is a top priority for 
the NMVA. With the additional costs that have come with the deployments 
to Southwest Asia, Afghanistan and Iraq, we must all stay vigilant 
against future budgetary shortfalls that would damage the quality and 
availability of health care.
    With the authorizers having postponed the Department of Defenses 
suggested fee increases, the Alliance is concerned that the budget 
saving have already been adjusted out of the President's proposed 
budget. NMVA is confident that this subcommittee will continue to fund 
the DHP so that there will be no budget shortfalls.
    The National Military and Veterans Alliance urges the Subcommittee 
to continue to ensure full funding for the Defense Health Program 
including the full costs of all new programs.
TRICARE Pharmacy Programs
    DOD's rationalize for suggesting pharmacy fee increase as it costs 
the government twice as much for a drug through the TRICARE Retail 
Pharmacy program (TRRx) than it does for the same drug through the 
TRICARE Mail Order Pharmacy Program (TMOP). DOD believes the rise in 
the TRRx co-payments will increase revenue and force beneficiaries 
migrate to the TMOP program, where the costs for their prescriptions 
are lower.
    NMVA may understand the motives for this change, but has concerns 
about how it is being implemented. Often times the retail pharmacy 
network is the only source to immediately fill a prescription, as many 
pharmacy beneficiaries are unable to go to a military clinic for the 
initial prescription. To truly motivate beneficiaries to a shift from 
retail to mail order adjustments need to be made to both generic and 
brand name drugs co-payments.
    Ideally, the NMVA would like to see the reduction in mail order co-
payments without an increase in co-payments for Retail Pharmacy, but 
NMVA suggests that if pharmacy co-payments are adjusted that: (1) the 
higher retail pharmacy co-payments not apply on an initial 
prescription, but on refills of a serial maintenance prescription, and 
(2) if co-payments must be raised on retail pharmacy, that both generic 
and brand name mail order prescriptions be reduced to zero dollar co-
payments.
    The National Military and Veterans Alliance urges the Subcommittee 
to adequate fund adjustments to co-payments in support of 
recommendations from Defense Authorizers.
TRICARE Standard Improvements
    TRICARE Standard grows in importance with every year that the 
Global War on Terrorism continues. A growing population of mobilized 
and demobilized Reservists depends upon TRICARE Standard. A growing 
number of younger retirees are more mobile than those of the past, and 
likely to live outside the TRICARE Prime network.
    An ongoing challenge for TRICARE Standard involves creating 
initiatives to convince health care providers to accept TRICARE 
Standard patients. Health care providers are dissatisfied with TRICARE 
reimbursement rates that are tied to Medicare reimbursement levels. The 
Alliance was pleased and relieved by the Administration's and Congress' 
recent corrections and improvements in Medicare reimbursement rates, 
which helped the TRICARE Program.
    Yet this is not enough. TRICARE Standard is hobbled with a 
reputation and history of low and slow payments as well as what still 
seems like complicated procedures and administrative forms that make it 
harder and harder for beneficiaries to find health care providers that 
will accept TRICARE. Any improvements in the rates paid for Medicare/
TRICARE should be a great help in this area. Additionally, any further 
steps to simplify the administrative burdens and complications for 
health care providers for TRICARE beneficiaries hopefully will increase 
the number of available providers.
    The Alliance asks the Defense Subcommittee to include language 
encouraging continued increases in TRICARE/Medicare reimbursement 
rates.
TRICARE Retiree Dental Plan (TRDP)
    The focus of the TRICARE Retiree Dental Plan (TRDP) is to maintain 
the dental health of Uniformed Services retirees and their family 
members. Several years ago we saw the need to modify the TRDP 
legislation to allow the Department of Defense to include some dental 
procedures that had previously not been covered by the program to 
achieve equity with the active duty plan.
    With ever increasing premium costs, NMVA feels that the Department 
should assist retirees in maintaining their dental health by providing 
a government cost-share for the retiree dental plan. With many retirees 
and their families on a fixed income, an effort should be made to help 
ease the financial burden on this population and promote a seamless 
transition from the active duty dental plan to the retiree dental plan 
in cost structure. Additionally, we hope the Congress will enlarge the 
retiree dental plan to include retired beneficiaries who live overseas.
    The NMVA would appreciate this Committee's consideration of both 
proposals.

                 NATIONAL GUARD AND RESERVE HEALTH CARE

Funding Improved TRICARE Reserve Select
    It is being suggested that the TRICARE Reserve Select healthcare 
plan be changed to allow the majority of Selected Reserve participate 
at a 28 percent co-payment level with the balance of the premium being 
paid by the Department of Defense.
    NMVA asks the committee to continue to support funding of the 
revised TRICARE Reserve Select program.
Mobilized Health Care--Dental Readiness of Reservists
    The number one problem faced by Reservists being recalled has been 
dental readiness. A model for healthcare would be the TRICARE Dental 
Program, which offers subsidized dental coverage for Selected 
Reservists and self-insurance for SELRES families.
    In an ideal world this would be universal dental coverage. Reality 
is that the services are facing challenges. Premium increases to the 
individual Reservist have caused some junior members to forgo coverage. 
Dental readiness has dropped. The Military services are trying to 
determine how best to motivate their Reserve Component members but feel 
compromised by mandating a premium program if Reservists must pay a 
portion of it.
    Services have been authorized to provide dental treatment as well 
as examination, but without funding to support this service. By the 
time many Guard and Reserve are mobilized, their schedule is so short 
fused that the processing dentists don't have time for extensive 
repair.
    The National Military Veterans Alliance supports funding for 
utilization of Guard and Reserve Dentists to examine and treat 
Guardsmen and Reservists who have substandard dental hygiene. The 
TRICARE Dental Program should be continued, because the Alliance 
believes it has pulled up overall Dental Readiness.
Demobilized Dental Care
    Under the revised transitional healthcare benefit plan, Guard and 
Reserve who were ordered to active duty for more than 30 days in 
support of a contingency and have 180 days of transition health care 
following their period of active service.
    Similar coverage is not provided for dental restoration. Dental 
hygiene is not a priority on the battlefield, and many Reserve and 
Guard are being discharged with dental readiness levels much lower than 
when they were first recalled. At a minimum, DOD must restore the 
dental state to an acceptable level that would be ready for 
mobilization, or provide some subsidize for 180 days to permit 
restoration from a civilian source.
    Current policy is a 30 day window with dental care being space 
available at a priority less than active duty families.
    NMVA asks the committee for funding to support a DOD's 
demobilization dental care program. Additional funds should be 
appropriated to cover the cost of TRICARE Dental premiums and co-
payment for the six months following demobilization if DOD is unable to 
do the restoration.

                       OTHER RESERVE/GUARD ISSUES

MGIB-SR Enhancements
    Practically all active duty and Selected Reserve enlisted 
accessions have a high school diploma or equivalent. A college degree 
is the basic prerequisite for service as a commissioned officer, and is 
now expected of must enlisted as they advance beyond E-6.
    Officers to promote above O-4 are expected to have a post graduate 
degree.
    This makes the Montgomery G.I. Bill for Selective Reserves (MGIB-
SR) an important recruiting and retention tool. With massive troop 
rotations the Reserve forces can expect to have retention shortfalls, 
unless the government provides incentives such as a college education.
    Education is not only a quality of life issue or a recruiting/
retention issue it is also a readiness issue. Education a Reservist 
receives enhances their careers and usefulness to the military. The 
ever-growing complexity of weapons systems and support equipment 
requires a force with far higher education and aptitude than in 
previous years.
    The problem with the current MGIB-SR is that the Selected Reserve 
MGIB has failed to maintain a creditable rate of benefits with those 
authorized in Title 38, Chapter 30. MGIB-SR has not even been increased 
by cost-of-living increases since 1985. In that year MGIB rates were 
established at 47 percent of active duty benefits. The MGIB-SR rate is 
28 percent of the Chapter 30 benefits. Overall the allowance has inched 
up by only 7 percent since its inception, as the cost of education has 
climbed significantly.
    The NMVA requests appropriations funding to raise the MGIB-SR and 
lock the rate at 50 percent of the active duty benefit. Cost: $25 
million/first year, $1.4 billion over ten.
Bonuses
    Guard and Reserve component members may be eligible for one of 
three bonuses, Prior Enlistment Bonus, Reenlistment Bonus and Reserve 
Affiliation Bonuses for Prior Service Personnel. These bonuses are used 
to keep men and woman in mission critical military occupational 
specialties (MOS) that are experiencing falling numbers or are 
difficult to fill. During their testimony before this committee the 
reserve chiefs addressed the positive impact that bonuses have upon 
retention. This point cannot be understated. The operation tempo, 
financial stress and civilian competition for jobs make bonuses a 
necessary tool for the DOD to fill essential positions. Though the 
current bonus program is useful there is a change that needs to be 
addressed to increase effectiveness.
    The National Guard has been quite successful with a referral 
program, where National Guard members are paid $1,000 for referring an 
individual to join the Guard. Another $1,000 is paid if that individual 
makes it into basic training. This has proved quite successful in the 
Army National Guard attaining its end strength of 350,000.
    The NMVA supports expanding and funding the referral program to the 
federal Reserve Components.
Reserve/Guard Funding
    We are concerned about ongoing DOD initiatives to end ``two days 
pay for one days work,'' and replace it with a plan to provide 1/30 of 
a Month's pay model, which would include both pay and allowances. Even 
with allowances, pay would be less than the current system. When 
concerns were addressed about this proposal, a retention bonus was the 
suggested solution to keep pay at the current levels. Allowances differ 
between individuals and can be affected by commute distances and even 
zip codes. Certain allowances that are unlikely to be paid uniformly 
include geographic differences, housing variables, tuition assistance, 
travel, and adjustments to compensate for missing health care.
    The NMVA strongly recommends that the reserve pay system ``two days 
pay for one days work,'' be funded and retained, as is.
    Ensure adequate funding to equip Guard and Reserve at a level that 
allows them to carry out their mission. Do not turn these crucial 
assets over to the active duty force. In the same vein we ask that the 
Congress ensure adequate funding that allows a Guardsman/Reservist to 
complete 48 drills, and 15 annual training days per member, per year. 
DOD has been tempted to expend some of these funds on active duty 
support rather than personnel readiness.
    The NMVA strongly recommends that Reserve Program funding remain at 
sufficient levels to adequately train, equip and support the robust 
reserve force that has been so critical and successful during our 
Nation's recent major conflicts.

                     ARMED FORCES RETIREMENT HOMES

    Following Hurricane Katrina, Navy/Marine Corps residents from AFRJ-
Gulfport were evacuated from the hurricane-devastated campus and were 
moved to the AFRH-Washington D.C. campus. Dormitories were reopened 
that are in need of refurbishing.
    NMVA urges this subcommittee to fund upgrades to the Washington 
D.C. facility, and also provide funding to rebuild the Gulfport 
facility.

                               CONCLUSION

    Mr. Chairman and distinguished members of the Subcommittee the 
Alliance again wishes to emphasize that we are grateful for and 
delighted with the large steps forward that the Congress has affected 
the last few years. We are aware of the continuing concern all of the 
subcommittee's members have shown for the health and welfare of our 
service personnel and their families. Therefore, we hope that this 
subcommittee can further advance these suggestions in this committee or 
in other positions that the members hold. We are very grateful for the 
opportunity to submit these issues of crucial concern to our collective 
memberships. Thank you.

    Senator Inouye. Our next witness is Mr. Seth Benge, 
Legislative Director, Associations for America's Defense. 
Welcome, sir.

STATEMENT OF SETH BENGE, DIRECTOR OF LEGISLATION, 
            RESERVE ENLISTED ASSOCIATION ON BEHALF OF 
            THE ASSOCIATIONS FOR AMERICA'S DEFENSE
    Mr. Benge. Senator Inouye, Senator Stevens, thank you for 
having me here on behalf of the Associations for America's 
Defense, or A4AD, to share our concerns about equipment.
    My name is Seth Benge, I'm a Legislative Director for the 
Reserve Enlisted Association. As a sergeant in the Marine Corps 
Reserve, I was deployed in 2007 to Iraq, currently I'm an 
officer candidate for the Pennsylvania Army National Guard.
    A4AD looks at national defense, equipment, force structure, 
policy issues not normally addressed by the military support 
community. We would like to thank the subcommittee for their 
ongoing stewardship on issues of defense.
    First I am going to speak about Guard and Reserve 
equipment. With the new Department of Defense policy on 
deployment cycles, it has become even more important that 
equipment get to the various individual Reserve units. In 
addition to the premode training, and the ability to respond to 
a domestic emergency or terrorist attack, also has been 
hampered by equipment shortfalls.
    As always, our military will do everything to accomplish 
these missions, but response time is measured by equipment 
readiness. More money put into re-equipping the Guard and 
Reserve is needed, but funding through the services has not 
been effective, because most of it lacks the kind of oversight 
needed.
    One source of funding--the National Guard and Reserve 
equipment appropriations--would solve this problem. The NGREA 
gives the Reserve chiefs and Congress the control needed to 
track equipment funds. A4AD would like to see the National 
Guard and Reserve equipment appropriations funded at higher 
rates.
    In the current supplemental, it has been proposed that $1 
billion be added to the NGREA. Our industrial base requires 
large lead-times to produce needed equipment. Using the 
supplemental to fund NGREA causes delays in getting equipment 
to the Reserve units. This year, the money needed for the Guard 
and Reserve equipment should go directly into the National 
Guard and Reserve equipment appropriations in the regular 
budget cycle.
    Our current experiences have taught us that the Guard and 
Reserve are needed to engage in almost any conflict. It also 
taught us that we need to make some changes to the way we equip 
the Reserve components. Now is the time to get the process 
right.
    Next year, two programs that directly benefit both Active, 
and Reserve troops in the field. The Soldier Enhancement 
Program, and the similar Marine Enhancement Program, provides 
the capability for innovative, fast and flexible equipping of 
servicemen and women. Through these programs, the military has 
made advancements to individual protection, and to our soldiers 
and marines lethality. Everything from weapons optics, to 
uniforms, to ration to body armor have been developed through 
this system. This year, the Soldier Enhancement Program has an 
unfunded requirement of $18.8 million.
    Finally, the joint improvised explosive device defeat fund 
is a program that develops not only the equipment to defeat 
IEDs, but also the tactics, techniques, and procedures. This 
fund is essential to react to an adaptive enemy, and should be 
fully funded, along with covering the unfunded requirement of 
$152.9 million in current counter-IED devices.
    Thank you, again, for this opportunity to testify before 
the subcommittee. Included in our written testimony is a list 
of unfunded equipment.
    Senator Inouye. Thank you very much, Mr. Benge.
    Senator Stevens. No, you're right, we're working on it, 
that's for sure.
    We are working very hard on that, on the subjects you 
discussed.
    Mr. Benge. Yes, sir, I appreciate that. And so do our, my 
fellow soldiers. We all appreciate your hard work.
    [The statement follows:]

                 Prepared Statement of Seth Allan Benge

                   ASSOCIATIONS FOR AMERICA'S DEFENSE

    Founded in January of 2002, the Association for America's Defense 
is an adhoc group of Military and Veteran Associations that have 
concerns about National Security issues that are not normally addressed 
by The Military Coalition (TMC), and the National Military Veterans 
Alliance (NMVA). The participants are members from each. Among the 
issues that are addressed are equipment, end strength, force structure, 
and defense policy.
Participating Associations
Air Force Association
Enlisted Association National Guard of the United States
Marine Corps Reserve Association
Military Order of World Wars
National Association for Uniformed Services
Naval Enlisted Reserve Association
Navy League of the United States
Naval Reserve Association
Reserve Enlisted Association
Reserve Officers Association
The Retired Enlisted Association

                              INTRODUCTION

    Mister Chairman and distinguished members of the Committee, the 
Associations for America's Defense (A4AD) are very grateful for the 
invitation to testify before you about our views and suggestions 
concerning current and future issues facing the defense appropriations.
    The Association for America's Defense is an adhoc group of eleven 
military and veteran associations that have concerns about national 
security issues that are not normally addressed by either The Military 
Coalition, or the National Military and Veterans Alliance. Among the 
issues that are addressed are equipment, end strength, force structure, 
and defense policy.
    A4AD, also, cooperatively works with other associations, who 
provide input while not including their association name to the 
membership roster.

              CURRENT VERSUS FUTURE; ISSUES FACING DEFENSE

    The Associations for America's Defense would like to thank this 
subcommittee for the on-going stewardship that it has demonstrated on 
issues of Defense. At a time of war, its pro-defense and non-partisan 
leadership continues to set the example.
    Your committee faces numerous issues and decisions. You are 
challenged at weighing people against technology, and where to invest 
dollars. Multi-generations of weapons are being touted, forcing a 
competition for limited budgetary resources.
    Members of A4AD group are concerned that hasty recommendations 
about U.S. Defense policy could place national security at risk. 
Careful study is needed to make the right choice. A4AD is pleased that 
Congress and this subcommittee continue oversight in these decisions.
    In recent years the military has been recreated to fight a new kind 
of warfare. Great strides have been made in providing the right 
equipment to the right people at the right time and in the tactics that 
are employed. There is still more to be done though and it is essential 
to incorporate the lessons learned from the campaigns in Iraq and 
Afghanistan into our current and future decisions.
Rapid Fielding Initiative
    When the Army first moved into Afghanistan in 2002, years of anemic 
funding for troop equipment sent many deploying Soldiers shopping for 
their own hydration systems, navigation tools, and other gear, and 
forced units to scrounge for optics and tripods. Then, a program called 
the Rapid Fielding Initiative (RFI), developed under Program Executive 
Office (PEO) Soldier, overhauled the Army's acquisition process to get 
effective equipment quickly into the hands of Soldiers in theater.
    Now, with the drumbeat of the Army Force Generation (ARFORGEN) 
deployment rhythm gaining momentum across the operating Army, senior 
Army planners decided in November to align their innovative soldier-
equipping program to synchronize with ARFORGEN. That directive formally 
moves the priority of RFI to ensure that all units preparing to deploy, 
Active and Reserve Component alike, receive the program's 58 items of 
basic gear before heading out. RFI's previous focus extended across the 
entire operating Army, including some forces not on a deployment 
roster.
    It appears that the Army will complete its original RFI mission of 
providing enhanced Soldier capabilities to the operating Army by the 
end of fiscal year 2007, but Soldier equipment requirements continue 
beyond that. In addition equipment will continue to be upgraded, new 
equipment will continue to be developed and there will be a need to get 
this in the hands of our servicemen and women.
    The spending surge of RFI has been possible only because of 
supplemental Global War on Terrorism (GWOT) funding. The lessons 
learned on how to produce and field essential equipment at an 
accelerated rate need to be institutionalized. The military cannot 
afford to loose the knowledge on how to be flexible and agile when 
equipping soldiers. If the goal of the Department of Defense is to make 
deployments predictable, then issuing the equipment and other 
requirements to support the model should be predictable, too.
    To ensure predictable and quantifiable funding, future RFI programs 
should be included in the Department of Defense annual budget and the 
Department should study using this program across all the services.
Airlift
    Air Mobility Command assets fly 36,478 hours per month and 
participate in major operations including earthquake and hurricane 
relief, Operation Enduring Freedom, Operation Iraqi Freedom, Operation 
Noble Eagle, and SOUTHCOM. Their contributions in moving cargo and 
passengers are absolutely indispensable to American warfighters in the 
Global War on Terrorism. Both Air Force and Naval airframes and air 
crew are being stressed by these lift missions.
    As the U.S. military continues to become more expeditionary, it 
will require more airlift. DOD should complete the planned buy of 180 
C-17s, and add an additional 60 aircraft at a rate of 15 aircraft per 
year to account to ensure an adequate airlift force for the future and 
allow for attrition--C-17s are being worn out at a higher rate than 
anticipated in the Global War on Terrorism.
    DOD should also continue with a joint multi-year procurement of C-
130Js and press ahead with a C-5 Reliability Enhancement and Re-
engining Program test to see where airlift funds may be best allocated.
    The Navy and Marine Corps need C-40A replacements for the C-9B 
aircraft. The Navy requires Navy Unique Fleet Essential Airlift. The 
maximum range for the C-40A is approximately 1,500 miles more than the 
C-9 with a greater airlift capacity. The C-40A, a derivative of the 
737-700C is a Federal Aviation Administration (FAA) certified, while 
the aging C-9 fleet is not compliant with either future global 
navigation requirements or noise abatement standards that restrict 
flights into European airfields. Twenty-two aircraft remain to be 
replaced.
Tankers
    In need for air refueling is reconfirmed on a daily basis in 
worldwide DOD operations. A significant number of tankers are old and 
plagued with structural problems. The Air Force would like to retire as 
many as 131 of the Eisenhower-era KC-135E tankers by the end of the 
decade.
    DOD and Congress must work together to replacement of these 
aircraft. A replacement could come in the form of a hybrid tanker/
airlifter aircraft, which when produced could ``swing'' from one 
mission to the other as required. Congress should also look at re-
engining a portion of the KC-135 fleet as a short-term fix until newer 
platforms come online.
    Procurement F-22, F-35, MV-22A, C-40A and a replacement for the KC-
135 needs to be accelerated and modernized, and mobility requirements 
need to be reported upon.
Navy Fleet Size
    The current number of ships in the fleet has dropped to 278 ships. 
The Chief of Naval Operations, Admiral Mike Mullen, has set the target 
for the new fleet at 313 ships.
    The Administration procurement rate has been too low. In order to 
raise the number of ships the Navy will need more money to build ships. 
In addition, industrial capacity needs to become a major focus. The 
rate at which ships are built needs to be re-examined so that we keep 
industrial lines open, saving the nation money in the long run. This 
should result in stable funding of the current Annual Long-Range SCN 
Plan.
    A4AD favors a fleet no smaller than 313 ships because of an added 
flexibility to respond to emerging threats. Congress should explore 
options to current construction methods of ship design, configuration, 
and shipbuilding that have created billion dollar destroyers.

                              OTHER ISSUES

Increasing End Strength
    Op tempo and deployment rotation will begin to wear. The official 
position of rotation of 1 year deployed for three years duty for active 
duty and 1 year in six for the Guard and Reserve are targets, but not 
yet reality. Both the Administration and Congress have now called for 
an increase in Army and Marine Corps end strength. These increases will 
have many peripheral effects. These new recruits will need to be 
trained and equipped. The Air Force and Navy will be responsible for 
moving and supplying these troops. Any unfunded end-strength increases 
would put readiness at risk.
    The A4AD supports funding increases in support of the end strength 
boosts of the Active Duty Component of the Army and Marine Corps that 
have been recommended by Congress and the Administration.
    Now is not the time to be cutting the Guard and Reserve. Incentives 
should be utilized to attract prior service members into a growing 
reserve. Additionally, a moratorium on reductions to End Strength of 
the Guard and Reserve should be put into place until Commission on the 
Guard and Reserve can report back to Congress with recommendations.
    The A4AD would like to also put a freeze on reductions to the Guard 
and Reserve manning level.
Regeneration/Resetting of Equipment
    A4AD would like to thank this committee for the regeneration money 
that was included in the Supplemental.
    Aging equipment, high usage rates, austere conditions in Iraq, and 
combat losses are affecting future readiness. Equipment is being used 
at 5 to 10 times the programmed rate.
    Additionally, to provide the best protection possible for Soldiers 
and Marines in the combat theater, many units have left their equipment 
behind for follow-on units, and are returning with no equipment. 
Without equipment on which to train after de-mobilization, readiness 
will become an issue.
    The Army, Army Reserve, Army National Guard, Marines and Marine 
Forces Reserve need continued funding by Congress for equipment 
replacement.
Counter-measures to Improvised Explosive Devices (IED)
    A4AD would like to commend the committee for supporting enhanced 
countermeasures for air and ground troops now deployed. For ground 
troops, the biggest threat to safety continues to be the IED. The 
previous effectiveness of these attacks would suggest that future 
enemies of the United States will incorporate these tactics into their 
doctrine. Defeating these attacks requires a comprehensive approach. 
The military needs to have a formulation that includes human 
intelligence, armor and electronic countermeasures.
    The focus recently has been on the MRAP vehicle and its improved 
survivability, A4AD supports purchasing MRAPs. We also encourage the 
Committee to look at continuing funds for the purpose of researching, 
purchasing and deploying more electronic countermeasures. In this way 
we can provide more comprehensive protection for our troops on the 
battlefield.
    On May 1, the U.S. Army Times newspaper reported that ``Iraqi 
insurgents are launching four times as many attacks with improvised 
explosive devices than in 2003''. However, due to countermeasures, 
``only one in five IED attacks kills or injures U.S. troops'', Pentagon 
spokesperson Christine Devries said. While she did not provide casualty 
figures, Davies said that one in nine U.S. soldiers injured by an IED 
attack dies. The work in creating IED-Counter measures has been 
effective but is not yet complete.
    Continued emphasis is needed for the procurement of sufficient 
quantities of electronic countermeasures to protect personnel deployed 
in the battle space.
Aircraft Survivability Equipment
    Air crews face non-traditional threats used by non-conventional 
forces and deserve the best available warning and countermeasure 
equipment available to provide the greatest degree of safety possible. 
The majority of funds have been expended on fixed aircraft protection; 
approximately 75 percent of U.S. air losses have been rotary wing.
    A4AD hopes that the Committee will continue to support the purchase 
and deployment of warning and countermeasures systems with an emphasis 
on rotary wing aircraft across all of the services and insure that the 
latest and most advanced versions of these protections are made 
available to all units now deployed or slated for deployment in the 
future--be they active duty, Guard or Reserve.
Maintaining the National Guard and Reserve Equipment Appropriations
    One of the most important issues with regards to Guard and Reserve 
Equipment is tracking the appropriated money from Congress to the 
Reserve Components. This theme has been highlighted on several 
occasions from sources in the Assistant Secretary of Defense for 
Reserve Affairs office to LTG Steve Blum, Director National Guard 
Bureau. It is important to note that the Reserve Chiefs, 
overwhelmingly, indicate that Reserve specific equipment is needed more 
now, than ever. Along with this the services need to maintain unit 
cohesion, which means reserve specific equipment for reserve specific 
units. From A4AD's perspective, integration and cross-leveling is 
decreasing the readiness and training for Reserve personnel. Therefore, 
we have to maintain reserve specific equipment and reserve units if we 
are going to continue to be ready for the operational reserve force now 
and well into the future. The best method to ensuring that this happens 
is to fund the Guard and Reserve through the National Guard and Reserve 
Equipment Appropriations (NGREA).
    The NGREA reached a high of $2.5 billion in fiscal year 1991 then 
dropped over the next decade. Recently Congress has been inclined to 
add more money to the NGREA, $1.2 billion in fiscal year 2006, this 
trend should continue. The money given to the Reserve Components in 
this manner allows the Reserve Chiefs the maximum amount of flexibility 
and Congress more oversight. The National Guard and Reserve Equipment 
Appropriations (NGREA) is vital to guaranteeing that the Guard and 
Reserve has funding to procure essential equipment that has not been 
funded by the services.
    A4AD asks this committee to continue to provide appropriations for 
unfunded National Guard and Reserve Equipment Requirements. To 
appropriate funds to Guard and Reserve equipment would help emphasize 
that the Active Duty is exploring dead-ends by suggesting the transfer 
of Reserve equipment away from the Reservists.

                     UNFUNDED EQUIPMENT REQUIREMENTS
            [The services are not listed in priority order.]
------------------------------------------------------------------------
                                                               Amount
------------------------------------------------------------------------
Air Force:
    Aircraft Recapitalization and Modernization..........       $2,602
    Combat Search and Rescue (CSAR) Capability                      24
     Enhancement.........................................
    Common Vertical Lift Support Platform (CVLSP)........          250
    Force Protection Equipment...........................            4.2
    Miniature Air Launched Decoy & Jammer (MALD-J).......           14
Air Force Reserve:
    C-5A Airlift Defense system (ADS)....................           17.3
    C-130H LAIRCM (Large Aircraft I/R Counter Measures)..           56.6
    C-17 LAIRCM..........................................           41.8
    C-130J LAIRCM........................................           22
    C-5 Structures.......................................           22
Air Guard:
    A-10/F-15/F-16 Block 42 reengining...................        1,400
    F-15 Active Electronically Scanned Array radar.......          400
    A-10/F-15/F-16 Helmet Mounted Cueing Systems.........          223
    C-130/C-5/C-17/KC-135 LAIRCM/IRCM Testers............          919
    New C-38s............................................          200
Army:
    MRAP (GSTAMIDS)......................................        2,249
    Stryker..............................................          775.1
    Counter-IED Systems..................................          152.9
    Javalin..............................................          184.2
    Ammo Production Base.................................          190.5
Army Reserve (Total Unfunded Modernization Vehicle
 Requirements $1.826 billion):
    Light-medium trucks (LMTV) 2.5 Ton Truck.............          425
    Medium Tactical Vehicle (MTV) 5.0 Ton Truck..........          761
    Truck Cargo PLS 10x10 M1075..........................          106
    High Mobility Multi-Purpose Wheeled Vehicle (HMMWV)..          304
    High Mobility Multi-Purpose Wheeled Vehicle, up-               133
     armored.............................................
Army Guard:
    High Mobility Multi-Purpose Wheeled Vehicle (HMHWV)..        1,610.6
    Family of Medium Tactical Vehicles (FMTV)............        5,198.1
    High Terrain Vehicles (HEMTT/LHS/PLS)................        1,201.2
    Night Vision (AN/PAS-13, AN/VAS-5)...................        1,912.4
    Communication Systems (JNN, SINCGARS, HF)............        1,997.2
Marine Corps:
    MRAP.................................................        2,800
    Electronic Attack (EA) UAV...........................           10
    Anti-Sniper Infrared Targeting System (ASITS)........            9.8
    Tactical Remote Sensor System (TRSS).................            3.4
Marine Corps Reserve:
    Obtain latest generation of Individual Combat and
     Protective Equipment including:
        M4 rifles
        Rifle Combat Optic (RCO) scopes
        Helmet pad systems
        Small Arms Protective Insert (SAPI) plates
        Night Vision Goggles
    Priorities to reset and modernize USMCR forces:
        Procure principal end-items necessary to
         reestablish Training Allowance to conduct home
         training
        Equip two new Light Armor Reconnaissance
         Companies
        Procure satellite/long-haul communication
         equipment shortfalls
        Update legacy aircraft
    Simulation Training Devises
Navy:
    LPD-17...............................................        1,700
    T-AKE................................................        1,200
    Joint IED Defeat (JIEDDO) Sustainment................            9
    F/A-18E/F/G..........................................          720
    Critical ASW Enhancements............................           96
Navy Reserve:
    C-40 A Combo cargo/passenger Airlift (4).............          330
    Civil Engineering Support Equipment, Tactical                   38
     Vehicles, Communications Equipment and other Table
     of Allowance items supporting.......................
        Naval Coastal Warfare (NCW) Units
        Explosive Ordnance Disposal (EOD) Units
        Naval Construction Forces (NCF)
        Navy Equipment Logistics Support Groups (ELSG)
    C-130, C-9, and C-40A upgrades and spare equipment...           69.7
------------------------------------------------------------------------

                               CONCLUSION

    A4AD is a working group of military and veteran associations 
looking beyond personnel issues to the broader issues of National 
Defense.
    Cuts in manpower and force structure, simultaneously in the Active 
and Reserve Component are concerns in that it can have a detrimental 
effect on surge and operational capability.
    This testimony is an overview, and expanded data on information 
within this document can be provided upon request.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Senator Inouye. Our next witness is Dr. William Strickland, 
representing the American Psychological Association.
    Dr. Strickland.

STATEMENT OF DR. WILLIAM J. STRICKLAND, Ph.D., VICE 
            PRESIDENT, HUMAN RESOURCES RESEARCH 
            ORGANIZATION, ON BEHALF OF THE AMERICAN 
            PSYCHOLOGICAL ASSOCIATION
    Dr. Strickland. Good morning, Mr. Chairman, Senator 
Stevens. I'm Bill Strickland, Vice President of the Human 
Resources Research Organization. I'm testifying today on behalf 
of the American Psychological Association, or APA, a scientific 
and professional organization of more than 145,000 
psychologists and affiliates.
    For decades, psychologists have played vital roles within 
the Department of Defense, as providers of clinical services to 
military personnel and their families, and as scientific 
researchers, investigating issues ranging from airplane cockpit 
design, to human intelligence gathering.
    Psychologists today bring critical expertise to meeting the 
needs of our military and its personnel. In our written 
testimony, you will find APA's request to restore and increase 
funding for important training programs that impact deployed, 
and returning military personnel and their families.
    This morning, I will focus on APA's request that Congress 
reverse administration cuts to the DOD science and technology 
budget, and maintain support for important behavioral science 
research within DOD.
    The President's budget request for 2008 continues a 
familiar process. The administration slashes defense research 
programs, and it's left to the Congress to restore an 
investment in military mission-related research.
    As you've already heard, and know, the administration's 
fiscal year 2008 request includes deep cuts to the Defense S&T 
account, which would fall to $10.9 billion, a cut of over 20 
percent from the enacted fiscal year 2007 level. APA requests a 
total of $13.8 billion for S&T in fiscal year 2008, to return 
S&T funding just to its 2006 level.
    Behavioral research identified by the Defense Science Board 
(DSB) as critical will be cut unless funds are restricted to 
the overall S&T account. In its 2007 report on 21st century 
strategic technology vectors, the DSB identified a set of four 
operational capabilities, and the enabling technologies needed 
to accomplish future military missions. Of the four 
capabilities identified by the DSB for priority funding from 
DOD, the first was ``mapping the human terrain.''
    The DSB called for a significant reinvestment in social and 
behavioral research within DOD. In particular, the DSB called 
for increased DOD research in cognition and decision making, 
individual and team performance, behavioral, social and 
cultural modeling, and human system collaboration. These are 
areas that DOD cannot afford to ignore.
    Behavioral research traditionally has been supported by the 
Army Research Institute, the Office of Naval Research and the 
Air Force Research Laboratory. These military labs need 
sustained, basic, and applied research funding in 2008 to 
expand their reach further into effectively mapping the human 
terrain.
    Finally, APA is concerned with the potential loss of human-
centered research programs within DOD's Counter-Intelligence 
Field Activity (CIFA). Within CIFA, the behavioral sciences 
directorate provides a home for research on counterintelligence 
issues ranging from models of insider threat, to cyber-security 
and detection of deception. CIFA psychologists consult with the 
military services to translate findings from behavioral 
research directly into enhanced, counterintelligence operations 
on the ground.
    APA urges the subcommittee to provide ongoing funding in 
2008 for CIFA's behavioral science directorate, and its 
research programs that provide direct support for military 
counterintelligence, and counterterrorism operations.
    On behalf of APA, I urge the subcommittee to support the 
men and women on the future front lines, by reversing yet 
another round of detrimental cuts to the Defense S&T account, 
and its human-oriented research projects.
    Thank you very much.
    Senator Inouye. Thank you very much, Doctor. As you well 
know, this subcommittee was the first to recognize the validity 
and importance of psychologists.
    Dr. Strickland. Yes, sir, we appreciate that.
    Senator Inouye. And we listen to your words.
    Dr. Strickland. Thank you very much.
    Senator Inouye. Thank you, sir.
    [The statement follows:]

           Prepared Statement of William J. Strickland, Ph.D.

    Mr. Chairman and Members of the Subcommittee, I'm Dr. Bill 
Strickland, former Director of Human Resources Research for the Air 
Force and current Vice President of the Human Resources Research 
Organization. I am submitting testimony on behalf of the American 
Psychological Association (APA), a scientific and professional 
organization of more than 145,000 psychologists and affiliates.
    For decades, psychologists have played vital roles within the 
Department of Defense (DOD), as providers of clinical services to 
military personnel and their families, and as scientific researchers 
investigating mission-targeted issues ranging from airplane cockpit 
design to human intelligence-gathering. More than ever before, 
psychologists today bring unique and critical expertise to meeting the 
needs of our military and its personnel. APA's testimony will focus on: 
(1) increasing funding for the Center for Deployment Psychology (CDP); 
(2) reversing Administration cuts to the overall DOD Science and 
Technology (S&T) budget; and (3) maintaining support for important 
behavioral sciences research within DOD.
Need for Mental and Behavioral Health Services in DOD
    Thousands of military personnel, including those returning from 
ongoing conflicts overseas, are struggling with mental health issues 
such as Post-Traumatic Stress Disorder (PTSD), depression and substance 
abuse. In a recent study released by Walter Reed Army Institute of 
Research (2006), one out of six soldiers and Marines who returned from 
Iraq screened positive for mental illnesses, a prevalence nearly twice 
that observed among soldiers surveyed before deployment. Returning 
Reservists and National Guardsmen may be even more likely than their 
military colleagues to have difficulty accessing established mental 
health services for geographic reasons. APA is concerned that these 
service members' (and their families') mental health needs may go 
unmet, or that they will seek care through civilian providers with 
limited or no experience in treating these populations.
Center for Deployment Psychology
    Because of this concern, the Center for Deployment Psychology (CDP) 
was established in fiscal year 2006 as a new tri-service training 
consortium designed to better prepare psychologists to meet the mental 
and behavioral health needs of service members returning from combat 
and operational environments and their families. The Tri-Service CDP, 
housed at the Uniformed Services University of the Health Sciences, is 
the coordinating center for a network of military psychology internship 
training sites at ten regional DOD health facilities nationwide. CDP 
programs currently are open to both military and civilian 
psychologists, and eventually other health professionals will be 
included as well.
    Through a variety of training formats, ranging from a four-day 
Continuing Education program to a nearly three-week intensive training 
course, the CDP program trains military and civilian psychologists to 
better evaluate and treat combat-injured and combat-experienced service 
personnel.
    Initial funding for CDP in fiscal year 2006 was $3.4 million, which 
was cut to $2.9 million in fiscal year 2007. In fiscal year 2008, APA 
requests $6 million to restore funding for the CDP program and expand 
its services. This vital expansion includes funds to: (1) continue the 
program of training activities currently supported by the CDP; (2) 
create mobile training teams to expand training for military and 
civilian psychologists, including Department of Veterans Affairs 
psychologists and other health providers; (3) initiate the use of 
teleconferences, online learning and web casts and increase web access 
for disseminating information much more widely to military personnel 
and their families; and (4) support research activities to expand our 
knowledge of the psychological and emotional impact of deployment and 
evaluate the impact of CDP programs.
DOD Research
    Just as a large number of psychologists provide high-quality 
clinical services to our military service members stateside and abroad, 
psychological scientists within DOD conduct cutting-edge, mission-
specific research critical to national defense.
    In terms of the overall DOD S&T budget, the President's request for 
fiscal year 2008 was the first step in a process that unfortunately has 
become very familiar over the last decade: the Administration slashes 
defense research programs and it is left to the Congress to restore 
funding and appropriately grow the investment in military mission 
research. In its fiscal year 2008 budget request, the Administration 
included large increases for weapons development but correspondingly 
deep cuts in the defense S&T account, which would fall to $10.9 
billion, a 20.1 percent or $2.7 billion decrease from the enacted 
fiscal year 2007 level. DOD basic research funding would see an 8.7 
percent cut, bringing it down to $1.4 billion in the President's 
request, and applied research support would be cut by 18 percent, for a 
total of $4.4 billion in fiscal year 2008. DARPA's budget would be 
decreased by 1 percent to $3.1 billion.
    The President's budget request for basic and applied research at 
DOD in fiscal year 2008 is $10.9 billion, a drastic 20.1 percent or 
$2.7 billion cut from the enacted fiscal year 2007 level. APA joins the 
Coalition for National Security Research (CNSR), a group of over 40 
scientific associations and universities, in urging the Subcommittee to 
reverse this cut. APA requests a total of $13.8 billion for Defense S&T 
in fiscal year 2008, to return S&T funding to its fiscal year 2006 
level. DOD behavioral research identified by the Defense Science Board 
as critical will be cut without restoring funds to the overall S&T 
account.
Behavioral Research within the Military Service Labs and DOD
    Within DOD, the majority of behavioral, cognitive and social 
science is funded through the Army Research Institute (ARI) and Army 
Research Laboratory (ARL); the Office of Naval Research (ONR); and the 
Air Force Research Laboratory (AFRL), with additional, smaller human 
systems research programs funded through the Office of the Secretary of 
Defense, the Defense Advanced Research Projects Agency (DARPA), and 
DOD's Counterintelligence Field Activity (CIFA).
    The military service laboratories provide a stable, mission-
oriented focus for science, conducting and sponsoring basic (6.1), 
applied/exploratory development (6.2) and advanced development (6.3) 
research. These three levels of research are roughly parallel to the 
military's need to win a current war (through products in advanced 
development) while concurrently preparing for the next war (with 
technology ``in the works'') and the war after next (by taking 
advantage of ideas emerging from basic research). All of the services 
fund human-related research in the broad categories of personnel, 
training and leader development; warfighter protection, sustainment and 
physical performance; and system interfaces and cognitive processing.
    Behavioral and cognitive research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own Report to the Senate 
Appropriations Committee:

    ``Military knowledge needs are not sufficiently like the needs of 
the private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected to 
substitute for service-supported research, development, testing, and 
evaluation . . . our choice, therefore, is between paying for it 
ourselves and not having it.''
Defense Science Board Calls for Priority Research in Social and 
        Behavioral Sciences
    This emphasis on the importance of social and behavioral research 
within DOD is echoed by the Defense Science Board (DSB), an independent 
group of scientists and defense industry leaders whose charge is to 
advise the Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff on scientific, technical, manufacturing, acquisition process, and 
other matters of special interest to the Department of Defense.
    In its recently-released 2007 report on ``21st Century Strategic 
Technology Vectors,'' the DSB identified a set of four operational 
capabilities and the ``enabling technologies'' needed to accomplish 
major future military missions (analogous to winning the Cold War in 
previous decades). In identifying these capabilities, DSB specifically 
noted that ``the report defined technology broadly, to include tools 
enabled by the social sciences as well as the physical and life 
sciences.'' Of the four priority capabilities and corresponding areas 
of research identified by the DSB for priority funding from DOD, the 
first was defined as ``mapping the human terrain.''
    The following quote from this report highlights the need for 
significant investment in social and behavioral science research within 
DOD to address this critical need for increased knowledge about the 
human elements of the battlespace:

    ``Unlike during the Cold War when the United States focused on one 
major, relatively slow-changing but individually formidable adversary, 
in the current era and the foreseeable future, U.S. military forces 
will be called upon to perform a wide range of missions. These include 
major combat, counter-insurgency, stability and reconstruction, 
countering weapons of mass destruction, homeland defense, and disaster 
relief. These varied missions present different challenges calling for 
highly adaptive military forces. One common feature of these missions 
is the increased responsibility placed on junior leaders and the small 
teams they lead . . .
    ``Perhaps most central is to gain deeper understanding of how 
individuals, groups, societies and nations behave and then use this 
information to (1) improve the performance of U.S. forces through 
continuous education and training and (2) shape behavior of others in 
pre-, intra- and post-conflict situations. Key enablers include 
immersive gaming environments, automated language processing and human, 
social, cultural and behavior modeling.'' DSB calls this ``mapping the 
human terrain,'' ``human terrain preparation,'' and says it's one of 
four ``critical capabilities and enabling technologies identified . . . 
[as] a coherent starting point for a science and technology strategy 
that will address 21st century security challenges.''

    In particular, DSB calls for increased DOD research in cognition 
and decision-making, individual and team performance, behavioral/
social/cultural modeling, and human/system collaboration, saying: ``It 
is an area that DOD cannot afford to ignore. DOD needs to become more 
familiar with the theories, methods and models from psychology.'' These 
areas of behavioral research traditionally have been supported by the 
military research laboratories, which need more funding in fiscal year 
2008 to expand their reach even further into ``the human terrain.''
Army Research Institute for the Behavioral and Social Sciences (ARI) 
        and Army Research Laboratory (ARL)
    ARI works to build the ultimate smart weapon: the American soldier. 
ARI was established to conduct personnel and behavioral research on 
such topics as minority and general recruitment; personnel testing and 
evaluation; training and retraining; and attrition. ARI is the focal 
point and principal source of expertise for all the military services 
in leadership research, an area especially critical to the success of 
the military as future war-fighting and peace-keeping missions demand 
more rapid adaptation to changing conditions, more skill diversity in 
units, increased information-processing from multiple sources, and 
increased interaction with semi-autonomous systems. Behavioral 
scientists within ARI are working to help the armed forces better 
identify, nurture and train leaders.
    Another line of research at ARI focuses on optimizing cognitive 
readiness under combat conditions, by developing methods to predict and 
mitigate the effects of stressors (such as information load and 
uncertainty, workload, social isolation, fatigue, and danger) on 
performance. As the Army moves towards its goal of becoming the 
Objective Force (or the Army of the future: lighter, faster and more 
mobile), psychological researchers will play a vital role in helping 
maximize soldier performance through an understanding of cognitive, 
perceptual and social factors.
    ARL's Human Research & Engineering Directorate sponsors basic and 
applied research in the area of human factors, with the goal of 
optimizing soldiers' interactions with Army systems. Specific 
behavioral research projects focus on the development of intelligent 
decision aids, control/display/workstation design, simulation and human 
modeling, and human control of automated systems.
Office of Naval Research (ONR)
    The Cognitive and Neural Sciences Division (CNS) of ONR supports 
research to increase the understanding of complex cognitive skills in 
humans; aid in the development and improvement of machine vision; 
improve human factors engineering in new technologies; and advance the 
design of robotics systems. An example of CNS-supported research is the 
division's long-term investment in artificial intelligence research. 
This research has led to many useful products, including software that 
enables the use of ``embedded training.'' Many of the Navy's 
operational tasks, such as recognizing and responding to threats, 
require complex interactions with sophisticated, computer-based 
systems. Embedded training allows shipboard personnel to develop and 
refine critical skills by practicing simulated exercises on their own 
workstations. Once developed, embedded training software can be loaded 
onto specified computer systems and delivered wherever and however it 
is needed.
Air Force Research Laboratory (AFRL)
    Within AFRL, Air Force Office of Scientific Research (AFOSR) 
behavioral scientists are responsible for basic research on manpower, 
personnel, training and crew technology. The AFRL Human Effectiveness 
Directorate is responsible for more applied research relevant to an 
enormous number of acknowledged Air Force mission needs ranging from 
weapons design, to improvements in simulator technology, to improving 
crew survivability in combat, to faster, more powerful and less 
expensive training regimens.
    As a result of previous cuts to the Air Force behavioral research 
budget, the world's premier organization devoted to personnel selection 
and classification (formerly housed at Brooks Air Force Base) no longer 
exists. This has a direct, negative impact on the Air Force's and other 
services' ability to efficiently identify and assign personnel 
(especially pilots). Similarly, reductions in support for applied 
research in human factors have resulted in an inability to fully 
enhance human factors modeling capabilities, which are essential for 
determining human-system requirements early in system concept 
development, when the most impact can be made in terms of manpower and 
cost savings. For example, although engineers know how to build cockpit 
display systems and night goggles so that they are structurally sound, 
psychologists know how to design them so that people can use them 
safely and effectively.
Maintaining Behavioral Research During CIFA Reorganization
    APA also is concerned with the potential loss of invaluable human-
centered research programs within DOD's Counterintelligence Field 
Activity (CIFA) due to a current reorganization of CIFA's structure and 
personnel strength. Within CIFA, the Behavioral Sciences Directorate 
provides a home for research on counterintelligence issues ranging from 
models of ``insider threat'' to cybersecurity and detection of 
deception. The psychologists also consult with the three military 
services to translate findings from behavioral research directly into 
enhanced counterintelligence operations on the ground.
    APA urges the Subcommittee to provide ongoing funding in fiscal 
year 2008 for CIFA's Behavioral Sciences Directorate and its research 
programs in light of their direct support for military intelligence 
operations.
Summary
    On behalf of APA, I would like to express my appreciation for this 
opportunity to present testimony before the Subcommittee. Clearly, 
psychological scientists address a broad range of important issues and 
problems vital to our national security, with expertise in modeling 
behavior of individuals and groups, understanding and optimizing 
cognitive functioning, perceptual awareness, complex decision-making, 
stress resilience, recruitment and retention, and human-systems 
interactions. We urge you to support the men and women on the front 
lines by reversing another round of dramatic, detrimental cuts to the 
overall defense S&T account and the human-oriented research projects 
within the military laboratories and CIFA. We also urge you to support 
military personnel and their families even more directly by restoring 
and increasing funds for the Center for Deployment Psychology.
    As our nation rises to meet the challenges of current engagements 
in Iraq and Afghanistan as well as other asymmetric threats and 
increased demand for homeland defense and infrastructure protection, 
enhanced battlespace awareness and warfighter protection are absolutely 
critical. Our ability to both foresee and immediately adapt to changing 
security environments will only become more vital over the next several 
decades. Accordingly, DOD must support basic Science and Technology 
(S&T) research on both the near-term readiness and modernization needs 
of the department and on the long-term future needs of the warfighter.
    As noted by the DSB in its report on defense research priorities, 
the ``focus is technology. But the human dimensions still dominate, 
especially in the irregular challenges facing the nation today.''
    Below is suggested appropriations report language for fiscal year 
2008 which would encourage the Department of Defense to fully fund its 
behavioral research programs within the military laboratories:

                         DEPARTMENT OF DEFENSE

               Research, Development, Test and Evaluation
    Behavioral Research in the Military Service Laboratories.--The 
Committee notes the increased demands on our military personnel, 
including high operational tempo, leadership and training challenges, 
new and ever-changing stresses on decision-making and cognitive 
readiness, and complex human-technology interactions. To help address 
these issues vital to our national security, the Committee has provided 
increased funding to reverse cuts to basic and applied psychological 
research through the military research laboratories: the Air Force 
Office of Scientific Research and Air Force Research Laboratory; the 
Army Research Institute and Army Research Laboratory; and the Office of 
Naval Research.

    Senator Inouye. Our next witness is Ms. Fran Visco, 
President of the National Breast Cancer Coalition.

STATEMENT OF FRAN VISCO, J.D., PRESIDENT, NATIONAL 
            BREAST CANCER COALITION
    Ms. Visco. Good morning, Mr. Chairman, Senator Stevens.
    As you know, I'm a 19-year breast cancer survivor, a wife 
and mother, and President of the National Breast Cancer 
Coalition, which is a coalition of more than 600 organizations 
from across the country, and tens of thousands of individuals. 
And, on behalf of our membership, I want to thank you for your 
continuing support of the DOD peer-reviewed breast cancer 
research program. You have both been leaders in maintaining the 
integrity of this program, and making it the success it is 
today.
    However, we still do not have the answers we need for 
breast cancer. We have made progress, but we do not have 
answers. And nothing shows us that more than the fact that last 
week, the Vice President of the Board of the National Breast 
Cancer Coalition was diagnosed with metastatic breast cancer 
after 16 years from her initial diagnosis. We do not know how 
to cure this disease, and we certainly don't know how to 
prevent it.
    Karen Loss, a woman who sits on the panel that oversees the 
DOD Program, and also a volunteer for our organization, and a 
retired military woman, living with metastatic disease, and 
becoming more ill as the days go by.
    This program is where the answers lie. Women and their 
families across the country believe that. This is where our 
hope is. This program has been astounding. The collaboration 
that has resulted among the military, the scientific community 
and the patient advocacy community across the country is 
unprecedented. I have been told over and over again by members 
of the military that the model that this program sets has been 
copied by the military in other areas. This model that the DOD 
Breast Cancer Program has set has also been copied by other 
States, and by other countries.
    The program has been objectively evaluated twice by the 
National Academy of Sciences and both times they have lauded 
the program, not just for its successes, but for the way it 
operates. This program is transparent--everything that is 
funded with taxpayer dollars is open to the country--you can go 
onto the website and see every proposal that has been funded. 
And every 2 years, the program reports to the public where 
their tax dollars have gone, and what the progress is in the 
research that we funded.
    This program is efficient--90 percent of the funds go to 
research. The administrative costs are not quite 10 percent. It 
fills gaps in traditional research mechanisms, this is the 
program that can respond very quickly to what's happening in 
the scientific world--looking at areas of nanotechnology, 
looking at not just how to treat metastatic breast cancer, but 
also what causes metastatic breast cancer. Looking at possible 
vaccines to prevent and treat breast cancer--how do we prevent 
breast cancer without drugs? Looking at issues of health 
disparities.
    This program must continue, and we truly appreciate your 
leadership in making that happen over the past years. Again, 
this is where our hope is, and we look forward to continuing to 
work with you, to make certain the program maintains its 
integrity, efficiency and success.
    I thank you very much.
    Senator Inouye. I thank you very much, Ms. Visco. I'm 
certain very few people are aware that the father of the Breast 
Cancer Research Program in the Department of Defense is Senator 
Stevens.
    Ms. Visco. We are certainly aware of that.
    Senator Inouye. It really had to be in some other 
subcommittee, but we decided we have the money, so we'll fund 
you.
    Ms. Visco. Yes, we really, we truly appreciate it, and it 
has made such a difference, not just in breast cancer, but in 
other diseases as well.
    Senator Inouye. And I lost my wife of 57 years about 1 year 
ago and, of cancer, so I take it personally now.
    Ms. Visco. I'm very sorry. Thank you.
    Senator Inouye. So you're a--got support here.
    Senator Stevens. And, I'm an 18-year survivor of prostate 
cancer, so far, but I should tell you, you know, that the 
difficulty is, these are earmarks. Every time you hear someone 
talking against congressional earmarks, ask them if they know 
about breast cancer.
    Ms. Visco. Yes, we have that conversation over and over 
again----
    Senator Stevens. Thank you.
    Ms. Visco. And this, as you know, is an incredibly well-
run, efficient, competitive program. So, we appreciate your 
support of that. Thank you.
    Senator Inouye. Thank you.
    [The statement follows:]

                 Prepared Statement of Fran Visco, J.D.

    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on Defense, for the opportunity to talk to you about a 
program that has made a significant difference in the lives of women 
and their families. You have shown great determination and leadership 
in funding the Department of Defense (DOD) Peer-Reviewed Breast Cancer 
Research Program (BCRP) at a level that has brought us closer to 
eradicating this disease. Chairman Inouye and Ranking Member Stevens, 
we have appreciated your personal support of this program in the past. 
I am hopeful that you and your Committee will continue that 
determination and leadership.
    I am Fran Visco, a breast cancer survivor, a wife and mother, a 
lawyer, and President of the National Breast Cancer Coalition (NBCC). 
On behalf of NBCC, and the more than 3 million women living with breast 
cancer, I would like to thank you again for the opportunity to testify.
    I know you recognize the importance of this program to women and 
their families across the country, to the scientific and health care 
communities and to the Department of Defense. Much of the progress in 
the fight against breast cancer has been made possible by the 
Appropriations Committee's investment in breast cancer research through 
the DOD BCRP. This program has launched new models of biomedical 
research that have benefited other agencies and both public and private 
institutions. It has changed for the better the way research is 
performed and has been replicated by programs focused on other 
diseases, by other countries and states. To support this unprecedented 
progress moving forward, we ask that you support a separate $150 
million appropriation for fiscal year 2008. In order to continue the 
success of the program, you must ensure that it maintain its integrity 
and separate identity, in addition to the requested level of funding. 
This is important not just for breast cancer, but for all biomedical 
research that has benefited from this incredible government program. In 
addition, as Institute of Medicine (IOM) reports concluded in 1997 and 
2004, there continues to be excellent science that would go unfunded 
without this program. It is only through a separate appropriation that 
this program is able to continue to focus on breast cancer yet impact 
all other research, rapidly respond to changes and new discoveries in 
the field and fill the gaps created by traditional funding mechanisms.
    Despite the enormous successes and advancements in breast cancer 
research made through funding from the DOD BCRP, we still do not know 
what causes breast cancer, how to prevent it, or how to cure it. It is 
critical that innovative research through this unique program continues 
so that we can move forward toward eradicating this disease.
    As you know, the National Breast Cancer Coalition is a grassroots 
advocacy organization made up of hundreds of organizations and tens of 
thousands of individuals and has been working since 1991 toward the 
eradication of breast cancer through advocacy and action. NBCC supports 
increased funding for breast cancer research, increased access to 
quality health care for all, and increased influence of breast cancer 
activists at every table where decisions regarding breast cancer are 
made.

           OVERVIEW OF THE DOD BREAST CANCER RESEARCH PROGRAM

    The DOD Peer-Reviewed Breast Cancer Research Program has 
established itself as a model medical research program, respected 
throughout the cancer and broader medical community for its innovative 
and accountable approach. The groundbreaking research performed through 
the program has the potential to benefit not just breast cancer, but 
all cancers, as well as other diseases. Biomedical research is being 
transformed by the BCRP's success.
    This program is both innovative and incredibly streamlined. It 
continues to be overseen by a group of distinguished scientists and 
activists, as recommended by the IOM. Because there is little 
bureaucracy, the program is able to respond quickly to what is 
currently happening in the scientific community. Because of its 
specific focus on breast cancer, it is able to rapidly support 
innovative proposals that reflect the most recent discoveries in the 
field. It is responsive, not just to the scientific community, but also 
to the public.
    Since its inception, this program has matured into a broad-reaching 
influential voice forging new and innovative directions for breast 
cancer research and science. The flexibility of the program has allowed 
the Army to administer this groundbreaking research effort with 
unparalleled efficiency and effectiveness.
    In addition, an integral part of this program has been the 
inclusion of consumer advocates at every level. As a result, the 
program has created an unprecedented working relationship between the 
public, scientists and the military, and ultimately has led to new 
avenues of research in breast cancer. Since 1992, over 977 breast 
cancer survivors have served on the BCRP review panels. Their vital 
role in the success of the BCRP has led to consumer inclusion in other 
biomedical research programs at DOD. This program now serves as an 
international model.
    It is important to note that the DOD Integration Panel that designs 
this program has a strategic plan for how best to spend the funds 
appropriated. This plan is based on the state of the science--both what 
scientists know now and the gaps in our knowledge--as well as the needs 
of the public. This plan ensures that we do not want to restrict 
scientific freedom, creativity or innovation. While we carefully 
allocate these resources, we do not want to predetermine the specific 
research areas to be addressed.

                      UNIQUE FUNDING OPPORTUNITIES

    Developments in the past few years have begun to offer breast 
cancer researchers fascinating insights into the biology of breast 
cancer and have brought into sharp focus the areas of research that 
hold promise and will build on the knowledge and investment we have 
made. The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. The Concept Awards bring funding even earlier in the process 
of discovery. These grants have been instrumental in the development of 
promising breast cancer research. These grants have allowed scientists 
to explore beyond the realm of traditional research and have unleashed 
incredible new ideas and concepts. IDEA and Concept grants are uniquely 
designed to dramatically advance our knowledge in areas that offer the 
greatest potential. IDEA and Concept grants are precisely the type of 
grants that rarely receive funding through more traditional programs 
such as the National Institutes of Health and private research 
programs. Therefore, they complement, and do not duplicate, other 
federal funding programs. This is true of other DOD award mechanisms as 
well.
    The Innovator awards are structured to invest in world renowned, 
outstanding individuals, rather than projects, from any field of study 
by providing funding and freedom to pursue highly creative, potentially 
breakthrough research that could ultimately accelerate the eradication 
of breast cancer. The Era of Hope Scholar Award is intended to support 
the formation of the next generation of leaders in breast cancer 
research, by identifying the best and brightest independent scientists 
early in their careers and giving them the necessary resources to 
pursue a highly innovative vision toward ending breast cancer.
    These are just a few examples of innovative approaches at the DOD 
BCRP that are filling gaps in breast cancer research. Scientists have 
lauded the program and the importance of the various award mechanisms. 
In 2005, Zelton Dave Sharp wrote about the importance of the Concept 
award mechanism.

    ``Our Concept grant has enabled us to obtain necessary data to 
recently apply for a larger grant to support this project. We could 
have never gotten to this stage without the Concept award. Our eventual 
goal is to use the technology we are developing to identify new 
compounds that will be effective in preventing and/or treating breast 
cancer . . . Equally important, however, the DOD BCRP does an 
outstanding job of supporting graduate student trainees in breast 
cancer research, through training grants and pre-doctoral fellowships . 
. . The young people supported by these awards are the lifeblood of 
science, and since they are starting their training on projects 
relevant to breast cancer, there is a high probability they will devote 
their entire careers to finding a cure. These young scientists are by 
far the most important `products' that the DOD BCRP produces.''    --
Zelton Dave Sharp, Associate Professor, Interim Director/Chairman, 
Institute of Biotechnology/Dept. Molecular Medicine, University of 
Texas Health Science Center (August 2005)

    Indeed, in April of 1999, John Niederhuber, now the Director of the 
National Cancer Institute (NCI), said the following about the program 
when he was Director of the University of Wisconsin Comprehensive 
Cancer Center:

    ``Research projects at our institution funded by the Department of 
Defense are searching for new knowledge in many different fields 
including: identification of risk factors, investigating new therapies 
and their mechanism of action, developing new imaging techniques and 
the development of new models to study [breast cancer] . . . Continued 
availability of this money is critical for continued progress in the 
nation's battle against this deadly disease.''

    Scientists and consumers agree that it is vital that these grants 
are able to continue to support breast cancer research--$150 million 
for peer-reviewed research will help sustain the program's momentum.
    Moreover, the DOD BCRP focuses on moving research from the bench to 
the bedside. A major feature of the awards offered by the BCRP is that 
they are designed to fill niches that are not offered by other 
agencies. The BCRP considers translational research to be the 
application of well-founded laboratory or other pre-clinical insight 
into a clinical trial. To enhance this critical area of research, 
several research opportunities have been offered. Clinical 
Translational Research Awards have been awarded for investigator-
initiated projects that involve a clinical trial within the lifetime of 
the award. The BCRP expanded its emphasis on translational research by 
offering five different types of awards that support work at the 
critical juncture between laboratory research and bedside applications.
    The Centers of Excellence award mechanism brings together the 
world's most highly qualified individuals and institutions to address a 
major overarching question in breast cancer research that could make a 
major contribution towards the eradication of breast cancer. These 
Centers put to work the expertise of basic, epidemiology and clinical 
researchers, as well as consumer advocates to focus on a major question 
in breast cancer research. Many of these centers are working on 
questions that will translate into direct clinical applications.

                        SCIENTIFIC ACHIEVEMENTS

    The BCRP research portfolio is comprised of many different types of 
projects, including support for innovative ideas, networks to 
facilitate clinical trials, and training of breast cancer researchers.
    One of the most promising outcomes of research funded by the BCRP 
was the development of Herceptin, a drug that prolongs the lives of 
women with a particularly aggressive type of advanced breast cancer. 
This drug could not have been developed without first researching and 
understanding the gene known as HER-2/neu, which is involved in the 
progression of some breast cancers. Researchers found that over-
expression of HER-2/neu in breast cancer cells results in very 
aggressive biologic behavior. Most importantly, the same researchers 
demonstrated that an antibody directed against HER-2/neu could slow the 
growth of the cancer cells that over-expressed the gene. This research, 
which led to the development of the drug Herceptin, was made possible 
in part by a DOD BCRP-funded infrastructure grant. Other researchers 
funded by the BCRP are currently working to identify similar kinds of 
genes that are involved in the initiation and progression of cancer. 
They hope to develop new drugs like Herceptin that can fight the growth 
of breast cancer cells.
    Another example of innovation in the program is in the area of 
imaging. One DOD BCRP awardee developed a new use for medical 
hyperspectral imaging (MHSI) technology. This work demonstrated the 
usefulness of MHSI as a rapid, noninvasive, and cost-effective 
evaluation of normal and tumor tissue during a real-time operating 
procedure. Application of MHSI to surgical procedures has the potential 
to significantly reduce local recurrence of breast tumors and may 
facilitate early determination of tumor malignancy.
    Several studies funded by the BCRP will examine the role of 
estrogen and estrogen signaling in breast cancer. For example, one 
study examined the effects of the two main pathways that produce 
estrogen. Estrogen is often processed by one of two pathways; one 
yields biologically active substances while the other does not. It has 
been suggested that women who process estrogen via the biologically 
active pathway may be at higher risk of developing breast cancer. It is 
anticipated that work from this funding effort will yield insights into 
the effects of estrogen processing on breast cancer risk in women with 
and without family histories of breast cancer.
    One DOD IDEA award success has supported the development of new 
technology that may be used to identify changes in DNA. This technology 
uses a dye to label DNA adducts, compounds that are important because 
they may play a role in initiating breast cancer. Early results from 
this technique are promising and may eventually result in a new marker/
method to screen breast cancer specimens.

                        FEDERAL MONEY WELL SPENT

    The DOD BCRP is as efficient as it is innovative. In fact, 90 
percent of funds go directly to research grants. The flexibility of the 
program allows the Army to administer it in such a way as to maximize 
its limited resources. The program is able to quickly respond to 
current scientific advances and fulfills an important niche by focusing 
on research that is traditionally under-funded. This was confirmed and 
reiterated in two separate IOM reports released in 1997 and 2004. It is 
responsive to the scientific community and to the public. This is 
evidenced by the inclusion of consumer advocates at both the peer and 
programmatic review levels. The consumer perspective helps the 
scientists understand how the research will affect the community, and 
allows for funding decisions based on the concerns and needs of 
patients and the medical community.
    Since 1992, the BCRP has been responsible for managing $1.94 
billion in appropriations. From its inception through fiscal year 2005, 
4,674 awards at over 420 institutions throughout the United States and 
the District of Columbia have been granted. Approximately 200 awards 
will be granted for fiscal year 2006. The areas of focus of the DOD 
BCRP span a broad spectrum and include basic, clinical, behavioral, 
environmental sciences, and alternative therapy studies, to name a few. 
The BCRP benefits women and their families by maximizing resources and 
filling in the gaps in breast cancer research. Scientific achievements 
that are the direct result of the DOD BCRP grants are undoubtedly 
moving us closer to eradicating breast cancer.
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
9,500 publications in scientific journals, more than 10,000 abstracts 
and more than 350 patents/licensure applications. The federal 
government can truly be proud of its investment in the DOD BCRP.

               INDEPENDENT ASSESSMENTS OF PROGRAM SUCCESS

    The National Breast Cancer Coalition has been the driving force 
behind this program for many years. The success of the DOD Peer-
Reviewed Breast Cancer Research Program has been illustrated by several 
unique assessments of the program. The IOM, which originally 
recommended the structure for the program, independently re-examined 
the program in a report published in 1997. They published another 
report on the program in 2004. Their findings overwhelmingly encouraged 
the continuation of the program and offered guidance for program 
implementation improvements.
    The 1997 IOM review of the DOD Peer-Reviewed Breast Cancer Research 
Program commended the program, stating, ``the program fills a unique 
niche among public and private funding sources for cancer research. It 
is not duplicative of other programs and is a promising vehicle for 
forging new ideas and scientific breakthroughs in the nation's fight 
against breast cancer.'' The IOM report recommended continuing the 
program and established a solid direction for the next phase of the 
program. The 2004 report reiterated these same statements and indicated 
that is important for the program to continue. It is imperative that 
Congress recognizes the independent evaluations of the DOD Breast 
Cancer Research Program and reiterates its own commitment to the 
program by appropriating the funding needed to ensure its success. The 
program's design--both its programmatic and peer review, as well as 
consumer involvement--and the program's successes have been applauded 
in several publications throughout the years, including: Breast 
Disease; Science; and the Journal of Women's Health and Gender-Based 
Medicine.

               TRANSPARENT AND ACCOUNTABLE TO THE PUBLIC

    The DOD Peer-Reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people at a 
biennial public meeting called the Era of Hope. The 1997 meeting was 
the first time a federally funded program reported back to the public 
in detail not only on the funds used, but also on the research 
undertaken, the knowledge gained from that research and future 
directions to be pursued. The transparency of the BCRP allows 
scientists, consumers and the American public to see the exceptional 
progress made in breast cancer research.
    At the 2005 Era of Hope meeting, all BCRP award recipients from the 
past two years were invited to report their research findings, and many 
awardees from previous years were asked to present advancements in 
their research. Themes for the 2005 meeting included: Understanding 
Risk--A Different Perspective; Understanding Who Needs Intervention and 
Understanding Treatments--Effectively Treating Primary and Metastatic 
Disease. The meeting also featured grant recipients who have delved 
into the topic of breast cancer heterogeneity. For example, gene 
expression profiling technologies have allowed researchers to identify 
several breast cancer ``types.'' Recognition of the heterogeneous 
character of breast cancer will allow for better selection of patient 
subgroups for clinical trials testing targeted therapies. Other 
researchers presented their research on many important topics ranging 
from the usage of nanotechnology to find and treat breast cancer to 
identifying and destroying progenitor breast cancer cells to developing 
better clinical trials that still ensure patient safety and make sure 
that treatments are safe.
    The DOD Peer-Reviewed Breast Cancer Research Program has attracted 
scientists across a broad spectrum of disciplines, launched new 
mechanisms for research and has continued to facilitate new thinking in 
breast cancer research and research in general. A report on all 
research that has been funded through the DOD BCRP is available to the 
public. Individuals can go to the Department of Defense website and 
look at the abstracts for each proposal at http://cdmrp.army.mil/
bcrp/.

           COMMITMENT OF THE NATIONAL BREAST CANCER COALITION

    The National Breast Cancer Coalition is strongly committed to the 
DOD program in every aspect, as we truly believe it is one of our best 
chances for finding cures and preventions for breast cancer. The 
Coalition and its members are dedicated to working with you to ensure 
the continuation of funding for this program at a level that allows 
this research to forge ahead. From 1992 with the launch of our ``300 
Million More Campaign'' that formed the basis of this program to date, 
NBCC activists have appreciated your support.
    Over the years, our members have shown their continuing support for 
this program through petition campaigns, collecting more than 2.6 
million signatures, and through their advocacy on an almost daily basis 
around the country asking for support of the DOD BCRP.
    As you know, there are three million women living with breast 
cancer in this country today. This year more than 40,460 will die of 
the disease and nearly 240,510 will be diagnosed. We still do not know 
how to prevent breast cancer, how to diagnose it truly early or how to 
cure it. While the mortality rate seems to be decreasing, it is not by 
much and it is not for all groups of women. It is an incredibly complex 
disease. We simply cannot afford to walk away from these facts, we 
cannot go back to the traditional, tried and not so true ways of 
dealing with breast cancer. We must, we simply must, continue the 
innovative, rapid, hopeful approach that is the DOD BCRP.
    Two weeks ago many of the women and family members who supported 
the campaign to gather the 2.6 million signatures came to NBCCF's 
Annual Advocacy Training Conference here in Washington, D.C. More than 
600 breast cancer activists from across the country, representing 
groups in their communities and speaking on behalf of tens of thousands 
of others, were here as part of our efforts to end breast cancer. The 
overwhelming interest in and dedication to eradicating this disease 
continues to be evident as people not only are signing petitions, but 
are willing to come to Washington, D.C. from across the country to tell 
their members of Congress about the vital importance of continuing the 
DOD BCRP.
    Since the very beginning of this program in 1992, Congress has 
stood with us in support of this important investment in the fight 
against breast cancer. In the years since, Chairman Inouye and Ranking 
Member Stevens, you and this entire Committee have been leaders in the 
effort to continue this innovative investment in breast cancer 
research.
    NBCC asks you, the Defense Appropriations Subcommittee, to 
recognize the importance of what has been initiated by the 
Appropriations Committee. You have set in motion an innovative and 
highly efficient approach to fighting the breast cancer epidemic. What 
you must do now is support this effort by continuing to fund the 
program at $150 million and maintain its integrity. This is research 
that will help us win this very real and devastating war against a 
cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to all women and their families, and especially to the 3 
million women in the United States living with breast cancer.

    Senator Inouye. Our next witness is Dr. Joan Lappe, of 
Creighton University, on behalf of the National Coalition for 
Osteoporosis and Related Bone Disease.

STATEMENT OF DR. JOAN LAPPE, Ph.D., CLINICAL SCIENTIST, 
            OSTEOPOROSIS RESEARCH CENTER, CREIGHTON 
            UNIVERSITY, ON BEHALF OF THE NATIONAL 
            COALITION FOR OSTEOPOROSIS AND RELATED BONE 
            DISEASES
    Dr. Lappe. Mr. Chairman, Senator Stevens. We greatly 
appreciate the opportunity to discuss the need for continued 
funding of the Department of Defense Bone Health and Military 
Readiness Program, I'll refer to that as the Bone Health 
Program.
    The Bone Coalition, the Coalition for Osteoporosis and 
Related Bone Diseases, is committed to reducing the impact of 
bone diseases through expanded research.
    The mission of the Department of Defense Bone Health 
Program is to advance bone physiology research that can lead to 
strategies to improve bone health, reduce stress fractures 
during physically intensive training, and have our military 
personnel ready for combat deployment.
    An effort currently underway is targeting the elimination 
of stress fractures, which cause significant morbidity and can 
even lead to permanent disability, particularly the hip 
fractures that can occur in these young recruits.
    Stress fractures are among the most common injuries in 
military recruits. The incidents range from about 5 percent in 
males, to as high as 21 percent in female recruits. The recent 
increase in military recruitment has led to an upsurge in the 
total number of stress fractures reported.
    An additional concern is that soldiers who are returning 
from lengthy deployments are sustaining stress fractures in 
unprecedented numbers.
    The impact of stress fractures on the military is 
significant. In the U.S. Army, 40 percent of men, and 60 
percent of women who sustain a stress fracture, do not complete 
their basic training. At one U.S. Army training base alone, an 
estimated $26 million was lost for soldiers discharged from 
training before, during a 1-year period. Now, the cost averages 
more than $34,000 per soldier discharged, and that does not 
include the cost of healthcare.
    Research funded by the Bone Health Program has already been 
very productive. For example, research-based recommendations to 
decrease the training, marching, and running volume has led to 
a decrease in stress fracture incidents. In the first study of 
its kind, our research group found that vitamin D and calcium 
supplementation reduced the incidents of stress fractures in 
young females by 25 percent. There are examples of studies that 
are currently in progress, include--there's a study to 
establish sort of a risk factor profile, so that you could 
target individuals who are going to be at high risk. Also, 
we're exploring gender differences in the response to active 
training.
    We need further research that includes better description 
of relationships between stress fractures and the gaits of the 
recruit, their carriage patterns, their biomechanics, how they 
fall on their legs. We need studies to improve bone quality in 
those high-risk interventions, and we want to take a look at 
pre-basic training exercise programs, more dietary 
supplementation, and also a new technology called ``whole body 
vibration.''
    We also need to determine the efficacy of different 
treatments that could increase healing of stress fractures. 
Some things that are being considered are parathyroid hormone, 
ultrasound, and again, whole body vibration.
    Though small in size, the Bone Health Program is providing 
the military with realistic solutions that protect, sustain and 
enhance soldier performance, and skeletal health across a 
continuum of military operations.
    Mr. Chairman, and Senator Stevens, stress fractures 
continue to be a critical obstacle to military readiness, and 
timely deployment. It's imperative that the Department of 
Defense build on recent findings, and maintain an aggressive 
and sustained Bone Health Program.
    The Coalition for Osteoporosis and Related Diseases is 
asking that you fund this for $5 million in 2008.
    Thank you for your time and attention.
    Senator Inouye. Thank you very much, Dr. Lappe.
    [The statement follows:]

                  Prepared Statement of Dr. Joan Lappe

    Mr. Chairman and Members of the Committee: I am Joan Lappe, Ph.D., 
a clinical scientist at the Creighton University Osteoporosis Research 
Center in Omaha, NE and I am testifying on behalf of the National 
Coalition for Osteoporosis and Related Bone Diseases (the Bone 
Coalition).
    The Bone Coalition is most appreciative of this opportunity to 
discuss with you the need for continued funding of the Bone Health and 
Military Medical Readiness program within the Department of Defense.
    The Bone Coalition is committed to reducing the impact of bone 
diseases through expanded basic, clinical, epidemiological and 
behavioral research leading to improvement in patient care. The 
Coalition participants are prominent national bone disease 
organizations--the American Society for Bone and Mineral Research, the 
National Osteoporosis Foundation, the Osteogenesis Imperfecta 
Foundation, and The Paget Foundation for Paget's Disease of Bone and 
Related Disorders.
    The mission of the Bone Health and Military Medical Readiness 
program is to advance bone physiology research that may lead to 
strategies to improve bone health of men and women, reduce stress 
fracture rates during physically intensive training, and have our 
military personnel ready for combat deployment.
    An effort currently underway is targeting the elimination of stress 
fractures. A stress fracture is an overuse injury. It occurs when bones 
are repetitively loaded over short periods without sufficient time for 
adaptation and repair. It is seen most often among persons who are 
involved in physical activity to which they are not adapted. The first 
injury, as well as re-injury, can lead to chronic problems. In 
addition, some of these stress fractures, particularly of the hip, lead 
to permanent disability.
    Stress fractures are among the most common overuse injuries seen in 
military recruits. The incidence in males ranges from 0.2-5.2 percent. 
The incidence in females is higher, ranging from 1.6-21.0 percent.
    The recent increase in military recruitment has led to an upsurge 
in the total number of stress fracture cases reported. An additional 
concern is the increased number of documented stress fracture injuries 
over the last two years in soldiers who have recently returned from 
lengthy deployment. Anecdotal reports from troop medical clinics 
indicate that these soldiers are sustaining stress fractures in 
unprecedented numbers.
    The impact of stress fractures is significant. Recent data obtained 
from the Bone Health and Military Medical Readiness (BHMMR) program 
indicate that:
  --In the U.S. Army, 40 percent of men and 60 percent of women 
        trainees with stress fracture do not complete basic training.
  --At one U.S. Army training base alone, an estimated $26 million was 
        lost in training costs for the 749 soldiers discharged from 
        training over a one year period.
  --This is more than $34,000 per soldier and does not include costs 
        related to health care.
    The Department of Defense recognized the severity and magnitude of 
stress fractures within its population and commissioned the Institute 
of Medicine (IOM) to examine the incidence of stress fractures in 
military basic training. In particular, the IOM was asked to address 
why the incidence of stress fractures in military basic training was 
greater for women than men. IOM's findings were published in 1998 and 
concluded that the prevalence of stress fracture has a marked impact on 
the health of service personnel, imposing a significant financial 
burden on the military by delaying completion of the training of new 
recruits. It further concluded that the low initial fitness of 
recruits, both cardiorespiratory and musculoskeletal, appeared to be 
the principal factor in the development of stress fractures during 
basic training.
    Stress fractures and other bone related injuries erode the physical 
capabilities and reduce the effectiveness of our combat training units, 
compromising military readiness. Research conducted by the Bone Health 
and Military Medical Readiness program is highly focused on research 
areas that are a direct result of the physical demands that our service 
members are required to undergo in training and deployment.
Research Results
    To date, the results of research funded under the Bone Health and 
Military Medical Readiness program have led, for example, to 
recommendations to reduce running and marching volume during recruit 
training. The changes to basic combat training, implemented by the 
Physical Fitness School and the Center for Health Promotion and 
Preventive Medicine and input from the U.S. Army Research Institute of 
Environmental Medicine and the BHMMR program, have led to a decline in 
stress fracture incidence.
    In addition, studies have revealed an association between bone size 
and observed gender differences in stress fracture incidence. Lower 
bone/muscle ratio of the calf was associated with increased stress 
fracture risk in women. Biomechanical factors may also contribute to 
stress fracture incidence, and might be corrected through gait 
retraining. Studies using new imaging technology indicate that exercise 
may result in changes in bone strength through changes in geometry.
    In the first of a kind study, Vitamin D and calcium supplementation 
in new Navy recruits was found to decrease stress fracture incidence by 
25 percent.
    With a sufficient funding level, the Bone Health program can build 
on these results and research efforts currently underway.
Studies Currently in Progress
    Utilization of data from all relevant BHMMR and Defense Women's 
Health Initiative studies to establish a risk factor profile for stress 
fracture injury. This model will be used to identify individuals at 
risk for stress fracture. Science-based, targeted intervention programs 
can then be implemented in an effort to prevent stress fracture injury 
in these susceptible recruits.
    Exploration of gender differences in the physiological response to 
strenuous exercise during strenuous training programs in a military 
population, with an emphasis on prevention of stress fracture injury.
    The study of bone health is not a simple task, as bone health 
requires a complex interaction between exercise and other factors that 
affect bone remodeling, such as nutrition, hormonal status, genetics, 
and biomechanics. Currently, there is a distinct gap in understanding 
risk factors for stress fracture, interventions to improve bone 
quality, advances in imaging technologies and interventions to speed 
bone healing.
Future Research Needs
    Risk Factors for Stress Fractures.--Research that relates stress 
fracture injury with: quantifiable training regimens; bone geometry and 
density; load carriage; gait patterns (march cadence, running, etc); 
tibial biomechanics. Validation studies in a recruit population are 
also indicated prior to use and implementation of the model in an 
active-duty population.
    Interventions to Improve Bone Quality.--Gender studies are of 
special interest, given the persistent gender differences that have 
been observed in studies. Laboratory based intervention studies, 
followed by large-scale interventions in a military population are 
necessary to test the effectiveness of proposed interventions in 
decreasing stress fracture injury. Indicated interventions for 
individuals susceptible to injury include, but are not limited to 
modified load carriage requirements; gait and march formation 
modifications; gait retraining; pre-basic training exercise programs; 
dietary supplementation; and whole-body vibration.
    Interventions to Speed Bone Healing.--Determine the efficacy of 
interventions such as therapeutic modalities (i.e. ultrasound), 
pharmacological treatments (i.e. PTH, IGF), and mechanical loading 
(i.e. targeted exercise, whole body vibration) to accelerate stress 
fracture healing and return to duty in injured recruits.
    These studies, along with other DOD studies in progress, will 
determine the most cost-effective approach to diagnosis and treatment 
of stress fracture. An improved understanding of these injuries will 
also form the basis of potential preventive measures.
Recommendation
    Though small in size, the Bone Health and Military Medical 
Readiness program is providing the military with realistic solutions 
that protect, sustain and enhance soldier performance and health across 
the continuum of military operations and training.
    Mr. Chairman and members of the Committee, stress fractures 
continue to be a critical obstacle to military readiness and time 
deployment. Therefore it is imperative that the Department of Defense 
build on recent findings and maintain an aggressive and sustained Bone 
Health and Military Medical Readiness program. The National Coalition 
for Osteoporosis and Related Bone Diseases urges you to fund this 
program at a level of $5 million in fiscal year 2008.
    We appreciate the opportunity to testify before the Committee.

    Senator Inouye. Our next witness is Ms. Kathleen Moakler, 
Director of Government Relations, National Military Family 
Association.
    Welcome, Ms. Moakler.

STATEMENT OF KATHLEEN MOAKLER, DIRECTOR, GOVERNMENT 
            RELATIONS, NATIONAL MILITARY FAMILY 
            ASSOCIATION
    Ms. Moakler. Good morning, Mr. Chairman, Senator Stevens. 
Thank you for inviting the National Military Family Association 
(NMFA) to come today, and tell you of the concerns of military 
families, and the issues that affect their quality of life.
    Today's military families are required to be in a constant 
state of readiness. With the increased number of deployments, 
and the extension of some deployments, families need 
coordinated programs, and a support system that creates a 
strong foundation for family readiness.
    Families are in different stages with each deployment. The 
support they receive must adapt to those stages. The 
professional staff and volunteers who care for these families 
require proper training, and must be equipped to sustain the 
support.
    DOD and service programs like Military One Source, and 
Military Family Life Counselors that have proven successful in 
supporting families, need to be properly resourced. Innovative 
new programs dealing with the unique needs of individual 
augmentees are helping young people cope with deployment, or 
are addressing reintegration, like the Army's Battle Mind 
Program, need to be funded.
    Families tell NMFA that shortfalls in installation 
operations funding make the challenges of military life more 
difficult. NMFA asks this subcommittee to ensure critical base 
operations programs are adequately funded for the service 
members and families who depend on them. Child care is always a 
top concern. Innovative programs are needed to match the round 
the clock work hours of service members, whose op tempo at home 
makes them almost deployed in place.
    Respite care for the suddenly single parent, whose spouse 
is deployed, is an urgent need as well. We urge this 
subcommittee to make sure that the resources for providing 
child care are funded to meet the requirements of military 
families.
    NMFA encourages this subcommittee to increase the DOD 
supplement to impact aid to $50 million, to help districts meet 
the additional demands caused by the effects of base 
realignment and closure (BRAC), and global rebasing. We ask 
that all school districts experiencing a significant growth in 
their military student populations, be eligible for the 
additional funding currently available only to districts with 
an enrollment of at least 20 percent military children. Some 
districts will be receiving military children for the first 
time, yet their need is still great.
    As the war continues, families' need for a full spectrum of 
mental health services continues to grow. While the need grows, 
TRICARE reimbursement rates for mental healthcare providers 
have been cut in some regions. Sufficient funding to provide 
for the ongoing mental health needs of service members and 
their families should be considered.
    We ask this subcommittee to fund research into the 
emotional, educational, and employment-related challenges 
affecting military families. Research funding is also needed to 
assess the long-term effects of post traumatic stress disorder 
(PTSD), and traumatic brain injury, the signature wound of this 
war.
    NMFA thanks this subcommittee for its continued funding for 
a robust, military healthcare system. This healthcare system, 
which showed signs of stress before the start of the global war 
on terrorism, is now significantly taxed. Military treatment 
facilities must be funded, to ensure that their facilities are 
optimized to provide high-quality, coordinated care that is 
easily accessed by military beneficiaries, including wounded 
service members and their families.
    Some military families are being asked to move to 
installations that are incapable of providing critical support 
and services to them. Funding is necessary to provide the 
support for gating installations. As we have seen with recent 
news reports about Walter Reed, anticipation of closure can 
impact facilities and services at the closing installation, as 
well.
    NMFA urges Congress to fully fund the joint venture between 
Walter Reed, Bethesda, and Fort Belvoir to keep it on schedule. 
Authorized BRAC and rebasing construction, and quality of life 
initiatives must be fully funded, and on the promised 
timetable.
    Military family support and quality of life facilities and 
programs require dedicated funding, not emergency funding. 
Military families are being asked to sustain their readiness. 
The least their country can do is make sure their support 
structure is consistently sustained, as well.
    Thank you, and I look forward to your questions.
    Senator Inouye. Your program is absolutely essential if we 
are to successfully recruit and retain qualified personnel. We 
thank you very much.
    Ms. Moakler. Thank you, sir.
    Senator Stevens. Thank you.
    [The statement follows:]

                 Prepared Statement of Kathleen Moakler

    The National Military Family Association (NMFA) is the only 
national organization whose sole focus is the military family. The 
Association's goal is to influence the development and implementation 
of policies that will improve the lives of those family members. Its 
mission is to serve the families of the seven uniformed services 
through education, information, and advocacy.
    Founded in 1969 as the National Military Wives Association, NMFA is 
a non-profit 501(c)(3) primarily volunteer organization. NMFA 
represents the interests of family members and survivors of active 
duty, reserve component, and retired personnel of the seven uniformed 
services: Army, Navy, Air Force, Marine Corps, Coast Guard, Public 
Health Service and the National Oceanic and Atmospheric Administration.
    NMFA Representatives in military communities worldwide provide a 
direct link between military families and NMFA staff in the nation's 
capital. Representatives are the ``eyes and ears'' of NMFA, bringing 
shared local concerns to national attention.
    NMFA does not have or receive federal grants or contracts.
    NMFA's website is: http://www.nmfa.org.
    Mr. Chairman and Distinguished Members of this Subcommittee, the 
National Military Family Association (NMFA) would like to thank you for 
the opportunity to present testimony today on the quality of life of 
military families. Once again, we thank you for your focus on the many 
elements of the quality of life package for service members and their 
families: access to quality health care, robust military pay and 
benefits, support for families dealing with deployment, and special 
care for the families of those who have made the greatest sacrifice.
    In this statement, NMFA will address issues related to military 
families in the following areas:
Family Readiness
    Today's military families are required to be in a constant state of 
readiness. They are either preparing for deployment, experiencing a 
deployment, or recovering from a deployment for a short time until it 
is time to prepare for another one. Family readiness calls for 
coordinated programs and the information delivery system necessary to 
create a strong foundation of family preparedness for the ongoing and 
unexpected challenges of military family life. Those who provide the 
support, both professional and volunteer, should be well-trained. 
Consistent services should be available: adequate child care, easy 
access to preventative mental health counseling as well as therapeutic 
mental health care, employment assistance for spouses, and youth 
programs that assist parents in addressing the concerns of children 
during deployment and separation.
    The Nation has an obligation to support the quality of life for 
service members and their families not only because it is the right 
thing to do, but also because strong quality of life programs aid in 
the retention of a quality force. At a recent hearing, Master Chief 
Petty Officer of the Navy (MCPON) Joe R. Campa, Jr. summed up the 
importance of caring for families: ``Quality of life does affect 
retention and it impacts recruiting. Young Americans deciding whether 
the Navy is right for them look at quality of life initiatives as 
indicators of the Navy's commitment to sailors and their families. Our 
goal is to leave no family unaccounted for or unsupported. Our vision 
of today's Navy family is one who is self-reliant yet well connected to 
our Navy community and support programs.''
            Ensuring Robust Family Programs and Installation Operations 
                    Support
    In this sixth year of the Global War on Terror (GWOT), as many 
service members and families are experiencing their second or third 
deployments, family readiness is more imperative than ever. The needs 
of and support required for the family experiencing repeated 
deployments are often different from those of the first deployment. The 
family that was childless in the first deployment may have two toddlers 
by now. Middle schoolers have grown into teenagers with different 
needs. Parents age and the requirements of the ``sandwich generation'' 
grow. Commanders cannot assume that ``experienced'' families have the 
tools they need to weather each new deployment successfully. The end 
strength increases in the Army and Marine Corps will bring many new 
families needing to learn the basics of military life and family 
support while experiencing their first deployments.
    Recently, top military family program leaders from across the 
Services gathered at the Family Readiness Summit convened by Assistant 
Secretary of Defense for Reserve Affairs Thomas Hall to answer tough 
questions on how to work better together. While focusing on the reserve 
component, delegates agreed that communication across the Services and 
components is key to bringing families the best support possible. 
Effective use of technology and partnering with community agencies were 
listed as best practices, along with Military OneSource and the use of 
volunteers. Challenges identified included the need for consistent 
funding for family programs and full-time support personnel to help 
avoid burnout for the full-time staff and volunteers. Some participants 
expressed concern that current funding is tied to current operations 
and worried those funds will not always be available. Participants also 
identified the need for clear, non-confusing nomenclature for programs 
that families could recognize regardless of Service or component. 
Everyone saw reintegration as a challenge and expressed concern that 
the single service member not be forgotten in the process. Outreach to 
parents, significant others, and other family members is essential in 
helping the service member recover from the combat experience.
    Families and the installation professionals who support families 
tell NMFA shortfalls in installation operations funding are making the 
challenges of military life today more difficult. Families are grateful 
for the funding increases Congress has provided since the start of the 
GWOT for deployment related programs, such as counseling, family 
assistance for National Guard and Reserve families, and expanding 
access to child care services. However, the military families who 
contact NMFA, as well as many of our more than 100 installation 
volunteers, tell us they are worried about consistent funding levels 
for these programs, as well as for core installation support programs: 
family center staffing, support for volunteer programs, maintenance on 
key facilities, and operating hours for dining halls, libraries, and 
other facilities.
    Shortages in base operation funding are nothing new. What seems to 
make the crisis worse are war needs which have exacerbated the negative 
effects of a long history of cutbacks. Deployed service members expect 
their installation quality of life services, facilities, and programs 
be resourced at a level to meet the needs of their families. Cutbacks 
hit families hard. They are a blow to their morale, a sign that perhaps 
their Service or their nation does not understand or value their 
sacrifice. They also pile on another stressor to the long list of 
deployment-related challenges by making accessing services more 
difficult. Families are being told the cutbacks are necessary to ensure 
funds are available for the GWOT, and in the case of Army communities, 
the ongoing Army transformation. Just when they need quality of life 
programs most, families should not be asked to do without. Their 
commanders should not have to make the choice between paying 
installation utility bills or providing family support services.
    NMFA asks Congress to direct the Department of Defense to maintain 
robust family readiness programs and to see that resources are in place 
to accomplish this goal. We ask this Subcommittee to ensure critical 
base operations programs are adequately funded for the service members 
and families who depend on them.
            Caring for Military Children and Youth
    At a recent hearing, the Service Senior Enlisted Advisors put child 
care in the top two of their quality of life concerns. Frequent 
deployments and long work hours make the need for quality affordable 
and accessible child care critical. We thank Congress for making 
additional funding available for child care since the beginning of the 
GWOT. We also applaud several of the innovative ways the military 
Services have attempted to meet the demand:
  --Navy's 24 hour child care centers in Virginia and Hawaii.
  --Purchase of additional child care slots in private or other 
        government agency facilities.
  --Partnerships with provider organizations to connect military 
        families with providers.
  --Additional funding provided by Congress to make improvements to 
        temporary facilities to increase the number of child care slots 
        on military installations.
    While these efforts have helped to reduce the demand for child 
care, the Services--and families--continue to tell NMFA more child care 
spaces and innovative assistance with the high cost of off installation 
care are needed to fill the ever-growing demand.
    Multiple deployments have also affected the number of child care 
providers, both center and home based. Child and Youth Service (CYS) 
programs have historically counted heavily on the ranks of military 
spouses to fill these positions. Service CYS programs report a growing 
shortage of spouses willing to provide child care as the stress of 
single parenting and the worry over the deployed service member takes 
its toll. The partnerships between the Services and the National 
Association of Child Care Resource and Referral Agencies (NACCRRA) are 
helping and have grown over the past two years; however, not all 
families qualify for the subsidies and not all programs are the same. 
In addition, funding for these critical programs has been provided 
under supplemental appropriations, families have come to depend upon 
these programs and Congress must ensure that funding remains available 
for their continuation.
    Innovative strategies are also needed when addressing the 
unavailability of after hour (before 6 A.M. and after 6 P.M) and 
respite care. Families often find it difficult to obtain affordable, 
quality care, especially during hard-to-fill hours and on weekends. 
Both the Navy and the Air Force have piloted excellent programs that 
provide 24-hour care. The Navy has 24-hour centers in Norfolk and 
Hawaii, which provide a home-like atmosphere for children of Sailors 
working late night or varying shifts. The Air Force provides Extended 
Duty Child Care and Missile Care (24 hour access to child care for 
service members working in the missile field). These innovative 
programs must be expanded to provide care to more families and funding 
for these programs must be sufficient to ensure the same level of 
quality provided in traditional child development programs.
    NMFA urges Congress to ensure resources are available to meet the 
child care needs of military families.
            Education of Military Children
    As increased numbers of military families move into some 
communities due to Global Rebasing and BRAC, their housing needs will 
be met further and further away from the installation. Thus, military 
children may be attending school in districts whose familiarity with 
the military lifestyle may be limited. Educating large numbers of 
military children will put an added burden on schools already hard-
pressed to meet the needs of their current populations. Impact Aid has 
traditionally helped to ease this burden; however, the program remains 
under-funded. NMFA was disappointed to learn the DOD supplement to 
Impact Aid was funded at a compromise level of $35 million for fiscal 
year 2007. An additional $10 million was provided to school districts 
with more than 20 percent military enrollment that experience 
significant shifts in military dependent attendance due to force 
structure changes, with another $5 million for districts educating 
severely-disabled military children. While the total funding available 
to support civilian schools educating military children is greater than 
in recent years, we urge Congress to further increase funding for 
schools educating large numbers of military children. This supplement 
to Impact Aid is vital to school districts that have shouldered the 
burden of ensuring military children receive a quality education 
despite the stresses of military life.
    NMFA also encourages this Subcommittee to provide additional 
funding for school districts experiencing growth available to all 
school districts experiencing significant enrollment increases and not 
just to those districts meeting the current 20 percent enrollment 
threshold. We also urge you to authorize an increase in the level of 
this funding until BRAC and Global Rebasing moves are completed. The 
arrival of several hundred military students can be financially 
devastating to any school district, regardless of how many of those 
students the district already serves. Because military families cannot 
time their moves, they must find available housing wherever they can. 
Why restrict DOD funding to local school districts trying to meet the 
needs of military children simply because they did not have a large 
military child enrollment to begin with?
    NMFA asks Congress to increase the DOD supplement to Impact Aid to 
$50 million to help districts better meet the additional demands caused 
by large numbers of military children, deployment-related issues, and 
the effects of military programs and policies. We also ask Congress to 
allow all school districts experiencing a significant growth in their 
military student population due to BRAC, Global Rebasing, or 
installation housing changes to be eligible for the additional funding 
currently available only to districts with an enrollment of at least 20 
percent military children.
            Spouse Education and Employment
    Studies show the gap between the financial well-being of military 
families and their civilian peers is largely due to the frequent moves 
required of the military family and the resulting disruptions to the 
career progression of the military spouse. In a 2005 report by the RAND 
Corporation, researchers found that military spouses, when compared to 
their civilian counterparts, were more likely to have graduated from 
high school and have some college. Yet the RAND study found that 
civilian counterparts tended to have better employment outcomes and 
higher wages. Surveys show that a military spouse's income is a major 
contributor to the family's financial well-being and that the military 
spouse unemployment rate is much higher (10 percent) than the national 
rate.
    With a concern that spouses desiring better careers will encourage 
service members to leave the military, DOD is acknowledging the 
importance of efforts to support spouse employment. Recent DOD 
initiatives include the collaboration between DOD and Department of 
Labor (DoL), which focuses on:
  --establishing Milspouse.org, a resource library for military spouse 
        employment, education and relocation information,
  --establishing One Stop Career Centers near major military 
        installations (Norfolk, Virginia; San Diego, California; Fort 
        Campbell, Kentucky),
  --expanding opportunities for Guard and Reserve members and military 
        spouses to access training and education grants,
  --exploring options with states to offer unemployment compensation to 
        military spouses when unemployment is the result of a permanent 
        change of station (PCS) move, and
  --to improve reciprocity for state certifications and licensing 
        requirements.
    Unfortunately, funds for this promising collaboration have run out. 
NMFA believes this lack of funding is a significant blow to the promise 
of these early initiatives. We also believe the Department of Labor is 
best positioned to provide the coordination necessary with states and 
other agencies to promote opportunities for military spouse employment.
    DOD has also sponsored a partnership with Monster.com to create the 
Military Spouse Career Center and recently announced the availability 
of free career coaching through the Spouse Employment Assessment, 
Coaching and Assistance Program (SEACA). Improvements in employment for 
military spouses and assistance in supporting their career progression 
will require increased partnerships and initiatives by a variety of 
government agencies and private employers. These programs depend upon 
continued funding availability. Many of them are currently being funded 
as pilot projects.
    NMFA asks that the partnership between DOD and DoL be realigned to 
give DoL the authority to serve military spouses through legislative 
changes designating military spouses as an eligible group for funds for 
training and education. Furthermore, NMFA asks Congress to ensure that 
successful pilot programs are converted to long-term, permanent 
programs with regular funding streams.
Mental Health
    As the war continues, families' need for a full spectrum of mental 
health services--from preventative care to stress reduction techniques, 
to individual or family counseling, to medical mental health services--
continues to grow. As service members and families experience numerous 
lengthy and dangerous deployments, NMFA believes the need for 
confidential, preventative mental health services will continue to 
rise. It will also remain high for some time even after military 
operations scale down in Iraq and Afghanistan. NMFA has seen progress 
in the provision of mental health services, access to those services, 
and military service member and family well-being. In some cases, 
however, the progress is ongoing and barriers to quality mental health 
care remain.
    As pointed out in a report by the American Psychological 
Association, scholarly research is needed on the short- and long-term 
effects of deployment on military families, especially the children. We 
urge this Subcommittee to fund research agreements with qualified 
research organizations to expand our Nation's knowledge base on the 
mental health needs of the entire military family: service members, 
spouses, and children. Solid research on the needs of military families 
is needed to ensure the mix of programs and initiatives available to 
meet those needs is actually the correct one.
    We ask this Subcommittee to encourage DOD to expand research into 
the emotional, educational, and deployment-related challenges affecting 
military families.
Family Health
    NMFA thanks this Subcommittee for its continued funding for a 
robust military health care system. We ask Members of Congress to 
remember the multi-faceted mission of this system. It must meet the 
needs of service members and the Department of Defense (DOD) in times 
of armed conflict. The Nation must also acknowledge that military 
members, retirees, their families, and survivors are indeed a unique 
population with unique duties, who earn an entitlement to a unique 
health care program. We ask you to recognize that the military health 
care system, which showed signs of stress even before the start of the 
Global War on Terror, is now significantly taxed.
    MTFs must have the resources and the encouragement to ensure their 
facilities are optimized to provide high quality, coordinated care for 
the most beneficiaries possible. They must be held accountable for 
meeting stated access standards. If funding or personnel resource 
issues are the reason access standards are not being met, then 
assistance must be provided to ensure MTFs are able to meet access 
standards, support the military mission, and continue to provide 
quality health care.
    NMFA asks all Members of Congress to hold DOD accountable for 
providing access to quality care to all TRICARE beneficiaries and to 
ensure the system is adequately resourced to provide that access.
            TRICARE Fees--What's the Answer?
    Last year's proposal by DOD to raise TRICARE fees by exorbitant 
amounts resonated throughout the beneficiary population. Beneficiaries 
saw the proposal as a concentrated effort by DOD to change their earned 
entitlement to health care into an insurance plan. NMFA appreciates the 
concern shown by Members of Congress last year in forestalling any 
premium increase, emphasizing the need for the Department to institute 
more economies, and suggesting further investigation of the issue 
through a report by the Government Accountability Office and the 
creation of a task force on the future of military health care. We 
appreciate your recognition of the need for more information about the 
budget assumptions used by DOD, the effects of possible increases on 
beneficiary behavior, the need for DOD to implement greater 
efficiencies in the Defense Health Care Program (DHP), and the adequacy 
of the DHP budget as proposed by DOD.
    NMFA remains especially concerned about what we believe is DOD's 
continued intention to create a TRICARE Standard enrollment fee. 
Charging a premium (enrollment fee) for TRICARE Standard moves the 
benefit from an earned entitlement to an opportunity to buy into an 
insurance plan. Standard is the only option for many retirees, their 
families, and survivors because TRICARE Prime is not offered 
everywhere. Also, using the Standard option does not guarantee 
beneficiaries access to health care. DOD has so far not linked any 
guarantee of access to their proposals to require a Standard enrollment 
fee.
    DOD's proposal last year to increase TRICARE Prime enrollment fees, 
while completely out-of-line dollar wise, was not unexpected. In fact, 
NMFA had been surprised DOD did not include an increase as it 
implemented the recent round of new TRICARE contracts. NMFA believes 
DOD officials continue to support large increased retiree enrollment 
fees for TRICARE Prime, combined with a tiered system of enrollment 
fees and TRICARE Standard deductibles. NMFA believes any tiered system 
would be arbitrarily devised and would fail to acknowledge the needs of 
the most vulnerable beneficiaries: survivors, wounded service members, 
and their families.
    Acknowledging that the annual Prime enrollment fee has not 
increased in more than 10 years and that it may be reasonable to have a 
mechanism to increase fees, NMFA last year presented an alternative to 
DOD's proposal should Congress deem some cost increase necessary. The 
most important feature of this proposal was that any fee increase be no 
greater than the percentage increase in the retiree cost of living 
adjustment (COLA). If DOD thought $230/$460 was a fair fee for all in 
1995, then it would appear that raising the fees simply by the 
percentage increase in retiree pay is also fair. NMFA also suggests it 
would be reasonable to adjust the TRICARE Standard deductibles by tying 
increases to the percent of the retiree annual COLA.
    NMFA believes tying increases in TRICARE enrollment fees to the 
percentage increase in the retiree Cost of Living Adjustment (COLA) is 
a fair way to increase beneficiary cost shares should Congress deem an 
increase necessary.
            Wounded Service members Have Wounded Families
    Traumatic Brain Injury (TBI) is the signature wound for Operation 
Enduring Freedom and Operation Iraqi Freedom injured service members. 
Long-term effects and appropriate treatment for this condition have not 
been adequately assessed. NMFA is concerned with DOD's decision to cut 
funding for basic research by 9 percent and 18 percent for applied 
research. Accurate diagnosis and proper treatment for TBI requires 
forward leaning initiatives by DOD and VA founded on solid research.
    When designing support for the wounded/injured in today's conflict, 
the ``government''--whether in the guise of commander, non-commissioned 
officer, Service personnel office, a family assistance center, an MTF, 
or the VA--must take a more inclusive view of military families and 
remember that a successful recovery depends on caring for the whole 
patient and not just the wound. It is time to update TRICARE benefits 
to meet the needs of this population by allowing medically-retired 
wounded service members and their families to retain access to the set 
of benefits available to active duty families during a transitional 
period following the service member's retirement. These benefits would 
include the ability to enroll in TRICARE Prime Remote and to continue 
coverage of a disabled family member under the Extended Care Health 
Option (ECHO).
    To support wounded and injured service members and their families, 
NMFA recommends that Congress extend the three-year transitional 
survivor health care benefit to service members who are medically 
retired and their families and direct DOD to establish a Family 
Assistance Center at every MTF caring for wounded service members.
Families in Transition
    Military families are in a constant state of movement. Through the 
years, the knowledge that the family would be relocated every two or 
three years was a constant. Now, there are many different types of 
transitions. The closing of installations in Europe is forcing families 
back to the states into communities that may not have the 
infrastructure and housing to support them. As service members return 
from combat and reintegrate with their families and employers, all 
parties need to have the tools to help in the reintegration process. 
Survivors--the military families who have sacrificed the most--deserve 
our Nation's long-term support. What needs to be done to help service 
members and families in transition?
            Base Realignment and Closure, Global Rebasing, and 
                    Transformation
    As DOD relocates and rebases units, it must be conscious that the 
further it moves families from an installation and the military 
community, the more it degrades their ability to benefit from the 
support of that military community. The current BRAC and rebasing 
initiatives will result in disruption and upheaval for the families 
affected. Military families accept this fact as a reality of the 
lifestyle they have chosen. What they cannot, and should not, be asked 
to accept is that they will be asked to move as ordered to a receiving 
installation that is incapable of providing critical support and 
services to them. Moving is stressful for any family. It is critical 
the government does not amplify this stress by allowing the process to 
move forward without the funding for necessary infrastructure and 
facilities to support these families. This critical funding is needed 
to provide health care, education, housing, child care, and family 
support programs and facilities for these gaining installations. The 
Army alone requires thirty new child care centers simply to maintain 
the level of care currently available on losing installations. Military 
families must be assured that services are in place before they arrive 
at their new military community.
    NMFA strongly asserts that the authorized BRAC and rebasing 
construction and quality of life initiatives must be fully funded.
            Survivors
    NMFA still believes the benefit change that will provide the most 
significant long-term advantage to the financial security of all 
surviving families would be to end the Dependency and Indemnity 
Compensation (DIC) offset to the Survivor Benefit Plan (SBP). Ending 
this offset would correct an inequity that has existed for many years. 
Those who give their lives for their country deserve more fair 
compensation for their surviving spouses. We urge Congress to intensify 
efforts to eliminate this unfair ``widow's tax'' this year.
    NMFA believes several other adjustments could be made to the 
Survivor Benefit Plan. These include allowing payment of SBP benefits 
into a trust fund in cases of disabled children and allowing SBP 
eligibility to switch to children if a surviving spouse is convicted of 
complicity in the member's death.
    NMFA recommends the DIC offset to SPB be eliminated to recognize 
the length of commitment and service of the career service member and 
spouse and relieve the spouse of making hasty financial decisions at a 
time when he or she is emotionally vulnerable.
Pay and Compensation
    NMFA thanks Members of this Subcommittee for their recognition that 
service members and their families deserve a comprehensive benefit 
package. In addition, service members and their families appreciate the 
regular annual pay increases and targeted raises, over the past several 
years. In most cases, military pay is on par with civilian pay for 
equivalent education levels. NMFA asserts, however, that while the DOD 
policy of paying at the seventieth percentile has made significant 
progress in alleviating the pay gap, military service is a unique 
profession, which requires unique dedication and sacrifice. Perhaps the 
establishment of pay rates at the seventieth percentile does not 
adequately reflect the value our Nation places on the dedicated service 
of our men and women in uniform. NMFA urges funding for a pay increase 
of not less than 4 percent for fiscal year 2008. We further urge that 
future increases consider the unique character of military service and 
consider the establishment of pay rates at the eightieth percentile.
Families and Community
    Higher stress levels caused by open-ended and multiple deployments 
require a higher level of community support. We ask Congress to ensure 
a consistent level of resources to provide robust quality of life, 
family support, and the full range of preventative and therapeutic 
mental health programs during the entire deployment cycle: pre-
deployment, deployment, post-deployment, and in that critical period 
between deployments.
    Military families share a bond that is unequaled in the civilian 
world. They support each other through hardship, deployments, PCS 
moves, and sometimes, the loss of a loved one. The military community 
is close knit and must be so. It is imperative that our Nation ensure 
the necessary infrastructure and support components are in place to 
support families regardless of where they happen to be located 
geographically. More importantly, we ask you and other Members of 
Congress to ensure that the measures undertaken today in the interest 
of cutting costs and improving efficiency do not also destroy the sense 
of military community so critical to the successful navigation of a 
military lifestyle.
    Educating families on what support is being provided helps reduce 
the uncertainty for families. Preparation and training are key in 
reaching families and making sure they are aware of additional 
resources available to them. While NMFA appreciates the extraordinary 
support that was made available to address the special needs of the 
families during deployment extensions and the recent ``Surge'', our 
Nation must ensure this level of support is available to all families 
day in and day out. Military family support and quality of life 
facilities and programs require dedicated funding, not emergency 
funding. Military families are being asked to sustain their readiness. 
The least their country can do is make sure their support structure is 
consistently sustained as well. Strong families equal a strong force. 
Family readiness is integral to service member readiness. The cost of 
that readiness is an integral part of the cost of the war and a 
National responsibility. We ask Congress to shoulder that 
responsibility as service members and their families shoulder theirs.

    Senator Inouye. Our next witness is Ms. Sherry Black, 
Executive Director of Ovarian Cancer National Alliance.
    Ms. Black.

STATEMENT OF SHERRY SALWAY BLACK, EXECUTIVE DIRECTOR, 
            OVARIAN CANCER NATIONAL ALLIANCE
    Ms. Black. Good morning, Mr. Chairman, Senator Stevens. 
Thank you for inviting me, once again, to speak before this 
subcommittee.
    I am the Executive Director of the Ovarian Cancer National 
Alliance, and I am testifying on behalf of the 172,000 ovarian 
cancer survivors, which I am lucky to be one.
    I am pleased to be here on behalf of survivors, patients, 
and our many friends who have lost their battle to ovarian 
cancer, to urge you to continue to support the Department of 
Defense, congressionally directed research program in ovarian 
cancer.
    According to the American Cancer Society, more than 22,000 
women will be diagnosed with ovarian cancer, and approximately 
15,000 will lose their lives to this disease this year.
    Ovarian cancer causes more deaths than all other cancers of 
the female reproductive tract combined, and is the fifth 
highest cause of cancer deaths among women.
    Currently, almost one-half of the women diagnosed with 
ovarian cancer die within 5 years. Seventy-five percent are 
diagnosed in stages 3 and 4. When detected early, as I was, the 
5-year survival rate increases to more than 90 percent, but 
when detected in the late stages, the 5-year survival rate 
drops to 29 percent.
    Ovarian cancer survival rates have not made the appreciable 
gains that other cancers have. One reason is the lack of an 
early screening or diagnostic test. Yet, Federal funding for 
ovarian cancer research has remained flat. We need continued 
and increased research funding to assure that effective 
screening and diagnostic tests are developed, and ideally, to 
identify who is high risk, and how ovarian cancer can be 
prevented in the first place.
    The Ovarian Cancer Research Program (OCRP) has been funded 
at $10 million since 2004, and has never been appropriated more 
than $12 million in its 10 year history. We know that critical 
research, which takes many years to bear fruit, is on the cusp 
of significant findings. Additional investment now is vital for 
future research into prevention, diagnosis, and treatment.
    Since its inception, the OCRP has developed a 
multidisciplinary research portfolio that encompasses 
prevention, early detection, diagnosis, pre-clinical 
therapeutics, quality of life, and behavioral research 
projects. The OCRP strengthens the Federal Government's 
commitment to ovarian cancer research, and supports innovative 
and novel projects that propose new ways of examining 
prevention, early detection, and treatment.
    The program also attracts new investigators into ovarian 
cancer research, and encourages proposals that address the 
needs of minority, elderly, low income, rural, and other 
underrepresented populations.
    Today, ovarian cancer researchers are still struggling to 
develop the very first ovarian cancer screening test. With 
traditional research models largely unsuccessful, the 
innovative grants awards by the OCRP are integral to moving the 
field of research forward. The OCRP has been responsible for 
the only two working animal models of ovarian cancer, models 
that will help unlock the keys to diagnosing and treating 
ovarian cancer.
    In 2007, researchers announced the discovery of a potential 
biomarker, that may be used in ovarian cancer screening. Only 
with sufficient funding will the realization of a desperately 
needed screening test be possible.
    The program's achievements have been documented in numerous 
ways, included 253 publications in professional journals and 
books, 330 abstracts and presentations, and nine patents. Due 
to research grants, the program has attracted 25 new 
researchers to the field--this is critical. Investigators 
funded through the OCRP have yielded several crucial 
breakthroughs in the study of prevention.
    The alliance is joined by our partner, the Society of 
Gynecologic Oncologists, and the many people affected by this 
disease. We urge the subcommittee to increase Federal funding 
on ovarian cancer by appropriating $20 million to the 
Department of Defense Ovarian Cancer Research Program for 
fiscal year 2008.
    The alliance is celebrating its 10th anniversary this year. 
As we conclude our first decade of action, we look forward to a 
future of hope. This hope is made possible, in part, by 
advances in medicine discovered through the OCRP.
    I thank you very much for your leadership on this issue.
    Senator Inouye. As indicated earlier, Senator Stevens and I 
are on your side. We'll do our best.
    Ms. Black. Thank you very much.
    [The statement follows:]

               Prepared Statement of Sherry Salway Black

    Mr. Chairman, Ranking Member and Members of the Subcommittee, thank 
you for inviting me to speak. I am Sherry Salway Black, Executive 
Director of the Ovarian Cancer National Alliance (the Alliance). I am 
testifying on behalf of the 172,000 ovarian cancer survivors, of which 
I am lucky to count myself. I am pleased to be here on behalf of 
survivors, patients and our many friends who lost their battle to 
ovarian cancer to urge you to continue to support the Department of 
Defense (DOD) Congressionally Directed Medical Research Program (CDMRP) 
in ovarian cancer. The Ovarian Cancer Research Program (OCRP) and the 
Alliance have worked for the past 10 years to improve the lives of 
women with ovarian cancer, and their families. We are joined in our 
request by the doctors who deliver patient care, the Society of 
Gynecologic Oncologists. Great strides have been made in this previous 
decade, but without an increase in research funds, progress will stall. 
As we move forward into our second decade, we have hope for the future 
of treatment, patient care, survivorship and research.
    According to the American Cancer Society, more than 22,000 women 
will be diagnosed with ovarian cancer and approximately 15,000 will 
lose their lives to the disease this year. Ovarian cancer causes more 
deaths than all the other cancers of the female reproductive tract 
combined, and is the fifth highest cause of cancer deaths among women. 
Currently, almost half of the women diagnosed with ovarian cancer die 
within five years. When detected early, the five-year survival rate 
increases to more than 90 percent, but when detected in the late 
stages, the five-year survival rate drops to 29 percent.
    The majority of women with ovarian cancer are diagnosed in Stages 
III or IV, when survival rates are lower. Ovarian cancer survival rates 
have not made the appreciable gains that other cancers have. One key 
reason for this is the lack of an effective screening or early 
diagnosis test.
    Yet, federal funding for ovarian cancer research has remained flat. 
We need continued and increased research funding to assure that 
effective screening and diagnostic tests are developed, and ideally to 
identify who is at high-risk and how ovarian cancer can be prevented in 
the first place. The OCRP has been funded at $10 million since 2004, 
and has never been appropriated more than $12 million in its 10-year 
history. We know that critical research, which takes many years to bear 
fruit, is on the cusp of significant findings. Additional investment 
now is vital for future research into prevention, diagnosis and 
treatment. Therefore, we respectfully recommend that this Subcommittee 
appropriate $20 million to the OCRP for fiscal year 2008.

                  THE OVARIAN CANCER RESEARCH PROGRAM

Funding history
    The Ovarian Cancer Research Program (OCRP) was established in 1997 
in response to the advocacy efforts of the ovarian cancer movement. The 
stated mission is to eliminate ovarian cancer by promoting 
``innovative, integrated multidisciplinary research efforts that will 
lead to a better understanding, detection, diagnosis, prevention and 
control of ovarian cancer.'' The program was initially appropriated 
$7.5 million. In its first eight years, the OCRP has distributed more 
than $79 million for research. In 2005 the OCRP was only able to fund 7 
percent of the proposals, and in 2006 was limited to 15 percent of the 
proposals. The OCRP operates with less than 10 percent in 
administrative costs, making this a highly efficient program.
    Cutting-edge research being done by grantees of the program has 
moved us forward: researchers now better understand the disease, have 
identified possible biomarkers for screening tests, are exploring 
targeted therapies, and are moving us closer to our goal of conquering 
ovarian cancer. Without additional funding, we fear that researchers 
will fail to investigate ovarian cancer, and our medical progress will 
stall.
Process
    The program uses an Integration Panel to provide a two-tier review 
process in which scientific and non-scientific advisors interact. 
Patient advocates are always included in the review process. The 
Integration Panel, based on input from advocates, scientists and 
clinicians, identifies areas where research should be conducted. The 
inclusion of patient advocates adds a necessary perspective by ensuring 
that the focus is on understanding and conquering the disease in a way 
that will be helpful to patients. The goal of the OCRP is to use 
science directly to help ovarian cancer patients and those at risk--not 
just for the sake of a scientific exercise.
    More important, the process allows funding of research that is high 
risk, but high reward, and would not otherwise be funded. One example 
of such research is investigation into a much-needed screening test 
through the presence of a biomarker BCL-2, and the discovery that 
hormones found in oral contraceptives reduce the risk of ovarian 
cancer. Researchers without proven track records may receive grants 
from the OCRP--many of these research projects have gone on to be 
funded by the National Institutes of Health after the initial OCRP-
funded research is completed.
    Grants are awarded to fund innovative research or to establish 
research resources. These research resources are available to 
Historically Black Colleges and Universities/Minority Institutions and 
are awarded to foster collaborations between the researchers at the 
minority institution and other institutions.
    Collaboration between institutions is an important aspect of this 
program. Projects have leveraged DOD awards with National Institutes of 
Health (NIH) programs or other institutions, both domestically and 
internationally. For example, one award linked researchers at the Fox 
Chase Cancer Center with scientists at Delaware State University to 
study lasers as an early detection tool for ovarian cancer.
    Many of the results from the CDMRP are translatable to other 
cancers. For example, a study funded by DOD, NIH and Komen for the Cure 
discovered the existence of cancer stem cells. These cancer stem cells 
may hold the key to preventing cancer recurrence. Another study is 
testing a patient's breath for cancer. The research has proven 
successful for breast and lung cancers. Currently, specially trained 
dogs can smell biochemicals in patients' breath that indicate early 
lung and breast cancers correctly in over 85 percent of cases.
Results
    Since its inception, the OCRP has developed a multidisciplinary 
research portfolio that encompasses etiology, prevention, early 
detection/diagnosis, preclinical therapeutics, quality-of-life, and 
behavioral research projects. The OCRP strengthens the federal 
government's commitment to ovarian cancer research and supports 
innovative and novel projects that propose new ways of examining 
prevention, early detection and treatment. The program also attracts 
new investigators into ovarian cancer research, and encourages 
proposals that address the needs of minority, elderly, low-income, 
rural and other under-represented populations.
    Today, ovarian cancer researchers are still struggling to develop 
the first ovarian cancer screening test. With traditional research 
models largely unsuccessful, the innovative grants awarded by the OCRP 
are integral in moving the field of research forward. The OCRP has been 
responsible for the only two working animal models of ovarian cancer--
models that will help unlock keys to diagnosing and treating ovarian 
cancer. In 2007, researchers announced the discovery of a potential 
biomarker that may be used on ovarian cancer screening. Only with 
sufficient funding will the realization of a desperately-needed 
screening test be possible.
    The program's achievements have been documented in numerous ways, 
including 253 publications in professional medical journals and books, 
330 abstracts and presentations given at professional meetings, and 
nine patents, applications and licenses granted to awardees of the 
program. Due to research grants, the program has attracted 25 new 
researchers to the field, 18 of whom are still working on ovarian 
cancer. Investigators funded through the OCRP have yielded several 
crucial breakthroughs in the study of prevention and detection, 
including:
  --Creation of a human ovarian tissue bank
  --Development of chicken model to study susceptibility to ovarian 
        cancer
  --Use of rhesus monkey model to study contraceptives and vitamin A 
        analog in prevention of ovarian cancer
  --Detection of a possible biomarker (BCL-2) screening tool to detect 
        ovarian cancer through urine samples
  --Development of a potential screening tool to determine chemotherapy 
        sensitivity in ovarian cancer patients
  --Use of new bioinformatics tools to identify different sets of genes 
        for different types of ovarian cancer tumors
  --Development of radio-therapeutics for advanced ovarian cancer 
        treatment
  --Discovery of a receptor expression level as a possible indicator of 
        aggressive ovarian cancer tumor behavior
  --Discovery of potential method to overcome oncogene-associated 
        chemo-resistance in ovarian cancer cells
  --Continued focus on ovarian cancer screening tools
  --Development of radiation therapies for metastatic ovarian cancer
  --Discovery of production of certain enzymes by ovarian cancer cells; 
        this discovery may lead to the development of vaccines for 
        recurrent ovarian cancer.

                               CONCLUSION

    The Alliance is joined by our partner, the Society of Gynecologic 
Oncologists, in making this request. We urge the Subcommittee to 
increase federal funding on ovarian cancer by appropriating $20 million 
to the Department of Defense Ovarian Cancer Research Program for fiscal 
year 2008. As we conclude our first decade of action, we look forward 
to a future of hope. This hope is made possible, in part, by advances 
in medicine discovered through the OCRP. I thank you for your 
leadership on this issue.

    Senator Inouye. Our next witness is Dr. Sven-Erik Bursell, 
Joslin Diabetes Center.
    Did I pronounce it correctly?

STATEMENT OF DR. SVEN-ERIK BURSELL, DIRECTOR, 
            TELEHEALTH RESEARCH, JOSLIN DIABETES CENTER
    Dr. Bursell. You did a wonderful job, sir. Thank you.
    Mr. Chairman, thank you for this opportunity to report on 
the progress of Joslin Diabetes Center's cooperative 
telemedicine project with the Department of Defense, Veterans 
Health Administration, and the University of Hawaii for 
providing a healthcare delivery platform for the connect-care 
management and treatment of people with diabetes, and for 
providing appropriate eye care to prevent blindness from 
diabetic retinopathy.
    This program can serve as a national model for providing 
cost-efficient and appropriate, high-quality care for all 
people with diabetes.
    I am Sven-Erik Bursell, the Director of Telehealth Research 
at Joslin Diabetes Center. This Telehealth program represents a 
collaborative research and development effort that is being 
successfully translated into clinical programs, represented by 
the VA national tele-retinal screening initiative, and 
implementation of successful clinical programs to provide 
diabetes care to Native Americans, Native Alaskans, and Native 
Hawaiians.
    The innovative eye care program that is a module of our 
larger diabetes management platform is the only clinically 
validated, nonmedriatic system that is being successfully 
deployed in 70 sites in 23 States and is accessed by over 
100,000 people with diabetes, into appropriate eye care. This 
has directly resulted in significant savings of sight for these 
people with diabetes.
    This clinical application will also be the first outside 
application to be integrated into the new DOD, electronic 
medical records system, ALTA. And, its initial usage will be in 
the Walter Reed Army Medical Center network, and in the 
Lackland Air Force network in San Antonio. This integration 
will be completed this year.
    Additionally, the larger diabetes management program is 
currently in use in community health centers in Hawaii, South 
Carolina, and Massachusetts, and will be implemented in the 
Indian Health Service this year. Six month data from our 
Community Health Centers Program showed that patients in this 
system see a significant improvement in their control of 
diabetes, such as blood glucose levels, as well as a 
significant reduction in the level of daily stress they 
experience in managing their diabetes.
    We're asking for continuation funding of $5 million in 
fiscal year 2008 to complete a series of nine multicenter 
clinical trials, aimed at determining the clinical efficacy and 
cost efficiency of various components of our diabetes 
management application. The data from these completed studies 
will provide direct, medical and economic evidence to validate 
the sustainability of the program.
    In addition to completing these studies, we will also 
initiate new research efforts into automated diabetic 
retinopathy, diagnostic support systems, computer-assisted 
decision support for medical management of diabetes, migration 
of the system into a personal health record that will leverage 
home monitoring, automated lifestyle decision support, and the 
use of streaming video, entertaining education that can go 
directly to the cell phone.
    These research efforts, we expect, to rapidly translate 
into our existing clinical programs, to further empower people 
with diabetes to live a normal life.
    Mr. Chairman, thank you for your attention, and our 
appreciation to be part of this project with the Department of 
Defense, as well as the support of you and your colleagues. We 
will be grateful for the continued support again this year, for 
this unique and extremely productive collaborative effort.
    Thank you, sir.
    Senator Inouye. I can assure you that we'll do our very 
best.
    Dr. Bursell. Thank you very much.
    [The statement follows:]

              Prepared Statement of Dr. Sven-Erik Bursell

                              INTRODUCTION

    Mr. Chairman and Members of the Committee, I would like to thank 
you for the opportunity to submit written testimony on behalf of the 
Diabetes Care and Treatment Project: A Joslin Telemedicine Initiative. 
We are extremely appreciative of the funds provided for this valuable 
project in the fiscal year 2007 Defense Appropriations Act. The results 
of this work can be immediately translated into providing coordinated 
care for returning servicemen, as well as providing cost effective care 
for all people with diabetes. In fact, the interoperable and 
interactive platform that we have developed for diabetes care and care 
of other chronic diseases can provide a model for national programs. 
For example, the Veterans Affairs has initiated their National 
Teleretinal screening program based on the research and development 
work derived from this funding.

                                SUMMARY

    This request of $5,000,000 represents the collective costs of the 
participating organizations (Joslin Diabetes Center, Walter Reed Army 
Medical Center, Boston Veterans Affairs Campus, and the University of 
Hawaii) in this collaborative consortium of expertise and associated 
expenses of the Department of the Army, RDT&E.

                     FISCAL YEAR 2007 STATUS REPORT

    The problem that we are faced with is that diabetes is a 
significant and growing public health problem and it disproportionately 
affects certain social groups especially Native Americans, Native 
Hawaiians and Native Alaskans. Additionally, care is unevenly provided 
in the United States, especially in rural/remote areas and to 
minorities. At this time the current health care system does not have 
the ability to manage all people with diabetes, and we know that 
diabetes-related complications can be slowed or prevented with 
appropriate care. This project has developed a new web-based health 
information technology (HIT)--the Comprehensive Diabetes Management 
Program (CDMP)--designed to provide even and comprehensive care to 
people with diabetes. This project is also examining the value derived 
from the adoption and utilization of the CDMP at multiple sites with 8 
research projects. Several cross most sites that include the Joslin 
Diabetes Center, the VA Boston Healthcare System, the Walter Reed Army 
Medical Center network and the University of Hawaii with program 
implementation at 3 Community Health Centers in Hawaii.
    This Diabetes Telehealth application was initially focused on the 
delivery of quality eye care to the right patients at the right time. 
The aim was to prevent blindness caused by diabetes and to provide 
health care delivery tools for diabetes and other chronic diseases for 
a clinically effective and cost efficient platform for connected care 
for all American people.

                      TELEHEALTH EYE CARE PROGRAM

    This program was the earliest of our implemented diabetes care 
programs developed through this funding. Currently the application has 
accessed over 100,000 patients at approximately 70 sites in 23 states 
in the United States including Hawaii and Alaska. We are currently 
planning deployment of the Telehealth application including the eye 
care application in the Lackland Air Force Base network in San Antonio 
in May 2007.
    The eye care program has been clinically validated as being 
diagnostically equivalent to current clinical gold standards for eye 
examination and has been shown to be a cost effective method of eye 
care delivery.

          TELEHEALTH DIABETES MANAGEMENT APPLICATION PROGRESS

    Work on the development of an interactive comprehensive diabetes 
management program was initiated in 2001. It involved leaders in 
diabetes clinical management, education, lifestyle modification and 
medical informatics from the Joslin Diabetes Center, the Department of 
Defense, the Veterans Affairs and the Indian Health Services. The 
rationale for this effort was the recognized need to be able to provide 
a continuum of care for diabetic patients in contrast to the current 
more disjointed care that is provided. This need was further 
highlighted by recent results from the Diabetes Prevention Program 
(DPP). These patients were randomized to either intensive life style 
modification, metformin or placebo treatment. After follow up of 4.6 
years, life style modification reduced the progression to diabetes by 
58 percent. Moreover, the development of diabetes was reduced by 31 
percent. The results indicated that one of the primary reasons for the 
success of this study was the implementation of a case management 
program. This is exactly what we have developed for the CDMP, namely a 
care manager centric interactive and interoperable application that 
provides more continuous and immediate contact between patients, care 
managers and physicians over secure websites. It is anticipated that 
the development of the interactive web-based education and behavior 
modules will provide the largest potential benefit with respect to 
motivating patients to set reasonable goals for their management of 
diabetes, and thus maximize the clinical benefit.
    The collaborative currently runs 9 clinical trial research projects 
actively that are taking place at 4 sites. These each entail testing 
some aspect of the Comprehensive Diabetes Management Program for 
clinical efficacy and cost efficiency, namely the CDMP Eye care 
program, the Behavioral Assessment Tool (BAT), and the digital 
photography component of the nutrition module.
    The completion of these studies has been deemed critical to provide 
the medical evidence to support a sustainable program. The expectations 
are that this program will provide significant reductions in health 
care dollars expenses while maintaining a high quality of care as 
assessed through a reduction in complications such as blindness from 
diabetes. The data from these studies can provide compelling evidence 
to third party payors as to the effectiveness of the program since 
medical reimbursement is a critical factor in sustaining the program. 
The use of this program will also increase the access of patients to 
appropriate care and provide a very powerful tool that will empower 
patients to improve their own management of their diabetes. During the 
2007 funding period, active patients in the program will be followed 
for all the proposed studies and data collection and interim analyses 
will be ongoing.
    Philosophically this management program has been developed to 
facilitate an interactive and continuous connection between patient and 
care team. This gives it the ability to aggregate clinical data from 
diverse sources, electronic medical record systems, lab systems and 
data from the home through the use of home monitoring devices. In this 
way the system is able to present data to a physician in a medically 
relevant manner that allows a patient doctor communication to occur 
over most of the short patient visits. The robust clinical decision 
support system also rapidly identifies patients at risk or who have 
other medical issues that need to be addressed. It is expected that the 
management and health care delivery services provided through this 
application will allow a primary care practitioner to appropriately 
manage patients with chronic disease, such as diabetes, for longer 
periods of time before having to refer patients to more expensive 
subspecialty services that result in very cost efficient care and the 
savings of health care dollars.

                      FISCAL YEAR 2008 OBJECTIVES

CDMP Eye Care Application Enhancements
    We will continue our research and development efforts to improve 
retinal image quality and provide computer assisted support with 
respect to automated detection of retinal lesions and automated 
diagnosis based on identification of these lesions. We will also begin 
to develop a system to provide computer assisted decision support for 
best practice treatment and management plan options, based on diagnosis 
of level of diabetic retinopathy and the level of risk associated with 
the patients diabetes in general. This neural network approach will 
rapidly increase the efficiency of the system for providing eye 
diagnoses and medically relevant treatment plan options and will have a 
critical impact on the sustainability of the program.
Comprehensive Diabetes Management Program (CDMP)
    The current system utilization is more physician centric. However, 
the platform allows a migration to modules that provide a patient 
centric personal health record that is also interoperable and will 
harmonize care across the health care arena. Over the coming years our 
work will focus on moving the system into a more open source 
environment so that it becomes available to everyone license free.
    A major research thrust will be to develop a neural net engine that 
automates treatment plan options based on available medical information 
and evidence based clinical guidelines. In this manner the physician 
can be rapidly guided to treatment plan options and can decide to 
choose one of the presented options or develop a different plan.
    We will also focus on enriching the personal health record 
component of the applicant through a series of automated lifestyle 
decision support systems. In this way, instead of the patient having to 
go through options and make decisions, the system automatically 
provides the patient with healthy lifestyle options and the patient 
just has to choose whatever option the patient likes. Thus we expect 
that patient decisions regarding the management of the patients' 
chronic disease will become much more seamless and gives the patient 
time to focus on decisions involving a more normal lifestyle in the 
absence of a chronic disease.
Behavior is the Key to Health Maintenance
    While behavior-driven goals are easy to define they are difficult 
to implement in the current medical paradigm. A typical doctor visit in 
the United States allows only three minutes of direct interaction with 
a patient. As we better understand the profound role of individual 
behavior in the maintenance of health and in the onset and progression 
of disease, it is clear that the effective management of those 
behaviors is the Holy Grail of modern health management. Human 
behaviors are notoriously difficult to change. We change slowly and 
incrementally, and change comes as the result of understanding--truly, 
deeply understanding the positive impact our behaviors will have on the 
quality and length of our lives.
    We expect to significantly impact patient behaviors through the use 
of novel education applications that are a major thrust of our 
continuing research and development. This will focus on the arena of 
providing medical education in a manner that will resonate with the 
patient. The concept here is to provide education and decision support 
in an engaging video format coupled with a learning system that starts 
to recognize particular patient's preferences. For example, based on 
patient data collected during the day on nutrition, (images of meals 
taken over cell phone) exercise, and blood glucose values, it will be 
possible to provide video clips of different meals that adhere to 
patient treatment plan and lifestyle. When a patient clicks on a meal 
beam a TV format video, onto the patient TV in the kitchen, of how to 
cook the meal.
    Other CDMP research areas will focus 4 topics as outlined below:
  --The continuing development of the nutrition module to include 
        algorithms identifying nutritional risk based on patient food 
        intake with decision support to improve nutritional behaviors. 
        This will also include interactive patient advice with respect 
        to recipe choices, portion sizes and food choices.
  --Provide a wide variety of home monitoring devices to the patient 
        that can be connected wirelessly to a home computer for 
        transmission to the CDMP application.
  --Integration of a Hypertension Management Module working in 
        collaboration with the Veterans Administration.
  --The development of a cognitive assessment tool. This is an 
        important aspect of being able to help a patient manage 
        diabetes. For example if a patient is non compliant to a method 
        for changing smoking cessation, the patient is non-compliant 
        because the patients are not ready to change or are because 
        they do not understand what is being asked of him or her.
  --The development of a mental health care service delivery module. In 
        diabetes there is an almost complete lack of appropriate 
        management of mental health care. During this funding cycle we 
        will develop a CDMP module that facilitates delivery of mental 
        health care services to a patient with diabetes.
  --The development of a predictive modeling algorithm that will allow 
        the CDMP care manager to predict significant clinical adverse 
        events, with decision support tools that will allow the care 
        manager to potentially prevent the adverse event from 
        occurring.

                              PROGRAM COSTS
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
DOD Admin & Mgmt Costs (@20 percent)....................      $1,000,000
Participation Expenses (Includes costs for ongoing             1,757,000
 studies and addition of new sites).....................
Joslin Expenses (Includes costs for studies and support        1,173,000
 as well as on going research and development efforts
 for improved retinal imaging)..........................
Shared CDMP Costs involved in continuing development of        1,070,000
 new modules and computer assisted diagnostic support as
 well as study related costs for the ongoing cost
 benefit and clinical benefit studies...................
                                                         ---------------
      TOTAL, Joslin Diabetes Center.....................       5,000,000
------------------------------------------------------------------------

    Mr. Chairman, Joslin is pleased to be a part of this project with 
the Department of Defense and we are grateful for the support that you 
and your colleagues have provided to us. Please know that we would be 
grateful for your continued support again this year.

    Senator Inouye. Our next witness is John R. Davis, 
Director, Legislative Programs of The Fleet Reserve 
Association.
    Mr. Davis.

STATEMENT OF JOHN R. DAVIS, DIRECTOR, LEGISLATIVE 
            PROGRAMS, THE FLEET RESERVE ASSOCIATION
    Mr. Davis. Thank you.
    Mr. Chairman, The Fleet Reserve Association (FRA) wants to 
thank you, and the entire subcommittee for your work to improve 
military pay, improve healthcare, and enhance other personnel, 
retirement, and survivor programs.
    This year, with even more than $100 billion in pending 
supplemental appropriations for the Iraq and Afghanistan 
conflict, the United States will still spend only about 4 
percent of its GDP on defense, as compared to 9 percent 
annually in the 1960's.
    FRA strongly supports funding to support the anticipated 
increases in end-strengths for 2008, since the current end-
strength is not adequate to meet the demands of fighting the 
war on terror, and sustaining other operational commitments.
    Sailors, marines and Coast Guardsman serving in Operation 
Iraqi Freedom/Operation Enduring Freedom must be fully armed 
with the best protective devices available for their personal 
safety. A top priority for FRA is adequate funding for, and 
receipt of those protective devices, including: vehicle 
protection, armor and electronic equipment to disrupt IEDs for 
every uniformed service member in theater.
    FRA strongly supports adequate funding for the Defense 
Health Program. In order to meet readiness needs, fully fund 
TRICARE and improve access for all beneficiaries, regardless of 
age, status, or location, FRA believe the Defense Department 
must investigate and implement other options to make TRICARE 
more cost effective as an alternative to shifting the cost to 
retiree beneficiaries under the age of 65.
    The proposed 2008 budget includes cuts in healthcare 
funding based, apparently, on the assumed implementation of 
drastically higher fees for military retirees. FRA questions 
why DOD assumed authorization of the fee hikes before the 
ongoing studies are complete.
    FRA strongly urges the subcommittee to restore the funding 
in lieu of TRICARE fee increases. FRA believes funding 
healthcare benefits for all beneficiaries are part of the cost 
of defending our Nation.
    FRA supports the annual Active duty increases that are at 
least one-half of 1 percent above the employment cost index. 
For 2008, the administration recommended only a 3-percent 
across-the-board pay increase for members of the Armed 
Services, which is equal to the employment compensation index.
    Adequate pay contributes to improved morale, readiness, and 
retention. The value of adequate pay cannot be overstated. 
Better pay will reduce family stress, especially for the junior 
enlisted. The current year pay increase, which was 2.2 percent, 
was the smallest increase since 1994. Military pay and benefits 
must reflect the fact that military service is very different 
from the work in the private sector.
    Also, reforming and updating the Montgomery GI bill is 
important, and aids in the recruitment and retention of high-
quality individuals for service in the Active and Reserve 
forces. If authorized, FRA also strongly supports funding 
improvements to concurrent receipt of military retired pay, and 
VA disability compensation. Also, retention of a full month's 
pay, for retired pay, by the retiree's surviving spouse.
    These proposals have also been endorsed by the full 
military coalition.
    Thank you, again, Mr. Chairman, for allowing me the 
opportunity to present the association's recommendations, and I 
stand ready to answer any questions you may have.
    Senator Inouye. Well, as you are well aware, recruiting and 
retention are our major concerns at this moment.
    Mr. Davis. Yes, sir.
    Senator Inouye. And I can assure you that your program 
helps in that element, so we'll do our very best, sir.
    Mr. Davis. Thank you very much.
    [The statement follows:]

                  Prepared Statement of John R. Davis

                                THE FRA

    The Fleet Reserve Association (FRA) is the oldest and largest 
enlisted organization serving active duty, Reserves, retired and 
veterans of the Navy, Marine Corps, and Coast Guard. It is 
Congressionally Chartered, recognized by the Department of Veterans 
Affairs (DVA) as an accrediting Veteran Service Organization (VSO) for 
claim representation and entrusted to serve all veterans who seek its 
help.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    FRA's mission is to act as the premier ``watch dog'' organization 
in maintaining and improving the quality of life for Sea Service 
personnel and their families. FRA is a leading advocate on Capitol Hill 
for enlisted Active Duty, Reserve, retired and veterans of the Sea 
Services.
    FRA also is a major participant in The Military Coalition (TMC) a 
35-member consortium of military and veterans organizations. FRA hosts 
most TMC meetings and members of its staff serve in a number of TMC 
leadership roles, including co-chairing several committees.
    FRA celebrated 82 years of service in November 2006. For over eight 
decades, dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel and other 
members of the Uniformed Services while protecting their rights and 
privileges. CHAMPUS, now TRICARE, was an initiative of FRA, as was the 
Uniformed Services Survivor Benefit Plan (USSBP). More recently, FRA 
led the way in reforming the REDUX Retirement Plan, obtaining targeted 
pay increases for mid-level enlisted personnel, and sea pay for junior 
enlisted sailors. FRA also played a leading role in obtaining predatory 
lending protections for service members and their dependents in the 
fiscal year 2007 National Defense Authorization Act.
    FRA's motto is: ``Loyalty, Protection, and Service.''

                                OVERVIEW

    Mr. Chairman, the Fleet Reserve Association thanks you and the 
entire Subcommittee for your strong and unwavering support of funding 
programs important to active duty, Reserve Component, and retired 
members of the uniformed services, their families, and survivors. The 
Subcommittee's work has greatly improved military pay, eliminated out-
of-pocket housing expenses, improved health care, and enhanced other 
personnel, retirement and survivor programs. This support is critical 
to maintaining readiness and is invaluable to our uniformed services 
engaged throughout the world fighting the global War on Terror, 
sustaining other operational commitments and fulfilling commitments to 
those who've served in the past.
    This year, even with the more than $100 billion in pending 
supplemental appropriations for Iraq and Afghanistan, the United States 
will still spend only four percent of its GDP on defense. From 1961-
1963, the military consumed 9.1 percent of GDP annually. According to 
many experts the active duty military has been stretched to the limit 
since 9/11, and has expanded by only 30,000 personnel. FRA strongly 
supports funding to support the anticipated increased end strengths in 
fiscal year 2008 since the current end strength is not adequate to meet 
the demands of fighting the War on Terror and sustaining other 
operational commitments. ``Measuring governmental costs against the 
economy as a whole is a good proxy for how much of the nation's wealth 
is being diverted to a particular enterprise.'' \1\
---------------------------------------------------------------------------
    \1\ John Cranford, CQ Weekly, February 10, 2007; ``Political 
Economy: High, and Low, Cost of War''.
---------------------------------------------------------------------------
    Over the past several years, the Pentagon has been constrained in 
its budget even as it has been confronted with rising personnel costs, 
aging weapon systems, worn out equipment, and dilapidated facilities.
    This statement lists the concerns of our members, keeping in mind 
that the Association's primary goal is to endorse any positive safety 
programs, rewards, quality of life improvements that support members of 
the uniform services, particularly those serving in hostile areas, and 
their families, and survivors.
    Sailors, Marines, and Coast Guardsman serving in Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF) must be fully armed 
with the best protective devices available for their personnel safety. 
A top priority for FRA is adequate funding for, and receipt of those 
protective devices; including vehicle protection, armor and electronic 
equipment to disrupt IEDs for every uniformed member serving in 
theater.

                              HEALTH CARE

    Full Funding for the Defense Health Program.--FRA strongly supports 
adequate funding for the Defense Health Program in order to meet 
readiness needs, fully fund TRICARE, and improve access for all 
beneficiaries regardless of age, status or location.
    FRA believes that the Defense Department must investigate and 
implement other options to make TRICARE more cost-efficient as 
alternatives to shifting costs for TRICARE Standard and other health 
care benefits to retiree beneficiaries under age 65. Cost-saving 
options include:
  --Negotiating discounts with drug manufacturers, or mandating federal 
        pricing;
  --Eliminate mail-order co-pays to boost use of this lowest cost 
        option for beneficiaries to receive prescription medications; 
        and
  --Accelerate DOD/VA cost sharing initiates to ensure implementation 
        of a seamless transition.
    The proposed fiscal year 2008 budget includes a $1.86 billion 
health care funding cut based apparently on the assumed implementation 
of drastically higher fees for younger military retirees. There have 
been no enrollment fee hikes since TRICARE was established in 1995, and 
this proposed cost shifting to beneficiaries is nearly 250 percent more 
than the annual savings predicted by DOD last year ($735 million). FRA 
questions why DOD assumed authorization of the fee hikes before the 
Task Force on the Future of Military Health Care issues a preliminary 
report and prior to the Government Accountability Office (GAO) audit of 
the data and methodology DOD used to determine increased fees outlined 
in 2006. FRA strongly urges the Subcommittee to restore the $1.86 
billion funding in lieu of TRICARE fee increases.
    Higher health care fees for retirees will significantly erode the 
value of retired pay, particularly for enlisted retirees who retired 
prior to larger and targeted recent pay adjustments enacted to close 
the pay gap. Military service is very different from work in the 
corporate world and requires service in often life threatening duty 
assignments and the associated benefits offered in return must be 
commensurate with these realities.
    FRA is grateful to both the House and Senate Budget Committees for 
providing head room in fiscal year 2008 to restore adequate funding 
without huge fee increases for beneficiaries. Funding health care 
benefits for all beneficiaries is part of the cost of defending our 
Nation.

                       PROTECT PERSONNEL PROGRAMS

    Active Duty Pay.--FRA supports annual active duty pay increases 
that are at least 0.5 percent above the Employment Cost Index (ECI) 
along with targeted increases for mid career and senior enlisted 
personnel to help close the remaining four percent pay gap between 
active duty and private sector pay.
    For fiscal year 2008, the Administration recommended only a three 
percent across the board pay increase for members of the Armed 
Services.
    Adequate and targeted pay increases authorized in recent years for 
middle grade and senior petty and noncommissioned officers have 
contributed to improved morale, readiness, and retention. The value of 
adequate pay cannot be over stated. Better pay will reduce family 
stress, especially for junior enlisted and reduce the need for military 
personnel use of short-term pay day loans unaware of the ruinous long-
term impact of excessive interest rates.
    The 2.2 percent across the board basic pay increase for members of 
the Armed Forces for fiscal year 2007 is the smallest increase since 
1994 and an issue within the career force. In addition, certain grades 
received targeted pay increases on April 1, 2007 totaling between 2 
percent and 5 percent.
    Military pay and benefits must reflect the fact that military 
service is very different from work in the private sector.
    BRAC and Rebasing.--Adequate resources are required to fund 
essential quality of life programs and services at bases impacted by 
BRAC and rebasing initiatives. FRA is concerned about sustaining 
commissary access, MWR programs and other support for service members 
and their families particularly at installations most impacted by these 
actions. These include Guam, where a significant number of Marines and 
their families are being relocated from Okinawa. The shortage of funds 
is curtailing or closing some of the activities while the costs of 
participating in others have recently increased. Regarding Navy fitness 
centers, the biggest challenge is updating older fitness structures and 
providing the right equipment, and ensuring availability of trained 
staff.
    Family Readiness and Support.--FRA supports funding for a family 
readiness and a support structure to enhance family cohesion and 
improve retention and recruitment. DOD and the services must provide 
information and education programs for families of our service members. 
Spousal and family programs have been fine tuned and are successfully 
contributing to the well-being of this community. The Navy's Fleet and 
Family Centers and the Marines' Marine Corps Community Services (MCCS) 
and the family services programs are providing comprehensive, 24/7 
information and referral services to the service member and family 
through its One Source links. One Source is also particularly 
beneficial to mobilized Reservists and families who are unfamiliar with 
benefits and services available to them.
    Child and Youth Programs.--MCPON Joe Campa testified before the 
House Appropriations Subcommittee on Military Construction and Veterans 
Affairs on February 9, 2007 and stated that a top Navy issue is the 
need for more childcare facilities. ``We are currently providing close 
to 69 percent of the need right now, but with more single parents, dual 
military couples and surge deployments, childcare is very important, 
and it's critical to our mission accomplishment.'' Currently, the 
Navy's program cares for over 31,000 children six months to 12 years in 
227 facilities, and in 3,180 on and off base licensed child development 
homes. Access to childcare is important and FRA urges Congress to 
authorize adequate funding for this important program.
    Other top Navy requirements are the need for more homeport/ashore 
barracks, and improved health care access via more providers in certain 
fleet concentration areas.
    As an integral support system for mission readiness and 
deployments, it is imperative these programs be adequately funded and 
continued to be improved and expanded to cover the needs of both 
married and single parents.
    Spousal Employment.--The Association urges Congress to continue its 
support of the military's effort to affect a viable spousal employment 
program and to authorize sufficient funds to assure the program's 
success. Today's all-volunteer environment requires the services to 
consider the whole family. Spousal employment is important and can be a 
stepping-stone to retention of the service member--a key participant in 
the defense of this Nation.
    Active Duty and Reserve Component Personnel End Strengths.--FRA 
strongly supports adequate end strength to win the War on Terror and to 
sustain other military commitments around the world. Inadequate end 
strengths increase stress on the military personnel and their families 
and contribute to greater reliance on the Guard and Reserves. FRA 
welcomes the Administration's request for 92,000 additional personnel 
(27,000 Marines and 65,000 Army) and urges authorization of 
appropriations to cover the associated short and long term costs.
    Education Funding.--FRA strongly supports funding for supplemental 
Impact Aid for highly impacted school districts. It is important to 
ensure our service members, many serving in harm's way, have less 
concern about their children's education and more focus with the job at 
hand. Impact Aid funding for local schools educating military children 
is frozen at the fiscal year 2006 level in the Department of Education 
and the Administration's fiscal year 2008 request is set at the same 
level ($1,228,453,000) despite rebasing plans and significant 
anticipated Army and Marine Corps end strength increases in the coming 
years.
    The Montgomery GI Bill (MGIB) program must be adequately funded 
since it is important and aids in the recruitment and retention of 
high-quality individuals for service in the active and Reserve forces; 
assists in the readjustment of service men and women to civilian life 
after they complete military service; extends the benefits of higher 
education (and training) to service men and women who may not be able 
to afford higher education; and enhances the Nation by providing a 
better educated and more productive workforce. Double-digit education 
inflation is dramatically diminishing the value of MGIB, and despite 
recent increases, benefits fall well short of the actual cost of 
education at a four-year public college or university. In addition, 
thousands of career service members who entered service during the 
Veterans Education Assistance Program (VEAP) era, but declined to 
enroll in that program (in many cases, on the advice of government 
education officials) have been denied a MGIB enrollment opportunity.
    Reform of PCS Process.--FRA appreciates that the long delayed 
implementation of the Families First program which will provide full 
replacement value reimbursements for damaged household goods moved 
during service members PCS relocations will be implemented in May 2008. 
This program must be adequately funded and FRA continues to support 
resources necessary to ensure full implementation and the continuation 
of this program.

                             RESERVE ISSUES

    FRA stands foursquare in support of the Nation's Reservists. Due to 
the demands of the War on Terror, Reserve units are now increasingly 
being mobilized to augment active duty components and last year more 
than 5,000 Navy Reserve Sailors were serving in the desert. And 
wherever active-duty Marines are engaged around the world, Marine 
Reservists are there.
    Inadequate benefits for Reservists and the Guard can only undermine 
long-term retention and readiness. And because of increasing demands on 
these personnel to perform multiple missions abroad over longer periods 
of time, it's essential to improve compensation and benefits packages 
to attract recruits and retain currently serving personnel.
    Health Care.--FRA supports adequate funding for TRICARE Reserve 
Select to sustain the benefit on an optional basis for all selected 
Reservists and families on a cost-sharing basis. FRA also supports 
funding to increase subsidy levels for TRICARE coverage for drilling 
Reserve members not yet mobilized and establishing one premium for all 
members of the Guard and Reserve who continue to be drilling members. 
Consistency of health care benefits and continuity of care are major 
concerns for Reserve personnel and their families.
    Retirement.--If authorized, FRA supports funding to support a 
reduction in the age when Reserve members are eligible for retirement 
pay, particularly for those members who have experienced extended 
mobilizations at great sacrifice to their civilian careers.
    Family Readiness.--FRA supports resources to allow increased 
outreach to connect Guard and Reserve families with support programs. 
This includes increased funding for family readiness, especially for 
those geographically dispersed, not readily accessible to military 
installations, and inexperienced with the military. Unlike active duty 
families who often live near military facilities and support services, 
many Reserve families live in civilian communities where information 
and support is not readily available. Congressional hearing witnesses 
have indicated that many of the half million mobilized Guard and 
Reserve personnel have not received transition assistance services they 
and their families need to make a successful transition back to 
civilian life.
    Other Issues.--FRA is pleased to see improvements to the Survivor 
Benefit Program (SBP) and concurrent receipt in the House Personnel 
Subcommittee mark up of the fiscal year 2008 National Defense 
Authorization Act. If authorized, the Association asks that the 
Subcommittee provide funding necessary to cover the increase costs of 
the enhancements in these two important programs.

                               CONCLUSION

    FRA is grateful for the opportunity to present the organization's 
views to this distinguished Subcommittee. The Association reiterates 
its profound gratitude for the extraordinary progress this Subcommittee 
has made in advancing a wide range of military personnel benefits and 
quality-of-life programs for all uniformed services personnel, 
retirees, their families and survivors.
    Thank you.

    Senator Inouye. I must call this hearing to a short recess, 
because we have a vote pending. There will be four votes on the 
floor, all stacked up, and so we should be able to reconvene in 
an hour.
    So, with that, the hearing is recessed for 1 hour, and the 
first witness upon our return will be Chief Petty Officer James 
Phillips.
    Our next witness is Chief Petty Officer James Phillips, 
United States Naval Sea Cadet Corps.
    Captain Hurd. Mr. Chairman, it's my honor to introduce 
Chief Phillips, who is the Petty Officer of the Year, selected 
out of 10,000 Sea Cadets every year, and quite a privilege.
    Senator Inouye. Congratulations.

STATEMENT OF CHIEF PETTY OFFICER JAMES PHILLIPS, UNITED 
            STATES NAVAL SEA CADET CORPS
ACCOMPANIED BY CAPTAIN ROBERT C. HURD, UNITED STATES NAVY (RETIRED), 
            NAVAL SEA CADET CORPS

    Chief Phillips. Mr. Chairman, good morning. I'm Naval Sea 
Cadet Corps Chief Petty Officer James Phillips, lead Petty 
Officer of the Warrior Division in Doseville, Georgia, as well 
as a senior at New Creations Center.
    It is an honor to address you on behalf of the Naval Sea 
Cadet Corps. There are now between 9,000 and 10,000 young men 
and women, ages 11 to 17, and adult volunteers, proudly wearing 
the Naval Sea Cadet uniform in 371 units throughout the 
country.
    We are a congressionally chartered youth development and 
education program, sponsored by the Navy League of the United 
States, and supported by the Navy and Coast Guard.
    The program's main goals are the development of young men 
and women, while promoting interest and skill in seamanship and 
aviation, and instilling a sense of patriotism, courage, 
commitment, self-reliance, and honor, along with other 
qualities that mold strong moral character, and self-discipline 
in a drug, and gang-free environment.
    After completing boot camp, Sea Cadets choose from a 
variety of 2-week summer training sessions, including training 
aboard Navy and Coast Guard ships. During my tour in the Naval 
Sea Cadets, I have attended 15 advanced summer and spring 
training sessions. During the year, we drill one weekend a 
month, and may complete Navy correspondent courses for 
advancement, this being the basis for the accelerated 
promotion, if a cadet should choose to enlist in the Navy, or 
Coast Guard, after leaving the program.
    Almost 500 former Sea Cadets now attend the U.S. Naval 
Academy. This past year, over 12 percent of the entering fleet 
class were ex-cadets. Approximately 500 former cadets annually 
enlist in the Armed Services, pre-screened, highly motivated, 
and well-prepared. Prior Sea Cadets experience has proven to be 
an excellent indicator of a potentially higher career success 
rate, both in and out of the military. My current plans for the 
future are that I plan to work toward becoming a military 
doctor.
    Whether or not we choose a service career, we all carry 
forth the forged values of good citizenship, leadership, and 
moral courage that we believe will benefit us and our country. 
A major difference between this, and other federally chartered 
youth programs, is that we are all responsible for our own 
expenses, including uniforms, travel, insurance, and training 
costs, which can amount to $400 to $500 a year. The Corps, 
however, is particularly sensitive that no young person is 
denied access to the program, because of socio-economic status.
    Some units are financed, in part, by local sponsors. Yet, 
this support--while greatly appreciated--is not sufficient to 
support all cadets. Federal funds over the past years have been 
used to help offset cadets out-of-pocket training costs, 
however, for a variety of reasons, current funding can no 
longer adequately sustain the program. These include: 
inflation, base closures and reduced base access, reduced 
afloat training opportunities, lack of previously provided 
transportation, on-base berthing and base transportation, 
increased need-based support for the cadets.
    We respectfully request your consideration and support, our 
funding request of $300,000, that will allow for the full 
budgeted amount of $2 million requested for next year.
    Unfortunately, time precludes sharing the many stories that 
Captain Hurd has shared with your staff this year, pointing out 
the many acts of courage, community service, and successful 
youth development of my fellow Sea Cadets, as well as those ex-
cadets who are serving in armed forces in Iraq, Afghanistan, 
and around the world. These stories, and many more like them, 
are unfortunately the stories that you do not always hear about 
in the press.
    Thank you for the opportunity to speak to you today. I, and 
the entire Sea Cadet Corps, appreciate your support for this 
fine program, that has meant so much to me over the past 6 
years, and which will continue to influence me for the rest of 
my life.
    Senator Inouye. Once again, congratulations, sir. And, this 
patriotic program is worthy of our support.
    Chief Phillips. Thank you, sir.
    Senator Inouye. Thank you very much.
    Chief Phillips. Thank you.
    [The statement follows:]

              Prepared Statement of Captain Robert C. Hurd

                                REQUEST

    It is respectfully requested that $300,000 be appropriated for the 
NSCC in fiscal year 2008, so that when added to the Navy budgeted 
$1,700,000 will restore full funding at the $2,000,000 level. Further, 
in order to ensure future funding at the full $2,000,000 requirement, 
consideration of including the following conference language is 
requested:

    ``Congress is pleased to learn that Navy has funded the U.S. Naval 
Sea Cadet Corps in the fiscal year 20078 budget as urged by the Senate 
and House in the 2007 Defense Budget Conference Report. Conferees 
include an additional $300,000 for the U.S. Naval Sea Cadet Corps, that 
when added to the $1,700,000 in the fiscal year 2008 budget request 
will fund the program at the full $2,000,000 requested. Conferees urge 
the Navy to continue to fund this program and increase the POM level to 
$2,000,000 for the U.S. Naval Sea Cadet Corps.''

                               BACKGROUND

    At the request of the Department of the Navy, the Navy League of 
the United States established the Naval Sea Cadet Corps in 1958 to 
``create a favorable image of the Navy on the part of American youth.'' 
On September 10, 1962, the U.S. Congress federally chartered the Naval 
Sea Cadet Corps under Public Law 87-655 as a non-profit civilian youth 
training organization for young people, ages 13 through 17. A National 
Board of Directors, whose Chairman serves as the National Vice 
President of the Navy League for Youth Programs, establishes NSCC 
policy and management guidance for operation and administration. A 
full-time Executive Director and small staff in Arlington, Virginia 
administer NSCC's day-to-day operations. These professionals work with 
volunteer regional directors, unit commanding officers, and local 
sponsors. They also collaborate with Navy League councils and other 
civic, or patriotic organizations, and with local school systems.
    In close cooperation with, and the support of, the U.S. Navy and 
U.S. Coast Guard, the Sea Cadet Corps allows youth to sample military 
life without obligation to join the Armed Forces. Cadets and adult 
leaders are authorized to wear the Navy uniform, appropriately modified 
with a distinctive Sea Cadet insignia.
    There are currently over 367 Sea Cadet units with a program total 
of over 8,200 participants with over 2,200 adult volunteer Officers and 
Instructors.

                            NSCC OBJECTIVES

    Develop an interest and skill in seamanship and seagoing subjects.
    Develop an appreciation for our Navy's history, customs, traditions 
and its significant role in national defense.
    Develop positive qualities of patriotism, courage, self-reliance, 
confidence, pride in our nation and other attributes, which contribute 
to development of strong moral character, good citizenship traits and a 
drug-free, gang-free lifestyle.
    Present the advantages and prestige of a military career.
    Under the Cadet Corps' umbrella is the Navy League Cadet Corps 
(NLCC), a youth program for children ages 11 through 13. While it is 
not part of the federal charter provided by Congress, the Navy League 
of the United States sponsors NLCC. NLCC was established ``. . . to 
give young people mental, moral, and physical training through the 
medium of naval and other instruction, with the objective of developing 
principles of patriotism and good citizenship, instilling in them a 
sense of duty, discipline, self-respect, self-confidence, and a respect 
for others.''

                                BENEFITS

    Naval Sea Cadets experience a unique opportunity for personal 
growth, development of self-esteem and self-confidence. Their 
participation in a variety of activities within a safe, alcohol-free, 
drug-free, and gang-free environment provides a positive alternative to 
other less favorable temptations. The Cadet Corps introduces young 
people to nautical skills, to maritime services and to a military life 
style. The program provides the young Cadet the opportunity to 
experience self-reliance early on, while introducing this Cadet to 
military life without any obligation to join a branch of the armed 
forces. The young Cadet realizes the commitment required and routinely 
excels within the Navy and Coast Guard environments.
    Naval Sea Cadets receive first-hand knowledge of what life in the 
Navy or Coast Guard is like. This realization ensures the likelihood of 
success should they opt for a career in military service. For example, 
limited travel abroad and in Canada may be available, as well as the 
opportunity to train onboard Navy and Coast Guard ships, craft and 
aircraft. These young people may also participate in shore activities 
ranging from training as a student at a Navy hospital to learning the 
fundamentals of aviation maintenance at a Naval Air Station.
    The opportunity to compete for college scholarships is particularly 
significant. Since 1975, 197 Cadets have received financial assistance 
in continuing their education in a chosen career field at college.

                               ACTIVITIES

    Naval Sea Cadets pursue a variety of activities including 
classroom, practical and hands-on training as well as field trips, 
orientation visits to military installations, and cruises on Navy and 
Coast Guard ships and small craft. They also participate in a variety 
of community and civic events.
    The majority of Sea Cadet training and activities occurs year round 
at a local training or ``drill'' site. Often, this may be a military 
installation or base, a reserve center, a local school, civic hall, or 
sponsor-provided building. During the summer, activities move from the 
local training site and involve recruit training (boot camp), 
``advanced'' training of choice, and a variety of other training 
opportunities (depending on the Cadet's previous experience and 
desires).

                           SENIOR LEADERSHIP

    Volunteer Naval Sea Cadet Corps officers and instructors furnish 
senior leadership for the program. They willingly contribute their time 
and effort to serve America's youth. The Cadet Corps programs succeed 
because of their dedicated, active participation and commitment to the 
principles upon which the Corps was founded. Cadet Corps officers are 
appointed from the civilian sector or from active, reserve or retired 
military status. All are required to take orientation, intermediate and 
advanced Officer Professional Development courses to increase their 
management and youth leadership skills. Appointment as an officer in 
the Sea Cadet Corps does not, in itself, confer any official military 
rank. However, a Navy-style uniform, bearing NSCC insignia, is 
authorized and worn. Cadet Corps officers receive no pay or allowances. 
Yet, they do derive some benefits, such as limited use of military 
facilities and space available air travel in conjunction with carrying 
out training duty orders.

                  DRUG-FREE AND GANG-FREE ENVIRONMENT

    One of the most important benefits of the Sea Cadet program is that 
it provides participating youth a peer structure and environment that 
places maximum emphasis on a drug and gang free environment. Supporting 
this effort is a close liaison with the U.S. Department of Justice Drug 
Enforcement Administration (DEA). The DEA offers the services of all 
DEA Demand Reduction Coordinators to provide individual unit training, 
as well as their being an integral part of our boot camp training 
program.
    Among a variety of awards and ribbons that Cadets can work toward 
is the Drug Reduction Service Ribbon, awarded to those who display 
outstanding skills in the areas of leadership, perseverance and 
courage. Requirements include intensive anti-drug program training and 
giving anti-drug presentations to interested community groups.

                                TRAINING

Local Training
    Local training, held at the unit's drill site, includes a variety 
of activities supervised by qualified Sea Cadet Corps officers and 
instructors, as well as Navy and Coast Guard instructors.
    Cadets receive classroom and hands on practical instruction in 
basic military requirements, military drill, water and small boat 
safety, core personal values, social amenities, drug/alcohol abuse, 
cultural relations, Navy history, naval customs and traditions and 
other nautical skills. Training may be held aboard ships, small boats 
or aircraft, depending upon platform availability. In their training 
Cadets also learn about and are exposed to a wide variety of civilian 
and military career opportunities through field trips and educational 
tours.
    Special presentations by military and civilian officials augment 
the local training, as does attendance at special briefings and events 
throughout the local area. Cadets are also encouraged and scheduled, to 
participate in civic activities and events to include parades, social 
work and community projects, all part of the ``whole person'' training 
concept.
    For all Naval Sea Cadets the training during the first several 
months is at their local training site and focuses on general 
orientation to and familiarization with, the entire program. It also 
prepares them for their first major away from home training event, the 
two weeks recruit training which all Sea Cadets must successfully 
complete.
    The Navy League Cadet Corps training program teaches younger Cadets 
the virtues of personal neatness, loyalty, obedience, courtesy, 
dependability and a sense of responsibility for shipmates. In 
accordance with a Navy-oriented syllabus, this education prepares them 
for the higher level of training they will receive as Naval Sea Cadets.

                            SUMMER TRAINING

    After enrolling, all Sea Cadets must first attend a two-week 
recruit training taught at the Navy's Recruit Training Command, at 
other Naval Bases or stations, and at regional recruit training sites 
using other military host resources. Instructed by Navy or NSCC Recruit 
Division Commanders, Cadets train to a condensed version of the basic 
training that Navy enlistees receive. The curriculum is provided by the 
Navy and taught at all training sites. In 2006 there were 23 recruit 
training classes at 21 locations, including two classes conducted over 
the winter holiday break and another held over spring break. About 
eighteen nationwide to twenty-two regional sites are required to 
accommodate the steady demand for quotas and also to keep cadet and 
adult travel costs to a minimum. Approximately 2,000 cadets attended 
recruit training in 2006 supported by another 350 adult volunteers.
    A Cadet who successfully completes recruit training is eligible for 
advanced training in various fields of choice. Cadets can experience 
the excitement of ``hands-on'' practical training aboard Navy and Coast 
Guard vessels, ranging from tugboats and cutters to the largest 
nuclear-powered aircraft carriers. Female Cadets may also train aboard 
any ship that has females assigned as part of the ship's company. 
Qualified Cadets choose from such Sea Cadet advanced training as basic/
advanced airman, ceremonial guard, seamanship, sailing, SEAL training, 
amphibious operations, leadership, firefighting and emergency services, 
Homeland security, mine warfare operations, Navy diving submarine 
orientation and training in occupational specialties, including health 
care, legal, music, master-at-arms and police science and construction.
    The Cadet Corp programs excel in quality and diversity of training 
offered, with more than 7,000 training orders carried out for the 2006 
summer training program. Cadets faced a myriad of challenging training 
opportunities designed to instill leadership and develop self-reliance, 
enabling them to become familiar with the full spectrum of Navy and 
Coast Guard career fields.
    This steady and continuing participation once again reflects the 
popularity of the NSCC and the positive results of federal funding for 
2001 through 2006. The NSCC still continues to experience an average 
increased recruit and advanced training attendance of well over 2,000 
cadets per year over those years in which federal funding was not 
available.
    While recruit training acquaints cadets with Navy life and Navy 
style discipline, advanced training focuses on military and general 
career fields and opportunities, and also affords the cadets many 
entertaining, drug free, disciplined yet fun activities over the 
summer. The popularity of the training continues to grow not with just 
overall numbers but also as evidenced with numerous cadets performing 
multiple two week training sessions during the summer of 2006.
    Training highlights for 2006.--The 2006 training focus was once 
again on providing every cadet the opportunity to perform either 
recruit or advanced training during the year. To that end emphasis was 
placed on maintaining all traditional and new training opportunities 
developed since federal funding was approved for the NSCC. These 
include more classes in sailing and legal (JAG) training, expanded SEAL 
training opportunity, more SCUBA and diving training classes, more 
seamanship training onboard the NSCC training vessels on the Great 
Lakes, more aviation related training and additional honor guard 
training opportunities. Other highlights included:
  --Maintained national recruit training opportunity for every cadet 
        wanting to participate with 21 recruit training evolutions in 
        2006.
  --Extended cadet training opportunity beyond the traditional summer 
        evolutions to now include advanced and recruit training classes 
        over the Thanksgiving high school recess, the Christmas recess 
        and the spring recess. During 2006, 12 additional classes over 
        these school breaks were conducted with 725 cadets 
        participating. They were supported by another 104 adult 
        volunteers.
  --Maintained NSCC's aggressive NSCC Officer Professional Development 
        Program, with three different weekend courses tailored to 
        improving volunteer knowledge and leadership skills. Over 500 
        volunteers attended 2006 training at 32 different training 
        evolutions.
  --Continued for a second year, NSCC's new naval engineering class for 
        NSCC cadets at Navy's Training Command, Great Lakes, IL.
  --Once again placed cadets onboard USCG Barque Eagle for a summer 
        underway orientation training cruise.
  --Maintained NSCC's expanded seamanship training on the Great Lakes 
        with 4 underway cruises onboard 2 NSCC YP's and the NSCC 
        torpedo retriever ``Grayfox''.
  --Further enhanced NSCC cadet opportunity for advanced training in 
        the medical field through the expanded medical ``first 
        responder'' training at Naval Hospital Great Lakes, IL, and 
        continuing the very advanced, unique ``surgical tech'' training 
        at the Naval Medical Center in San Diego, CA.
  --Developed and implemented NSCC's first 3 week summer training 
        course in Joint Special Operations Command Orientation at Fort 
        Pickett, VA. 37 cadets graduated from this course in 2006.
  --Continued NSCC's maritime focus through its expanded sail training 
        with basic, intermediate and advanced sailing classes offered 
        in San Diego, CA and 2 additional classes on board ``tall 
        ships'' in Newport, RI.
  --Continued to place cadets aboard USCG stations, cutters, and 
        tenders for what proves to be among the best of the individual 
        training opportunities offered in the NSCC.
  --Placed cadets onboard USN ships under local orders as operating 
        schedules and opportunity permitted.
  --Promoted cadets' orientation of the U.S. Naval Academy and the U.S. 
        Coast Guard Academy by offering tuition offsets to cadets 
        accepted into either academies summer orientation program for 
        high school juniors (NASS or AIM). 20 cadets participated in 
        2006.
  --Again, as in prior years, enjoyed particularly outstanding support 
        from members of the United States Naval Reserve, the Army, and 
        National Guard, whose help and leadership remains essential for 
        summer training.
International Exchange Program (IEP)
    For 2006 the NSCC again continued its' highly competitive, merit 
based, and very low cost to the cadet, International Exchange Program. 
Cadets were placed in Australia, United Kingdom, Sweden, Netherlands, 
Hong Kong, Scotland, Russia, and Bermuda to train with fellow cadets in 
these host nations. The NSCC and Canada maintained their traditional 
exchanges in Nova Scotia and British Columbia, and the NSCC hosted 
visiting international cadets in Newport, RI and at ANG Gowen Field, 
Boise, ID, for two weeks of NSCC sponsored training.
Navy League Cadet Training
    In 2006, approximately 984 Navy League cadets and escorts attended 
Navy League Orientation and Advanced Training nationwide. Participation 
in 2006 was somewhat less than 2005 by about 150 cadets, surmised to be 
attributable to reduced enrollments as a result of the on-going war in 
Iraq. This is a total of approximately 350 fewer cadets than in 2004. 
Regardless, the diversity in location and ample quotas allowed for 
attendance by each and every League cadet who wished to attend. Of 
these, approximately 217 League cadets and their escorts attended 
advanced Navy League training where cadets learn about small boats and 
small boat safety using the U.S. Coast Guard's safe boating curriculum. 
Other advanced Navy League training sites emphasize leadership 
training. Both serve the program well in preparing League cadets for 
further training in the Naval Sea Cadet Corps, and particularly for 
their first recruit training.
International Exchange Program
    For 2006 the NSCC again continued for the fifth year its' 
redesigned and highly competitive, merit based and very low cost to the 
cadet, International Exchange Program. Cadets were placed in Australia, 
United Kingdom, Sweden, Netherlands, Hong Kong, Korea and Bermuda to 
train with fellow cadets in these host nations. The NSCC and Canada 
maintained their traditional exchanges in Nova Scotia nad British 
Columbia and the NSCC hosted visiting cadets in Newport, RI and at ANG 
Gowen Field in Boise, ID for two weeks of NSCC sponsored training. New 
in 2005 were exchanges to Saint Petersberg, Russia and also to 
Scotland.
Navy League Cadet Training
    In 2005, over 1,120 Navy League Cadets and escorts attended 
orientation training at 17 different sites. This diversity in location 
made training accessible and reasonably available to each Cadet who 
wished to attend. Over 373 League Cadets and escorts attended advanced 
training at several sites. The advanced program was developed in 
recognition of the need to provide follow-on training for this younger 
age group to sustain their interest and to better prepare them for the 
challenges of Naval Sea Cadet Corps training. Navy League Cadets who 
attend recruit orientation training are exceptionally well prepared for 
Sea Cadet ``boot camp.''
Scholarships
    The Naval Sea Cadet Corps scholarship program was established to 
provide financial assistance to deserving Cadets who wished to further 
their education at the college level. Established in 1975, the 
scholarship program consists of a family of funds: the NSCC Scholarship 
Fund; the Navy League Stockholm Scholarship; and the NSCC ``named 
scholarship'' program, designed to recognize an individual, 
corporation, organization or foundation. Since the inception of the 
scholarship program, 209 scholarships have been awarded to 197 Cadets 
(includes some renewals) totaling over $256,500.
Service Accessions
    The Naval Sea Cadet Corps was formed at the request of the 
Department of the Navy as a means to ``enhance the Navy image in the 
minds of American youth.'' To accomplish this, ongoing presentations 
illustrate to Naval Sea Cadets the advantages and benefits of careers 
in the armed services, and in particular, the sea services.
    While there is no service obligation associated with the Naval Sea 
Cadet Corps program, many Sea Cadets choose to enlist or enroll in 
Officer training programs in all the Services.
    The Naval Sea Cadet Corps was formed at the request of the 
Department of the Navy as a means to ``enhance the Navy image in the 
minds of American youth.'' To accomplish this, ongoing training 
illustrates to Naval Sea Cadets the advantages and benefits of careers 
in the armed services, and in particular, the sea services.
    Annually, the NSCC conducts a survey to determine the approximate 
number of Cadets making this career decision. This survey is conducted 
during the annual inspections of the units which occurs during the 
period January through March. The reported accessions to the services 
are only those known to the unit. There are many accessions that go 
unreported, that occur 2-5 years after Cadets leave their units. With 
about 80 percent of the units reporting, the survey indicates that 566 
known Cadets entered the Armed Forces during the reporting year ending 
December 31, 2005. This is an increase over the previous years' 
accessions. Each Cadet entering the Armed Forces is a disciplined, 
well-trained individual and progresses much better than those with no 
experience. Attritions of former cadets prior to their completion of 
obligated service is very low compared to other entrees.

------------------------------------------------------------------------
                                                                 Amount
------------------------------------------------------------------------
U.S. Naval Academy (2006)....................................        148
U.S. Military Academy........................................          6
U.S. Coast Guard Academy.....................................          5
U.S. Air Force Academy.......................................          3
U.S. Merchant Marine Academy.................................         10
NROTC........................................................         41
OCS Navy.....................................................          8
OCS Army.....................................................         11
OCS Air Force................................................          3
OCS Marine Corps.............................................          3
USNA Prep School.............................................          1
Navy-Enlisted................................................        169
U.S. Coast Guard-Enlisted....................................         15
Marine Corps-Enlisted........................................         72
Army-Enlisted................................................         48
Air Force-Enlisted...........................................          6
National Guard-Enlisted......................................         17
                                                              ----------
      Total..................................................        566
------------------------------------------------------------------------

Program Finances
    Sea Cadets pay for all expenses, including travel to/from training, 
uniforms, insurance and training costs. Out-of-pocket costs can reach 
$500 each year. Assistance is made available so that no young person is 
denied access to the program, regardless of social or economic 
background.
    Federally funded at the $1,000,000 level in fiscal year's 2001, 
2002, and 2003, and at $1,500,000 in fiscal year 2004 and $1,700,000 in 
2005 (of the $2,000,000 requested), and $2,000,000 in fiscal year 2006 
all of these fund were used to offset individual Cadet's individual 
costs for summer training, conduct of background checks for adult 
volunteers and for reducing future enrollment costs for Cadets. In 
addition to the federal fund received, NSCC receives under $700,000 per 
year from other sources, which includes around $226,000 in enrollment 
fees from Cadets and adult volunteers. For a variety of reasons, at a 
minimum, this current level of funding is necessary to sustain this 
program and the full $2,000,000 would allow for program expansion:
  --All time high in number of enrolled Sea Cadets.
  --General inflation of all costs.
  --Some bases denying planned access to Sea Cadets for training due to 
        increased terrorism threat level alerts and the associated 
        tightening of security measures--requiring Cadets to utilize 
        alternative, and often more costly training alternatives.
  --Reduced availability of afloat training opportunities due to the 
        Navy's high level of operations related to the Iraq war.
  --Reduced training site opportunities due to base closures.
  --Non-availability of open bay berthing opportunities for Cadets due 
        to their elimination as a result of enlisted habitability 
        upgrades to individual/double berthing spaces.
  --Lack of available ``Space Available'' transportation for group 
        movements.
  --Lack of on-base transportation, as the navy no longer ``owns'' 
        busses now controlled by the GSA.
  --Navy outsourcing of messing facilities to civilian contractors 
        increases the individual Cadet's meal costs.
    Because of these factors, Cadet out-of-pocket costs have 
skyrocketed to the point where the requested $2,000,000 alone would be 
barely sufficient to handle cost increases
    It is therefore considered a matter of urgency that the full amount 
of the requested $2,000,000 be authorized and appropriated for fiscal 
year 2008.

    Senator Inouye. Our next witness is Mr. Rick Jones, 
Legislative Director, National Association for Uniformed 
Services.

STATEMENT OF RICK JONES, LEGISLATIVE DIRECTOR, NATIONAL 
            ASSOCIATION FOR UNIFORMED SERVICES
    Mr. Jones. Chairman Inouye, Ranking Member Stevens, it's an 
honor to testify before so distinguished a veteran of World War 
II, and it's a privilege to be invited before your 
subcommittee.
    My association is very proud of the job this generation of 
Americans is doing. What they do is vital to our security, and 
the debt we owe them is enormous.
    Mr. Chairman, quality healthcare is a strong incentive for 
a military career. At a time when we are relying on our Armed 
Forces, the Defense Department's recommendations to reduce 
military healthcare spending by $1.8, $1.9 billion is deeply 
disappointing.
    The plan DOD proposes would, as you know, double or even 
triple annual fees for retirees and families, and would greatly 
diminish the value of the benefit earned by retirees for a 
military career. My association asks you to ensure full funding 
is provided to maintain the value of the healthcare benefit 
that's provided these men and women, willing to undergo the 
hardships of a military career. What we ask is what is best for 
our service men and women.
    Mr. Chairman, a long war fought by an overstretched force 
gives us a warning. There are simply too many missions, and too 
few troops. To sustain the service, we must recognize that an 
increase in troop strength is needed, and it must be resourced. 
We ask, also, that you give priority to funding operations and 
maintenance accounts. To reset, recapitalize and renew the 
Force.
    The National Guard, for example, has virtually depleted its 
equipment inventory, causing rising concern about its capacity 
to respond to disasters at home, or to train for its missions 
abroad. Another matter of great interest to our members is the 
plan to re-align and consolidate military health facilities in 
the national capital region, specifically, Walter Reed Medical 
Center in Washington, DC.
    To maintain Walter Reed's base operation support and 
medical services, we request that funds be in place to ensure 
that Walter Reed remains open, fully operational, and fully 
functional until the planned facilities at Bethesda and Fort 
Belvoir are in place already to give uninterrupted care to our 
catastrophically wounded soldiers.
    Our wounded warriors really deserve our Nation's best, most 
compassionate healthcare. They earned it the hard way, and with 
application of proper resources, we know the Nation will 
continue to hold the well-being of these soldiers and their 
families in one of our highest priorities.
    The development of an electronic medical record remains a 
major goal. My association calls on you to continue to push, as 
you have in the past, DOD and VA to follow through on 
establishing a bi-directional, interoperable, electronic 
medical record. The time for foot-dragging is over.
    We also call on the subcommittee to fund a full spectrum of 
traumatic brain injury care, recognizing that TBI is a 
signature injury of the current conflict. We need to recognize 
that the care is needed for patients suffering from mild to 
moderate brain injuries, as well. The approach to this problem 
requires resources, and we trust you'll take a look at that.
    We encourage the subcommittee to ensure that funding for 
the Defense Department's prosthetic research is adequate to 
support the full range of programs needed to meet the needs of 
current, disabled veterans.
    As you know, the Uniformed Services University of the 
Health Sciences is the Nation's Federal School of Medicine and 
Graduate School of Nursing. We support the university, and 
request adequate funding be provided to ensure continued 
accredited training, especially in the area of chemical, 
biological, radiological, and nuclear response.
    Mr. Chairman, we thank you so very much for your service to 
this Nation, your efforts, your hard work, we look forward to 
working with you, and thank you for this opportunity to support 
our courageous troops.
    Senator Inouye. I can assure you, Mr. Jones, that we 
support your position.
    Mr. Jones. Thank you, sir.
    [The statement follows:]

                    Prepared Statement of Rick Jones

    Chairman Inouye, Ranking Member Stevens, and members of the 
Subcommittee, good morning. It is a pleasure to appear before you today 
to present the views of The National Association for Uniformed Services 
on the 2008 Defense appropriations bill.
    My name is Richard ``Rick'' Jones, Legislative Director of The 
National Association for Uniformed Services (NAUS). And for the record, 
NAUS has not received any federal grant or contract during the current 
fiscal year or during the previous two years in relation to any of the 
subjects discussed today.
    As you know, Mr. Chairman, The National Association for Uniformed 
Services, founded in 1968, represents all ranks, branches and 
components of uniformed services personnel, their spouses and 
survivors. The Association includes all personnel of the active, 
retired, Reserve and National Guard, disabled veterans, veterans 
community and their families. We love our country, believe in a strong 
national defense, support our troops and honor their service.
    Mr. Chairman, the first and most important responsibility of our 
government is the protection of our citizens. As we all know, we are at 
war. That is why the defense appropriations bill is so very important. 
It is critical that we provide the resources to those who fight for our 
protection and our way of life. We need to give our courageous men and 
women everything they need to prevail. And we must recognize as well 
that we must provide priority funding to keep the promises made to the 
generations of warriors whose sacrifice has paid for today's freedom.
    At the start, I want to express a NAUS concern about the amount of 
our investment in our national defense. At the height of the War on 
Terror, our current defense budget represents only a little more than 4 
percent of the gross national product, as opposed to the average of 5.7 
percent of GNP in the peacetime years between 1940 and 2000.
    We cannot look the other way in a time when we face such serious 
threats. Resources are required to ensure our military is fully 
staffed, trained, and equipped to achieve victory against our enemies. 
Leaders in Congress and the administration need to balance our 
priorities and ensure our defense in a dangerous world.
    Here, I would like to make special mention of the leadership and 
contribution this panel has made in providing the resources and support 
our forces need to complete their mission. Defending the United States 
homeland and the cause of freedom means that the dangers we face must 
be confronted. And it means that the brave men and women who put on the 
uniform must have the very best training, best weapons, best care and 
wherewithal we can give them.
    Mr. Chairman, you and those on this important panel have taken 
every step to give our fighting men and women the funds they need, 
despite allocations we view as insufficient for our total defense 
needs. You have made difficult priority decisions that have helped 
defend America and taken special care of one of our greatest assets, 
namely our men and women in uniform.
    And NAUS is very proud of the job this generation of Americans is 
doing to defend America. Every day they risk their lives, half a world 
away from loved ones. Their daily sacrifice is done in today's 
voluntary force. What they do is vital to our security. And the debt we 
owe them is enormous.
    The members of NAUS applaud Congress for the actions you have taken 
over the last several years to close the pay gap, provide bonuses for 
specialized skill sets, and improve the overall quality of life for our 
troops and the means necessary for their support.
    Our Association does, however, have some concerns about a number of 
matters. Among the major issues that we will address today is the 
provision of a proper health care for the military community and 
recognition of the funding requirements for TRICARE for retired 
military. Also, we will ask for adequate funding to improve the pay for 
members of our armed forces and to address a number of other challenges 
including TRICARE Reserve Select and the Survivor Benefit Plan.
    We also have a number of related priority concerns such as the 
diagnosis and care of troops returning with Post Traumatic Stress 
Disorder (PTSD) and Traumatic Brain Injury (TBI), the need for enhanced 
priority in the area of prosthetics research, and providing improved 
seamless transition for returning troops between the Department of 
Defense (DOD) and the Department of Veterans Affairs (VA). In addition, 
we would like to ensure that adequate funds are provided to defeat 
injuries from the enemy's use of Improvised Explosive Devices (IEDs).
Military Quality of Life: Health Care
    Quality health care is a strong incentive to make military service 
a career. The Defense blueprint for military healthcare raises serious 
concern. DOD recommends saving $1.8 billion through sharp increases in 
TRICARE fees and higher copays for pharmaceuticals for 3.1 million 
retirees under age 65 and their families.
    To achieve these savings, Defense officials would institute the 
plan proposed last year. That plan triples annual enrollment fees for 
TRICARE Prime next October for officers, to $700 from $230 a year for 
individuals and to $1,400 from $460 per year for families. For retired 
E-6 and below, the fee would jump nearly fifty percent, to $325/$650 
from $230/$460. And for E-7 and above, the jump would more than double 
to $475/$950 from $230/$460.
    Defense officials also suggest the establishment of a TRICARE 
Standard enrollment fee and an increase in the annual amount of 
deductible charges paid by retirees using Standard coverage. The 
standard beneficiary already pays a 25 percent cost share (and an added 
15 percent for non-participating providers). Should Congress approve 
the DOD request to increase deductibles and initiate an annual fee, the 
value of the benefit earned by military retirees using Standard would 
be greatly diminished.
    DOD officials also recommend changes in TRICARE retail pharmacy 
copayments. Their ideas call for increasing copays for retail generic 
drugs to $5 from $3 and for retail brand drugs to $15 from $9. The 
copayment for non-formulary prescriptions would remain at $22. By the 
way, these would also affect over-age 65 retirees who use TRICARE for 
Life.
    The assertion behind the proposals is to have working-age retirees 
and family members pay a larger share of TRICARE costs or use civilian 
health plans offered by employers. Frankly, we are deeply troubled that 
DOD would aim to discourage retirees from using their earned benefits 
with the military medical system.
    The National Association for Uniformed Services is certainly not 
comfortable with DOD estimates that by 2011, if the changes were made, 
144,000 retirees currently enrolled in the TRICARE programs would bail 
out and go to a State or private plan and an estimated 350,000 people 
who earned the benefit would never come into it.
    The DOD plan would drive half a million military retirees to make a 
choice that they might otherwise not want to make to reduce its costs 
this year by $1.8 billion. It is not only an extremely poor way to 
treat military families in times of peace or war; it is unfair, 
unbalanced, and would push 500,000 retirees out of TRICARE, the benefit 
they earned through a military career.
    Mr. Chairman, the National Association for Uniformed Services asks 
you to ensure full funding is provided to maintain the value of the 
healthcare benefit provided those men and women willing to undergo the 
hardships of a military career.
    The provision of quality, timely care is considered one of the most 
important benefits afforded the career military. What Congress has done 
reflects the commitment of a nation, and it deserves your wholehearted 
support.
    We urge the Subcommittee to take the actions necessary for honoring 
our obligation to those men and women who have worn the nation's 
military uniform. Confirm America's solemn, moral obligation to support 
our troops, our military retirees, and their families. They have kept 
their promise to our Nation, now it's time for us to keep our promise 
to them.
Military Quality of Life: Pay
    For fiscal year 2008, the Administration recommends a 3 percent 
across-the-board pay increase for members of the Armed Forces. The 
proposal is designed, according to the Pentagon, to keep military pay 
in line with civilian wage growth.
    The National Association for Uniformed Services calls on you to put 
our troops and their families first. Our forces are stretched thin, at 
war, yet getting the job done. We ask you to express the nation's 
gratitude for their critical service, increase basic pay and drill pay 
one-half percent above the administration's request to 3.5 percent.
    Congress and the administration have done a good job over the 
recent past to narrow the gap between civilian-sector and military pay. 
The differential, which was as great as 14 percent in the late 1990s, 
has been reduced to just under 4 percent with the January 2007 pay 
increase.
    However, we can do better than simply maintaining a rough measure 
of comparability with the civilian wage scale. To help retention of 
experience and entice recruitment, the pay differential is important. 
We have made significant strides. But we are still below the private 
sector.
    In addition, we urge the appropriations panel to never lose sight 
of the fact that our DOD manpower policy needs a compensation package 
that is reasonable and competitive. Bonuses have a role in this area. 
Bonuses for instance can pull people into special jobs that help supply 
our manpower for critical assets, and they can also entice ``old 
hands'' to come back into the game with their skills.
    The National Association for Uniformed Services asks you to do all 
you can to fully compensate these brave men and women for being in 
harm's way, we should clearly recognize the risks they face and make 
every effort to appropriately compensate them for the job they do.
Military Quality of Life: Allowances
    The National Association for Uniformed Services strongly supports 
revised housing standards within the Basic Allowance for Housing (BAH). 
We are most grateful for the congressional actions reducing out-of-
pocket housing expenses for servicemembers over the last several years. 
Despite the many advances made, many enlisted personnel continue to 
face steep challenge in providing themselves and their families with 
affordable off-base housing and utility expenses. BAH provisions must 
ensure that rates keep pace with housing costs in communities where 
military members serve and reside. Efforts to better align actual 
housing rates can reduce unnecessary stress and help those who serve 
better focus on the job at hand, rather than the struggle with meeting 
housing costs for their families.
Military Quality of Life: Allowances
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding for military construction and 
family housing accounts used by DOD to provide our service members and 
their families quality housing. The funds for base allowance and 
housing should ensure that those serving our country are able to afford 
to live in quality housing whether on or off the base. The current 
program to upgrade military housing by privatizing Defense housing 
stock is working well. We encourage continued oversight in this area to 
ensure joint military-developer activity continues to improve housing 
options. Clearly, we need to be particularly alert to this challenge as 
we implement BRAC and related rebasing changes.
    The National Association for Uniformed Services also asks special 
provision be granted the National Guard and Reserve for planning and 
design in the upgrade of facilities. Since the terrorist attacks of 
Sept. 11, 2001, our Guardsmen and reservists have witnessed an upward 
spiral in the rate of deployment and mobilization. The mission has 
clearly changed, and we must recognize they account for an increasing 
role in our national defense and homeland security responsibilities. 
The challenge to help them keep pace is an obligation we owe for their 
vital service.
Increase Force Readiness Funds
    The readiness of our forces is declining. The long war fought by an 
overstretched force tells us one thing: there are simply too many 
missions and too few troops. Extended and repeated deployments are 
taking a human toll. Back-to-back deployments means, in practical 
terms, that our troops face unrealistic demands. To sustain the service 
we must recognize that an increase in troop strength is needed and it 
must be resourced.
    In addition, we ask you to give priority to funding for the 
operations and maintenance accounts where money is secured to reset, 
recapitalize and renew the force. The National Guard, for example, has 
virtually depleted its equipment inventory, causing rising concern 
about its capacity to respond to disasters at home or to train for its 
missions abroad.
Walter Reed Army Medical Center
    Another matter of great interest to our members is the plan to 
realign and consolidate military health facilities in the National 
Capital Region. The proposed plan includes the realignment of all 
highly specialized and sophisticated medical services currently located 
at Walter Reed Army Medical Center in Washington, DC, to the National 
Naval Medical Center in Bethesda, MD, and the closing of the existing 
Walter Reed by 2011.
    While we herald the renewed review of the adequacy of our hospital 
facilities and the care and treatment of our wounded warriors that 
result from news reports of deteriorating conditions at Walter Reed 
Army Medical Center, the National Association for Uniformed Services 
believes that Congress must continue to provide adequate resources for 
WRAMC to maintain its base operations' support and medical services 
that are required for uninterrupted care of our catastrophically 
wounded soldiers and marines as they move through this premier medical 
center.
    We request that funds be in place to ensure that Walter Reed 
remains open, fully operational and fully functional, until the planned 
facilities at Bethesda or Fort Belvoir are in place and ready to give 
appropriate care and treatment to the men and women wounded in armed 
service.
    Our wounded warriors deserve our nation's best, most compassionate 
healthcare and quality treatment system. They earned it the hard way. 
And with application of the proper resources, we know the nation will 
continue to hold the well being of soldiers and their families as our 
number one priority.
Department of Defense, Seamless Transition Between the DOD and VA
    The development of electronic medical records remains a major goal. 
It is our view that providing a seamless transition for recently 
discharged military is especially important for servicemembers leaving 
the military for medical reasons related to combat, particularly for 
the most severely injured patients.
    The National Association for Uniformed Services calls on the 
Appropriations Committee to push DOD and VA to follow through on 
establishing a bi-directional, interoperable electronic medical record. 
Since 1982, these two departments have been working on sharing critical 
medical records, yet to date neither has effectively come together in 
coordination with the other.
    The time for foot dragging is over. Taking care of soldiers, 
sailors, airmen and marines is a national obligation, and doing it 
right sends a strong signal to those currently in military service as 
well as to those thinking about joining the military.
    DOD must be directed to adopt identical electronic architecture 
including software, data standards and data repositories as used at the 
Department of Veterans Affairs. It makes absolute sense and it would 
lower costs for both organizations.
    If our seriously wounded troops are to receive the care they 
deserve, the departments must do what is necessary to establish a 
system that allows seamless transition of medical records. It is 
essential if our nation is to ensure that all troops receive timely, 
quality health care and other benefits earned in military service.
    To improve the DOD/VA exchange, the hand-off should include a 
detailed history of care provided and an assessment of what each 
patient may require in the future, including mental health services. No 
veteran leaving military service should fall through the bureaucratic 
cracks.
Defense Department Force Protection
    The National Association for Uniformed Services urges the 
Subcommittee to provide adequate funding to rapidly deploy and acquire 
the full range of force protection capabilities for deployed forces. 
This would include resources for up-armored high mobility multipurpose 
wheeled vehicles and add-on ballistic protection to provide force 
protection for soldiers in Iraq and Afghanistan, ensure increased 
activity for joint research and treatment effort to treat combat blast 
injuries resulting from improvised explosive devices (IEDs), rocket 
propelled grenades, and other attacks; and facilitate the early 
deployment of new technology, equipment, and tactics to counter the 
threat of IEDs.
    We ask special consideration be given to counter IEDs, defined as 
makeshift or ``homemade'' bombs, often used by enemy forces to destroy 
military convoys and currently the leading cause of casualties to 
troops deployed in Iraq. These devices are the weapon of choice and, 
unfortunately, a very efficient weapon used by our enemy. The Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) is established 
to coordinate efforts that would help eliminate the threat posed by 
these IEDs. We urge efforts to advance investment in technology to 
counteract radio-controlled devices used to detonate these killers. 
Maintaining support is required to stay ahead of the changing enemy and 
to decrease casualties caused by IEDs.
Defense Health Program--TRICARE Reserve Select
    Mr. Chairman, another area that requires attention is reservist 
participation in TRICARE. As we are all aware, National Guard and 
Reserve personnel have seen an upward spiral of mobilization and 
deployment since the terrorist attacks of Sept. 11, 2001. The mission 
has changed and with it our reliance on these forces has risen. 
Congress has recognized these changes and begun to update and upgrade 
protections and benefits for those called away from family, home and 
employment to active duty. We urge your commitment to these troops to 
ensure that the long overdue changes made in the provision of their 
heath care and related benefits is adequately resourced. We are one 
force, all bearing a full share of the load.
Department of Defense, Prosthetic Research
    Clearly, care for our troops with limb loss is a matter of national 
concern. The global war on terrorism in Iraq and Afghanistan has 
produced wounded soldiers with multiple amputations and limb loss who 
in previous conflicts would have died from their injuries. Improved 
body armor and better advances in battlefield medicine reduce the 
number of fatalities, however injured soldiers are coming back 
oftentimes with severe, devastating physical losses.
    In order to help meet the challenge, Defense Department research 
must be adequately funded to continue its critical focus on treatment 
of troops surviving this war with grievous injuries. The research 
program also requires funding for continued development of advanced 
prosthesis that will focus on the use of prosthetics with 
microprocessors that will perform more like the natural limb.
    The National Association for Uniformed Services encourages the 
Subcommittee to ensure that funding for Defense Department's prosthetic 
research is adequate to support the full range of programs needed to 
meet current and future health challenges facing wounded veterans. To 
meet the situation, the Subcommittee needs to focus a substantial, 
dedicated funding stream on Defense Department research to address the 
care needs of a growing number of casualties who require specialized 
treatment and rehabilitation that result from their armed service.
    We would also like to see better coordination between the 
Department of Defense Advanced Research Projects Agency and the 
Department of Veterans Affairs in the development of prosthetics that 
are readily adaptable to aid amputees.
Post Traumatic Stress Disorder (PTSD) and Traumatic Brain Injury (TBI)
    The National Association for Uniformed Services supports a higher 
priority on Defense Department care of troops demonstrating symptoms of 
mental health disorders and traumatic brain injury.
    It is said that Traumatic Brain Injury (TBI) is the signature 
injury of the Iraq war. Blast injuries often cause permanent damage to 
brain tissue. Veterans with severe TBI will require extensive 
rehabilitation and medical and clinical support, including neurological 
and psychiatric services with physical and psycho-social therapies.
    We call on the Subcommittee to fund a full spectrum of TBI care and 
to recognize that care is also needed for patients suffering from mild 
to moderate brain injuries, as well. The approach to this problem 
requires resources for hiring caseworkers, doctors, nurses, clinicians 
and general caregivers if we are to meet the needs of these men and 
women and their families.
    The mental condition known as Post Traumatic Stress Disorder (PTSD) 
has been well known for over a hundred years under an assortment of 
different names. For example more than sixty years ago, Army 
psychiatrists reported, ``That each moment of combat imposes a strain 
so great that . . . psychiatric casualties are as inevitable as gunshot 
and shrapnel wounds in warfare.''
    PTSD is a serious psychiatric disorder. While the government has 
demonstrated over the past several years a higher level of attention to 
those military personnel who exhibit PTSD symptoms, more should be done 
to assist service members found to be at risk.
    Pre-deployment and post-deployment medicine is very important. Our 
legacy of the Gulf War demonstrates the concept that we need to 
understand the health of our service members as a continuum, from pre- 
to post-deployment.
    The National Association for Uniformed Services applauds the extent 
of help provided by the Defense Department, however we encourage that 
more resources be made available to assist. Early recognition of the 
symptoms and proactive programs are essential to help many of those who 
must deal with the debilitating effects of mental injuries, as 
inevitable in combat as gunshot and shrapnel wounds.
    We encourage the Members of the Subcommittee to provide for these 
funds and to closely monitor their expenditure and to see they are not 
redirected to other areas of defense spending.
Armed Forces Retirement Home
    The National Association for Uniformed Services encourages the 
Subcommittee's continued interest in providing funds for the Armed 
Forces Retirement Home (AFRH). As you know, more than half of the 
residents in the Gulfport home were evacuated for care and treatment to 
the Washington, DC, home the day after Hurricane Katrina struck and 
damaged the Mississippi facility in August 2005. We applaud the staff 
and residents at the Washington facility for stepping up to the 
challenge of absorbing the change, and we recognize that challenges 
remain in the transformation.
    We urge the Subcommittee to continue its help in providing adequate 
funding to alleviate the strains on the Washington home. Also, we 
remain concerned about the future of the Gulfport home, so we urge your 
continued close oversight on the recently signed memorandum of 
understanding between the General Services Administration and design-
build contractors for the Gulfport home. And we thank the subcommittee 
for the provision of $221 million to build a new Armed Forces 
Retirement Home at the present location of the tower, which is 
scheduled for demolition this summer.
    The National Association for Uniformed Services also asks the 
Subcommittee to closely review administration plans to sell great 
portions of the Washington AFRH to developers. The AFRH home is a 
historic national treasure, and we recommend that Congress find an 
alternate means to continue providing a residence for and quality-of-
life support to these deserving veterans without turning most of this 
pristine campus over to developers.
Uniformed Services University of the Health Sciences
    As you know, the Uniformed Services University of the Health 
Sciences (USUHS) is the nation's federal school of medicine and 
graduate school of nursing. The medical students are all active-duty 
uniformed officers in the Army, Navy, Air Force and U.S. Public Health 
Service who are being educated to deal with wartime casualties, 
national disasters, emerging diseases and other public health 
emergencies.
    The National Association for Uniformed Services supports the USUHS 
and requests adequate funding be provided to ensure continued 
accredited training, especially in the area of chemical, biological, 
radiological and nuclear response. In this regard, it is our 
understanding that USUHS requires funding for training and educational 
focus on biological threats and incidents for military, civilian, 
uniformed first responders and healthcare providers across the nation.
Joint POW/MIA Accounting Command (JPAC)
    We also want the fullest accounting of our missing servicemen and 
ask for your support in DOD dedicated efforts to find and identify 
remains. It is a duty we owe to the families of those still missing as 
well as to those who served or who currently serve. And as President 
Bush said, ``It is a signal that those who wear our country's military 
uniform will never be abandoned.''
    In recent years, funding for the Joint POW/MIA Accounting Command 
(JPAC) has fallen short, forcing the agency to scale back and even 
cancel many of its investigative and recovery operations. NAUS supports 
the fullest possible accounting of our missing servicemen. It is a duty 
we owe the families, to ensure that those who wear our country's 
uniform are never abandoned. We request that appropriate funds be 
provided to support the JPAC mission for fiscal year 2008.
Appreciation for the Opportunity to Testify
    As a staunch advocate for our uniformed service men and women, The 
National Association for Uniformed Services recognizes that these brave 
men and women did not fail us in their service to country, and we, in 
turn, must not fail them in providing the benefits and services they 
earned through honorable military service.
    Mr. Chairman, The National Association for Uniformed Services 
appreciates the Subcommittee's hard work. We ask that you continue to 
work in good faith to put the dollars where they are most needed: in 
strengthening our national defense, ensuring troop protection, 
compensating those who serve, providing for DOD medical services 
including TRICARE, and building adequate housing for military troops 
and their families, and in the related defense matters discussed today. 
These are some of our nation's highest priority needs and we ask that 
they be given the level of attention they deserve.
    The National Association for Uniformed Services is confident you 
will take special care of our nation's greatest assets: the men and 
women who serve and have served in uniform. We are proud of the service 
they give to America every day. They are vital to our defense and 
national security. The price we pay as a nation for their earned 
benefits is a continuing cost of war, and it will never cost more nor 
equal the value of their service.
    We thank you for your efforts, your hard work. And we look forward 
to working with you to ensure we continue to provide sufficient 
resources to protect the earned benefits for those giving military 
service to America every day.
    Again, the National Association for Uniformed Services deeply 
appreciates the opportunity to present the Association's views on the 
issues before the Defense Appropriations Subcommittee.

    Senator Inouye. Our next witness, Mr. George Dahlman, 
Senior Vice President for Public Policy, the Leukemia and 
Lymphoma Society.

STATEMENT OF GEORGE DAHLMAN, SENIOR VICE PRESIDENT FOR 
            PUBLIC POLICY, LEUKEMIA AND LYMPHOMA 
            SOCIETY
    Mr. Dahlman. Thank you, Mr. Chairman, for giving us this 
opportunity. My name is George Dahlman, I'm here today to 
represent and testify on behalf of the Leukemia and Lymphoma 
Society and hundreds of thousands of blood cancer patients 
across the country. I'm also the parent of a leukemia survivor.
    Over the past 56 years, this society has been dedicated to 
finding a cure for blood cancers, that's leukemia, lymphoma, 
and myeloma. We are both--we are the largest blood cancer 
organization in the world and we're actually the second largest 
cancer organization in the country after the American Cancer 
Society.
    Our main focus is really on funding research. We'll fund, 
in 2007, approximately $65 million in grants. We provide a wide 
range of services to people with blood cancer, their caregivers 
and family, at 64 chapters around the country.
    As you may know, there have been impressive strides in 
curing childhood cancer and a few years ago there was a new 
pill developed called Gleevec, which has really developed a new 
paradigm in targeted treatments of cancer, generally. We are 
proud--the society is proud to play a role in developing that 
drug and--but there's still a lot of work to be done. A lot of 
blood cancers still have bad outlooks. And, the Department of 
Defense's congressionally directed medical research program is 
an important part of that.
    Right now in this year, about 130,000 Americans will be 
diagnosed with some form of blood cancer and approximately 
65,000 of those will die this year. The society and its other 
blood cancer partners believes this is important medical 
research to the Department of Defense for a number of reasons.
    First, research on blood cancers had significance relevance 
to the Armed Forces because the incidence of these cancers is 
substantially higher among individuals with chemical and 
nuclear exposure. Higher incidences of leukemia have long been 
substantiated in extreme nuclear incidents in both military and 
civilian populations. And, recent studies prove that individual 
exposures, for example, to chemical agents such as Agent Orange 
in the Vietnam war, also developed blood cancers.
    Second, research in blood cancers traditionally pioneered 
treatments in other cancers. Just like Gleevec, the first 
chemotherapy and bone marrow transplants are two good examples 
of treatments first developed in blood cancers that are now 
applied to others. And Congress recognized that relevance. Over 
the past 6 years, they have appropriated $4.5 million annually 
for one type of leukemia program and members of the 
subcommittee know the great distinction of the CDMRP is its 
cooperative and collaborative process that incorporates 
different experts and patients in the field.
    Furthermore, over the last 6 years, blood cancers have been 
one of a number of diseases eligible for research funding under 
the DOD's Peer-review Medical Research Program. But as of the 
continuing resolution in February, the leukemia program itself 
and the incorporation of the blood cancers as an eligible 
disease to be sponsored under the peer-reviewed program, were 
both dropped.
    Mr. Chairman, with all due respect to our colleagues 
fighting a broad range of cancers that are represented in this 
program and, certainly not to diminish their significance, a 
cancer research program designed for application to military 
and national security needs would invariably begin with a 
strong blood cancer research foundation. DOD research on blood 
cancers addresses the importance of preparing for civilian and 
military exposure to weapons being developed by hostile nations 
and to aid in the march to more effective treatments for all 
who suffer from these diseases.
    Recognizing that, this year a group of 34 members of 
Congress have requested that the program be funded at $10 
million and expanded in scope to include all blood cancers. 
And, the very least, especially for this subcommittee, we 
strongly believe that a blood cancer program should at least be 
eligible for funding under the Peer-reviewed Medical Research 
Program. That's not a guarantee of funding, but simply the 
ability to compete.
    Subcommittee members might be interested in knowing that we 
had, the society had been in discussions with CDMRP on 
collaborative opportunities in team science, which we are, have 
a great deal of experience in. And, the society, because of our 
extensive research portfolio, is interested in pursuing 
opportunities for public/private partnerships with the 
Department of Defense. That question was raised by this 
subcommittee in 2003, and was the subject of an Institute of 
Medicine report in 2004, and the society continues to believe 
that a collaborative venture holds great promise.
    DOD research on other forms of cancer, blood cancers 
address the importance of civilian and military exposure to the 
weapons being developed across the world and to aid in the 
effective treatment of people who suffer those. And, we 
respectfully request support for this funding in the fiscal 
year 2008 appropriations bill.
    Thank you.
    Senator Inouye. This is, cancer is a matter of personal 
concern to most of our members. Thank you very much.
    Mr. Dahlman. Thank you.
    [The statement follows:]

                  Prepared Statement of George Dahlman

                              INTRODUCTION

    Mr. Chairman and members of the committee, my name is George 
Dahlman, Senior Vice President, Public Policy for The Leukemia & 
Lymphoma Society. I am pleased to appear today and testify on behalf 
the Society and the almost 800,000 Americans currently living with 
blood cancers and the 130,000 who will be diagnosed with one this year. 
Every 10 minutes, someone dies from one of these cancers--leukemia, 
lymphoma, Hodgkin's disease and myeloma.
    During its 58-year history, the Society has been dedicated to 
finding a cure for the blood cancers, and improving the quality of life 
of patients and their families. The Society has the distinction of 
being both the nation's second largest private cancer organization and 
the largest private organization dedicated to biomedical research, 
education, patient services and advocacy as they pertain to blood-
related cancers.
    Our central contribution to the search for cures for the blood 
cancers is providing a significant amount of the funding for basic, 
translational and clinical research. In 2007, we will provide 
approximately $65 million in research grants. In addition to our 
research funding role, we help educate health care and school 
professionals as needed and provide a wide range of services to 
individuals with a blood cancer, their caregivers, families, and 
friends through our 64 chapters across the country. Finally, we 
advocate responsible public policies that will advance our mission of 
finding cures for the blood cancers and improving the quality of life 
of patients and their families.
    We are pleased to report that impressive progress is being made in 
the effective treatment of many blood cancers, with 5-year survival 
rates doubling and even tripling over the last two decades. More than 
90 percent of children with Hodgkin's disease now survive, and survival 
for children with acute lymphocytic leukemia and non-Hodgkin's lymphoma 
has risen as high as 86 percent.
    Just five years ago, in fact, a new therapy was approved for 
chronic myelogenous leukemia, a form of leukemia for which there were 
previously limited treatment options, all with serious side-effects--
five year survival rates were just over 50 percent. Let me say that 
more clearly, if six years ago your doctor told you that you had CML, 
you would have been informed that there were limited treatment options 
and that you should get your affairs in order. Today, those same 
patients have access to this new therapy, called Gleevec, which is a 
so-called targeted therapy that corrects the molecular defect that 
causes the disease, and does so with few side effects. Now, five year 
survival rates are as high as 96 percent for patients newly diagnosed 
with chronic phase CML.
    The Society funded the early research that led to Gleevec approval, 
as it has contributed to research on a number of new therapies. We are 
pleased that we played a role in the development of this life-saving 
therapy, but we realize that our mission is far from realized. Many 
forms of leukemia, lymphoma and myeloma still present daunting 
treatment challenges. There is much work still to be done, and we 
believe that the research partnership between the public and private 
sectors--as represented in the Department of Defense's Congressionally 
Directed Medical Research Program--is an integral part of that 
important effort and should be further strengthened.

         THE GRANT PROGRAMS OF THE LEUKEMIA & LYMPHOMA SOCIETY

    The grant programs of the Society have traditionally been in three 
broad categories: Career Development Program grants, Translational 
Research Program grants, and Specialized Centers of Research Program 
grants. In our Career Development Program, we fund Scholars, Special 
Fellows, and Fellows who are pursuing careers in basic or clinical 
research. In our Translational Research Program, we focus on supporting 
investigators whose objective is to translate basic research 
discoveries into new therapies.
    The work of Dr. Brian Druker, an oncologist at Oregon Health 
Sciences University and the chief investigator responsible for 
Gleevec's development, was supported by a Translational Research 
Program grant from the Society.
    Our Specialized Centers of Research grant program is intended to 
bring investigators together to form new research teams focused on the 
discovery of innovative approaches to treating and/or preventing 
leukemia, lymphoma, and myeloma. The awards go to those groups that can 
demonstrate that their close interaction will create research synergy 
and accelerate our search for new and better treatments.
    Dr. Druker is certainly a star among those supported by the 
Society, but our support in the biomedical field is broad and deep. 
Through the Society's research grant programs, we are currently 
supporting more than 380 investigators at 134 institutions in 34 states 
and 12 other countries.
    Not content with these extensive efforts, the Society is launching 
a new Therapy Acceleration Program intended to proactively invest in 
promising blood cancer therapies that are in early stages of 
development by industry, but which may not have sufficient financial 
support or market potential to justify private sector investment. In 
addition, the Society will use this program to further facilitate the 
advancement of therapies in development by academic researchers who may 
not have the spectrum of resources or expertise to fulfill the 
potential of their discoveries. Directed early phase clinical trial 
support in this funding program will further advance new and better 
treatments for blood cancer treatments.

                    IMPACT OF HEMATOLOGICAL CANCERS

    Despite enhancements in treating blood cancers, there are still 
significant research challenges and opportunities. Hematological, or 
blood-related, cancers pose a serious health risk to all Americans. 
These cancers are actually a large number of diseases of varied causes 
and molecular make-up, and with different treatments, that strike men 
and women of all ages. In 2007, more than 130,000 Americans will be 
diagnosed with a form of blood-related cancer and almost 65,000 will 
die from these cancers. For some, treatment may lead to long-term 
remission and cure; for others these are chronic diseases that will 
require treatments across a lifetime; and for others treatment options 
are still extremely limited. For many, recurring disease will be a 
continual threat to a productive and secure life.
    A few focused points to put this in perspective: (DB--I would 
reorder these 3, 1, 4, 5, 2 for logical flow)
  --Taken together, the hematological cancers are fifth among cancers 
        in incidence and fourth in mortality.
  --Almost 800,000 Americans are living with a hematological malignancy 
        in 2007.
  --Almost 52,000 people will die from hematological cancers in 2007, 
        compared to 160,000 from lung cancer, 41,000 from breast 
        cancer, 27,000 from prostate cancer, and 52,000 from colorectal 
        cancer.
  --Blood-related cancers still represent serious treatment challenges. 
        The improved survival for those diagnosed with all types of 
        hematological cancers has been uneven. The five-year survival 
        rates are:

------------------------------------------------------------------------
                                                                Percent
------------------------------------------------------------------------
Hodgkin's disease............................................         87
Non-Hodgkin's lymphoma.......................................         64
Leukemias (total)............................................         50
Multiple Myeloma.............................................         33
Acute Myelogenous Leukemia...................................         21
------------------------------------------------------------------------

  --Individuals who have been treated for leukemia, lymphoma, and 
        myeloma may suffer serious adverse consequences of treatment, 
        including second malignancies, organ dysfunction (cardiac, 
        pulmonary, and endocrine), neuropsychological and psychosocial 
        aspects, and poor quality of life.
  --For the period from 1975 to 2003, the incidence rate for non-
        Hodgkin's lymphoma increased by 76 percent.
  --Non-Hodgkin's lymphoma and multiple myeloma rank second and fifth, 
        respectively, in terms of increased cancer mortality since 
        1973.
  --Lymphoma is the third most common childhood cancer and the fifth 
        most common cancer among Hispanics of all races. Recent 
        statistics indicate both increasing incidence and earlier age 
        of onset for multiple myeloma.
  --Multiple myeloma is one of the top ten leading causes of cancer 
        death among African Americans.
  --Hispanic children of all races under the age of 20 have the highest 
        rates of childhood leukemias.
  --Despite the significant decline in the leukemia and lymphoma death 
        rates for children in the United States, leukemia is still the 
        leading cause of death in the United States among children less 
        than 20 years of age, in females between the ages of 20 and 39 
        and males between the ages of 60-79.
  --Lymphoma is the fourth leading cause of death among males between 
        the ages of 20 and 39 and the fifth leading cause of death for 
        females older than 80. Overall, cancer is now the leading cause 
        of death for U.S. citizens younger than 85 years of age, 
        overtaking heart disease as the primary killer.
         possible environmental causes of hematological cancers
    The causes of hematological cancers are varied, and our 
understanding of the etiology of leukemia, lymphoma, and myeloma is 
limited. Extreme radiation exposures are clearly associated with an 
increased incidence of leukemias. Benzene exposures are associated with 
increased incidence of a particular form of leukemia. Chemicals in 
pesticides and herbicides, as well as viruses such as HIV and EBV, 
apparently play a role in some hematological cancers, but for most 
cases, no environmental cause is identified. Researchers have recently 
published a study reporting that the viral footprint for simian virus 
40 (SV40) was found in the tumors of 43 percent of NHL patients. These 
research findings may open avenues for investigation of the detection, 
prevention, and treatment of NHL. There is a pressing need for more 
investigation of the role of infectious agents or environmental toxins 
in the initiation or progression of these diseases.

                IMPORTANCE TO THE DEPARTMENT OF DEFENSE

    The Leukemia & Lymphoma Society, along with its partners in the 
Lymphoma Research Foundation, the Multiple Myeloma Research Foundation 
and the International Myeloma Foundation, believe biomedical research 
focused on the hematological cancers is particularly important to the 
Department of Defense for a number of reasons.
    First, research on blood-related cancers has significant relevance 
to the armed forces, as the incidence of these cancers is substantially 
higher among individuals with chemical and nuclear exposure. Higher 
incidences of leukemia have long been substantiated in extreme nuclear 
[a1]incidents in both military and civilian populations, and recent 
studies have proven that individual exposure to chemical agents, such 
as Agent Orange in the Vietnam War, cause an increased risk of 
contracting lymphoid malignancies. Of note, bone marrow transplants 
that have been developed to treat blood-related cancers were first 
explored as a means of treating radiation-exposed combatants and 
civilians following World War II.
    Secondly, research in the blood cancers has traditionally pioneered 
treatments in other malignancies. Cancer treatments that have been 
developed to treat a blood-related cancer are now used or being tested 
as treatments for other forms of cancer. Combination chemotherapy and 
bone marrow transplants are two striking examples of treatments first 
developed for treating blood cancer patients. More recently, specific 
targeted therapies have proven useful for treating patients with solid 
tumors as well as blood-related cancers.
    From a medical research perspective, it is a particularly promising 
time to build a DOD research effort focused on blood-related cancers. 
That relevance and opportunity were recognized over the last six years 
when Congress appropriated $4.5 million annually--for a total of $28 
million--to begin initial research into chronic myelogenous leukemia 
(CML) through the Congressionally Directed Medical Research Program 
(CDMRP). As members of the Subcommittee know, a noteworthy and 
admirable distinction of the CDMRP is its cooperative and collaborative 
process that incorporates the experience and expertise of a broad range 
of patients, researchers and physicians in the field. Since the CML 
program was announced, members of the Society, individual patient 
advocates and leading researchers have enthusiastically welcomed the 
opportunity to become a part of this program and contribute to the 
promise of a successful, collaborative quest for a cure.
    Unfortunately, the CML program was not included in January's 
Continuing Resolution funding other fiscal year 2007 CDMRP programs. 
This omission seriously jeopardizes established and promising research 
projects that have clear and compelling application to our armed forces 
as well as pioneering research for all cancers. As if to add insult to 
injury, blood cancers were also not included as eligible conditions to 
be the subject of grants under the DOD's Peer-Reviewed Medical Research 
Program--inexplicably reversing a six-year precedent and eliminating a 
critical avenue of investigation with direct application to military 
service.
    With all due respect to our colleagues fighting a broad range of 
malignancies that are represented in this program--and certainly not to 
diminish their significance--a cancer research program designed for 
application to military and national security needs would invariably 
include a strong blood cancer research foundation. DOD research on 
blood cancers addresses the importance of preparing for civilian and 
military exposure to the weapons being developed by several hostile 
nations and to aid in the march to more effective treatment for all who 
suffer from these diseases. This request clearly has merit for 
inclusion in the fiscal year 2008 legislation.
    Recognizing that fact and the opportunity this research represents, 
a bipartisan group of 30 Members of Congress have requested that the 
program be reconstituted at a $10 million level and be expanded to 
include all the blood cancers--the leukemias, lymphomas and myeloma. 
This would provide the research community with the flexibility to build 
on the pioneering tradition that has characterized this field.
    The Leukemia & Lymphoma Society strongly endorses and 
enthusiastically supports this effort and respectfully urges the 
Committee to include this funding in the fiscal year 2008 Defense 
Appropriations bill.
    We believe that building on the foundation Congress initiated over 
the past six years should not be abandoned and would both significantly 
strengthen the CDMRP and accelerate the development of all cancer 
treatments. As history has demonstrated, expanding its focus into areas 
that demonstrate great promise; namely the blood-related cancers of 
leukemia, lymphoma and myeloma, would substantially aid the overall 
cancer research effort and yield great dividends.

    Senator Inouye. Our next witness is Mr. Martin B. Foil, 
representing the Board of Directors of the National Brain 
Injury Research, Treatment, & Training Foundation.

STATEMENT OF MARTIN B. FOIL, MEMBER, BOARD OF 
            DIRECTORS, NATIONAL BRAIN INJURY RESEARCH, 
            TREATMENT, & TRAINING FOUNDATION
    Mr. Foil. Chairman Inouye, it's good to be here. Good to 
see you again, sir. As you know or may remember, I'm the father 
of a severely brain injured young man and a member of the Board 
of Directors of the National Brain Injury Research, Treatment, 
& Training Foundation, and also a veteran.
    I'm here today to request a plus-up of $12.5 million in 
funding for the DVBIC, the Defense Veterans Brain Injury Center 
and the Brain Injury Program, Head Injury Program. We already 
have $7 million in the DOD's budget, but this plus-up will fund 
the program at $19.5 million. As you know and as we've heard 
today among our colleagues, TBI is a signature injury of the 
global war on terror. These blasts from improvised explosive 
devices in Iraq and Iran and, well, Iraq and Afghanistan are 
causing our, are harming our troops at an alarming rate.
    Blast injury, unlike a sports injury, you know, harms the 
whole body. It takes in everything. It's not like anything 
we've ever seen, it can't be compared to anything else. We need 
more research to understand the biomechanics of blast injury to 
develop best practices for the optimum treatment and rehab.
    The DVBIC, our Center for Excellence for clinical care, 
military education, and treatment, relevant clinical research 
for the DOD and VA, is our definitive source for assessing TBI 
in the theater, and also for tracking TBI. The DVBIC staff has 
seen and treated some 2,000 troops involved in the global war 
on terror. Research at Fort Carson reveals that over 28 percent 
of our returning service members have tested positive for 
possible brain injury. Nineteen percent of our military TBIs 
are severe, they require long-term support and without 
interventions, such troops are relegated to nursing homes. 
That's absolutely not the right place.
    Military needs to provide care for up to 1 year for these 
people with moderate and severe injuries. Twelve and one-half 
million would fund such care through Project Hope for Troops, 
with altered states of consciousness resulting from TBI. Dr. 
George Zitnay, the founder of DVBIC in Denver, has just 
returned from Landstuhl, and George, could you stand up?
    George actually made rounds in Landstuhl while he was 
there. He saw first hand the grave need for more TBI 
specialists and resources. NBIRTT strongly supports the plan 
offered by the congressional brain injury task force to improve 
treatment and research in the military. It recommends a blast 
injury Center of Excellence, pre-deployment, cognitive baseline 
development, better training for front-line medics, funding for 
care coordinators at each State to prevent gaps in care, 
community reentry programs, cooperative efforts with veterans 
organizations, medical rehab advocacy research.
    Well, despite the numbers of troops returning, there has 
not been a compensatory increase in professionals to treat. The 
healthcare providers need to be trained to understand and treat 
unique issues involved with TBI. It is a difficult thing, with 
self-diagnosis you just can't do that. Stigma remains a 
problem.
    Mr. Chairman, I respectfully request your support of the 
$12.5 million for 2008. I want to thank you for your 
leadership. We hope you will continue to support our efforts to 
provide the best possible care for our brave men and women. 
Thank you.
    Senator Inouye. Your request is reasonable, and I think 
very important. And I can assure we're going to do everything 
possible to see that it is carried out.
    Mr. Foil. Thank you very much and thank your subcommittee.
    [The statement follows:]

               Prepared Statement of Martin B. Foil, Jr.

    My name is Martin Foil and I am the father of Philip Foil, a young 
man with a severe brain injury. I serve as a volunteer on the Board of 
Directors of the National Brain Injury Research, Treatment and Training 
Foundation (NBIRTT).\1\ Professionally, I am the Chief Executive 
Officer and Chairman of Tuscarora Yarns in Mt. Pleasant, North 
Carolina.\2\
---------------------------------------------------------------------------
    \1\ NBIRTT is a non-profit national foundation dedicated to the 
support of clinical research, treatment and training.
    \2\ I receive no compensation from this program; rather, I have 
raised and contributed millions of dollars to support brain injury 
research, treatment, training and services.
---------------------------------------------------------------------------
    On behalf of the thousands of military personnel sustaining brain 
injuries, I respectfully request $19.5 million be provided in the 
Department of Defense (DOD) Appropriations bill for fiscal year 2008 
for the Defense and Veterans Brain Injury Center (DVBIC). This request 
includes the $7 million in the DOD's POM, and an additional $12.5 
million to allow the important work of the program to continue during 
this critical time in the War on Terrorism.
TBI is the signature injury of the Global War on Terror
    It is now common knowledge that blasts from improvised explosive 
devices (IEDs) in Iraq are causing traumatic brain injuries (TBIs) in 
many of our service men and women at an alarming rate. From numerous 
media stories, including the special report by Bob Woodruff of ``ABC 
News'' about his own experiences with TBI to the Congressional hearings 
on the Walter Reed Army Medical Center scandal to the report of the 
Department of Veterans Affairs' Task Force on Global War on Terror 
Heroes, there is acknowledgement that not enough is being done to care 
for our injured troops.\3\
---------------------------------------------------------------------------
    \3\ We await the reports of the Army Surgeon General's Task Force 
on Traumatic Brain Injury which we expect to be released May 17, 2007, 
and the Task Force headed by former Senator Bob Dole and former HHS 
Secretary Shalala, to be released in July, 2007.
---------------------------------------------------------------------------
    NBIRTT has long been an advocate for improved research, treatment 
and training in TBI in the military and civilian sectors. While we 
would like to see improvements, we continue to support the good work 
being done by the experts in TBI at DVBIC. NBIRTT supports many 
proposals that seek to address the shortfalls in the DOD and VA health 
care systems, but cautions against recreating systems that are already 
in existence. It is NBIRTT's view that any and all efforts to improve 
TBI research and care be built around the work of the DVBIC.
DVBIC is the DOD-VA TBI Center of Excellence
    The DVBIC, formerly known as the Defense and Veterans Head Injury 
Program (DVHIP), is a component of the military health care system that 
integrates clinical care and clinical follow-up, with applied research, 
treatment and training. The program was created after the first Gulf 
War to address the need for an overall systemic program for providing 
brain injury specific care and rehabilitation within DOD and DVA. The 
DVBIC seeks to ensure that all military personnel and veterans with 
brain injury receive brain injury-specific evaluation, treatment and 
follow-up.
    DVBIC staff have seen and treated some 2,000 military personnel 
involved in the Global War on Terror. Research at Fort Carson revealed 
28 percent of returning service members tested positive for possible 
TBI. 19 percent of military TBIs are severe, requiring life long 
support, and without intervention, such troops are relegated to nursing 
homes.
    Clinical care and research is currently undertaken at seven DOD and 
DVA sites and two civilian treatment sites. In addition to providing 
treatment, rehabilitation and case management at each of the nine 
primary DVBIC centers,\4\ the DVBIC includes a regional network of 
additional secondary veterans' hospitals capable of providing TBI 
rehabilitation, and linked to the primary lead centers for training, 
referrals and consultation. This is coordinated by a dedicated central 
DVA TBI coordinator and includes an active TBI case manager training 
program.
---------------------------------------------------------------------------
    \4\ Walter Reed Army Medical Center, Washington, DC; James A. Haley 
Veterans Hospital, Tampa, FL; Naval Medical Center San Diego, San 
Diego, CA; Minneapolis Veterans Affairs Medical Center, Minneapolis, 
MN; Veterans Affairs Palo Alto Health Care System, Palo Alto, CA; 
Virginia Neurocare, Inc., Charlottesville, VA; Hunter McGuire Veterans 
Affairs Medical Center, Richmond, VA; Wilford Hall Medical Center, 
Lackland Air Force Base, TX; Laurel Highlands Neuro-Rehabilitation 
Center, Johnstown, PA.
---------------------------------------------------------------------------
    All DVBIC sites have maintained and many have increased treatment 
capacity. This has been a direct response to the influx of patients 
seen secondary to Operation Iraqi Freedom (OIF) and Operation Enduring 
Freedom (OEF). WRAMC receives more casualties from theater than all of 
the other military treatment facilities (MTFs) in the continental 
United States. Patients are often seen at WRAMC within a week or two 
after injury and many of these patients have multiple injuries (e.g., 
TBI, traumatic amputations, shrapnel wounds, etc.). To meet the 
increased demand, screening procedures were developed by DVBIC 
headquarters and clinical staff. The DVBIC clinical staff reviews all 
incoming casualty reports at WRAMC and screens all patients who may 
have sustained a brain injury based on the mechanism of injury (i.e., 
blast/explosion, vehicular accident, fall, gunshot wound to the head, 
etc.).
    DVBIC has reached out to screen troops returning from the field to 
make sure no one with a brain injury falls through the cracks. Teams 
from DVBIC have been sent to Fort Dix, Fort Campbell, Fort Knox, Camp 
Pendleton, Fort Carson, Fort Irwin, Fort Bragg, Tripler Army Medical 
Center and others as requested by base commanders. Teams have also 
traveled to Landstuhl Regional Medical Center in Germany to provide 
evaluation and treatment on an ongoing basis.
    The DVBIC developed a screening tool, called the MACE (Military 
Acute Concussion Evaluation) for use in all operational settings, 
including in-theater and it is now widely used. DVBIC has also 
developed management guidelines for mild, moderate, and severe TBI in-
theater, and established a telemedicine network linking DVBIC's 
military and VA sites.
    While DVBIC clinical and educational programs remain its backbone, 
the program has conducted research into the effects of blast on the 
brain, the therapeutic use of nano-particles, and enhanced head 
protection using novel materials in conjunction with the conventional 
helmet.
    NBIRTT urges funding for the DVBIC to:
  --Enhance its Care Coordination Network in order to better serve 
        patients with TBI throughout the country.
  --Build and implement a web-based care coordination and patient 
        tracking program to improve its ability to provide 
        comprehensive follow-up to a population whose cognitive 
        impairments place them at increased risk of loss to follow-up. 
        Use of this advanced technology will assist its network in 
        providing a more integrated, seamless support structure and 
        will also improve its ability to monitor patients' progress.
  --Augment clinical care targeted for the largest military bases with 
        individuals with TBI will be implemented.
  --Expand TBI Surveillance Operational Data from OIF/OEF as more 
        military sites participate to help create a more comprehensive 
        picture of the scope of TBI occurring in the current theatres 
        of operation.
    DVBIC is the definitive source for TBI tracking for DOD Health 
Affairs. With necessary funding, NBIRTT expects DVBIC to continue to 
function as the DOD-VA TBI Center of Excellence for clinical care, 
military education, and treatment-relevant clinical research.
Improvements Are Needed To Assure A Continuum of Care
    The DVBIC is an important tool to assure a continuum of care, but 
it requires an increased level of POM funding and a solid commitment by 
the DOD to assist in improving the military and VA health care systems. 
Since many of the soldiers with brain injuries will have life long 
needs resulting from their injuries, we need to make sure community 
services are available wherever the soldier lives. This can be done 
through local case management program and linkage to DVBIC sites. 
NBIRTT also supports a proposal by the National Association of State 
Head Injury Administrators (NASHIA) to connect returning service 
personnel with state resources in their home states (copy attached).
    Persons with TBI may have difficulty with self diagnosis and 
because of cognitive impairments are at greater risk of not following 
up for outpatient care. In addition, town hall discussions by the Army 
Surgeon General's Task Force on TBI have revealed that stigma remains 
an obstacle for troops to admit they may have sustained a TBI. For 
these reasons, there is an increased need for family resources and 
support.
    Last year we requested funding for the DVBIC to improve treatment 
capacity, particularly at the community reentry level, and an expanded 
care coordination system that meets the special needs of persons with 
TBI and their families and is widely distributed across the country. 
NBIRTT emphasizes that the need is all the greater this year.
The Congressional Brain Injury Task Force's Road Map for a Continuum of 
        Care Based on a Proposal for Supplemental Funding for TBI
    NBIRTT strongly supports the plan offered by the Congressional 
Brain Injury Task Force, to improve TBI treatment and research in the 
military. Entitled the ``National Collaborative Plan for Military 
Traumatic Brain Injury (TBI) Within the Tri-Services'' it provides for 
baseline pre-injury cognitive evaluation and post-injury TBI diagnosis, 
evaluation, screening, treatment, and neuro-rehabilitation to the time 
of re-entry in to the active duty military or re-entry into the local 
community with follow-up services. The plan encompasses all branches of 
the military (i.e., Army, Navy, and Air Force) including National Guard 
and Reserves plus collaboration with the VA, civilian partners and 
veterans/military organizations at the national, state and community 
level. The idea is to create a network of services for military 
personnel with TBI and their families. The plan is as follows:
  --Pre-deployment Cognitive Baseline Development.--In order to better 
        understand the impact of blast exposure and other situations 
        that may cause brain injury including mild TBI a cognitive pre-
        test will be performed by all military personnel prior to 
        deployment. A protocol that utilizes novel computer technology 
        will be used for establishing a baseline similar to what is 
        currently used in sports at the high school, college and 
        professional level. Off-the-shelf systems, (e.g., ``Detect'', 
        ``ImPaCT'', or ``CNS Vital Signs'') will require only minor 
        modifications for this purpose. Through brief cognitive 
        assessment prior to deployment followed by screening upon 
        return, the accurate measurement of exposure to blast injury 
        and potential mild TBI will be enhanced. This will reduce the 
        number of false positives (incorrect diagnosis of TBI) and 
        false negatives (failure to diagnose TBI) that occur with post-
        blast exposure screening only.
  --Care, training and assessment in theatre.--Staff training for 
        frontline medics will be provided on the battlefield evaluation 
        of concussion and the symptoms of blast injury. This will 
        include development of a concussion tool, utilization of the 
        MACE, and development of protocols for removal from duty to 
        prevent second concussion syndrome. In addition, the 
        battlefield evaluation of post traumatic stress disorder (PTSD) 
        will be included. The clinical guidelines for management will 
        be updated and made available for all trauma specialists. 
        Staffing at Landstuhl Regional Medical Center will be increased 
        to provide brain injury specialist and care coordination. Post 
        Deployment coordination-Screening instruments will be used to 
        screen all returning personnel to determine if further 
        neuropsychological testing is required to make the 
        determination that a brain injury has occurred.
  --Military care and acute management of TBI.--All programs will 
        follow both JACHO and CARF standards for the treatment and 
        rehabilitation of TBI. At WRAMC, a complete interdisciplinary 
        team of brain injury specialists will be employed to establish 
        a state of the art comprehensive care and neurorehabilitation 
        center. In addition, care coordinators, neuropsychologists and 
        mental health specialists will be integral to the brain injury 
        team. At the Bethesda Naval Hospital, a platform will be 
        provided to establish a state-of-the-art brain injury center. 
        Interdisciplinary brain injury specialist staffing will be 
        provided at every military hospital throughout the country to 
        insure proper treatment of survivors of TBI. Care coordinators 
        will be stationed at military sites to link services.
  --Specialized care center.--Four centers will be established across 
        the country to provide complete medical and neurorehabilitation 
        for the most severely brain injured persons. At the centers, 
        patients may stay up to one year for comprehensive 
        Neurorehabilitation and will be provided cutting edge therapies 
        available to maximize any potential for recovery of function. 
        This proposal includes Project Hope in Johnstown that will 
        specialize in stimulating recovery in those patients which are 
        minimally conscious, locked-in, or in a persistent vegetative 
        state.
  --Civilian DVBIC core sites.--Four community re-entry programs to 
        serve active duty military personnel which require additional 
        treatments prior to returning to active or return to home upon 
        military discharge will be created utilizing state-of-the-art 
        technology and cognitive rehabilitation. These will be in 
        addition to existing sites in Charlottesville, Virginia and 
        Johnstown, Pennsylvania.
  --Care Coordinators.--These specialists will be responsible for 
        preventing any gaps in care of brain injured service personnel 
        and to maintain the highest level of therapeutic intensity 
        until discharge. The Care Coordinators will cooperate with 
        state and community partners, as well the Reserve and National 
        Guard, for the seamless delivery of services. Every state will 
        have at least one care coordinator specialized for that 
        particular state.
  --Education and Training.--Despite the overwhelming numbers of 
        service personnel returning with TBI, there has not been a 
        compensatory increase in trained professionals to treat them. 
        Additional healthcare professionals are needed to be trained in 
        order to understand and treat the brain injured service 
        personnel returning from OIF and OEF. This will include 
        training local professionals in rural areas so that they can 
        attend to the needs of head injured veterans and/or participate 
        as a mentor during tele-rehabilitation sessions. Seminars 
        should be held to train care coordinators on the intricacies of 
        the available services in each state. DVBIC will conduct an 
        international meeting of experts in the fields of TBI 
        (including imaging, physiatry, pharmacology, neuro-
        rehabilitation, neuropsychology, assistive technologies, and 
        molecular biology, etc.) to gather recent treatment modalities, 
        applications, and research to improve outcome in military 
        personnel injured in OIF and OEF.
  --TBI Research.--There is a current dearth of research in several 
        areas of brain injury therapy. This includes telemedicine-
        related neuro-rehabilitation, stimulation therapy for patients 
        with disorders of consciousness (DOC), development of neuro-
        protectants, development of new generations of treatments that 
        would be adjuncts or enhancements for neuro-rehabilitation, and 
        development of application technologies in the areas of 
        imaging, screening, telemedicine, and diagnostics.
  --Extramural cooperative program with veterans' organizations, 
        medical, rehabilitation, advocacy, and research communities 
        (e.g., CDC, NIH, NASHIA, BIAA, DAV).
  --Blast Injury Center.--A center of excellence in research will be 
        established to better define, and understand the patho-
        physiological impact of blast injury on the brain. The center 
        will conduct research leading to better protective helmets and 
        other technological tools, and to develop treatment materials 
        for better outcomes. The center will collaborate with leading 
        research institutions, universities, biotechnology companies, 
        and pharmaceuticals.
  --Providing the administrative structure personnel, benefits, 
        oversight for financial expenditures, and preparation of 
        progress reports and evaluation of programmatic effectiveness.
    This plan was produced in anticipation of some $450 million for TBI 
in the War Supplemental for fiscal year 2007 earlier this spring. The 
Conference Report to the bill that was vetoed included some $600 
million for TBI and PTSD. NBIRTT acknowledges that the final funding 
level is yet to be determined, but in the meantime supports the work of 
the DVBIC within this plan. DVBIC would continue to be the center of 
all DOD and VA coordination efforts and implementation of best 
practices throughout the wider military and VA systems.
    While efforts to make significant system wide changes are underway, 
we should look to build upon the work that has already been done by the 
experts currently in the field.
$19.5 million is needed in fiscal year 2008 for the DVBIC
    Since the Global War on Terror began, there has not been a steady, 
consistent, reliable funding stream for the work of the DVBIC. While 
efforts are underway to gain a permanent commitment from the Pentagon 
to support this important work, we urge your support for adequate 
funding in fiscal year 2008. NBIRTT applauds the work of the Senate 
Appropriations Subcommittee on Defense to include substantial funding 
for TBI in the War Supplemental. Ideally, we would like to see a 
permanent increase in the DOD's POM for TBI so that plus-up requests 
and supplementals can be used to address emergencies and not basic 
needs. At this juncture, however, $12.5 million is needed for DVBIC 
merely to continue research, treatment and training in TBI.
    Please support $19.5 million for the DVHIP in the fiscal year 2008 
Defense Appropriations bill under AMRMC, Fort Detrick to continue this 
important program.
 Role of State Government in Serving Returning Soldiers with Traumatic 
                              Brain Injury
Introduction
    Recently, national attention has focused on the need for improved 
treatment and care for soldiers returning from Iraq and Afghanistan 
with traumatic brain injuries. Most of this focus has been on the acute 
and rehabilitation care provided by the Department of Defense and 
Veterans Brain Injury Center (DVBIC), the Veterans Administration (VA) 
Polytrauma Rehabilitation Centers and the VA health care system. 
Congressional hearings have also been held on transitioning between and 
among these programs through care coordinators who have been placed 
within key programs of these systems. While this attention is certainly 
well deserved, little commentary has been provided on those soldiers 
who require long-term care, services and community supports offered by 
state and local governmental programs.
    Thus, this paper has been developed to initiate discussion and to 
further collaboration among all federal, state and local entities that 
may be involved in some aspect of assessment and identification, 
rehabilitation, long-term care, service coordination, community and 
family supports for individuals who are serving in our military and are 
at risk of experiencing the consequences of a traumatic brain injury 
(TBI), as well as other co-occurring conditions (Post Traumatic Stress 
Disorder and substance abuse). The intent is to ensure that returning 
soldiers receive the necessary services in a coordinated fashion, and 
that all local, state and federal resources are maximized and used 
effectively.
Background
    Over the past 20 years, several states have developed service 
delivery systems to meet the needs of individuals with traumatic brain 
injury and their families. These systems generally offer information 
and referral, service coordinators, rehabilitation, in-home support, 
personal care, counseling, transportation, housing, vocational and 
return to work and other support services that are funded by state 
appropriations, designated funding (trust funds), Medicaid and by 
programs under the Rehabilitation Act. These services may be 
administered by programs located in the state public health, vocational 
rehabilitation, mental health, Medicaid, developmental disabilities or 
social services agencies.
    To help states to further expand, improve and coordinate service 
delivery the TBI Act of 1996, as amended in 2000, provides federal 
funding to the U.S. Department of Health and Human Services, Health 
Resources and Services Administration (HRSA) for the State Grant 
Program. Currently, almost all states receive TBI Act funding. The 
federal program also contracts with the National Association of State 
Head Injury Administrators (NASHIA) to provide technical assistance to 
states through the TBI Technical Assistance Center, which has also 
become a clearinghouse of information and materials available to assist 
states in developing ``best practices''. NASHIA was created in the 
early 1990s by state government employees responsible for public brain 
injury policies, programs and services.
How can states help returning soldiers?
    State TBI programs can help families, soldiers and the VA to 
identify or screen for traumatic brain injury, assess needs of soldiers 
with traumatic brain injury, provide information on TBI and available 
resources, and provide and coordinate services. Of particular concern 
to states are soldiers, who may not be initially identified by the VA 
system, yet experience the consequences of a traumatic brain injury 
long after they return home. As a result, state TBI and disability 
systems may be the point of contact for information and referral for 
these families and returning soldiers. Some of these returning soldiers 
may not be affiliated with military installations and, therefore, may 
not seek health care from the VA, but rather from their own family care 
physician. Their physicians may not even know to inquire about their 
time in Iraq or Afghanistan to determine if their symptoms could 
possibly be stemming from a TBI, or even to be able to distinguish TBI 
from Post Traumatic Stress Disorders (PTSD).
    Combined screening for TBI and PTSD could be especially beneficial 
and should be considered by all potentially involved agencies, since 
the symptoms overlap, the treatments differ, and both can be seriously 
disabling. Through collaboration among state and local mental health 
and substance abuse programs, TBI state programs may be able to promote 
collaborative screening efforts.
    There are a few states that are addressing the needs of returning 
soldiers from various angles. Two states, New York and Massachusetts, 
are currently conducting efforts to identify soldiers with TBI and link 
them to needed resources and services. Both of these states are using 
federal grant funds administered by the U.S. Health Resources and 
Services Administration (HRSA) for these efforts. In Massachusetts the 
Statewide Head Injury Program under the Brain Injury & Statewide 
Specialized Community Services Department, known as SHIP, administered 
by the Massachusetts Rehabilitation Commission is partnering with the 
Veterans Administration, Veterans Organizations, TBI providers and the 
Brain Injury Association of Massachusetts in conducting outreach, 
information and referral services.
    Other state TBI programs that offer service coordination and array 
of support services are collaborating with their state Veterans 
Commissions and the National Guard to solve individual problems. States 
are also fielding calls from families, participating in state 
conferences on PTSD and TBI, and at least one state vocational 
rehabilitation agency has entered into a MOU with the Veterans 
Administration. Several groups have also developed materials on TBI for 
returning soldiers, including Massachusetts and New York.
Recommendations
    Collaboration among states, NASHIA, federal agencies (DVBIC, VA and 
Centers for Disease Control and Prevention) and military branches 
should include:
  --Developing and disseminating screening questions to help alert 
        families and soldiers that have symptoms associated with TBI, 
        who have not been previously identified. These efforts should 
        be coordinated with efforts to screen for PTSD and substance 
        abuse problems.
  --Disseminating information on available state and community 
        resources and supports, including state TBI service 
        coordinators who coordinate a myriad of federal and state 
        resources to support individuals to live and work in the 
        community.
  --Training and disseminating information on TBI as the result of war-
        related injuries to civilian medical providers, local 
        physicians, social workers and mental health community centers.
  --Availing existing resources, such as telerehabilitation programs 
        that provide evaluation and expertise to providers in rural 
        areas, family support information and resources, family 
        training, etc.
  --Communicating and partnering with state advisory boards on TBI and 
        lead state agencies as to the needs of returning soldiers who 
        may not be accessing the VA, but may be in need of the array of 
        community and family supports, in order for states to plan and 
        address how to meet those needs.
  --Communicating and partnering with state task forces on the needs of 
        returning soldiers to ensure that TBI, as well as PTSD and 
        substance abuse are included in these deliberations.
  --Partnering with all veterans and state brain injury systems to pool 
        and maximize state and federal resources to ensure that 
        resources are available when their family member returns home.
    For further information contact Kenneth H. Currier, Executive 
Director, NASHIA at 301-656-3500 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3952515a4c4b4b505c4b7957584a51505817564b5e17">[email&#160;protected]</a>

    Senator Inouye. Our next witness is Dr. Andrew Pollack of 
the American Academy of Orthopedic Surgeons, together with Ms. 
Kimberly Dozier of CBS News.

STATEMENT OF DR. ANDREW N. POLLACK, M.D., ORTHOPEDIC 
            SURGEON, UNIVERSITY OF MARYLAND MEDICAL 
            CENTER AND CHAIR, EXTREMITY WAR INJURIES 
            PROJECT TEAM, AMERICAN ACADEMY OF 
            ORTHOPEDIC SURGEONS
ACCOMPANIED BY KIMBERLY DOZIER, CBS NEW CORRESPONDENT

    Mr. Pollack. Mr. Chairman, thank you for the opportunity to 
testify today. I'm Andy Pollack, an orthopedic surgeon in shock 
trauma at the University of Maryland Medical Center in 
Baltimore. I represent the American Academy of Orthopedic 
Surgeons and our special effort to advocate for the peer-
reviewed orthopedic extremities research program.
    This critical program is operated by the Defense 
Department. I'm fortunate to be accompanied today by CBS News 
correspondent, Kimberly Dozier. She's one of those rare 
individuals willing to put herself in harm's way to chronicle 
the work of our American servicemen and women in Iraq. She's an 
inspiration on many different levels, and I'm one of the many 
surgeons who's had the privilege to have worked with her. 
Please allow me to introduce Kimberly Dozier.
    Ms. Dozier. Mr. Chairman, amputation, debridement, 
acinetobacter, and heterotrophic ossification, there are words 
that I never wanted to learn, much less experience. But a 500-
pound car bomb last Memorial Day changed that. My rapid-fire 
education started in Baghdad, as it does for so many injured 
troops.
    More than 80 percent of the wounded coming out of Iraq and 
Afghanistan have injuries exactly like mine, and more of us are 
surviving than ever before in any other conflict and medical 
miracles are happening every day. The fact that I'm here is 
testament to that.
    But that also means that we are living long enough to 
develop secondary conditions that doctors have rarely seen 
before, much less done research on how to treat. Now, some of 
them you've heard of. In terms of amputation, they thought they 
would have to take off one or both of my legs, but they took a 
chance. One of my legs, by the time I'd reached Landstuhl, had 
turned black. They gave it an extra day and it proved that it 
could work, came back. The next time they see a situation like 
mine, they might give it another 24 to 48 hours before taking 
the limb off.
    Debridement is what they did to the burned tissue from my 
hips to my ankles, courtesy of the 130 millimeter round 
illumination shell that made up the bulk of the car bomb. Now, 
it's a process of removing dead tissue from the living, but it 
depends on the instincts of each particular surgeon to decide 
what's viable and what's not. The fact that the surgeons, in my 
case, were able to salvage much of the quads in my femurs, 
means that I can walk and run almost normally. You get a 
different surgeon, you get a different outcome, and that all 
depends on their research.
    Acinetobacter is a normally harmless bacteria found in 
Iraqi soil and throughout Europe, but give it in--blow it into 
the injuries of an immune-compromised person and it can become 
deadly. It's multidrug resistant. In my case, as in the case of 
many of the troops I've met, I had to choose between continuing 
on the one medication that treats it, but risking losing my 
kidneys, to which this drug is toxic, or going off of the drug 
and hoping for the best. In my case, I was lucky, my body 
fought back and I kept my kidneys.
    Heterotrophic ossification--say that 10 times fast--we 
don't know why the body does it, but when it heals bones 
shattered by blasts, it often goes a little haywire, and the 
bones keep going, keep healing, turning into coral that spikes 
into your muscles. The only way to take it out right now, is to 
chisel it out and that means a second long-term surgery and it 
doesn't mean the bone won't come back. Then you've got to 
radiate the area, that's more risk.
    Now, all of that was fairly easy to fix, in my case. I was 
lucky. The two soldiers on either side of me had it much worse. 
Sergeant Justin Ferrar had his knee, part of it blown out. They 
had to put in a cadaver's patella. That means you've got to 
immobilize the leg for a long time. Justin is still using a 
cane, I'm not. Staff Sergeant Reed, on the other side of me, he 
got his knee blown out. In a normal situation you could do 
total knee replacement. In a blast injury, that doesn't work. 
There's too much infection. He had to choose between having one 
solid leg or amputation. He chose amputation so he could go 
back to active duty.
    Now, these are the battles troops face when they come home, 
and the battles that the medical profession is fighting on our 
behalf, and they need your help. Thank you.
    Mr. Pollack. As you heard from Ms. Dozier, over 80 percent 
of war injuries now involve the extremities, often severely 
mangled and multiple injuries to the arms and legs. As in 
Kimberly's case, most wounds are caused by exploding ordinance. 
This targeted research program is desperately needed to provide 
information that will lead to improvement in quality of life 
for our injured heroes. The funding you provide is being well 
spent. The new knowledge we gain advances our ability to better 
understand and better treat these serious injuries.
    Mr. Chairman, you've recognized the urgent need to support 
this important peer-reviewed program over the past 2 years and 
most recently in the fiscal year 2007 supplemental 
appropriations bill, and we're most grateful for that support. 
Based on the level of scientific need and the amount of 
unfunded research still outstanding, our goal is to see this 
program receive an operating level of $50 million per year. We 
most sincerely thank you and the entire subcommittee for your 
vision and leadership in responding to this appeal. We strongly 
urge your continued support.
    Senator Inouye. As one who has some experience in this 
area, I can assure you of our support.
    But with all the medical miracles that we are now 
experiencing and enjoying, one has caused us much trouble. For 
example, in World War II, it took a little while to be 
evacuated.
    In my case, I left the front at 3 o'clock in the afternoon 
and I was in the field hospital at midnight. Today, the same 
injury very likely would be in a hospital within 30 minutes. As 
a result, many, many survive, unlike World War II, they did not 
survive. In my hospital, I can recall only one double amputee. 
Double amputations are commonplace now, and I agree with you. 
Our personnel is inadequate, our resources are inadequate, and 
we will do what you say is right.
    Thank you very much, Ms. Dozier.
    Mr. Pollack. Thank you, Mr. Chairman.
    [The statement follows:]

              Prepared Statement of Andrew N. Pollak, M.D.

    Chairman Inouye, Vice Chairman Stevens, Members of the Senate 
Defense Appropriations Subcommittee, thank you for the opportunity to 
testify today. I am Andrew N. Pollak, M.D., and I speak today on behalf 
of the American Academy of Orthopaedic Surgeons (AAOS), of which I am 
an active member, as well as on behalf of military and civilian 
orthopaedic surgeons involved in orthopaedic trauma research and care.
    I am Chair of the Academy's Extremity War Injuries and Disaster 
Preparedness Project Team, immediate past-chair of its Board of 
Specialty Societies, and a subspecialist in orthopaedic traumatology. I 
am Associate Director of Trauma and Head of the Division of Orthopaedic 
Traumatology at the R Adams Cowley Shock Trauma Center and the 
University of Maryland School of Medicine. My Division at Shock Trauma 
is responsible for providing education and training in orthopaedic 
traumatology to residents from eight separate training programs 
nationally, including the Bethesda Naval, Walter Reed Army and Tripler 
Army orthopaedic residency programs. In addition, Shock Trauma serves 
as the home for the Air Force Center for Sustainment of the Trauma and 
Readiness Skills (CSTARS) program. I also serve as a Commissioner on 
the Maryland Health Care Commission and on the Board of Directors of 
the Orthopaedic Trauma Association.
    Accompanying me is CBS News Correspondent Kimberly Dozier, who is 
recovering from severe wounds to her legs and head. Kimberly sustained 
these extremity injuries last Memorial Day on the streets of Baghdad 
while covering American soldiers on patrol with Iraqi security forces. 
She had been imbedded with the Army's 4th Infantry Division. The patrol 
was the victim of a car bombing which critically injured Kimberly and 
killed her cameraman, soundman, a U.S. Army captain they were following 
and his Iraqi translator.
    As one of the many doctors who have worked with Kimberly, I am 
happy to say her recovery is progressing well. She is one of those rare 
individuals willing to put herself in harm's way to chronicle the work 
of our brave American servicemen and women in Iraq.
    Please allow me to take this opportunity today to thank the Members 
of this Subcommittee for your vision and leadership in providing 
significant new funding for the Peer Reviewed Orthopaedic Extremity 
Trauma Research Program in the fiscal year 2007 Supplemental 
Appropriations Bill and urge your continued support for this critical 
effort in the future.
    I will discuss the spectrum of orthopaedic trauma being sustained 
by U.S. military personnel in Iraq and Afghanistan and offer a 
perspective on the importance of orthopaedic extremity research in 
providing new clinical knowledge that will enable improved treatments 
for soldiers suffering from orthopaedic trauma. Finally, I will provide 
an update on the progress of the Peer Reviewed Orthopaedic Extremity 
Trauma Research Program, which is administered by the Medical Research 
and Materiel Command's U.S. Army Institute of Surgical Research 
(USAISR).
    It is important to point out that unique to this conflict is a new 
type of patient, a warfighter with multiple and severely mangled 
extremities who is otherwise free of life-threatening injury to the 
torso because of improvements in protective body armor. Current 
challenges that often compound the injuries include serious infections 
due to the nature of the injuries and the environment where they are 
sustained, the need for immediate transport for more complex surgery, 
the need for better medical understanding of the internal effects of 
blast injury, and the need for a joint service database that 
encompasses the multilevel spectrum of orthopaedic extremity injury 
care.
Orthopaedic Trauma from Operation Iraqi Freedom and Operation Enduring 
        Freedom
    The likelihood of surviving wounds on the battlefield was 69.7 
percent in WWII and 76.4 percent in Vietnam. Now, thanks in part to the 
use of body armor, ``up-armored'' vehicles, intense training of our 
combat personnel and surgical capability within minutes of the 
battlefield, survivability has increased dramatically to 90.2 percent 
as of February 2007.
    The Armed Forces are attempting to return significantly injured 
soldiers to full function or limit their disabilities to a functional 
level in the case of the most severe injuries. The ability to provide 
improved recovery of function moves toward the goal of keeping injured 
soldiers part of the Army or service team. Moreover, when they do leave 
the Armed Forces, these rehabilitated soldiers have a greater chance of 
finding worthwhile occupations outside of the service to contribute 
positively to society. The Army believes that it has a duty and 
obligation to provide the highest level of care and rehabilitation to 
those men and women who have suffered the most while serving the 
country and our Academy fully supports those efforts.
    It probably comes as no surprise that the vast majority of trauma 
experienced in Iraq and Afghanistan is orthopaedic-related, especially 
upper and lower extremity and spine. A recent article in the Journal of 
Orthopaedic Trauma reports on wounds sustained in Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF) based on data from 
the Joint Theater Trauma Registry, a database of medical treatment 
information from theater of combat operations at U.S. Army medical 
treatment facilities. From October, 2001 through January, 2005, of 
1,566 soldiers who were injured by hostile enemy action, 1,281 (82 
percent) had extremity injuries, with each solider sustaining, on 
average, 2.28 extremity wounds. These estimates do not include non-
American and civilians receiving medical care through U.S. military 
facilities. (Owens, Kragh, Macaitis, Svoboda and Wenke. 
Characterization of Extremity Wounds in Operation Iraqi Freedom and 
Operation Enduring Freedom. J Orthopaedic Trauma. Vol. 21, No. 4, April 
2007. 254-257.)
    An earlier article reported on 256 battle casualties treated at the 
Landstuhl Regional Medical Center in Germany during the first two 
months of OIF, finding 68 percent sustained an extremity injury. The 
reported mechanism of injury was explosives in 48 percent, gun-shot 
wounds in 30 percent and blunt trauma in 21 percent. As the war has 
moved from an offensive phase to the current counter-insurgency 
campaign, higher rates of injuries from explosives have been 
experienced. (Johnson BA. Carmack D, Neary M, et al. Operation Iraqi 
Freedom: the Landstuhl Regional Medical Center experience. J Foot Ankle 
Surg. 2005; 44:177-183.) According to the JTTR, between 2001 and 2005, 
explosive mechanisms accounted for 78 percent of the war injuries 
compared to 18 percent from gun shots.
    While medical and technological advancements, as well as the use of 
fast-moving Forward Surgical Teams, have dramatically decreased the 
lethality of war wounds, wounded soldiers who may have died in previous 
conflicts from their injuries are now surviving and have to learn to 
recover from devastating injuries. While body armor does a great job of 
protecting a soldier's torso, his or her extremities are particularly 
vulnerable during attacks.
            Characteristics of Military Orthopaedic Trauma
    At this point we are approaching 40,000 casualties in the Global 
War on Terror. As mentioned earlier, the vast majority have injuries to 
their extremities--often severe and multiple injuries to the arms, 
legs, head and neck. Most wounds are caused by exploding ordinance--
frequently, improvised explosive devices (IEDs), rocket-propelled 
grenades (RPGs), as well as high-velocity gunshot wounds. Military 
surgeons report an average of 3 wounds per casualty.
    According to the New England Journal of Medicine, blast injuries 
are producing an unprecedented number of ``mangled extremities''--limbs 
with severe soft-tissue and bone injuries. (``Casualties of War--
Military Care for the Wounded from Iraq and Afghanistan,'' NEJM, 
December 9, 2004). The result of such trauma is open, complex wounds 
with severe bone fragmentation. Often there is nerve damage, as well as 
damage to tendons, muscles, vessels, and soft-tissue. In these types of 
wounds, infection is often a problem. According to the JTTR, 53 percent 
of the extremity wounds are classified as penetrating soft-tissue 
wounds, while fractures compose 26 percent of extremity wounds. Other 
types of extremity wounds composing less than 5 percent each are burns, 
sprains, nerve damage, abrasions, amputations, contusions, 
dislocations, and vascular injuries.
            Military versus Civilian Orthopaedic Trauma
    While there are similarities between orthopaedic military trauma 
and the types of orthopaedic trauma seen in civilian settings, there 
are several major differences that must be noted.
    With orthopaedic military trauma, there are up to five echelons of 
care, unlike in civilian settings when those injured are most likely to 
receive the highest level of care immediately. Instead, wounded 
soldiers get passed from one level of care to the next, with each level 
of care implementing the most appropriate type of care in order to 
ensure the best possible outcome. The surgeon in each subsequent level 
of care must try to recreate what was previously done. In addition, a 
majority of injured soldiers have to be ``medevaced'' to receive care 
and transportation is often delayed due to weather or combat 
conditions. It has been our experience that over 65 percent of the 
trauma is urgent and requires immediate attention.
    Injuries from IEDs and other explosive ordnance in Iraq and 
Afghanistan differ markedly from those of gunshot wounds sustained in 
civilian society. The contamination, infection and soft-tissue injury 
caused by exploding ordnance requires more aggressive treatment and new 
techniques, especially when the individual is in proximity to the blast 
radius.
    Soldiers are usually in excellent health prior to injury. However, 
through the evacuation process they may not be able to eat due to 
medical considerations resulting in impaired body nitrogen stores and 
decreased ability to heal wounds and fight infections. This presents 
many complicating factors when determining the most appropriate care.
    The setting in which care is initially provided to wounded soldiers 
is less than ideal, to say the least, especially in comparison to a 
sterile hospital setting. The environment, such as that seen in Iraq 
and Afghanistan, is dusty and hot, leading to concerns about 
sterilization of the hospital setting. For example, infection from 
acinetobacter baumanni, a ubiquitous organism found in the desert soil 
of Afghanistan and Iraq, is extremely common. In addition, the surgical 
environment is under constant threat of attack by insurgents. Imagine 
teams of medical specialists working in close quarters to save an 
injured serviceman while mortars or rockets are raining down on the 
hospital. In fact, a considerable percentage of the care provided by 
military surgeons is for injured Iraqis, both friendly and hostile. 
Finally, the surgical team is faced with limited resources that make 
providing the highest level of care difficult.
    While, as I have stated, there are many unique characteristics of 
orthopaedic military trauma, there is no doubt that research done on 
orthopaedic military trauma benefits trauma victims in civilian 
settings. Many of the great advancements in orthopaedic trauma care 
have been made during times of war, such as the external fixateur, 
which has been used extensively during the current conflict as well as 
in civilian care.
Future Needs of Orthopaedic Extremity Trauma Research
    An important development in this scientific effort has been the 
convening of two major Extremity War Injury Symposia in January of 2006 
and 2007. These widely attended medical conferences in Washington, D.C. 
brought together leading military and civilian clinicians and 
researchers to focus on the immediate needs of personnel sustaining 
extremity injuries. Presentations and discussions at the conferences 
confirmed that there is tremendous interest in the military and 
civilian research community and much unmet research capacity in the 
nation at military and civilian research institutions.
    These extraordinary scientific meetings were a partnership effort 
between organized orthopaedic surgery, military surgeons and industry. 
They were attended by key military and civilian physicians and 
researchers committed to the care of extremity injuries. The first 
conference addressed current challenges in the management of extremity 
trauma associated with recent combat in Iraq and Afghanistan. The major 
focus was to identify opportunities to improve the care for the sons 
and daughters of America who have been injured serving our nation. The 
second focused on the best way to deliver care at all five of the 
military's echelons of treatment. Proceedings from the 2006 symposia 
were published by our Academy last year and the proceedings from the 
2007 meeting will be published shortly. Both include a list of 
prioritized research needs which I will summarize:
  --Timing of Treatment.--Better data are necessary to establish best 
        practices with regard to timing of debridement, timing of 
        temporary stabilization and timing of definitive stabilization. 
        Development of animal models of early versus late operative 
        treatment of open injuries may be helpful. Prospective clinical 
        comparisons of treatment groups will be helpful in gaining 
        further understanding of the relative role of surgical timing 
        on outcomes.
  --Techniques of Debridement.--More information is necessary about 
        effective means of demonstrating adequacy of debridement. 
        Current challenges, particularly for surgeons with limited 
        experience in wound debridement, exist in understanding how to 
        establish long-term tissue viability or lack thereof at the 
        time of an index operative debridement. Since patients in 
        military settings are typically transferred away from the care 
        of the surgeon performing the initial debridement prior to 
        delivery of secondary care, opportunities to learn about the 
        efficacy of initial procedures are lost. Development of animal 
        models of blast injury could help establish tissue viability 
        markers. Additional study is necessary to understand ideal 
        frequencies and techniques of debridement.
  --Transport Issues.--Clinical experience suggests that current air 
        evacuation techniques are associated with development of 
        complications in wound and extremity management although the 
        specific role of individual variables in the genesis of these 
        complications is unclear. Possible contributing factors include 
        altitude, hypothermia and secondary wound contamination. 
        Clinical and animal models are necessary to help develop an 
        understanding of transport issues. Development, testing and 
        approval of topical negative pressure devices for use during 
        aeromedical transport should be facilitated.
  --Coverage Issues.--Controlled studies defining the role of timing of 
        coverage in outcome following high-energy extremity war 
        injuries are lacking. Also necessary is more information about 
        markers and indicators to help assess the readiness of a wound 
        and host for coverage procedures. Both animal modeling and 
        clinical marker evaluation are necessary to develop 
        understanding in this area.
  --Antibiotic Treatments.--Emergence of resistant organisms continues 
        to provide challenges in the treatment of infection following 
        high-energy extremity war injuries. Broader prophylaxis likely 
        encourages development of antibiotic resistance. In the context 
        of a dwindling pipeline of new antibiotics, particularly those 
        directed toward gram-negative organisms, development of new 
        technologies to fight infection is necessary. This patient 
        population offers opportunity to assess efficacy of vaccination 
        against common pathogens. Partnerships with infectious disease 
        researchers currently involved in addressing similar questions 
        should be developed.
  --Management of Segmental Bone Defects.--A multitude of different 
        techniques for management of segmental bone defects is 
        available. These include bone transport, massive onlay grafting 
        with and without use of recombinant proteins, delayed allograft 
        reconstruction, and acute shortening. While some techniques are 
        more appropriate than others after analysis of other clinical 
        variables, controlled trials comparing efficacy between 
        treatment methods are lacking. Variables that may affect 
        outcome can be grouped according to patient characteristics 
        including co-morbidities, injury characteristics including 
        severity of bony and soft-tissue wounds, and treatment 
        variables including method of internal fixation selected. 
        Evaluation of new technologies for treatment of segmental bone 
        defects should include assessment of efficacy with adequate 
        control for confounding variables and assessment of cost-
        effectiveness.
  --Development of an Animal Model.--A large animal survival military 
        blast injury model is necessary to serve as a platform for 
        multiple research questions including: VAC v. bead pouch v. 
        dressing changes; wound cleaning strategy; effect of topical 
        antibiotics; modulation of inflammatory response; timing of 
        wound closure; and vascular shunt utilization.
  --Amputee Issues.--Development and validation of ``best practice'' 
        guidelines for multidisciplinary care of the amputee is 
        essential. Treatment protocols should be tested clinically. 
        Studies should be designed to allow for differentiation between 
        the impacts of the process versus the device on outcome. 
        Failure mode analysis as a tool to evaluate efficacy of 
        treatment protocols and elucidate shortcomings should be 
        utilized. Clinically, studies should focus on defining 
        requirements for the residual limb length necessary to achieve 
        success without proceeding to higher level amputation. Outcomes 
        based comparisons of amputation techniques for similar injuries 
        and similar levels should be performed. Use of local tissue 
        lengthening and free tissue transfer techniques should be 
        evaluated. In the context of current results and increasing 
        levels of expectation for function following amputation, 
        development of more sensitive and military appropriate outcomes 
        monitors is necessary.
  --Heterotopic Ossification.--This condition, known as ``H.O.'' by the 
        many soldiers who experience it, is abnormal and uncontrolled 
        bone growth that often occurs following severe bone destruction 
        or fracture. Animal models of heterotopic ossification should 
        be utilized to develop early markers for heterotopic 
        ossification development that could identify opportunities for 
        prevention. Better information is needed about burden of 
        disease including prevalence following amputation for civilian 
        versus military trauma and frequency with which symptoms 
        develop. Treatment methods such as surgical debridement, while 
        effective, necessarily interrupt rehabilitation. Prevention 
        could expedite recovery and potentially improve outcome.
  --Data Collection System.--A theme common to virtually all 
        discussions on research and patient care for our soldiers has 
        been the need for access to better longitudinal patient data. 
        Current patient care processes both in theatre and at higher 
        echelon care centers do not include data captured in a way that 
        allows simple electronic linkage of medical records from one 
        level of care to the next. At least two electronic medical 
        records systems are in use, and they are not necessarily 
        compatible with one another. Any electronic medical record used 
        should be web based to allow for linkage of patient data from 
        the earliest echelon of documented care through the VA system. 
        The system must be user friendly and not cumbersome to 
        encourage entry of information critical to outcomes analysis. 
        An example of one system with some of the necessary components 
        is the current Joint Patient Tracking Application (JPTA). The 
        system unfortunately lacks integration with a trauma registry 
        or database to allow for retrospective or prospective analyses 
        of specific injuries and treatments. Funding is necessary for 
        platform development, information systems infrastructure and 
        data entry personnel.
Stories from the frontlines
    There have been many heroic stories of injured soldiers struggling 
to regain function and to return to normal life, or even back to 
service. A story highlighted in a March 2005 National Public Radio 
(NPR) series titled ``Caring for the Wounded: The Story of Two 
Marines,'' followed two Marines injured in Iraq: 1st Sgt. Brad Kasal 
and Lance Cpl. Alex Nicoll. Lance Cpl. Nicoll had to have his left leg 
amputated as a result of his injuries from gunshot wounds. Nicoll has 
undergone physical therapy at Walter Reed to adjust to his new 
prosthetic leg, made from graphite and titanium. While Sgt. Kasal was 
so seriously injured that he lost four inches of bone in his right leg, 
due to medical advances in limb salvaging, he did not have to have his 
leg amputated. Kasal underwent a bone growth procedure, called the 
Illizarov Technique, which grows the bone one millimeter a day.
    The Iraq war has created the first group of female amputees. Lt. 
Dawn Halfaker is one of approximately 11 military women who have lost 
limbs from combat injuries in Iraq, compared to more than 350 men. She 
lost her arm to a life- threatening infection, after sustaining major 
injuries, along with another soldier, when on a reconnaissance patrol 
in Baqouba, Iraq, a rocket-propelled grenade exploded inside her 
armored Humvee. Maj. Ladda ``Tammy'' Duckworth lost both legs when a 
rocker-propelled grenade slammed into her Black Hawk helicopter near 
Balad. Juanita Wilson, an Army staff sergeant, lost her left hand when 
an improvised bomb exploded near her Humvee on a convoy mission north 
of Baghdad. All three women are successfully moving forward in military 
or civilian careers.
    Bone problems, seldom seen in soldiers from previous wars who have 
lost limbs, have complicated recoveries for Iraq and Afghanistan-
stationed soldiers. Heterotopic ossification has developed in nearly 60 
percent of the first 318 amputees treated at Walter Reed Army Medical 
Center. Over 70 patients from across the military have been treated for 
H.O. at Brooke Army Medical Center. Rarely occurring in civilian 
amputees, high-intensity blasts, which can shred muscles, tendons and 
bone, appears to stimulate adult stem cells to heal damage, but repair 
signals often go awry. Advances in body armor resulting in higher 
survival rates and ability to preserve more damaged tissue, have lead 
to the high number of ``H.O.'' cases where little research exists on 
how to treat the condition among amputees. (``Bone condition hampers 
soldiers' recovery,'' USA TODAY, February 12, 2006.)
    These stories clearly illustrate the benefits of, and need for, 
orthopaedic extremity trauma research for America's Soldiers, Sailors, 
Airmen and Marines.
The Peer Reviewed Orthopaedic Extremity Trauma Research Program
    Your Congressional action initiated this targeted, competitively-
awarded research program where peer reviewers score proposals on the 
degree of (1) military relevance, (2) military impact, and (3) 
scientific merit. Military orthopaedic surgeons are highly involved in 
determining the research topics and evaluating and scoring the 
proposals. This unique process ensures that research projects selected 
for funding have the highest chance for improving treatment of 
battlefield injuries. The AAOS and military and civilian orthopaedic 
surgeons and researchers are very grateful that your Subcommittee 
created the Peer Reviewed Orthopaedic Extremity Trauma Research Program 
in the fiscal year 2006 Defense Appropriations Bill. The program is 
administered by the Medical Research and Material Command's research 
program at the U.S. Army Institute of Surgical Research (USAISR) at 
Fort Sam Houston, Texas. This is the first program created in the 
Department of Defense dedicated exclusively to funding peer-reviewed 
intramural and extramural orthopaedic trauma research. Having the 
program administered by the USAISR ensures that the research funding 
follows closely the research priorities established by the Army and the 
Armed Forces, and ensures collaboration between military and civilian 
research facilities. USAISR has extensive experience administering 
similar grant programs and is the only Department of Defense Research 
laboratory devoted solely to improving combat casualty care.
    The design of the program fosters collaboration between civilian 
and military orthopaedic surgeons and researchers. Civilian researchers 
have the expertise and resources to assist their military colleagues 
with the growing number of patients and musculoskeletal war wound 
challenges, to build a parallel research program in the military. 
Civilian investigators are interested in advancing the research and 
have responded enthusiastically to engage in these efforts, which will 
also provide wide ranging spin-off benefits to civilian trauma patients 
as well.
    It is important to note that military orthopaedic surgeons, in 
addition to personnel at the U.S. Army Medical Research and Materiel 
Command, Fort Detrick, have had significant input into the creation of 
this program and fully support its goals. Appropriations for this 
program are building a stronger focus of a core mission in the military 
to dedicate Department of Defense research resources to injured 
soldiers.
    The program's first Broad Agency Announcement (BAA) for grants was 
released on February 13, 2006, and identified the following basic, 
transitional and clinical research funding priorities: improved healing 
of segmental bone defects; improved healing of massive soft tissue 
defects; improved wound healing; tissue viability assessment and wound 
irrigation and debridement technologies; reduction in wound infection; 
prevention of heterotopic ossification; demographic and injury data on 
the modern battlefield and the long-term outcomes of casualties (i.e. 
joint theatre trauma registry); and improved pre-hospital care of 
orthopaedic injuries.
    Close to 100 pre-proposals were received for consideration, with 76 
invited to compete with a full proposal. This number is relatively high 
considering the shortened time period that was available for submitting 
pre-proposals. An upper limit of $500,000 was established for any one 
grant, to give a reasonable number of grantees an opportunity to 
participate. Ordinarily grants would generally be awarded for much 
higher amounts to support the research required. Larger multi-
institutional studies had to limit what they were proposing.
    Sixty proposals were evaluated and found meritorious and militarily 
relevant, however only 14 grants could be funded for their first year 
of research based on available funding. The amount that would have been 
needed to fund the remaining 46 grants totals $44,852,549.
    A second BAA was issued March 29, 2007 based on funding provided in 
the fiscal year 2007 Appropriations bill. USAISR staff estimate that 
only an additional 4 or 5 grants will be awarded after second-year 
costs of the initial multi-year grants are covered. If the fiscal year 
2007 Supplemental Appropriations Bill is enacted, significant new 
funding would allow for a broader scope of work and multi-institutional 
collaboration.
Conclusion
    With orthopaedic trauma being the most common form of trauma seen 
in military conflicts, it is crucial that there be funding dedicated 
specifically to the advancement of orthopaedic trauma research. The 
AAOS has worked closely with the top military orthopaedic surgeons, at 
world-class facilities such as the U.S. Army Institute of Surgical 
Research, Brooke Army Medical Center, and Walter Reed Army Medical 
Center to identify the gaps in orthopaedic trauma research and care and 
the needs are overwhelming.
    There is a profound need in the nation for this targeted medical 
research to help military surgeons find new limb-sparing techniques to 
save injured extremities, avoid amputations and preserve and restore 
the function of injured extremities. Research supported by civilian 
agencies such as the National Institutes of Health has contributed to 
the general orthopaedic science base over the years, but the current 
war has presented orthopaedic surgeons with a unique situation with 
very specific new problems and injuries not seen in civilian medical 
practice. Thus the urgent need for an immediate, robust and targeted 
effort to improve care for our injured service men and women.
    I hope that I have given you a well-rounded perspective on the 
extent of what orthopaedic trauma military surgeons are seeing and a 
glimpse into the current and future research for such trauma. Military 
trauma research currently being carried out at military facilities, 
such as WRAMC and the USAISR, and at civilian medical facilities, is 
vital to the health of our soldiers and to the Armed Forces' objective 
to return injured soldiers to full function in hopes that they can 
continue to be contributing soldiers and active members of society.
    The 17,000 members of our Academy thank you for sustaining the Peer 
Reviewed Orthopaedic Extremity Trauma Research Program this year. While 
Congress funds an extensive array of medical research through the 
Department of Defense, with over 80 percent of military trauma being 
orthopaedic-related, no other type of medical research would better 
benefit our men and women serving in the Global War on Terror and in 
future conflicts. Especially because this program is only in its early 
stage, continuity is critical to its success.
    Mr. Chairman and Mr. Vice Chairman, the American Academy of 
Orthopaedic Surgeons, as well as the entire orthopaedic community, 
stands ready to work with this Subcommittee to identify and prioritize 
research opportunities for the advancement of orthopaedic trauma care. 
Military and civilian orthopaedic surgeons and researchers are 
committed to advancing orthopaedic trauma research that will benefit 
the unfortunately high number of soldiers afflicted with such trauma 
and return them to full function. We applaud the action taken by your 
Committee in the fiscal year 2007 Supplemental Appropriations to 
provide significantly increased funding to cover the backlog of 
unfunded research capacity. This investment to improve treatment for 
our soldiers will be well spent. It is imperative that the federal 
government--when establishing its defense health research priorities in 
the future--continue to ensure that orthopaedic extremity trauma 
research remains a top priority.

    Senator Inouye. And now may I call upon, Rear Admiral Casey 
Coane, United States Navy, retired, Executive Director Naval 
Reserve Association.
    Admiral, welcome, sir.

STATEMENT OF REAR ADMIRAL CASEY W. COANE, UNITED STATES 
            NAVY (RETIRED), EXECUTIVE DIRECTOR, NAVAL 
            RESERVE ASSOCIATION
    Admiral Coane. Chairman Inouye, on behalf of our 23,000 
members and in advocacy for the 70,000 Navy Reservists serving 
today, it is certainly our privilege to appear before you today 
and we appreciate this opportunity.
    There are a number of issues that are on the Navy unfunded 
and Navy Reserve unfunded list that, we believe, deserve your 
attention. And, we have indicated those in our written 
testimony. I'm going to use my time today to address just one 
that we consider critical, in terms of capability for the Navy 
to carry out its mission.
    That issue is the continuing purchase of the C-40 Clipper 
aircraft, which is scheduled to replace the remaining 17 DC-9 
series aircraft that currently average more than 31 years of 
service. The C-40 is significantly more capable with respect to 
payload, fuel efficiency, and range. These aircraft and the 
Navy C-130s are the sole source of Navy organic intra-theater 
airlift. They are all fully scheduled to support time-critical 
Navy missions. Unfortunately, procurement has been deferred in 
the budgetary process, with only four anticipated to be 
purchased between now and fiscal year 2013.
    This is where you can help. The Navy has a habit of 
prioritizing its front-line carrier strike aircraft high and 
all other aircraft much lower on the ladder. The result is a 
continuing shift of those other programs to the right in the 
budget years until a true crisis or a tipping point finally 
overwhelms us. That is exactly what happened to the P-3 
replacement program, and the entire Reserve P-3 community was 
dismantled to keep the Active Force flying until the new P-8 
can arrive. The bottom line is, the company is accepting risk 
in that program. We are on the verge of the same sort of crisis 
in the DC-9/C-40 replacement program, which directly affects 
combat effort, and we ask you to intervene.
    Last week, I asked Secretary Winter what the Navy needed to 
do to get out of this cycle of continued deferment. And, he 
responded that the Navy needed a comprehensive aircraft 
procurement plan like the 30-year ship building plan that is 
receiving a lot of acclaim here. That plan, the naval aviation 
capabilities 2030 plan, is in development, but we won't have it 
in time to solve this problem.
    Allow me to tick off just a few of the facts of the DC-9 
program. It is fragile. They are old, 31-plus years. Commercial 
airlines get rid of their aircraft--and I was a commercial 
airline pilot--they get rid of their aircraft at 20 years, 
partly because of cycles accumulated, but primarily because at 
that point in the life cycle the maintenance cost curves turn 
sharply upward.
    That is what accelerated the departure of the Navy F-14 
fighter--maintenance costs. A recent inspection of the DC-9 
resulted in an unplanned strike of that aircraft and more will 
follow. Between 2009 and 2012, they will all be noncompliant 
with European airspace requirements. And the cost to make them 
compliant is truly prohibitive, new engines, new avionics, et 
cetera. This will take the aircraft out of the Mediterranean 
theater where we have permanent detachments now. This is a huge 
issue.
    The DC-9 cannot operate in Iraq in the summer heat, the C-
40 can. The DC-9 cannot cross the African continent unrefueled 
as Ambassador Negroponte recently found out, the C-40 can. The 
DC-9 frequently cannot make the leg from Hawaii to Japan 
against the wind with any kind of meaningful load, the C-40 has 
no such restrictions. DC-9 pilot training is done in the 
aircraft using nearly 50 percent of its flight ability. Almost 
100 percent of C-40 training is done in the simulators, saving 
millions of dollars and allowing 95 percent of its availability 
for mission scheduling.
    We urge you to purchase at least four C-40 aircraft in the 
fiscal year 2008 budget cycle. That is our testimony subject to 
your questions, sir.
    Senator Inouye. Admiral, we understand your problem very 
well because this subcommittee is now faced with many 
procurement problems.
    For example, it has nothing to do with the Naval Reserves, 
but in the supplemental appropriations bill, which we are now 
considering, there's $1 billion for the purchase of Humvees. 
And in the fiscal year 2008 bill, there's a request for $2.9 
billion for Humvees. Last week, the Acting Navy Secretary 
announced that they will replace all Humvees with MRAPs. So, 
where do we stand, do we keep Humvees or do we have MRAPs? And 
who's going to pay for the MRAPs?
    So, your problem is one of many with us, but we will try 
our best to resolve them.
    Admiral Coane. Yes, sir, we appreciate that consideration.
    Senator Inouye. Thank you.
    [The statement follows:]

           Prepared Statement of Rear Admiral Casey W. Coane

                      THE NAVY RESERVE ASSOCIATION

    The Naval Reserve Association traces its roots back to 1919, and is 
devoted solely to service to the Nation, Navy, the Navy Reserve and 
Navy Reserve officers and enlisted. It is the premier national 
education and professional organization for Navy Reserve personnel, and 
the Association Voice of the Navy Reserve.
    Full membership is offered to all members of the services and Naval 
Reserve Association members come from all ranks and components.
    The Association has just under 23,000 members from all fifty 
states. Forty-five percent of the Naval Reserve Association membership 
is drilling and active reservists and the remaining fifty-five percent 
are made up of reserve retirees, veterans, and involved civilians. The 
National Headquarters is located at 1619 King Street Alexandria, VA. 
703-548-5800.

               DISCLOSURE OF FEDERAL GRANTS OR CONTRACTS

    The Naval Reserve Association does not currently receive, has not 
received during the current fiscal year, or either of two previous 
years, any federal money for grants. All activities and services of the 
Association are accomplished free of any direct federal funding.
    Chairman Inouye, Senator Stevens and distinguished members of the 
subcommittee: On behalf of our 23,000 members, and in advocacy for the 
70,000 active Navy Reservists and the mirrored interest of Guard and 
Reserve personnel, we are grateful for the opportunity to submit 
testimony, and for your efforts in this hearing.
    We very much appreciate the efforts of this subcommittee, the full 
Committee on Appropriations and like committees in the House of 
Representatives to support our deployed personnel and their families. 
Your willingness to address current and pressing issues facing 
Guardsmen and Reservists affirms their value to the defense of our 
great nation. Your recognition of these men and women as equal partners 
in time of war stands you well in the eyes of many. Our young Navy 
Reservists indicate to us that they are watching and waiting to see our 
actions to address their concerns. Your willingness to look at issues 
related to the use of the Guard and Reserve on the basis of fairness 
sets the Legislative Branch well above the Executive Branch which 
seemingly develops its positions on the basis of cost.
    That said, there are many issues that need to be addressed by this 
Committee and this Congress. However, there is one specific issue that 
I wish to address of utmost importance for this year's budget. The 
requirement for C-40A for the Navy's Air Logistics Program.
    First:
  --It is the Navy's only world-wide intra-theater organic airlift, 
        operated by the U.S. Navy.
  --Navy currently operates 9 C-40As, in three locations: Fort Worth, 
        Jacksonville, San Diego.
  --A pending CNA study--substantiates the requirements for 31-35 C-
        40As to replace aging C-9s.
    Second:
  --CNO, SECNAV, and DOD support the requirement for at least 4 more C-
        40As with a fiscal year 2008 Unfunded List (See Attachment #1).
  --Commander, Naval Air Force 2007 Top Priority List stated the 
        requirement for at least 32 aircraft.
  --These four C-40As sought in the fiscal year 2008 budget, keep the 
        Navy replacement of C-9s alive, and maintains the production 
        line of the C-40A.
    Third:
  --Current average age of remaining C-9s that the C-40 replaces is: 36 
        years!
  --There will be no commercial operation of the C-9s or derivates by 
        2011.
  --C-9s cannot meet the GWOT requirement, due to MC rates, and 
        availability of only 171 days in 2006.
  --Modifications required to make C-9s compliant with stage III Noise 
        compliance, and worldwide Communications/Navigation/
        Surveillance/Air Traffic Management compliance--are cost 
        prohibitive.
  --There are growing indications that the availability and Mission 
        Capability rates of the C-20Gs, stationed in Hawaii and 
        Maryland, need to be addressed for GWOT requirements (See 
        Attachment #2).
    Fourth:
  --737 Commercial Availability is slipping away, if we do not act now; 
        loss of production line positions in fiscal year 2008-09--due 
        to commercial demand would slip to 2013, and increase in DOD, 
        Service expenditures.
  --Lack of DOD, Navy activity on C-40 this fiscal year 2008, could 
        potentially mean loss of the C-40A for the Navy.
    The C-40A is a time critical transportation capability for the 
Naval Wartime effort and DOD emergent operational requirements. It also 
provides critical peacetime operational support. The C-40A is the 
replacement for the C-9B.
    The C-40A meets or betters all operational requirements of the 
Navy, and most importantly--can operate in the changing civilian arena 
of CNS/Air Traffic Management Phase I and Phase II requirements, 
allowing the aircraft to fly in any airspace of the future. The 
aircraft can operate with cargo, with passengers, or with a combination 
of cargo and passengers meeting many different logistical requirements.
    Resource constraints have moved this critical asset to the right in 
funding lines, and this could impact: carrier and expeditionary asset 
deployments, and critical transportation of high value cargo to 
Combatant Commanders areas of responsibilities. Sliding the funding to 
the right is not a good option with the increasing civilian demand for 
production line positions. To restart the C-40A line production, after 
it is closed would be extremely costly to the Department of Defense, 
and the Navy.
    Without your direct and immediate input on this critical Navy and 
Navy Reserve requirement, the requirement will be lost, and if needed 
would cost two to three times more for the taxpayers.
  --The C-9 Full Mission Capability and Mission Capability has 
        decreased dramatically.
  --Most interestingly and surprisingly--the C-20G aircraft (a 
        commercial derivative of the Gulfstream 5 aircraft) full 
        mission capability and mission capabilities has decreased to:
    --FMC--1994 97.1 percent to a low of 2006 72.0 percent.
    --MC--1994 97.1 percent to a low of 2006 68.9 percent.
    --You can see--the operational requirements have impacted the C-
            20G.
Additionally:
    People join the Reserve Components to serve their country and 
operate equipment. Recruiting and retention issues have moved to center 
stage for all services and their reserve components. In all likelihood 
the Navy will not meet its target for new Navy Reservists and the Navy 
Reserve will be challenged to appreciably slow the departure of 
experienced personnel this fiscal year. We've heard that Reserve Chiefs 
are in agreement, expressing concern that senior personnel will leave 
in droves.
    Besides reenlistment bonuses which are needed, we feel that 
dedicated Navy Reserve equipment and Navy Reserve units are a major 
factor in recruiting and retaining qualified personnel in the Navy 
Reserve.
    Overwhelmingly, we have heard Reserve Chiefs and Senior Enlisted 
Advisors discuss the need and requirement for more and better equipment 
for Reserve Component training. The Navy Reserve is in dire need of 
equipment to keep personnel in the Navy Reserve and to keep them 
trained. Approximately 4,500 Navy Reserve personnel are on recall each 
and every month since 9/11. We must have equipment and unit cohesion to 
keep personnel trained. This means--Navy Reserve equipment and Navy 
Reserve specific units with equipment.
    In recent statements, the Chairman of the Commission on the 
National Guard and Reserve Components has stated that cross-leveling 
and lack of equipment is breaking the Reserve Components abilities to 
be an operational reserve force. I feel that the Navy Reserve should 
maintain up-to-date unit equipment, if we are to be able to respond to 
mobilization.
    The following are critically needed for the Navy Reserve to respond 
to continued mobilization, and is supported by the Chief of Navy 
Reserve unfunded program requirements: Naval Coastal Warfare Equipment; 
Explosive Ordnance Disposal Equipment; Naval Construction Force 
Equipment; and Navy Expeditionary Logistics Support Equipment.(See 
Attachment # 3).
    We ask you to fund this Navy Reserve equipment, and that you fund 
the NGREA accounts that are critical for supporting Reserve forces in 
today's Global War on Terrorism. Naval Reserve units are engaged in 
this Global War, and these units, the people, and their families are 
responding to Combatant Commanders calls. We must maintain the proper 
equipment for these Navy Reserve units and Navy Reserve Sailors. The AC 
will not do it, yet will call on them to respond. Only through the 
NGREA will your citizen-Sailors be able to respond to the needs of the 
Nation and Combatant Commanders.
    In summary, we believe the Committee needs to address the following 
issues for Navy Reservists in the best interest of our National 
Security:
  --First and foremost, fund four (4) C-40A for the Navy Reserve, per 
        the unfunded list; we must replace the C-9s and replace the C-
        20Gs in Hawaii and Maryland.
  --Increase funding for Naval Reserve equipment in NGREA
    --Naval Coastal Warfare Equipment
    --Explosive Ordnance Disposal Equipment
  --Establish an End-strength cap of 79,500 SelRes (66,000) and FTS 
        (13,500) as a floor for end strength to Navy Reserve manpower--
        providing for surge-ability and operational force.
    We thank the committee for consideration of these tools to assist 
the Guard and Reserve in an age of increased sacrifice and utilization 
of these forces.

               ATTACHMENT 1.--POM-08 UNFUNDED PROGRAM LIST
                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal year
 ITEM                TITLE (Program/Issue)                     2008
------------------------------------------------------------------------
    1 LPD-17                                                  1,696.00
    2 T-AKE                                                   1,200.00
    3 Joint Improvised Explosive Device Defeat                    8.70
       (JIEDDO) Sustainment
    4 Critical ASW Enhancements                                  95.70
    5 F/A-18E/F/G                                               720.00
    6 MH-60R                                                    140.00
    7 MH-60S                                                    207.00
    8 C-40A                                                     332.00
    9 T-6B                                                       23.60
   10 MK XII /MKXIIA IFF                                         68.70
   11 LCAC Sustainment and Personnel Transport Modules           27.80
       (PTMs)
   12 Transit Protection System                                  21.40
   13 MPS Lease Buyout                                          432.00
   14 AMRAAM (AIM-120D) Inventory                                72.73
   15 Facility Sustainment                                      240.00
   16 Coronado Homeport Ashore Bachelor Quarters                 75.00
   17 Japan Homeport Ashore Bachelor Quarters                   151.00
   18 Fitness Center, Pearl Harbor, HI                           45.00
   19 Aircraft Depot Maintenance                                 77.00
   20 Navy Recruiting Advertising                                29.00
                                                       -----------------
            Total                                             5,662.63
------------------------------------------------------------------------


                  ATTACHMENT 2.--C-20G FMC AND MC RATES
                              [In percent]
------------------------------------------------------------------------
                       Year                            FMC         MC
------------------------------------------------------------------------
1994..............................................      97.15      97.15
1995..............................................      93.59      95.08
1996..............................................      93.40      93.86
1997..............................................      72.57      83.95
1998..............................................      87.14      93.26
1999..............................................      94.61      95.50
2000..............................................      85.05      91.09
2001..............................................      89.09      93.48
2002..............................................      82.03      85.29
2003..............................................      92.62      94.01
2004..............................................      86.40      93.90
2005..............................................      81.72      86.81
2006..............................................      68.86      71.99
------------------------------------------------------------------------


              ATTACHMENT 3.--CHIEF OF NAVY RESERVE UNFUNDED PRIORITY LIST--FISCAL YEAR 2008 NAVY RESERVE UNFUNDED PROGRAM REQUIREMENTS LIST
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                   Fiscal year 2008                                                                          Fiscal year
    Fiscal year 2007 NGRER           CNO UPL             NGRER              CNR              APPN                  Title (Program)               2008
--------------------------------------------------------------------------------------------------------------------------------------------------------
1.............................  1................  1...............  1...............  OPN.............  Naval Coastal Warfare Equipment...        $11.0
2.............................  2................  2...............  2...............  OPN.............  Explosive Ordnance Disposal Table           4.9
                                                                                                          of Allowance Equipment.
3.............................  3................  3...............  3...............  OPN.............  Naval Construction Force Equipment         16.1
6.............................  6................  4...............  4...............  OPN.............  Navy Expeditionary Logistics                6.0
                                                                                                          Support Group Equipment (NAVELSG).
5.............................  4................  5...............  5...............  APN.............  C-40A.............................        371.0
7.............................  5,7,8,10.........  6...............  6...............  APN.............  C-130 Upgrades....................         33.3
8.............................  N/L..............  7...............  7...............  APN.............  C-9 Upgrades......................         32.0
N/L...........................  N/L..............  9...............  8...............  APN.............  C-9 Interior and engine upgrades..         15.0
N/L...........................  N/L..............  N/L.............  9...............  APN.............  C-40A.............................          4.2
9.............................  N/L..............  10..............  10..............  APN.............  F-5 Radar and EA jammer upgrades..         56.1
                                                                                                                                            ------------
                                                                                                               Total.......................        549.6
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Senator Inouye. The next witness is Dr. Don Coffey, 
National Prostate Cancer Coalition. I'm sorry Senator Stevens 
is not here, he is a survivor, as you know.

STATEMENT OF DR. DONALD S. COFFEY, Ph.D., MEMBER, 
            NATIONAL CANCER ADVISORY BOARD, NATIONAL 
            CANCER INSTITUTE, DEPARTMENT OF HEALTH AND 
            HUMAN SERVICES, ON BEHALF OF THE NATIONAL 
            PROSTATE CANCER COALITION
    Dr. Coffey. Mr. Chairman, listening to these problems that 
you must face, I salute you. This is most difficult.
    I'm honored to speak to you because 8 days ago I watched 
you receive an award from the American Association of Cancer 
Research on their 100th anniversary for your long-time effort 
in behalf of doing something about cancer in this country and 
in the world. And, so I salute you for that.
    I'm Don Coffey, I was elected President of that 
organization several years back, and I was also 47 years doing 
research at Johns Hopkins on prostate cancer.
    President Bush recently appointed me for a 6-year term to 
his National Cancer Advisory Board. So, I've been involved with 
the Department of Defense Prostate Cancer Program all the way 
back, 10 years ago, when it first got underway. And I must tell 
you, this has been one of the most effective programs that I've 
seen.
    It does not repeat a lot of the research going on at the 
National Cancer Institute. And I'm here today on behalf of the 
National Prostate Cancer Coalition, who's asked me to come and 
address you. And what they're requesting is that the money in 
prostate cancer, which as you know, is one of the devastating 
diseases for many males in this country--one of the highest 
cancer rates, about 33 percent, of the cancers are here, and 
one out of six men will get prostate cancer in their lifetime.
    What they are requesting is that these funds--since 1997--
have been decreasing and they have come from $100 million down 
to $80 million. So, we've lost $20 million in this incredible 
program. They're requesting that this be replaced, the $20 
million, to bring it back to $100 million.
    Now, what does that mean? It means that we have received--
the Department of Defense's Prostate Cancer Program--receives 
about 1,100 applications for research in this field. Now, that 
wouldn't have been possible a few years ago, there was 
practically nobody working in this, and they really stimulated 
a vast amount of research. But they can only fund 200. And of 
those others, over 200 of those, an equal number, are 
outstanding from bright young investigators, these unique types 
of grants. And, we're requesting that the $20 million be 
restored so we can bring those grants back to a reasonable 
level of funding.
    I want to remind everyone that I go all the way back. I was 
in the field a decade or so before President Nixon declared the 
war on cancer in this country. And at that time, 40 percent of 
all the grants that were approved, found to be worthy, were 
funded. Now, that number is down, as you heard, to about 20 
percent and now it's even fallen below 10 in some programs for 
young people, and things at the National Cancer Institute.
    So I really want to stress my congratulations to this 
subcommittee for having formed this program, and how effective 
it is. And, I will end by saying, I'm just going to share two 
things with you, I could have picked 100.
    As you know, the death rate is falling for prostate cancer 
and one of the things is we've got to find out what causes 
this. Example, if you're from the rural area of China--and I've 
worked very closely and set up the United States-Chinese 
Urological Research Society with China earlier, with the 
leaders in China. And what happens if you're born in that area, 
you have very little chance of getting prostate or breast 
cancer as you age.
    But, if you move to Hawaii it jumps, and if you move to the 
mainland United States, it jumps again. And by the second 
generation, it is very high. This has been traced to some 
things that we're coming down on, related to how we process 
foods and some protective factors. The way we process foods by 
burning them, the meats, produces a carcinogen that is one of 
the most strongest carcinogens that we have seen for prostate 
cancer.
    And, so I would like to thank you. I know I could go on and 
on, but time is short, sir. I want to thank you for all you do 
for this Nation, for cancer, and we hope you can restore these 
prostate cancer funds. Thank you.
    Senator Inouye. It may be of interest to people here, this 
subcommittee will be considering budget requests in excess of 
$716 billion during this session. And we will have to somehow 
find the money to do this. And Senator Stevens and I are pretty 
good jugglers, so we will get it.
    [The statement follows:]

             Prepared Statement of Donald S. Coffey, Ph.D.

    Chairman Inouye, Ranking Member Stevens and distinguished members 
of the committee, I am Dr. Donald S. Coffey. I am the former Director 
of Research at Johns Hopkins University, Brady Urological Institute in 
Baltimore, the past-president of the American Association for Cancer 
Research and also The Society for Basic Urologic Research. I have 
recently been appointed to the National Cancer Advisory Board at the 
National Cancer Institute (NCI).
    I very much appreciate this opportunity to be able to speak once 
again to you about important issues in cancer research. Today, I am 
testifying on behalf of the National Prostate Cancer Coalition about a 
research program for prostate cancer eradication. That program is among 
the Department of Defense (DOD) Peer Reviewed Cancer Research Programs, 
which, taken together, have effected unique advances for the health and 
well-being of millions of Americans. I am here to request a long 
overdue funding increase to these innovative and successful programs.
    I have been involved in prostate cancer research for 47 years, 
eleven years before the inception of the National Cancer Act by 
President Richard Nixon in 1971. I have a first hand understanding of 
how far we have come toward eliminating suffering and death due to this 
disease, and much of our success has been contributed uniquely by the 
DOD special research program. I ask you to adequately support the 
program.
    Prostate cancer is the most commonly diagnosed non-skin cancer in 
American men. It accounts for roughly 33 percent of all male cancer 
cases. More than 230,000 men will learn they have prostate cancer in 
2007. About 27,000 will die from the disease. One in six men will get 
prostate cancer at some point in his life. For those with a family 
history of prostate cancer and African American men this number becomes 
1 in 3.

                               BACKGROUND

    For a decade, the Department of Defense (DOD) Prostate Cancer 
Research Program (PCRP) has funded over 1,455 awards and granted over 
$636 million in funding to universities, hospitals, not-for-profit 
institutions, private industry and state and federal agencies targeted 
toward eliminating prostate cancer. The Prostate Cancer Research 
Program has developed a multidisciplinary research portfolio that 
encompasses both basic and clinical research aimed at preventing, 
detecting, treating and improving the quality of life by those 
afflicted with prostate cancer. The funding strategy of the PCRP 
complements awards made by other agencies and specifically avoids 
duplication of long-term basic research supported by the National 
Institutes of Health.
    In a unique fashion, the PCRP incorporates a peer reviewed and 
programmatic review process. This two-tier review process ensures the 
scientific merit of proposals and that the program meets the goals of 
actual cancer patients and survivors. A decade of successful innovative 
research and cost efficiency has encouraged Congress to continue this 
program. Grant requests fall into 11 areas including Idea Development, 
Clinical Trial Development, and Health Disparity Research.
    Since its inception in 1997, the Prostate Cancer Research Program 
(PCRP) has been an environment in which creative ideas and first rate 
research have been able to flourish by urging investigators to come up 
with innovative ideas that will return results.

                          RESEARCH HIGHLIGHTS

    The DOD PCRP has conducted several studies on the impact of diet, 
nutrition, and lifestyle that could ultimately prevent prostate cancer 
from developing or spreading. Over the ten years that the PCRP has 
operated, the program has funded 50 projects that received a total of 
$20.25 million in research support for early prevention.
    One example is a study which is designed to look at the role of 
Selenium and Vitamin E in prostate cancer in prevention.
    In 2003, Dr. Yan Dong, a researcher at the Roswell Park Cancer 
Institute in Buffalo, New York began a study to look at the impact of 
Selenium and Vitamin E on genes that are potential tumor suppressors. 
The amazing results from this three-year study could potentially lay 
the groundwork for developing a customized selenium intervention 
strategy as part of the treatment for men at high risk of prostate 
cancer.
    It is important to note that this research effort followed the NCI 
Selenium and Vitamin E Chemoprevention Trial (or SELECT) which 
initially found these chemicals can prevent the onset and growth of 
prostate cancer.
    At Johns Hopkins, we have a distinguished history in prostate 
cancer prevention research. For example, several of my colleagues have 
been interested in studying the role of soy proteins and chemicals in 
broccoli as preventives--or in the role of carbon deposits in well-
cooked meat as a stimulant to cancer development.
    Prevention research conducted at the DOD PCRP could interface with 
and contribute to other important organ site cancer research. While 
Selenium research will potentially impact the course of prostate 
cancer, it will also likely have a role in lung cancer and colon cancer 
prevention as well.
    But, most important, the DOD PCRP program is structured to be a 
``first responder'' for special needs in prostate cancer research. 
While the National Institutes of Health and the National Cancer 
Institute are structured to lay battalions into the nation's war on 
cancer, this unique research program puts special forces into crucial 
research targets, something the larger agencies may find hard to do.
    The Prostate Cancer Research Program conducted by the Department of 
Defense through the Congressionally Directed Medical Research Programs 
(CDMRP) is setting the bar for administering cancer research. Prostate 
cancer advocates and scientists continue to praise this program and its 
unique peer and consumer driven approach to research. PCRP is a special 
program within the government's prostate cancer research portfolio 
because it makes significant use of public/private partnerships, 
quickly awards competitive grants for new ideas and does not duplicate 
the work of other research funders. Its mission and its results are 
clear. Each year, the program issues an annual report detailing what it 
has done to fight prostate cancer. This transparency allows taxpayers--
among them prostate cancer survivors--to clearly understand what this 
government entity is doing to fight the disease. Additionally, only 10 
percent of the funding for these programs goes towards administrative 
costs.
    Unfortunately despite excellent reviews from all communities 
regarding achievements and fiscal efficiency, funding to this 
innovative program has been substantially reduced from $100 million in 
fiscal year 2001 to $80 million in fiscal year 2007. In fiscal year 
2006, 1,117 proposals were received and only 207 funded. Of the 910 
proposals remaining over 200 met the standards set by the DOD PRCP but 
were turned away due to funding constraints. What if one of these 
researchers held the knowledge to discover the cause of prostate 
cancer?
    According to its business plan laid out in 1998, the DOD PRCP 
should be receiving over $200 million to fully meet its potential. We 
call on this committee to take a bold step forward and open the 
opportunities for this program to progress as the original founders had 
intended and increase funding to the PCRP by $20 million in fiscal year 
2008.

                                REQUEST

    To properly fight the war on prostate cancer, I respectfully 
request this committee appropriate $100 million for the DOD 
Congressionally Directed Medical Research Program's (CDMRP) Prostate 
Cancer Research Program (PCRP).
    Mr. Chairman, the prostate cancer community has done remarkable 
work. This work is continuing to make progress. Public-private 
collaboration and new scientific discoveries are moving us toward a 
better understanding of how prostate cancer develops and kills, but, it 
must continue to develop. Investments in research now make the 
difference to future patients and their families. The War on Cancer 
must be funded appropriately so researchers can find new treatments, 
test them in the clinical setting and deliver them to patients.
    On behalf of the prostate cancer patient community and the National 
Prostate Cancer Coalition, I thank you for your time and ask you to 
continue to help funding the war against this terrible disease.

    Senator Inouye. Our next witness is Ms. Sue Vento, a member 
of the Board of Directors of the Mesothelioma Research 
Foundation.
    Welcome back, ma'am.

STATEMENT OF SUSAN VENTO, MEMBER, BOARD OF DIRECTORS, 
            MESOTHELIOMA RESEARCH FOUNDATION
    Ms. Vento. Good afternoon, Chairman Inouye.
    Thank you so much for the opportunity to be here less than 
2 weeks before Memorial Day to address a fatal disease 
afflicting our military veterans and many others.
    My name is Sue Vento. I serve on the Board of Directors of 
the Mesothelioma Applied Research Foundation, the national 
nonprofit collaboration of researchers, physicians, advocates, 
patients, and families dedicated to advancing medical research 
to improve treatment for mesothelioma.
    Please consider the irony--a hard working science teacher 
who went on to become a leading national advocate for workers 
and for the environment, dies suddenly because of an 
environmental carcinogen he was exposed to in the workplace. 
This future Member of Congress grew up in a large Italian and 
German family on St. Paul's east side, the second oldest of 
eight children. From an early age, he learned the importance of 
hard work from his parents as he delivered newspapers and 
bussed tables in a hotel restaurant. Later he worked at 
factories and a brewery in order to pay his college tuition to 
become a science teacher. At 30, he was elected to the 
Minnesota State House. Six years later he was elected to his 
first of 12 terms in the U.S. House of Representatives, where 
he served on the Resources and Banking Committees. His name was 
Bruce Vento, he was my best friend, and my husband.
    In January 2000, Bruce was on a congressional trip. He 
mentioned on one of our evening phone calls that he wasn't 
feeling well. He noted a shortness of breath and back pain. 
Immediately upon returning, he went to the House physician and 
was then taken to Bethesda Naval Hospital. The following day, 
Bruce was told he had lung cancer. He flew home that evening 
and we spent the weekend talking about how best to proceed. He 
decided he wanted to see specialists at the Mayo Clinic in 
Rochester, Minnesota for further testing. On January 29, Bruce 
was told that he did not have lung cancer, but instead was 
diagnosed with pleural mesothelioma.
    Mesothelioma is a diffused tumor of the linings of lungs, 
abdomen, or heart, which kills approximately 3,000 Americans 
each year and many thousands more worldwide. It relentlessly 
invades the tissues of the chest and abdomen, crushing the 
lungs and causing excruciating pain in most afflicted patients 
at the end of their lives. The average survival for individuals 
with mesothelioma is only 1 year.
    Bruce's diagnosis was puzzling because the cause of 
mesothelioma is exposure to asbestos. Bruce racked his brain to 
determine where he could have been exposed to this deadly 
carcinogen. He later recalled those jobs at the factories and 
the brewery during the 1960s. His exposure to asbestos was 
similar to that of millions of Americans, who have also been 
exposed in their work and home settings.
    Until its fatal toxicity became fully recognized, asbestos 
was widely utilized in this country because of its 
fireproofing, insulating, filling, and bonding properties. 
Starting in the late 1930s and through the late 1970s, the Navy 
used asbestos extensively. It was used in engines, nuclear 
reactors, decking materials, pipe covering, hull insulation, 
valves, pumps, gaskets, boilers, distillers, evaporators, soot 
blowers, air conditioners, rope packing, and brake and clutches 
on winches. In fact, it was used all over Navy ships, even in 
living spaces, where pipes were overhead, and in kitchens where 
asbestos was used in ovens, and in the wiring of appliances.
    Aside from Navy ships, asbestos was also used on military 
planes, on military vehicles, and as insulating material in 
Quonset huts and living quarters.
    As in Bruce's case, thousands of veterans have been 
stricken with mesothelioma many years after their exposure to 
the substance. On Valentine's Day 2000, surgeons removed 
Bruce's right lung, the lining of the lung, and one-half of his 
diaphragm. At the end of March, he began chemotherapy, followed 
by 6 weeks of radiation therapy. Following the completion of 
the radiation, we were confident that Bruce was through the 
worst of it. But within a few weeks, we were told that the 
cancer had spread to Bruce's other lung. In September, we were 
urged to arrange for hospice care, which we did the next day. 
On a beautiful autumn morning, the morning of October 10, just 
8\1/2\ months after being diagnosed, Bruce died at our home 
with his family at his side.
    Since Bruce's death, I have learned about other victims of 
the disease. Many of them veterans of our Nation's armed 
services. Approximately one-third of today's mesothelioma 
victims served in the United States on Navy ships or in 
shipyards. These Navy victims include former Chief Naval 
Officer, Admiral Elmo Zumwalt, Jr., who led the Navy during 
Vietnam and was renowned for his concern for enlisted men. 
Despite his rank, prestige, power, and leadership in protecting 
the health of Navy servicemen and veterans, Admiral Zumwalt 
died in January 2000, just 3 months after being diagnosed with 
mesothelioma.
    Lewis Deets was another veteran stricken with mesothelioma. 
Four days after turning the legal age of 18, Lewis joined the 
Navy. He served in the Vietnam war from 1962 to 1967 as a ship 
boiler man. For his valiance in combat operations against the 
guerilla forces in Vietnam, Lewis received a letter of 
commendation and the Navy Unit Commendation Ribbon for 
exceptional service.
    In December 1965, while Lewis was serving aboard the U.S.S. 
Kitty Hawk in the Gulf of Tonkin, a fierce fire broke out. The 
boilers filled with asbestos were burning. Two sailors were 
killed and 29 were injured. Lewis was one of the 29 injured. He 
suffered smoke inhalation while fighting the fire. After the 
fire, he helped rebuild the boilers, replacing the burned 
asbestos blocks. In 1999, he developed mesothelioma and died 
just 4 months later at age 55.
    Bob Tragget is a 56-year-old retired sailor who was 
diagnosed with mesothelioma a few years ago. Bob was exposed to 
asbestos as a sailor in the U.S. Navy from 1965 to 1972, proud 
to serve his country aboard a nuclear submarine whose mission 
was to deter a nuclear attack upon our country. To treat his 
disease, Bob had what today is, what is today, state of the art 
for mesothelioma treatment. He had 3 months of systemic 
chemotherapy with a new and quite toxic drug combination. Then 
he had a grueling surgery to open up his chest, remove his 
sixth rib, amputate his right lung, remove the diaphragm and 
parts of the linings around his lungs and his heart. After 2 
weeks of post-operative hospitalization to recover and still 
with substantial pain, he had radiation, which left him with 
second degree burns on his back, in his mouth, and in his 
airways. Recently, the tumor returned on Bob's left side, but 
he continues the battle.
    Regrettably, mesothelioma has been an orphan disease in 
medical research. Three years ago the first treatment for 
mesothelioma patients was approved by the FDA. Even this 
approved treatment, which is regarded as the new standard of 
care, is associated with only a 3-month survival advantage in 
the majority of cases, which are detected in an advanced state. 
Hence, funding for early detection and improved treatment of 
this disease is critically important.
    With a huge Federal investment in cancer research through 
the National Cancer Institute and $3.75 billion spent in 
biomedical research through the Department of Defense 
Congressionally Directed Research Program since 1992, we are 
making important progress in the treatment of many types of 
cancers and other diseases. But for mesothelioma, the National 
Cancer Institute has provided limited funding in the range of 
only $1.7 to $3 million annually over the course of the last 5 
years. And the Department of Defense does not yet invest any 
mesothelioma research, despite the pronounced military service 
connection.
    Advancements in the treatment of mesothelioma have lagged 
far behind other cancers. On behalf of families like mine, 
impacted by mesothelioma, I urge you to direct the Department 
of Defense to please include mesothelioma as an area of 
emphasis in the DOD's peer-reviewed medical research program. 
Inclusion in the list of the congressionally identified 
priority research areas will enable mesothelioma researchers to 
compete for Federal funds, based on the scientific merit of 
their work. This will provide urgently needed resources to 
explore new treatments and build a better understanding of this 
disease.
    Admiral Zumwalt and Lewis Deets would not have wanted you 
to remember them by the cancer that took their lives, nor would 
Bruce. Indeed, Congress can be inspired by these men and take 
up the challenge of identifying a cure for a disease that 
particularly impacts our Nation's veterans. Veterans like Bob 
Tragget, who are now struggling with mesothelioma.
    Navy personnel and shipyard workers exposed decades ago are 
developing the disease today. Many others are being exposed now 
and will develop the disease in 10 to 50 years. While active 
asbestos usage is not as heavy today as in the past, even low-
dose incidental exposures can cause mesothelioma, as my family 
learned when Bruce was stricken.
    On behalf of the Mesothelioma Applied Research Foundation, 
I appeal to you for your help in ensuring a vigorous Federal 
response to mesothelioma and I thank you for your 
consideration.
    Senator Inouye. I have a 16-inch incision on my chest. I 
was scheduled for a pneumonectomy, and so I know something 
about this.
    Ms. Vento. Yes, you do.
    Senator Inouye. Thank you very much.
    [The statement follows:]

                   Prepared Statement of Susan Vento

                                SUMMARY

    Mesothelioma is a deadly cancer which is caused by exposure to 
asbestos. In 2000, this long-overlooked disease took the life of 
Congressman Bruce Vento of Minnesota, who had served in the House of 
Representatives for twelve terms. His wife, Sue Vento, has become a 
passionate advocate for increased investment in mesothelioma research. 
Today, on behalf of the Mesothelioma Applied Research Foundation, Ms. 
Vento comes before the Senate Defense Appropriations Subcommittee to 
urge the subcommittee to direct the Department of Defense (DOD) to 
include mesothelioma as an area of emphasis in the DOD's Peer Reviewed 
Medical Research Program. Inclusion in the list of Congressionally 
identified priority research areas will enable mesothelioma researchers 
to compete for federal funds to assist in identifying more effective 
treatments for this challenging cancer.
    Chairman Inouye, Ranking Member Stevens, and distinguished members 
of the U.S. Senate Defense Appropriations Subcommittee: Thank you for 
this opportunity, less than two weeks before Memorial Day, to address a 
fatal disease afflicting our military veterans and many others--
mesothelioma. My name is Sue Vento, I serve on the Board of Directors 
of the Mesothelioma Applied Research Foundation, the national nonprofit 
collaboration of researchers, physicians, advocates, patients and 
families dedicated to advancing medical research to improve treatments 
for mesothelioma.
    Consider the irony: A hard working science teacher who went on to 
become a leading national advocate for workers and the environment dies 
suddenly because of an environmental carcinogen he was exposed to in 
the workplace.
    This future Member of Congress grew up in a large Italian and 
German family on St. Paul's Eastside, the second oldest of eight 
children. From an early age, he learned the importance of hard work 
from his parents as he delivered newspapers and bussed tables in a 
hotel restaurant. Later, he worked at factories and a brewery in order 
to pay his college tuition to become a science teacher. At 30, he was 
elected to the Minnesota State House. Six years later, he was elected 
to his first of 12 terms in the U.S. House of Representatives, where he 
served on the Natural Resources and Banking Committees. He was Bruce 
Vento; he was my best friend and my husband.
    There was little that ever slowed down Bruce. He was a very active 
person--traveling almost every weekend back to Minnesota's 4th 
Congressional District to meet with constituents and to do his best as 
their representative in the U.S. House. In mid-January 2000, Bruce was 
on a Congressional trip. He mentioned on one of our evening phone calls 
that he wasn't feeling well--he noted a shortness of breath and back 
pain. Immediately upon returning he went to the House physician and was 
then taken to Bethesda Naval Hospital. The following day, Bruce was 
told he had lung cancer.
    He flew home that evening, and we spent the weekend talking about 
how best to proceed. He decided he wanted to see specialists at the 
Mayo Clinic in Rochester, Minnesota, for further testing. On the 
morning of January 29th, 2000, Bruce was told that he did not have lung 
cancer, but instead he was diagnosed with pleural mesothelioma.
    Mesothelioma is a diffuse tumor of the linings of the lungs, 
abdomen or heart which kills approximately 3,000 Americans each year, 
and many thousands more worldwide. It relentlessly invades the tissues 
of the chest and abdomen, crushing the lungs and causing excruciating 
pain in most afflicted patients at the end of their life. The average 
survival for individuals with mesothelioma is only one year.
    Bruce's diagnosis was puzzling because the cause of mesothelioma is 
exposure to asbestos. Bruce wracked his brain to determine where he 
could have been exposed to this deadly carcinogen. He later recalled 
those jobs at the factories and the brewery during the early 1960's. 
His exposure to asbestos was similar to that of millions of Americans 
who have also been exposed in their work and home settings. Until its 
fatal toxicity became fully recognized, asbestos was widely utilized in 
the United States because of its fireproofing, insulating, filling and 
bonding properties.
    Starting in the late 1930's and through the late 70's the Navy used 
asbestos extensively. It was used in engines, nuclear reactors, decking 
materials, pipe covering, hull insulation, valves, pumps, gaskets, 
boilers, distillers, evaporators, soot blowers, air conditioners, rope 
packing, and brakes and clutches on winches. In fact it was used all 
over Navy ships, even in living spaces where pipes were overhead and in 
kitchens where asbestos was used in ovens and in the wiring of 
appliances. Aside from Navy ships, asbestos was also used on military 
planes, on military vehicles, and as insulating material on quonset 
huts and living quarters. As in Bruce's case, thousands of veterans 
have been stricken with mesothelioma many years after their exposure to 
the substance.
    On Valentine's Day, surgeons removed Bruce's right lung, the lining 
of the lung, and half of his diaphragm. At the end of March he began 
chemotherapy followed by six weeks of radiation therapy. Following the 
completion of the radiation, we were confident that Bruce was through 
the worst of it. But within a few weeks, we were told that the cancer 
had spread to Bruce's other lung. On September 25th, we were urged to 
arrange for Hospice care, which we did the next day. On the beautiful, 
autumn morning of October 10, 2000--just ten months after being 
diagnosed, Bruce died at our home with his family at his side.
    Since Bruce's death, I have advocated for more medical research on 
behalf of mesothelioma patients and their families because the threat 
of this deadly cancer remains very real. Through my work on the Board 
of the Mesothelioma Applied Research Foundation, I have learned about 
other victims of the disease--many of them veterans of our nation's 
armed services. Approximately one-third of today's mesothelioma victims 
served the United States on Navy ships or in shipyards. A study at the 
Groton, Connecticut shipyard found that over one hundred thousand 
workers had been exposed to asbestos over the years at just this one 
worksite. Because of the ten to fifty year latency of the disease, many 
of the millions of exposed servicemen and shipyard workers are just now 
developing mesothelioma.
    These Navy victims include former Chief Naval Officer Admiral Elmo 
Zumwalt, Jr., who led the Navy during Vietnam and was renowned for his 
concern for enlisted men. Despite his rank, prestige, power, and 
leadership in protecting the health of Navy servicemen and veterans, 
Admiral Zumwalt died the same year as Bruce, just three months after 
being diagnosed with mesothelioma.
    Lewis Deets was another veteran stricken with mesothelioma. Four 
days after turning the legal age of eighteen, Lewis joined the Navy. He 
served in the Vietnam War for over four years, from 1962 to 1967, as a 
ship boilerman. For his valiance in combat operations against the 
guerilla forces in Vietnam he received a Letter of Commendation and The 
Navy Unit Commendation Ribbon for Exceptional Service. In December 
1965, while Lewis was serving aboard the U.S.S. Kitty Hawk in the Gulf 
of Tonkin, a fierce fire broke out. The boilers, filled with asbestos, 
were burning. Two sailors were killed and 29 were injured. Lewis was 
one of the 29 injured; he suffered smoke inhalation while fighting the 
fire. After the fire, he helped rebuild the boilers, replacing the 
burned asbestos blocks. In 1999, he developed mesothelioma and died 
four months later at age 55.
    Commander Harrison F. Starn Jr., joined the Navy before college to 
serve in World War II, then became an officer and served in the Korean 
War, the Cuban missile crisis and the Vietnam War. During his career he 
served aboard a cruiser, destroyers and landing-troop ships, all of 
which had heavy asbestos. After retiring from the Navy, he opened a 
scuba diving center in Virginia, and actively supported fire 
departments, rescue squads and law-enforcement agencies. This patriot 
died last year of mesothelioma at the National Naval Medical Center in 
Bethesda.
    Bob Tregget is a 56 year old retired sailor who was diagnosed with 
mesothelioma a few years ago. Bob was exposed to asbestos as a sailor 
in the U.S. Navy from 1965 to 1972, proud to serve his country aboard a 
nuclear submarine whose mission was to deter a nuclear attack upon the 
United States. To treat his disease, Bob had what today is the state of 
the art for mesothelioma treatment. He had three months of systemic 
chemotherapy with a new, and quite toxic, drug combination. Then he had 
a grueling surgery, to open up his chest, remove his sixth rib, 
amputate his right lung, remove the diaphragm and parts of the linings 
around his lungs and his heart. After two weeks of postoperative 
hospitalization to recover and still with substantial postoperative 
pain, he had radiation, which left him with 2nd degree burns on his 
back, in his mouth, and in his airways. Recently, the tumor returned on 
his left side, but Bob is hanging on.
    Approximately 23 million Americans have been occupationally exposed 
to asbestos over the past 50 years and are now at risk. There is grave 
concern now for the heroic first responders from 9/11 who were exposed 
to hundreds of tons of pulverized asbestos at Ground Zero and 
throughout the city. The destruction wrought by Katrina has potentially 
exposed countless more. Asbestos is virtually omni-present in all the 
buildings constructed before the late 1970s. Asbestos exposures have 
been reported among the troops now in Iraq. The utility tunnels in the 
U.S. Capitol building may have dangerous levels. For those who could 
develop mesothelioma as a result of these exposures, the only hope is 
effective treatment.
    Regrettably, mesothelioma has been an orphan in medical research. 
Until three years ago, there was not even one treatment for 
mesothelioma approved by the FDA as better than doing nothing at all. 
Even this approved treatment, which is regarded as the new standard of 
care, is associated with only a three month survival advantage in the 
majority of cases which are detected in an advanced state. Hence, 
funding for early detection and improved treatment of the disease is 
critically important.
    Since 1999, research and advocacy for mesothelioma has been 
championed by the Mesothelioma Applied Research Foundation, which has 
awarded over $4 million in seed money grants to the brightest 
investigators around the world. Researchers are learning which genes 
and proteins can give a signature for the disease, and which of these 
also control the pathways that will turn a normal cell into a 
mesothelioma. Now we need the federal government to partner with us in 
order to make sure that promising findings receive the funding 
necessary to be fully developed into effective treatments for patients.
    With the huge federal investment in cancer research through the 
National Cancer Institute, and $3.75 billion spent in biomedical 
research through the Department of Defense Congressionally Directed 
Research Program since 1992, we are making important progress in the 
treatment of many types of cancer and other diseases. But for 
mesothelioma, the National Cancer Institute has provided virtually no 
funding, in the range of only $1.7 to $3 million annually over the 
course of the last five years, and the Department of Defense does not 
yet invest in any mesothelioma research despite the pronounced 
military-service connection. Advancements in the treatment of 
mesothelioma have lagged far behind other cancers.
    Therefore, on behalf of families like mine directly impacted by 
mesothelioma, I urge the subcommittee to direct the Department of 
Defense to include mesothelioma as an area of emphasis in the DOD's 
Peer Reviewed Medical Research Program. Inclusion in the list of 
congressionally identified priority research areas will enable 
mesothelioma researchers to compete for federal funds based on the 
scientific merit of their work. This will provide urgently needed 
resources to explore new treatments and build a better understanding of 
this disease.
    My husband Bruce Vento, Admiral Zumwald, Commander Starn and Lewis 
Deets would not have wanted you to remember them by the cancer that 
took their lives. Instead, Congress can be inspired by these men and 
take up the challenge of identifying a cure for a disease that 
particularly impacts our nation's veterans--veterans like Bob Teggett 
who are now struggling with mesothelioma. Navy servicemen and shipyard 
workers exposed decades ago are developing the disease today. Many 
others are being exposed now and will develop the disease in 10 to 50 
years. While active asbestos usage is not as heavy today as in the 
past, even low-dose, incidental exposures can cause mesothelioma as my 
family learned when Bruce was stricken.
    On behalf of the Mesothelioma Applied Research Foundation, I appeal 
to you for your help in ensuring a vigorous federal response to 
mesothelioma. Thank you for you consideration.

    Senator Inouye. Our last witness is Mr. D. Michael Duggan, 
Deputy Director of the American Legion National Security 
Commission.
    Welcome, Mr. Duggan.

STATEMENT OF D. MICHAEL DUGGAN, DEPUTY DIRECTOR, 
            AMERICAN LEGION NATIONAL SECURITY 
            COMMISSION
    Mr. Duggan. Thank you very much, sir. Good afternoon. We 
thank you for this great opportunity. As the Nation's largest 
organization of war time veterans, I and my organization thank 
you and your subcommittee for over the years, continuing to 
fund Defense budgets and especially at higher levels during 
times of war. The Armed Forces and our men and women in uniform 
know they can count on you, and this particular subcommittee as 
well, and that is deeply appreciated.
    According to the Department of Defense, fiscal year 2008 
Defense budget would advance ongoing efforts to prevail in the 
global war on terrorism, defend the homeland against threats, 
maintain America's military superiority, and to support 
military members and their families. The American Legion 
believes that this budget must also continue to increase active 
Army and Marine Corps end-strengths. Our major concerns are 
that we hope the Army is, in fact, not being broken, not only 
by this war, but by their load strength and trying to do too 
much with too few.
    We also urge the full funding of TRICARE healthcare 
programs and not to have DOD TRICARE fees increased. Continue 
to increase and support military quality of life issues to 
include a 3.5-percent military pay raise, in lieu of the 3 
percent administration's requested pay raise level.
    Severely wounded service members recovering in military 
hospitals, such as Walter Reed Army Medical Center and Bethesda 
Navy Hospital, need to receive the very best of care, 
particularly for traumatic brain injuries, the signature wound, 
not only for their treatment, but of course, for their 
research. Combat stress also needs more help, we think, as well 
as post-traumatic stress disorders, as well as, of course, 
therapies for missing or prosthetic limbs, as well.
    DOD, we think has to do a better job, though, in 
interfacing with the Department of Veterans Affairs. We would 
like to see also, the Wounded Warrior Program fully funded, as 
well, too. That is a really worthwhile program. The military's 
medical evaluation boards, the PEBs and MEBs.
    And, we feel as military disability retirement process has 
to be seriously reformed. And perhaps, even the rating and the 
evaluation of airmen and soldiers be done, not by the military 
necessarily, but by the VA, which has a lot more experience in 
rating and evaluation, as well, too.
    Walter Reed is still a national treasure. Despite its 
shortcomings and it's the only military hospital in the world, 
we believe, that can treat up to 1.1 million outpatients, as 
well as some 26,500 inpatients and an increasing, over 3,000 
severely wounded soldiers who are still coming in. We think, 
therefore, particularly during the war years, that Walter Reed 
should not be torn down, that it should be renovated to the 
best that it can, the space and whatever it needs to still be 
able to support that staggering workload, as well.
    As a matter of fact, the American Legion signed a 
memorandum of understanding with Walter Reed, so as to provide 
a manned office there to assist military members in 
transferring from military healthcare to veterans healthcare.
    Other than that, Senator, thank you for your continued 
support. We would ask, also and urge, that there be any 
additional funding or full funding for the POW/MIA structures 
as well, too, for their, so that they can continue their 
recovery operations, as well as fund any new initiatives, such 
as the issuance of electronic beepers to service members who 
are going into combat and could wind up being captured or 
missing in action.
    Finally, I would be remiss if I didn't ask for continued 
funding support for the concurrent receipt of military retired 
pay and veterans disability compensation, as well as the 
elimination of the SBP/DIC offset, which has affected so many 
military survivors and widows over the years.
    Again sir, thank you for your leadership, thank you for 
being a great veteran, and thank you for this opportunity.
    Senator Inouye. Thank you very much.
    [The statement follows:]

                Prepared Statement of D. Michael Duggan

    Mr. Chairman: The American Legion is grateful for the opportunity 
to present its views on defense appropriations for fiscal year 2008. 
The American Legion values your leadership in assessing and authorizing 
adequate funding for quality-of-life (QOL) features of the Nation's 
armed forces to include the active, reserve and National Guard forces 
and their families, as well as quality of life for military retirees 
and their dependents.
    Since September 2001, the United States has been involved in the 
war against terrorism in Operations Iraqi Freedom and Enduring Freedom. 
American fighting men and women are again proving they are the best-
trained, best-equipped and best-led military in the world. As Secretary 
of Defense Robert Gates has noted, the war in Iraq is part of a long, 
dangerous global war on terrorism. The war on terrorism is being waged 
on two fronts: overseas against armed insurgents and at home protecting 
and securing the Homeland. Casualties in the shooting wars, in terms of 
those killed and seriously wounded, continue to mount daily. Indeed, 
most of what we as Americans hold dear is made possible by the peace 
and stability that the Armed Forces provide by taking the fight to the 
enemy.
    The American Legion adheres to the principle that this nation's 
armed forces must be well-manned and equipped, not just to pursue war, 
but to preserve and protect the peace. The American Legion strongly 
believes past and current military downsizing were budget-driven rather 
than threat-focused. Once Army divisions, Navy warships and Air Force 
fighter squadrons are downsized, eliminated or retired from the force 
structure, they cannot be reconstituted quickly enough to meet new 
threats or emergency circumstances. The Active-Duty Army, Army National 
Guard and the Reserves barely met their recruiting goals, and the 
Army's stop-loss policies have obscured retention and recruiting needs. 
Clearly, the active Army is struggling to meet its recruitment goals. 
Military morale undoubtedly has been adversely affected by the 
extension and repetition of Iraq tours of duty for active duty, and 
now, National Guard units alerted for their second tour.
    The Administration's fiscal year 2008 budget requests more than 
$481 billion for defense or about 17 percent of the total budget. The 
fiscal year 2008 defense budget represents a 11.3 percent increase in 
defense spending over current funding levels. It also represents about 
4.0 percent of our Gross National Product. Active duty military 
manpower end-strength is now over 1.55 million. Selected Reserve 
strength is about 863,300 or reduced by about 25 percent from its 
strength levels during the Gulf War of 16 years ago.
    Mr. Chairman, this budget must advance ongoing efforts to prevail 
in the global war on terrorism, defend the homeland against threats, 
maintain America's military superiority, and to support Servicemembers 
and their families. A decade of over-use of the military and past 
under-funding, necessitates a sustained investment. The American Legion 
believes the budget must continue to increase Army and Marine Corps 
end-strengths, fully fund Tricare programs, accelerate improved Active 
and Reserve Components' quality of life features, provide increased 
funding for the concurrent receipt of military retirement pay and VA 
disability compensation (``Veterans Disability Tax'') and elimination 
of the offset of survivors benefit plan (SBP) and Dependency and 
Indemnity Compensation (DIC) ``Widow's Tax'' that continues to penalize 
military survivors.
    If we are to win the war on terror and prepare for the wars of 
tomorrow, we must take care of the Department of Defense's greatest 
assets--the men and women in uniform. They do us proud in Iraq, 
Afghanistan and around the world. They need our help. Therefore, The 
American Legion urges this Subcommittee and this Congress to continue 
to fund the war effort in Iraq and Afghanistan as well as our troops 
and their families.
    In order to attract and retain the necessary force over the long 
haul, the active duty force, reserves and National Guard continue to 
look for talent in an open market place and to compete with the private 
sector for the best young people this nation has to offer. If we are to 
attract them to military service in the active and reserve components, 
we need to count on their patriotism and willingness to sacrifice, to 
be sure, but we must also provide them the proper incentives. They love 
their country, but they also love their families--and many have 
children to support, raise and educate. We have always asked the men 
and women in uniform to voluntarily risk their lives to defend us; we 
should not ask them to forego adequate pay and allowances, adequate 
health care and subject their families to repeated unaccompanied 
deployments and sub-standard housing as well. Undoubtedly, retention 
and recruiting budgets need to be substantially increased if we are to 
keep and recruit quality service members.
    The President's fiscal year 2008 defense budget requests over $10.8 
billion for military pay and allowances, including a 3.0 percent 
across-the-board pay raise. This pay raise is inadequate and needs to 
be increased to 3.5 percent so as to close the pay gap. It also 
includes billions to improve military housing, putting the Department 
on track to eliminate most substandard housing several years sooner 
than previously planned. The fiscal year 2007 budget further lowered 
out-of-pocket housing costs for those living off base. The American 
Legion encourages the Subcommittee to continue the policy of no out-of-
pocket housing costs in future years and to end the military pay 
differential with the private sector.
    Together, these investments in people are critical, because smart 
weapons are worthless to us unless they are in the hands of smart, 
well-trained Soldiers, Sailors, Airmen, Marines and Coast Guard 
personnel.
    The American Legion National Commander has visited American troops 
in Europe and the Far East as well as a number of installations 
throughout the United States, including Walter Reed Army Medical Center 
and Bethesda National Naval Medical Center. During these visits, he was 
able to see first-hand the urgent, immediate need to address real 
quality of life challenges faced by service members and their families. 
Severely wounded service members who have families and are convalescing 
in military hospitals clearly need to continue to receive the best of 
care, particularly for PTSD, Traumatic Brain Injuries and therapies; 
and the DOD interface with the VA must be more seamless. Also, the 
medical evaluation board process needs to be reformed and expedited so 
that military severance and disability retirement pays will be more 
immediately forthcoming. The soldiers' best interests must be fairly 
represented before the medical evaluation boards. To this end, The 
American Legion has established an office at Walter Reed AMC to assist 
the medical evaluation system and the transition of discharging 
patients to the VA. Our National Commanders have spoken with families 
on Women's and Infants' Compensation (WIC) which is an absolute 
necessity to larger military families. Quality-of-life issues for 
service members, coupled with combat tours and other operational 
tempos, play a role in recurring recruitment and retention efforts and 
should come as no surprise. The operational tempo and lengthy 
deployments, to include multiple combat tours, must be reduced or 
curtailed. Military missions were on the rise before September 11 and 
deployment levels remain high. The only way to reduce repetitive 
overseas tours and the overuse of the reserves is to increase, recruit 
and fill active and reserve Army and Marine Corps end-strengths.
    Military pay must be on a par with the competitive civilian sector. 
Activated reservists must receive the same equipment, the same pay and 
timely health care as active duty personnel. The Reserve Montgomery GI 
Bill must be as lucrative as the MGI Bill for active duty personnel. If 
other benefits, like health care improvements, commissaries, adequate 
quarters, quality child care and impact aid for DOD education are 
reduced, they will only serve to further undermine efforts to recruit 
and retain the brightest and best this nation has to offer.
    Despite frequent visits to Walter Reed Army Medical Center, The 
American Legion was shocked and disappointed by the publicized 
shortcomings that surfaced at Walter Reed. Clearly, the first 
priorities are to beef up its military medical staff, improve its 
facilities, expand its treatment and living space, and most 
importantly, evaluate and improve the Medical Evaluation Board process: 
Clearly, the MEB/PEB process is too time-consuming and too often 
inappropriate judgments and ratings are being rendered and appear to be 
shortchanging the troops. The military MEB/PEB process must be reformed 
in favor of a system which fairly rates and compensates disabled 
soldiers while affording these disabled soldiers the retirement 
benefits they so rightly earned and deserved.
    Walter Reed Army Medical Center is a National Treasure, not merely 
the Army's flagship hospital. Two years ago, Walter Reed AMC treated 
over 1.1 million Army outpatients, and 26,500 inpatients and hundreds 
of severely wounded soldiers from the combat zones. Walter Reed 
continues to treat Active Army, Army Reservists, Army National 
Guardsmen, and Army military retiree veterans and their families. There 
is no other military or civilian medical center or hospital in the 
United States that can treat patients of this magnitude or severity; 
and Walter Reed has been doing this since the turn of the last century.
    Frankly, The American Legion has overwhelmingly opposed having 
Walter Reed on the Base Realignment and Closure (BRAC) List, and 
continues to oppose its closure. The American Legion recommends, in 
light of the emergent need to renovate the Medical Center, that Walter 
Reed be removed from the BRAC list and that military construction 
funding be dedicated for major phased-in renovations of the Medical 
Center, rather than constructing other medical facilities and tearing 
Walter Reed down. This appears to be the practical and economical thing 
to do especially during time of war when severely wounded soldiers need 
the best in medical care.
    As a major step toward resolving the problems brought to light at 
Walter Reed AMC, The American Legion signed a Memorandum of 
Understanding with Walter Reed which will establish an office there to 
assist in the transition of wounded service members from Department of 
Defense to the Department of Veterans Affairs. The American Legion also 
supports the retention of the Armed Forces Institute of Pathology, on 
the grounds of Walter Reed as an absolute necessity and is valued both 
to the Department of Defense and the Department of Veterans Affairs.
    To step up efforts to bring in enlistees, all the Army components 
are increasing the number of recruiters. The Army National Guard sent 
1,400 new recruiters into the field last February. The Army Reserve is 
expanding its recruiting force by about 80 percent. If the recruiting 
trends and the demand for forces persist, the Pentagon under current 
policies could eventually ``run out'' of reserve forces for war zone 
rotation, a Government Accountability Office expert warned. The 
Pentagon projects a need to keep more than 100,000 reservists 
continuously over the next three to five years. The Defense 
Appropriations bill for fiscal year 2005 provided the funding for the 
first year force level increases of 10,000. The Army's end-strength 
increased 30,000 and the Marine Corps end-strength increased 3,000.
    The budget deficit is projected to be over $427 billion which is 
the largest in U.S. history, and it appears to be heading higher 
perhaps to $500 billion. National defense spending must not become a 
casualty of deficit reduction.

                     FORCE HEALTH PROTECTION (FHP)

    As American military forces are again engaged in combat overseas, 
the health and welfare of deployed troops is of utmost concern to The 
American Legion. The need for effective coordination between the 
Department of Veterans Affairs and the DOD in the force protection of 
U.S. forces is paramount. It has been fifteen years since the first 
Gulf War, yet many of the hazards of the 1991 conflict are still 
present in the current war.
    Prior to the 1991 Gulf War deployment, troops were not 
systematically given comprehensive pre-deployment health examinations 
nor were they properly briefed on the potential hazards, such as 
fallout from depleted uranium munitions they might encounter. Record 
keeping was poor. Numerous examples of lost or destroyed medical 
records of active duty and reserve personnel were identified. Physical 
examinations (pre/and post-deployment) were not comprehensive and 
information regarding possible environmental hazard exposures was 
severely lacking. Although the government had conducted more than 230 
research projects at a cost of $240 million, lack of crucial deployment 
data resulted in many unanswered questions about Gulf War veterans' 
illnesses.
    The American Legion would like to specifically identify an element 
of FHP that deals with DOD's ability to accurately record a service 
member's health status prior to deployment and document or evaluate any 
changes in his or her health that occurred during deployment. This is 
exactly the information VA needs to adequately care for and compensate 
service members for service-related disabilities once they leave active 
duty. Although DOD has developed post-deployment questionnaires, they 
still do not fulfill the requirement of ``thorough'' medical 
examinations nor do they even require a medical officer to administer 
the questionnaires. Due to the duration and extent of sustained combat 
in Operations Iraqi Freedom and Enduring Freedom, the psychological 
impact on deployed personnel is of utmost concern to The American 
Legion. VA's ability to adequately care for and compensate our nation's 
veterans depends directly on DOD's efforts to maintain proper health 
records/health surveillance, documentation of troop locations, 
environmental hazard exposure data and the timely sharing of this 
information with the VA.
    The early signs of Combat Stress, PTSD, and the Traumatic Brain 
Injuries must be detected early-on and completely treated by the 
military and the VA. The entire medical issue of Traumatic Brain 
Injuries (TBIs) needs to be recognized, reported, treated and 
researched. The American Legion strongly urges Congress to mandate 
separation physical exams for all service members, particularly those 
who have served in combat zones or have had sustained deployments. DOD 
reports that only about 20 percent of discharging service members opt 
to have separation physical exams. During this war on terrorism and 
frequent deployments with all their strains and stresses, this figure, 
we believe, should be substantially increased.

                        MILITARY QUALITY OF LIFE

    Our major national security concern continues to be the enhancement 
of the quality of life issues for active duty service members, 
reservists, National Guardsmen, military retirees and their families. 
During the last Congressional session, President Bush and the Congress 
made marked improvements in an array of quality of life issues for 
military personnel and their families. These efforts are vital 
enhancements that must be sustained.
    Mr. Chairman: During this period of the War on Terrorism, more 
quality of life improvements are required to meet the needs of 
servicemembers and their families as well as military retiree veterans 
and their families. For example, the proposed 3.0 percent pay-raise 
needs to be significantly increased. The 3.1 percent military 
comparability gap with the private sector needs to be eliminated; the 
improved Reserve MGIB for education needs to be completely funded as 
well; combat wounded soldiers who are evacuated from combat zones to 
military hospitals need to retain their special pays, and base pay and 
allowances continued at the same level so as not to jeopardize their 
family's financial support during recovery. Furthermore, the medical 
evaluation board process needs to be reformed and fair and considerate 
of the soldiers' best interest so that any adjudicated military 
severance or military disability retirement payments will be 
immediately forthcoming; recruiting and retention efforts, to include 
the provision of more service recruiters, needs to be fully funded as 
does recruiting advertising. The Defense Health Program and, in 
particular, the Tricare healthcare programs need to be fully funded.
    The Defense Department, Congress and The American Legion all have 
reason to be concerned about the rising cost of military healthcare. 
But it is important to recognize that the bulk of the problem is a 
national one, not a military specific one. It is also extremely 
important, in these days of record deficits, that we focus on the 
government's unique responsibility and moral obligation to fully fund 
the Defense Health program, particularly its Tricare programs, to 
provide for the career military force that has served for multiple 
decades under extraordinarily arduous conditions to protect and 
preserve our national welfare. In this regard, the government's 
responsibility and obligations to its servicemembers and military 
retirees go well beyond those of corporate employers. The Constitution 
puts the responsibility on the government to provide for the common 
defense and on the Congress to raise and maintain military forces. No 
corporate employer shares such awesome responsibilities.
    The American Legion recommends against implementing any increases 
in healthcare fees for uniformed services and retiree beneficiaries. 
Dr. William Winkenwerder, the former Assistant Secretary of Defense 
(Heath Affairs), briefed The American Legion and other VSOs/MSOs that 
rising military healthcare costs are ``impinging on other service 
programs.'' Other reports indicate that the DOD leadership is seeking 
more funding for weapons programs by reducing the amount it spends on 
military healthcare and other personnel needs. The American Legion 
believes strongly that America can afford to, and must, pay for both 
weapons and military healthcare. The American Legion also believes 
strongly that the proposed defense budget is too small to meet the 
needs of national defense. Today's defense budget, during wartime, is 
about 4 percent of GDP, well short of the average for the peacetime 
years since WWII. Defense leaders assert that substantial military fee 
increases are needed to bring military beneficiary costs more in live 
with civilian practices. But such comparisons with corporate practices 
is inappropriate as it disregards the service and sacrifices military 
members, retirees and families have made in service to the nation.
    The reciprocal obligation of the government to maintain an 
extraordinary benefit package to offset the extraordinary sacrifices of 
career military members is a practical as well as moral obligation. 
Eroding benefits for career service can only undermine long-term 
retention and readiness. One reason why Congress enacted Tricare for 
Life is that the Joint Chiefs of Staff at the time said that inadequate 
retiree healthcare was affecting attitudes among active duty troops. 
The American Legion believes it was inappropriate to put the Joint 
Services in the untenable position of being denied sufficient funding 
for current readiness needs if they didn't agree to beneficiary benefit 
cuts.
    Reducing military retirements budgets, such as Tricare healthcare, 
would be penny-wise and pound-foolish when recruiting is already a 
problem and an overstressed and overstrengthened force is at increasing 
retention risks. Very simply the DOD should be required to pursue 
greater efforts to improve Tricare and find more effective and 
appropriate ways to make Tricare more cost-effective without seeking to 
``tax'' beneficiaries and making unrealistic budget assumptions.
    Likewise, military retiree veterans as well as their survivors, who 
have served their Country for decades in war and peace, require 
continued quality of life improvements as well. First and foremost, The 
American Legion strongly urges that FULL concurrent receipt and Combat-
Related Special Compensation (CRSC) be authorized for disabled retirees 
whether they were retired for longevity (20 or more years of service) 
or military disability retirement with fewer than 20 years. In 
particular, The American Legion urges that disabled retirees rated 40 
percent and below be authorized CRPD and that disabled retirees rated 
between 50 percent and 90 percent disabled be authorized non-phased-in 
concurrent receipt. Additionally, The American Legion strongly urges 
that ALL military disability retirees with fewer than 20 years service 
be authorized to receive CRSC and VA disability compensation provided, 
of course, they're otherwise eligible for CRSC under the combat-related 
conditions. The funding for these military disability retirees with 
fewer than 20 years is a ``cost of war'' and perhaps should be paid 
from the annual supplemental budgets.
    Secondly, The American Legion urges that the longstanding inequity 
whereby military survivors have their survivors benefit plan (SBP) 
offset by the Dependency and Indemnity Compensation (DIC) be 
eliminated. This ``Widows' Tax'' needs to be corrected as soon as 
possible. It is blatantly unfair and has penalized deserving military 
survivors for years. A number of these military survivors are nearly 
impoverished because of this unfair provision. As with concurrent 
receipt for disabled retirees, military survivors should receive both 
SBP AND DIC. They have always been entitled to both and should not have 
to pay for their own DIC. The American Legion will continue to convey 
that simple, equitable justice is the primary reason to fund FULL 
concurrent receipt of military retirement pay and VA disability 
compensation, as well as the SBP and DIC for military survivors. Not to 
do so merely perpetuates the same inequity. Both inequities need to be 
righted by changing the unfair law that prohibits both groups from 
receiving both forms of compensation.
    Mr. Chairman: The American Legion as well as the armed forces and 
veterans continue to owe you and this Subcommittee a debt of gratitude 
for your continuing support of military quality of life issues. 
Nevertheless, your assistance is needed in this budget to overcome old 
and new threats to retaining and recruiting the finest military in the 
world. Service members and their families continue to endure physical 
risks to their well-being and livelihood as well as the forfeiture of 
personal freedoms that most Americans would find unacceptable. 
Worldwide deployments have increased significantly and the Nation is at 
war. The very fact that over 300,000 Guardsmen and Reservists have been 
mobilized since September 11, 2001 is first-hand evidence that the 
United States Army desperately needs to increase its end-strengths and 
maintain those end-strengths so as to help facilitate the rotation of 
active and reserve component units to active combat zones.
    The American Legion congratulates and thanks Congressional 
subcommittees such as this one for military and military retiree 
quality of life enhancements contained in past National Defense 
Appropriations Acts. Continued improvement however is direly needed to 
include the following:
  --Completely Closing the Military Pay Gap with the Private Sector: 
        With U.S. troops battling insurgency and terrorism in Iraq and 
        Afghanistan, The American Legion supports a proposed 3.5 
        percent military pay raise as well as increases in Basic 
        Allowance for Housing (BAH).
  --Commissaries: The American Legion urges the Congress to preserve 
        full federal subsidizing of the military commissary system and 
        to retain this vital non-pay compensation benefit for use by 
        active duty families, reservist families, military retiree 
        families and 100 percent service-connected disabled veterans 
        and others.
  --DOD Domestic Dependents Elementary and Secondary Schools (DDESS): 
        The American Legion urges the retention and full funding of the 
        DDESS as they have provided a source of high quality education 
        for military children attending schools on military 
        installations.
  --Funding the Reserve Montgomery GI Bill for Education.
  --Providing FULL concurrent receipt of military retirement pay and VA 
        disability compensation for those disabled retirees rated 40 
        percent and less; providing non-phased concurrent receipt for 
        those disabled retirees rated between 50 percent and 90 percent 
        disabled by the VA; and authorizing those military disability 
        retirees with fewer than 20 years service to receive both VA 
        disability compensation and Combat-Related Special Compensation 
        (CRSC).
  --Eliminating the offset of the survivors benefit plan (SBP) and 
        Dependency and Indemnity Compensation (DIC) for military 
        survivors.

                   OTHER QUALITY OF LIFE INSTITUTIONS

    The American Legion strongly believes that quality of life issues 
for retired military members and their families are augmented by 
certain institutions which we believe need to be annually funded as 
well. Accordingly, The American Legion believes that Congress and the 
Administration must place high priority on insuring these institutions 
are adequately funded and maintained:
  --The Uniformed Services University of the Health Sciences: The 
        American Legion urges the Congress to resist any efforts to 
        less than fully fund, downsize or close the USUHS through the 
        BRAC process. It is a national treasure, which educates and 
        produces military physicians and advanced nursing staffs. We 
        believe it continues to be an economical source of CAREER 
        medical leaders who enhance military health care readiness and 
        excellence and is well-known for providing the finest health 
        care in the world.
  --The Armed Forces Retirement Homes: The United States Soldiers' and 
        Airmen's Home in Washington, D.C. and the United States Naval 
        Home in Gulfport, Mississippi, have been under-funded as 
        evidenced by the reduction in services to include on-site 
        medical health care and dental care. Increases in fees paid by 
        residents are continually on the rise. The medical facility at 
        the USSAH has been eliminated with residents being referred to 
        VA Medical Centers or Military Treatment Facilities such as 
        Walter Reed Army Medical Center. The Naval Home at Gulfport, 
        Mississippi was destroyed by Hurricane Katrina, The American 
        Legion recommends that the Congress conduct an independent 
        assessment of the USSAH facilities and the services being 
        provided with an eye toward federally subsidizing the Home as 
        appropriate. The facility has been recognized as a national 
        treasure until recent years when a number of mandated services 
        had been severely reduced and resident fees have been 
        substantially increased.
  --Arlington National Cemetery: The American Legion urges that the 
        Arlington National Cemetery be maintained to the highest of 
        standards. We urge also that Congress mandate the eligibility 
        requirements for burial in this prestigious Cemetery reserved 
        for those who have performed distinguished military service and 
        their spouses and eligible children.
  --2005 Defense Base Realignment and Closure Commission: The American 
        Legion was disappointed that certain base facilities such as 
        military medical facilities, commissaries, exchanges and 
        training facilities and other quality of life facilities were 
        not preserved for use by the active and reserve components and 
        military retirees and their families. The American Legion urges 
        the phased-in renovation and the retention of Walter Reed 
        particularly for the duration of the War

               THE AMERICAN LEGION FAMILY SUPPORT NETWORK

    The American Legion continues to demonstrate its support and 
commitment to the men and women in uniform and their families. The 
American Legion's Family Support Network is providing immediate 
assistance primarily to activated National Guard families as requested 
by the Director of the National Guard Bureau. The American Legion 
Family Support Network has reached out through its Departments and 
Posts to also support the Army' Wounded Warrior program (AW2). Many 
thousands of requests from these families have been received and 
accommodated by the American Legion Family across the United States. 
Military family needs have ranged from requests for funds to a variety 
of everyday chores which need doing while the ``man or woman'' of the 
family is gone. The American Legion, whose members have served our 
nation in times of adversity, remember how it felt to be separated from 
family and loved ones. As a grateful Nation, we must ensure than no 
military family endures those hardships caused by military service, as 
such service has assured the security, freedom and ideals of our great 
Country.

                              CONCLUSIONS

    Thirty-four years ago, America opted for an all-volunteer force to 
provide for the National Defense. Inherent in that commitment was a 
willingness to invest the needed resources to bring into existence and 
maintain a competent, professional and well-equipped military. The 
fiscal year 2008 defense budget, while recognizing the War on Terrorism 
and Homeland Security, represents another good step in the right 
direction. Likewise our military retiree veterans and military 
survivors, who in yesteryear served this Nation for decades, continue 
to need your help as well.

    Senator Inouye. Today we've received testimony from 26 
witnesses, and it may surprise you to know that most of them 
supported programs that are considered evil--add-ons, and 
earmarks. Most of the programs that you have supported today 
are in those categories--either earmarks or add-ons--which is 
to show that the Constitution is still correct, the Congress 
does have a role to play in establishing the budget.
    Mr. Duggan. Absolutely.
    Senator Inouye. And, I can assure you that we were not 
elected to be rubber stamps.
    Mr. Duggan. Thank you, sir.

                         CONCLUSION OF HEARINGS

    Senator Inouye. With that, the scheduled hearings have now 
been completed, and this subcommittee will now consider the 
bill. And, we will stand in recess, subject to the call of the 
Chair.
    [Whereupon, at 12:50 p.m., Wednesday, May 16, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
